<html>
<title> - AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2015</title>
<body><pre>[Senate Hearing 113-877]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-877

   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2015

=======================================================================

                                HEARINGS

                                BEFORE A

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   on

                           H.R. 4800/S. 2389

 AN ACT MAKING APPROPRIATIONS FOR AGRICULTURE, RURAL DEVELOPMENT, FOOD 
 AND DRUG ADMINISTRATION, AND RELATED AGENCIES PROGRAMS FOR THE FISCAL 
         YEAR ENDING SEPTEMBER 30, 2015, AND FOR OTHER PURPOSES

                               __________

                       Department of Agriculture
 Department of Health and Human Services: Food and Drug Administration
                       Nondepartmental Witnesses

                               __________

         Printed for the use of the Committee on Appropriations
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


   Available via the World Wide Web: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=senate&committee=appropriations

                               __________
                               

                   U.S. GOVERNMENT PUBLISHING OFFICE                    
24-504 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7710071837140204031f121b075914181a59">[email&#160;protected]</a>                                
                               
                               
                               
                               
                      COMMITTEE ON APPROPRIATIONS

               BARBARA A. MIKULSKI, Maryland, Chairwoman
PATRICK J. LEAHY, Vermont            RICHARD C. SHELBY, Alabama, Vice 
TOM HARKIN, Iowa                         Chairman
PATTY MURRAY, Washington             THAD COCHRAN, Mississippi
DIANNE FEINSTEIN, California         MITCH McCONNELL, Kentucky
RICHARD J. DURBIN, Illinois          LAMAR ALEXANDER, Tennessee
TIM JOHNSON, South Dakota            SUSAN M. COLLINS, Maine
MARY L. LANDRIEU, Louisiana          LISA MURKOWSKI, Alaska
JACK REED, Rhode Island              LINDSEY GRAHAM, South Carolina
MARK L. PRYOR, Arkansas              MARK KIRK, Illinois
JON TESTER, Montana                  DANIEL COATS, Indiana
TOM UDALL, New Mexico                ROY BLUNT, Missouri
JEANNE SHAHEEN, New Hampshire        JERRY MORAN, Kansas
JEFF MERKLEY, Oregon                 JOHN HOEVEN, North Dakota
MARK BEGICH, Alaska                  MIKE JOHANNS, Nebraska
CHRISTOPHER A. COONS, Delaware       JOHN BOOZMAN, Arkansas

                   Charles E. Kieffer, Staff Director
             William D. Duhnke III, Minority Staff Director
                                
                                
                                ------                                

     Subcommittee on Agriculture, Rural Development, Food and Drug 
                  Administration, and Related Agencies

                   MARK L. PRYOR, Arkansas, Chairman
TOM HARKIN, Iowa                     ROY BLUNT, Missouri
DIANNE FEINSTEIN, California         THAD COCHRAN, Mississippi
TIM JOHNSON, South Dakota            MITCH McCONNELL, Kentucky
JON TESTER, Montana                  SUSAN M. COLLINS, Maine
TOM UDALL, New Mexico                JERRY MORAN, Kansas
JEFF MERKLEY, Oregon                 JOHN HOEVEN, North Dakota
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
  (ex officio)                         (ex officio)

                           Professional Staff

                         Jessica Arden Schulken
                             Dianne Nellor
                              Eve Goldsher
                        Stacy McBride (Minority)
                       Carlisle Clarke (Minority)

                            C O N T E N T S

                              ----------                              

                       Wednesday, March 26, 2014

                                                                   Page

Department of Agriculture........................................     1

    Material Submitted Subsequent to the Hearing.................    79

                        Thursday, April 3, 2014

Department of Health and Human Services: Food and Drug 
  Administration.................................................    85

Nondepartmental Witnesses........................................   117

 
   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2015

                              ----------                              


                       WEDNESDAY, MARCH 26, 2014

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m. in room SD-124, Dirksen 
Senate Office Building, Hon. Mark L. Pryor (chairman) 
presiding.
    Present: Senators Pryor, Johnson, Tester, Blunt, and Moran.

                       DEPARTMENT OF AGRICULTURE

STATEMENT OF HON. TOM VILSACK, SECRETARY
ACCOMPANIED BY:
        DR. JOSEPH GLAUBER, CHIEF ECONOMIST
        MICHAEL YOUNG, DIRECTOR, OFFICE OF BUDGET AND PROGRAM ANALYSIS


               opening statement of senator mark l. pryor


    Senator Pryor. I'll go ahead and call the subcommittee to 
order.
    I want to thank all of our witnesses for being here and all 
of our Senators.
    Let me start with an announcement. The floor has announced 
that they're going to have votes, probably a series of votes, 
starting at 11. And so, consequently, I'll talk to the ranking 
member here and also to the Secretary's office about trying to 
shorten our opening statements and trying to get right into 
questions and ask as many questions as possible. And then, if 
all goes well, we'll probably adjourn around 11:10 or 11:15, 
depending on the flow of the meeting. But, if we didn't have a 
series, we might try to come back. But I think, with a series, 
it will be hard to get Senators to come back.
    So again, I want to welcome everyone for being here and 
especially, Secretary Vilsack. He's accompanied by Dr. Joseph 
Glauber and Mr. Michael Young. And thank you all for your 
testimony and your preparation.
    Mr. Secretary, we've had several very productive 
conversations. I appreciate that. Always appreciate working 
with you and your team over there. Obviously, our farmers face 
a lot of challenges. You have a new farm bill. There's a lot 
going on in your world and a lot of really good things and some 
real challenges. So we acknowledge that.
    And I just want to say that there are some things in your 
proposed budget that I really like and I'm really encouraged 
by. And then, I have a lot of questions about other matters and 
we'll try to get into those. And, as always, we will leave the 
record open for a couple of weeks and allow Senators to submit 
questions because we are on this abbreviated schedule today.
    So again, I want to welcome you to the subcommittee. And 
with that, what I'll do is turn it over to my very fine ranking 
member here, Senator Blunt of Missouri, who always shows great 
leadership and asks great questions.
    So Senator Blunt.


                     statement of senator roy blunt


    Senator Blunt. Well, thank you, Chairman Pryor. And thanks 
for your leadership on the committee. We've had a great 
opportunity to work together on this committee for a while now 
and it's been a real labor of accomplishment, I think, as we 
try to work to help this important sector in our economy.
    Secretary Vilsack, glad you're here; Dr. Glauber and Mr. 
Young. And look forward to the chance we have to ask some 
questions. Clearly, we're wanting to talk about the priorities 
and the requests in your budget.
    Agriculture is one of the brightest spots in our economy 
right now. The challenges ahead of us, I think, are also great 
opportunities as we see world food needs anticipated to double 
by 2060 or 2070. American farmers and American agribusinesses 
are going to be an important part of that and what we do to get 
ready for that in terms of research and then other committee 
work; infrastructure and other things, that allow that to 
happen. Very important.
    Clearly, while it's been a bright spot, the agriculture 
community hasn't been without challenges; the drought we've 
seen happen. The fact, though, that we had our farm families 
waiting for too long, in probably all of our opinions in this 
room today, for a farm bill. And now, the importance of your 
Department quickly implementing that farm bill and the 
livestock disaster relief programs that had run out. And now, 
we're trying to go back and catch up with that means, I think, 
it's particularly important to do that. But I'm glad that's 
among your priorities. We want it to be among your top 
priorities.
    In terms of the Farm Service offices that really are the 
touchpoint for farm families with the Federal programs and 
Federal assistance and Federal research and Federal 
information, it's important that those work well. Clearly, the 
Government is in a position where we need to be looking at what 
the private sector has done more effectively than the Federal 
Government has to deliver services and figure out the best way 
to do that. I know that's one of the things you're looking at. 
I'm hopeful, as we figure out how to deliver those services 
better, that is in every way possible. We do that based on a 
real specific analysis of where the work is, where the farm 
families are, how we bring those two things together.
    I know Senator Pryor and I and our colleagues, all want to 
get the maximum opportunity to take advantage of your time here 
today.
    Senator Pryor. Thank you.
    And, Secretary Vilsack, thank you.


                 summary statement of hon. tom vilsack


    Secretary Vilsack. Mr. Chairman, Ranking Member Blunt, and 
members of the subcommittee, thank you very much for the 
opportunity to meet with you this morning. Under President 
Obama's leadership, the United States has reached historic 
levels of investment in rural communities. With this investment 
the agriculture sector has seen strong growth, with farm income 
and agriculture exports both reaching highs not witnessed in 
decades. Net farm income and net cash incomes after adjusting 
for inflation are at near record levels. Since the President 
took office, agriculture exports have had the strongest 5-year 
period of growth in our Nation's history, and set a new record 
in calendar year 2013 at $144.1 billion. A strong agriculture 
sector is key to strong rural communities, supporting 9.2 
percent of jobs in the economy.
    Although the recent agriculture census reports that we have 
had a strong agricultural economy, we continue to face some 
significant challenges. There is a significant rural component 
to poverty in America. Eighty-five percent of the Nation's 
poorest counties are rural, and per capita income in rural 
America lags behind that in urban areas. Further, populations 
in rural areas are dropping as a lack of new jobs is driving 
young people away. We continue to see a trend of fewer farmers 
and aging farmers. In addition, rural communities face more 
complex challenges today because of climate change, which comes 
with a hefty price tag. Drought alone was estimated to cost the 
United States $50 billion from 2011 to 2013. The fire season is 
significantly longer than it was 3 decades ago. These risks 
have implications not only for agricultural producers, but for 
all Americans.
    We must continue our efforts to build on our success and 
advance new ideas to address the challenges that rural America 
continues to confront. In the budget we talk about individual 
line items, individual programs, but we don't look at the 
totality of what a budget does and its impact on the people in 
rural America and the farm communities and in this country. So 
what I'd like to do is discuss Results and Reforms, 
Opportunities and Innovation; the ROI of this budget.
    Let me start with results. This is a litany of numbers but 
the reality is behind each number there's an individual whose 
life is impacted by what we do at the U.S. Department of 
Agriculture (USDA). Forty thousand farmers will receive 
assistance in the form of credit; 85 percent of those farmers 
will be beginning farmers and socially disadvantaged farmers. 
This budget will provide coverage, crop insurance coverage, for 
$63 billion in crops. It will adequately fund our Animal and 
Plant Health Inspection Service (APHIS) to ensure the 
protection of $165 billion of value in terms of livestock, and 
specialty crops and plants that APHIS is responsible for.
    We will be focused on ensuring that we continue record 
activity in trade. We're looking at, potentially, another 
record year of agricultural trade which supports not only 
stable farm income but also a million jobs here at home. An 
opportunity for us to also provide help and assistance to young 
people overseas with our McGovern-Dole Program, helping to feed 
nearly 4 million youngsters.
    Forty-seven million Americans will receive benefits under 
the Supplemental Nutrition Assistance Program (SNAP); 8.7 
million women, infant and children will benefit from the 
Special Supplemental Nutrition Program for Women, Infants, and 
Children (WIC). Thirty million children, 20 million of whom are 
on free and reduced lunch, youngsters will receive benefits 
under a school lunch program; 14 million will receive benefits 
under a school breakfast program; and our summer feeding 
program will help support 3.3 million young people.
    In addition, our food safety folks will continue to focus 
on reducing foodborne illness, and we estimate and expect with 
this budget that we can reduce the number of foodborne illness 
in the areas that we inspect by 52,000, which is in addition of 
an 11-percent reduction from last year.
    In addition, we'll continue our work in conservation. 
Twenty-three million additional acres added to the record 
number of acres that are currently enrolled in conservation; 
helping nearly half a million producers in this country do a 
better job of land stewardship and water stewardship. This 
budget will also allow us to continue an effort in the 
Conservation Reserve Program (CRP), with 25 million acres.
    We will be focused on rural development. Forty thousand 
jobs will be created or retained with this budget. One hundred 
and forty thousand families and businesses will receive 
expanded broadband access; 2.2 million families will benefit 
from cleaner water in communities that receive water projects. 
One hundred and sixty-three thousand folks will receive a 
single-family loan to allow them to have homeownership; 285,000 
will receive assistance in the form of rental assistance in 
rural communities; 4.6 million Americans will receive the 
benefit of improved electric service as a result of this budget 
and over 13 million Americans will see improved community 
facilities through the Rural Development component of this 
budget.
    In addition, we will continue a commitment, a strong 
commitment, to research in nearly 100 facilities. Eight hundred 
research projects will continue to provide innovation that has 
spawned 215 patents in the last 5 years and helps to support 
383 licensing agreements that lead to small business 
development.
    So on total, a substantial number of folks get impacted by 
this budget. This budget is also focused on reform since it's a 
half a billion dollars less than it was when I became 
Secretary. We're focused on model service agencies for our farm 
service efforts; reforming the way in which we pay for forest 
fires, focusing on a space survey to try and do a better job of 
using space here in the Capital area; and rental assistance, 
helping to right size our rental systems' portfolio.
    In the form of opportunities, we're going to continue to 
expand local and regional food systems because that is an 
opportunity for us to expand small and mid-size farming 
operations which is a concern that I have and I'm sure you do. 
We will also continue to focus on the bio-based product 
manufacturing opportunity in rural America to create jobs and 
additional farm income.
    On innovation, we're excited about the innovation 
institutes that we're proposing for pollinators, for 
antimicrobial resistance and also for bio-product 
manufacturing. We're also focused on a new poultry facility 
that will take a look at how we might be able to combat 
diseases in terms of our important poultry industry.
    So I look forward to answering the questions of this 
committee but I think it's important sometimes to focus on the 
overall results of a budget because many, many people get 
impacted positively by our efforts.
    [The statement follows:]
              Prepared Statement of Hon. Thomas J. Vilsack
    Mr. Chairman and distinguished members of this subcommittee, I 
appreciate the opportunity to appear before you to discuss the 
administration's priorities for the Department of Agriculture (USDA) 
and provide you an overview of the President's 2015 budget. I am joined 
today by Joseph Glauber, USDA's Chief Economist, and Michael Young, 
USDA's Budget Officer.
    Under President Obama's leadership, the United States has reached 
historic levels of investment in rural communities. With this, the 
agriculture sector has seen strong growth, with farm income and 
agriculture exports both reaching highs not witnessed in decades. Net 
farm income and net cash incomes after adjusting for inflation are at 
near record levels. Since the President took office, agriculture 
exports have had the strongest 5-year period of growth in our Nation's 
history, and set a new record in calendar year 2013 at $144.1 billion. 
A strong agriculture sector is key to strong rural communities, 
supporting 9.2 percent of jobs in the economy.
    Although the recent agriculture census reports that we have had a 
strong agricultural economy, we continue to face some significant 
challenges. There is a significant rural component to poverty in 
America. Eighty-five percent of the Nation's poorest counties are 
rural, and per capita income in rural America lags behind that in urban 
areas. Further, populations in rural areas are dropping as a lack of 
new jobs is driving young people away. We continue to observe the trend 
of fewer farmers and aging farmers. In addition, rural communities face 
more complex challenges today because of climate change, which comes 
with a hefty price tag. Drought alone was estimated to cost the United 
States $50 billion from 2011 to 2013. The fire season is significantly 
longer than it was 3 decades ago. Such risks have implications not only 
for agricultural producers, but for all Americans.
    We must continue our efforts to build on our success and advance 
new ideas to address the challenges that rural America continues to 
confront. The budget before you today delivers on the President's 
commitment to provide results, expand opportunity for all Americans, 
invest in innovation, and make reforms aimed at improving services and 
fiscal responsibility.
    USDA has made a concerted effort to deliver results for the 
American people, even under the constrained budget mandated by the 
Budget Control Act. USDA has made substantial, year-over-year gains in 
expanding credit opportunities for farmers and ranchers. We expanded 
crop insurance to more than 400 crop types, saved millions of dollars 
and provided risk management opportunities to specialty crops and 
organic crops. We have supported small businesses by providing job 
training, business development opportunities, strategic community 
planning and other resources. As I mentioned earlier, we helped boost 
exports to a record level by breaking down trade barriers and promoting 
U.S. agricultural products.
    USDA housing programs have been successful at keeping rural 
residents in their homes by allowing current borrowers to take 
advantage of historically low interest rates. Since 2009, USDA has 
helped more than 804,000 rural families buy, refinance, or repair a 
home. We did this while gaining efficiencies in the programs and 
increasing the fees making the guarantee program less costly to the 
taxpayers.
    We are proud of our record to support increased demand for 
renewable fuels. USDA has invested in the creation of advanced 
biorefineries across the Nation; developed a unique partnership with 
the U.S. Navy and Department of Energy to procure new biofuels for 
marine and aviation use; and boosted markets for nearly 3,000 U.S. 
companies that are producing biobased products from homegrown 
materials. USDA has provided financial assistance to farmers, ranchers 
and rural small businesses to purchase and install renewable energy 
systems and make energy-efficiency improvements that have created or 
saved an estimated 9.2 billion kWh of electricity since 2009. USDA also 
has entered into unique public-private sector partnerships to expand 
wood energy use, which will help improve the safety and health of our 
Nation's forests and support job creating renewable energy production.
    USDA's conservation efforts have helped us mitigate the negative 
impacts of the drought and are helping producers to manage climate 
change. USDA has enrolled a record number of acres in conservation 
programs that have saved millions of tons of soil and improved water 
quality and have contributed to the national effort to preserve habitat 
for wildlife and protect the most sensitive ecological areas. USDA has 
partnered with more than 500,000 farmers, ranchers and landowners on 
these conservation projects since 2009--a record number. In addition to 
protecting cropland and critical habitats, conservation strengthens 
outdoor recreation, which adds more than $640 billion every year to our 
economy. Building on these efforts, the administration entered into a 
historic agreement with Minnesota to develop programs for farmers 
designed to increase the voluntary adoption of conservation practices 
by giving them regulatory certainty that they will not be asked to take 
additional conservation actions over the life of the agreement. We are 
working with other States to expand the use of these agreements.
    In the face of drought and the increasing threat of wildfires, I 
recently announced the first ever Regional Hubs for Risk Adaptation and 
Mitigation to Climate Change. These climate hubs will address 
increasing risks such as fires, invasive pests, devastating floods, and 
crippling droughts on a regional basis, aiming to translate science and 
research into information to farmers, ranchers, and forest landowners 
on ways to adapt and adjust their resource management. In support of 
the President's goal to find lasting conservation solutions for some of 
the most challenging problems, USDA has undertaken a range of 
innovative new landscape-scale initiatives aimed at restoring land and 
water. More than 1.6 million acres have been enrolled in landscape 
scale initiatives in an ``all lands'' strategy for enhancing water 
resources.
    The Department has also helped a record number of people in need by 
ensuring that they have access to sufficient food and a healthful diet. 
The Supplemental Nutrition Assistance Program (SNAP) helps millions of 
low-income Americans put food on the table, more than half of whom are 
children, the elderly or people with disabilities. The cornerstone of 
the nutrition assistance safety net, SNAP kept nearly 5 million people, 
including 2.2 million children, out of poverty in 2012. This 
administration has achieved historically high payment accuracy rates in 
SNAP, among the best in the Federal Government, and the budget includes 
additional investments in SNAP program integrity.
    USDA continues to improve and enhance the school food environment 
such as providing performance-based increases of 6 cents per lunch for 
schools meeting the new meal standards, the first real increase in 30 
years. We have published new standards for snack foods in schools that 
preserve flexibility for time-honored traditions like fundraisers and 
bake sales, and provide ample transition time for schools. We have also 
issued a final rule to allow food packages for the Special Supplemental 
Nutrition Program for Women, Infants, and Children (WIC) to better 
reflect current nutrition science and dietary recommendations, support 
breastfeeding, provide participants with more variety of foods, and 
provide WIC State agencies with greater flexibility in prescribing food 
packages to accommodate participants with cultural food preferences. To 
increase access to nutritious food, we have increased the number of 
farmers markets and made it easier to use SNAP electronic benefits 
transfer (EBT) cards at those markets and facilitated direct farm-to-
school marketing of fresh fruits and vegetables.
    Food for Progress and the McGovern-Dole International Food for 
Education and Child Nutrition Program provided benefits to more than 
10.5 million people overseas in 2013, a record number. Also, following 
upon the positive reforms enacted in 2014 that mainly address 
development food aid, the administration is seeking to enable Public 
Law 480 title II to reach 2 million more people in emergency crises 
within the same resources and with more timely responses. These reforms 
provide a more agile and modern approach to global food assistance, 
pairing the continued purchase of the best of American agriculture with 
the flexibility of interventions such as increased local and regional 
purchase, cash transfers, and electronic vouchers. The budget proposes 
the authority to use up to 25 percent of title II resources for these 
types of flexible emergency interventions that have proven to be so 
critical to effective responses in complex and logistically difficult 
emergencies such as Syria and Typhoon Haiyan.
    Within the President's Feed the Future initiative to enhance longer 
term food security, we are also working with developing countries to 
facilitate the adoption of emerging technologies that hold the promise 
of improving agricultural productivity by creating crops that better 
tolerate drought, toxicity, disease, pests and salinity. These efforts 
contribute to economic growth and food security.
    We have been implementing a series of policies aimed at preventing 
foodborne illnesses before they happen by targeting and eliminating 
contaminated products before they come to market. For example, in 
fiscal year 2011, the Food Safety and Inspection Service (FSIS) 
implemented stricter Salmonella and Campylobacter performance standards 
to reduce these pathogens in turkeys and young chickens. In fiscal year 
2012, FSIS began testing raw beef products for six additional strains 
of shiga-toxin producing E. coli and prohibiting any product found 
positive from entering commerce, consistent with FSIS testing and 
policies for E. coli O157:H7. In fiscal year 2013, FSIS redesigned its 
sampling program to improve detection of E. coli O157:H7 in regulated 
products to further protect the public from foodborne hazards. We also 
took the common sense action to hold any product being tested for 
adulterant until the test results are received. FSIS began a new 
program to test comminuted chicken and turkey products for Salmonella 
and Campylobacter. FSIS intends to develop new performance standards 
for comminuted products based on the results of this testing and risk 
assessment analysis. In December, 2013, FSIS announced its Salmonella 
Action Plan which outlines additional steps the Agency intends to take 
to address Salmonella, including developing Salmonella performance 
standards for chicken parts based on FSIS baseline results. FSIS has 
seen declines in the total number of illnesses attributed to FSIS-
regulated products--between fiscal year 2011 and fiscal year 2013, the 
total number of such illnesses fell 13 percent, which equates to about 
64,000 illnesses over the 2-year period.
    With passage of the farm bill, we have a great opportunity to build 
upon these results by bringing an enhanced array of authorities and 
resources needed to address the on-going challenges faced by rural 
America and provide a foundation to help rural communities prosper, 
enhance the resiliency of forests and private working lands and ensure 
access to a safe, diverse and nutritious food supply. It restores 
disaster assistance and invests in programs to help beginning, small 
and socially disadvantaged farmers and ranchers. Our communities will 
have additional resources and new tools to take advantage of new 
economic opportunities and create jobs. It provides access to 
nutritious food to those that need it. The potential of new products, 
production methods, and discoveries will be strengthened through new 
agricultural research. Renewed conservation efforts will protect our 
natural resources and create new tourism options. The farm bill will 
support the next generation of farmers and ranchers, while achieving 
meaningful reform and billions of dollars in savings. USDA's dedicated 
employees are hard at work to implement the bill effectively and 
expeditiously.
    The President's 2015 USDA budget proposal builds on the farm bill 
and focuses on creating jobs and building a foundation for future 
economic growth within the constrained levels of funding. Three months 
ago, through the Bipartisan Budget Act of 2013 (BBA), Congress came 
together on a bipartisan basis and took an important first step toward 
replacing the damaging cuts caused by sequestration with longer term 
reforms. Recognizing the importance of the 2-year budget agreement 
Congress reached in December, the President's budget adheres to the 
BBA's discretionary funding levels for 2015.
    USDA's total budget for 2015 we are proposing before this 
subcommittee is $141.4 billion, of which approximately $122.4 billion 
is mandatory funding. The majority of these funds support crop 
insurance, nutrition assistance programs, farm commodity and trade 
programs and a number of conservation programs. The budget includes 
funds to fully support estimated participation levels for SNAP and 
Child Nutrition Programs.
    For discretionary programs of interest to this subcommittee, our 
budget proposes $19 billion, approximately $242 million below the 2014 
enacted level. That level fully funds expected participation in WIC. It 
includes the funding needed to meet our responsibility for providing 
inspection services to the Nation's meat and poultry establishments. 
The budget also includes over $1 billion to renew approximately 243,000 
outstanding contracts for rental assistance. We appreciate the 
subcommittee's on-going support for this program. For 2015, we are 
proposing changes to the operation of the Rental Assistance Program to 
ensure its long-term viability.
    The budget creates new opportunities and continues to give a 
priority to spurring investment in rural businesses that want to take 
advantage of emerging markets. The 2015 budget reproposes the 
consolidation of several rural development programs into an economic 
development grant program designed to assist small and emerging private 
businesses and cooperatives in rural areas with populations of 50,000 
or less. This program is needed to improve our ability to leverage 
private sector resources aimed at developing regional economies. The 
budget would also give rural businesses more access to capital by 
shifting funding from traditional loan programs to venture capital type 
funding that offers a more diverse array of financial products. The 
2015 budget supports loans and grants programs that aid in the 
development of food retailers in urban and rural food deserts and food 
hubs for locally and regionally produced products, including dedicated 
funding for the Healthy Food Financing Initiative authorized in the 
recent farm bill. We double grant funding to increase broadband access 
in the rural communities that are least likely to have broadband 
infrastructure needed for economic development.
    We understand the new opportunities in rural America that the 
biobased economy provides. In addition to the mandatory funding 
provided by the 2014 farm bill, discretionary funding is requested for 
the Rural Energy for America Program to provide financing for the 
purchase of renewable energy systems. We also propose $1 billion to 
support environmental upgrades to existing fossil fuel electric 
generation facilities and target electric funding to supporting 
renewable energy projects to significantly reduce carbon emissions.
    The budget request also meets the growing demand for farm credit 
with sufficient funding to serve over 40,000 producers in 2015 seeking 
to finance operating expenses, to acquire a farm, or keep an existing 
one. Approximately 85 percent of the funding will be targeted to new 
and beginning farmers and ranchers, including our Nation's veterans, so 
that we can ensure that our country's next generation of growers and 
producers get off to a good start.
    The budget supports our continuing efforts to improve access to 
nutritious foods and promote healthy diets. In 2013, USDA and its 
partners well exceeded our goal to provide 5 million additional meals 
than in 2012 to eligible low-income children through summer meal 
programs. Although encouraging, there are more than 21 million such 
children participating in school meal programs and fewer than 3 million 
who receive Summer Food Service Program meals when school is not in 
session, which indicates many kids may not be getting adequate 
nutrition during the summer. A key investment in 2015 is $30 million 
for summer food EBT demonstration projects, which test the extent to 
which providing extra benefits through SNAP and WIC EBT over the summer 
for households with school-aged children reduces food insecurity. The 
summer EBT pilots funded by this Committee in 2010 are showing real 
promise in reducing hunger and improving nutrition, and the budget 
proposes to build on that success. The budget also requests additional 
funding for school equipment grants, to help our schools prepare and 
serve healthy meals.
    The 2015 budget makes strategic investments that further innovation 
and encourage creative approaches to solving rural America's most 
pressing challenges. Our budget emphasizes research that will tackle 
major, crosscutting issues facing farmers, including food safety, 
renewable energy, climate change and pollinator health, and offer 
genetic resources and tools to increase agricultural resiliency and 
enhance food production. The 2015 budget includes a significant 
investment for the Agriculture and Food Research Initiative (AFRI). We 
are also proposing the creation of three Innovation Institutes, public-
private partnerships that will focus on emerging challenges to 
agriculture. These institutes will address the decline of pollinator 
health, bio-manufacturing and bioproducts development, and anti-
microbial resistance research. In addition to the institute for 
pollinator health, the President's budget requests an additional $20 
million in USDA's budget for a multi-agency initiative to respond to 
the urgent problem of the decline of pollinator populations. USDA's 
activities will be coordinated with other departments. The budget also 
includes funding to begin the planning and design of the 2017 Census of 
Agriculture.
    Because the BBA levels are not sufficient to expand opportunity to 
all Americans or to drive the growth our economy needs, the President's 
2015 budget includes a separate, fully paid for $56 billion 
Opportunity, Growth, and Security Initiative. The initiative identifies 
additional discretionary investments that can spur economic progress, 
promote opportunity, and strengthen national security. For USDA, the 
initiative includes $155 million to design and construct facilities to 
replace the outmoded Southeast Poultry Research Laboratory in Athens, 
Georgia. An additional $60 million is included for AFRI, as well as an 
additional $20 million for formula research grant programs that would 
be available on a competitive basis. Finally, as part of the Climate 
Resilience Fund, $100 million would be provided through the Natural 
Resources Conservation Service to enhance support for private 
landowners to manage landscape and watershed planning for increased 
resilience and risk reduction.
    The President's budget proposal includes reforms needed to meet 
tight discretionary caps, while ensuring that USDA's millions of 
customers across rural America receive stronger service. These include 
efforts to reduce administrative costs, streamline operations, and 
improve program integrity. Since 2010, USDA has implemented numerous 
measures to increase efficiency and reduce spending to absorb 
uncontrollable costs and manage significant reductions to discretionary 
funding. We have done this by aggressively implementing our Blueprint 
for Stronger Service, which has achieved almost $1.2 billion of savings 
and efficiencies. We will build on these efforts in 2015 by 
consolidating leased and owned office space and requesting authority to 
use expired, unobligated funds to invest in facilities and other 
capital needs to better manage the Department.
    For 2015, we will improve our capacity to help produces and rural 
communities that we serve. We will continue efforts to modernize the 
farm program delivery system through a Model Service Center concept to 
ensure offices are strategically located and have adequate staffing and 
equipment to strengthen services to producers. Savings from the 
consolidation of 250 Farm Service Agency offices would be re-invested 
in the modernization effort. A Rural Corps, comprising economic 
development professionals, will be placed in 10 high-need areas to 
provide technical assistance and hands-on support at the local level. 
This model will increase the likelihood that investments in 
infrastructure and economic development are strategic, creating jobs 
and long-term economic benefits within in the region.
    Throughout the farm bill process, the administration has advocated 
for comprehensive legislation that provides meaningful reforms. We are 
pleased that many of these reforms have been adopted in the farm bill; 
however, we believe further reforms are warranted to reduce the cost of 
the crop insurance program. The proposals represent a balanced approach 
to reducing the cost of the program, while maintaining a strong safety 
net to protect producers from natural disasters and price fluctuations.
    Funding for selected programs is reduced or terminated and 
resources are reallocated to targeted investments in priority programs 
and infrastructure to support sustainable economic growth. Further, 
discretionary spending is partially offset through about $1.5 billion 
of proposed limits on selected mandatory programs and other 
adjustments.
    Our budget is roughly $400 million less than it was when I became 
Secretary in 2009. I can assure you that we have done and are doing 
everything we can to make USDA a more efficient operation without 
limiting service to our stakeholders. We will continue to work to be as 
efficient as possible, and look to you to provide us the flexibility we 
need to be able to use our resources most effectively.
    At this time, I will be glad to answer questions you may have on 
our budget proposals.

                             2014 FARM BILL

    Senator Pryor. Thank you.
    And as I said, you can submit your longer statement for the 
record. We would be glad to take that.
    Let me just jump right in, if I can, and let me start with 
the new farm bill, which I know is a lot of transition, a lot 
of changes and that passed, overwhelmingly, in the Senate. But, 
one of the big changes is we lose the direct payments. And I 
have farmers in my State and I'm sure others do in their States 
about how's this new thing going to work and, you know, folks 
are waiting on our regulations to come out. Do you have a sense 
of the timetable about when the regs will be issued and where 
we are in the process?
    Secretary Vilsack. Yes, we do. We have an implementation 
team that's been focused on this, actually, before the 
beginning of the passage of the farm bill.
    Let me say, in terms of disaster assistance which I know is 
important, we expect and anticipate that by April 15, folks 
will begin to apply for disaster assistance under the restored 
disaster programs and hopefully checks will be forthcoming 
shortly thereafter April 15.
    In terms of Agricultural Risk Coverage (ARC) and Price Loss 
Coverage (PLC), our focus is on providing and identifying the 
land-grant universities that we will be using to get 
information out, to get Web-based information to identify ways 
in which extension can be triggered to be able to get the 
message out about what these programs will be. We hope to be 
able to give farmers the ability to update their productivity 
and production records sometime in the late part of this 
summer. Early fall, they should get a sense of where we are in 
terms of what the regulations are liable to be in the elections 
that they have to make. And then, we hope by the end of this 
year, they'll be in a position to make elections and be able to 
be informed about them.
    I would say that wheat is a challenge for us because they 
will have to make elections and decisions concerning crop 
insurance before they make the ARC or PLC decision. What we 
will do with wheat is give wheat producers the opportunity to 
change the election that they've made in terms of crop 
insurance if they determine ARC is the best deal for their 
operation but they've already signed up for supplemental 
coverage options; you can't have both. We'll give them an 
opportunity to sort of rescind that without penalty.
    Senator Pryor. Well, will the USDA and/or your partners 
like, for example, universities have things like workshops and, 
you know, listening sessions, things like that?
    Secretary Vilsack. Yes. And that's part of the farm bill--
provided several million dollars to assist in the outreach 
effort. That's why we're developing educational and training 
tools. So there will be an extensive outreach effort.

                          FSA OFFICE CLOSURES

    Senator Pryor. And one of the changes that's in your budget 
is that--I see a proposal to do a, I guess I would say, a 
realignment of the Farm Service Agency (FSA) offices in which 
it would probably result in quite a number of closures. But, at 
the same time, you know, we don't really know where those would 
be. And, could you just walk the subcommittee through that, 
please?
    Secretary Vilsack. I think it's important to put this in 
context, Mr. Chairman.
    Our FSA budget has been hit pretty hard over the last 
several years and the result is we've reduced our workforce by 
20 percent. In addition, we are instituting technology changes 
which should improve the way in which we do our work and should 
save time for our staff.
    So what we would like to be able to do is, during the 
course of this calendar year, really focus on where the work 
is. As Senator Blunt suggested, we need to make sure that as we 
make decisions about a realignment of our Farm Service offices, 
and a modernization of them, that we actually match-up where 
the work actually is.
    So we would like to do sort of a work study to identify 
where the work is, where the farm families are, and then 
suggest three types of offices in the future. Basically, a 
central office that would have a supervisor and at least three 
or more employees; a branch office that would not have 
supervisory personnel but would have at least three employees. 
And then, a series of satellite offices where people would be 
able to obtain information by appointment. We'd like to propose 
that alignment and, when we do, we suspect that that will 
probably focus our attention on readjusting workforce so that 
we have adequate numbers of people to provide the services that 
folks expect.
    I would say that we're also very focused on making sure 
that we expand the opportunities for Farm Service Agency 
offices to provide additional information above and beyond what 
they traditionally do. So part of this modernization effort is 
really designed to make them a one-stop shop for farmers who 
are looking for information about Rural Development programs, 
how they might enter into the local and regional food system 
opportunity, how they might take advantage of conservation 
programs, and have the Farm Service Agency offices act as a 
bridge or connector with those other opportunities.
    So we aren't expecting and anticipating any closures in 
calendar year 2014. We are going to do this work study. I would 
say that there are roughly 30 offices that have no full-time 
employees today. There are 111 offices that have one employee 
within 20 miles of another office. So I think it is time for us 
to take a look at how we restructure and modernize the system.
    Senator Pryor. Okay, thank you.
    Senator Blunt.
    Senator Blunt. And, based on that last answer, Secretary, 
so would I be right in assuming that your 250 number is an 
estimate of where you think you wind up?
    Secretary Vilsack. That's correct.
    Senator Blunt. So, you're going to do a study of where the 
work is and how those offices lay out and then we'll have 
access to that information as you do?
    Secretary Vilsack. That's correct.
    And we would follow the prescriptions of notices and 
hearings and things of that nature if we make decisions in 
terms of office closures. I would also point out that this is 
not about saving money. This is about redirecting resources and 
shoring up the system and modernizing the system.
    Senator Blunt. Well, thank you for that. And I look forward 
to that information being available to us.

                   MILK INCOME LOSS CONTRACT PROGRAM

    On the new farm bill, you know, one of the last issues, as 
is always the case with the farm bill, it seems to me to be 
resolved, was the dairy program and we move from a contract 
loss program, the Milk Income Loss Contract (MILC) program now, 
to more of an insurance program. I think MILC lasts until 
September. My question is are you going to have the new program 
in place by September and what are you doing to ensure that 
that program is in place?
    Secretary Vilsack. The answer to your question is yes, we 
will.
    And the reason, and we're confident in this, is we have 
this implementation system in place. And we have teams of folks 
looking at each title of the farm bill, prioritizing what needs 
to be done and in what order. Then we have a convening team 
that's looking at the totality of the farm bill and 
reprioritizing all of the various steps that have to be taken.
    There are over 480 steps and rules, regulations, guidance, 
and policy changes that have to be impacted as a result of this 
900-page bill, and we have prioritized them. We understand and 
appreciate the dairy section as a very important priority, as 
is the disaster assistance, as is the other safety net 
programs. So our focus and attention is going to be on making 
sure those are in place this fall.

                      DISASTER ASSISTANCE PAYMENTS

    Senator Blunt. And, in your testimony, you said that the 
disaster assistance checks for the period that wasn't covered 
that now is, you'd hope to have those issued in the next month?
    Secretary Vilsack. No. What we hope to be able to do is 
allow folks to make application for assistance by April 15.
    Senator Blunt. By April 15?
    Secretary Vilsack. That's correct. I've checked with that 
yesterday. We are on track to do that and we're very confident 
we'll meet that April 15 deadline. That is historically quick. 
It usually takes 6 to 8 months to reinstitute programs of that 
nature; we're going to do it in 60 days.

      MODERNIZE AND INNOVATE THE DELIVERY OF AGRICULTURAL SYSTEMS

    Senator Blunt. The part of updating and upbringing the 
system to where it's more serviceable is clearly the Modernize 
and Innovate the Delivery of Agricultural Systems (MIDAS) 
program. My understanding is that we've already appropriated 
more money than it was originally anticipated that MIDAS would 
cost. You want to give us a very quick sense of where you are 
on that component of getting everything working in an upgraded 
way?
    Secretary Vilsack. We have a project manager who we've 
identified who's going to take responsibility for day-to-day 
management of this particular project to make sure that it 
continues to proceed. By the end of this year, we're confident 
producers will be able to go into a county office, any county 
office in a State, and be able to access all of their records 
not just for the land in that particular county but land that 
is located in any other county of that State. That's going to 
be a tremendous opportunity for folks to save time and more 
convenience. Our challenge and our belief is that the following 
year, we will have a circumstance where if you have access to 
broadband you will be able to access your records and begin to 
do your business with FSA offices from your kitchen table. That 
is the goal.

                             DATA SECURITY

    Senator Blunt. And where are we on being sure that nobody 
else has access to your records; the whole data security 
element of those records and the growing concern about that 
information being available to people that it wasn't intended 
to be available to?
    Secretary Vilsack. We have significant safeguards built 
into all of our systems at USDA to make sure that individual 
identities are protected whether it's this particular effort 
through MIDAS or whether it's our Natural Resources 
Conservation Service (NRCS) contracting.
    You know, we are very sensitive to this issue of security. 
I think things will be easier because of the work that we've 
done with the administrative services procedure and process 
where we've saved nearly $1 billion of our cost at USDA. Part 
of that has been focusing on consolidating our technology to 
ensure that we have better safeguards in place.
    I would also say that we are equally focused on working 
with the private sector that is accumulating a substantial 
amount of information. I had an opportunity to talk to Hugh 
Grant, the CEO of Monsanto, yesterday. They have a very 
significant and concerted effort to try to collect data and use 
data to help farmers do a better job. They want to make sure 
that the farmers understand that information is the farmer's 
information. The farmer gets to choose how much, if any, 
information gets to be used or publicized.
    Senator Blunt. Do you share that information with other 
Government agencies? Would USDA share that information if, for 
instance, the Environmental Protection Agency (EPA) asked to 
see a farmer's record?
    Secretary Vilsack. We're not in the business of sharing 
that information, Senator, to my knowledge. But I will tell you 
that when some information was disclosed by the Environmental 
Protection Agency last year, we expressed deep concern about 
that and I think they took those concerns very seriously.
    Senator Blunt. Now, was this information they would've 
gotten from USDA that they then exposed?
    Secretary Vilsack. I don't believe so. I think this is 
information that they obtained through their process.
    Senator Blunt. Thank you, Mr. Chairman.
    Senator Pryor. Thank you. And it looks like we're moving 
right along here so we probably will have time for a second 
round. So I encourage people to stay if they can.
    Senator Moran.

                        USDA SUPPORT FOR FARMERS

    Senator Moran. Mr. Chairman, thank you very much.
    Secretary Vilsack, thank you for joining us.
    Just in a broad sense, it sure seems like farmers and 
ranchers face lots of challenges today from the Government and 
elsewhere, from just the environment they operate in is very 
challenging. And I just take this opportunity to encourage you 
to continue to make sure you're always in agriculture's corner. 
There's never enough champions for this way of life, and for 
what we do in Kansas and Iowa, in Washington or around the 
country, and I would ask you to use your expertise and your 
passion for agriculture every day to weigh in, in many cases, 
within this administration. We have the Environmental 
Protection Agency, just a series of things, the Department of 
Labor, most recently, with their decision about the definition 
of a farm. And so, I hope that you will use your position as 
Secretary of Agriculture to champion a way of life that matters 
greatly to you and to me but to this country. It's absolutely 
necessary that you do that.

                      LIVESTOCK DISASTER PROGRAMS

    You have answered some of my questions about implementation 
of the farm bill. You talked about livestock disaster programs. 
And, if signup, April 15, my question is then, after that, how 
soon after that could a producer expect to receive the support?
    Secretary Vilsack. Well, we have been saying that our goal 
is to make sure that shortly thereafter they receive this 
support and the assistance. Senator, I don't want to be 
flippant about my answer. I'm a little bit concerned about 
giving you a specific time in terms of a week or a month 
because I'm not sure how many applications we're going to 
receive. I suspect we're going to receive quite a few given the 
nature of disasters that have occurred over the last couple of 
years. But we will do everything we possibly can to get 
resources to folks as fast as we can. It's why we have done, 
and historically, a quick turnaround of this resumption of 
these programs. So we understand how important this is. We will 
move quickly.
    Senator Moran. I appreciate that answer. I prefer a more 
definitive one but I understand perhaps the inability to give 
that and I would also remind us, in Congress, that it's our 
fault that we're in this circumstance that we're in in which 
there was the gap. And then, in addition to the gap, the length 
of time it took for Congress to reach a conclusion on a farm 
bill. So the burden lies with you, but the fault in many ways 
lies with us.

                         LESSER PRAIRIE CHICKEN

    It's expected, as you may know, I mentioned the 
Environmental Protection Agency, U.S. Fish and Wildlife Service 
is another example, and we are facing a possible Endangered 
Species Act listing of the lesser prairie chicken which is a 
significant topic in our State but many States across the 
country. Producers are wondering what to do with their CRP 
contracts.
    Have you been working with U.S. Fish and Wildlife Service 
on addressing what happens to CRP if there is a listing? Can 
producers, under the farm bill, they may be able to take their 
land out of CRP and early out? And my thought is there may be 
those who would want to do that if there is going to be a 
conclusion that once that they're in grass and the listing 
occurs, if and when the listing occurs, that that grass then it 
becomes something permanent; something that the landowner can't 
remove him or herself from. And I guess, most importantly, 
would you foresee a situation where CRP contracts expire and 
the producer is still forced to keep the ground and grass 
undisturbed while being unpaid?
    Secretary Vilsack. Senator, what we've attempted to do with 
all of the endangered species challenges that farmers and 
ranchers and producers face is to try to create an opportunity 
for more regulatory certainty for them. We've certainly done 
this with the sage-grouse, and our Farm Service Agency office 
is working on a similar concept with reference to CRP and 
lesser prairie chicken.
    And the way it has worked with sage-grouse is, essentially, 
when producers agree to a certain suite of conservation 
practices, they receive an assurance from the Department of the 
Interior that they will not be required to do in addition to 
what they've already done for a period of up to 30 years. So we 
are trying to provide that advocacy, if you will, as you 
mentioned, to create some kind of certainty so that we don't 
ask folks to do things and then have the rules change on them 
as they have made investments.
    In terms of lesser prairie chicken, we will take that same 
philosophy. We obviously don't want to make it more difficult 
for producers; we want to encourage producers to do what they 
need to do for their operations. So consistent with the farm 
bill, consistent with that philosophy, we'll do everything we 
can to provide as much flexibility and certainty as we can.
    Senator Moran. Whose decision is that? Yours or--how does 
that work? If the listing would occur, who ultimately 
determines whether or not the habitat can be changed? The 
contract expires. The farmer concludes they want to grow crops 
on that ground. What you're telling me is if you're successful 
again, in your advocacy that would be the land owner's choice?
    Secretary Vilsack. It would be--yes.
    I mean, that's basically what we're trying to say, look, 
here is what we know works to produce better habitat for a 
particular species. In terms of conservation, we want to 
provide you the assistance, financial assistance, to do that 
conservation work, and if you agree with us to do the 
conservation work then you ought to receive assurance that's 
all you're going to have to do in order to comply with whatever 
the listing might be.
    Senator Moran. Is that the Department of Agriculture's 
position or if you make that decision it's what prevails? Does 
somebody trump you in this process?
    Secretary Vilsack. No, I don't think so. I mean, that's why 
we enter into an arrangement or agreement with the agency 
that's making the decision about the species. Department of the 
Interior, they have to basically agree with us to agree in 
advance of what the protections will be and the term will be. 
And that's what we've attempted to do with sage-grouse and it's 
been pretty successful in terms of farmer participation.
    Senator Moran. Mr. Chairman, has my time expired? Is that 
what that is?
    Senator Pryor. Yes.
    Senator Moran. All right.
    I appreciate the suggestion of a second round.
    Senator Pryor. Senator Tester.

                   FARM SERVICE AGENCY MODERNIZATION

    Senator Tester. Thank you, Mr. Chairman.
    I want to thank the Secretary for being here today. I very 
much appreciate it. I appreciate your work. You got a new farm 
bill that's different from the last one; significantly. You've 
done some good work with livestock disaster, expediting that. 
You understand the firefighting issue. I appreciate your local 
foods system support and your bio-based ag products.
    By your previous answer on some of your questions on the 
FSA office closure you said that you're going to be doing 
research in 2014 and that no offices would be closed between, I 
don't want to put words in your mouth, just tell me, between 
the first of October of this year and the end of September of 
next year?
    Secretary Vilsack. No. What I suggested was that we weren't 
going to close any offices in 2014 calendar year.
    Senator Tester. Calendar year?
    Secretary Vilsack. Calendar year, 2014. We're going to use 
that time to take, basically, take a look at where the work is. 
Now, again, the context of this is important to understand.
    Senator Tester. Yes.
    Secretary Vilsack. A 20-percent reduction in workforce. 
Technology, changing the way in which we do work, allows us to 
ask the question: How would we modernize this system? And 
that's the analysis we're going to do this year.
    Senator Tester. Okay.
    I was on the--it was the Agricultural Stabilization and 
Conservation Service (ASCS)--board 25 years ago, 24 years ago. 
And I can tell you one of the big problems that the FSA had 
then, even though it was under a different name, but the FSA 
offices was getting the computer programs. That program still 
exists. I just got a call from a neighbor that went in, they 
didn't have the program set up to do what needed to be done, 
they love their FSA agents, but were sent home and said come 
back another day when we have our programs updated.
    Do you have your arms around that issue? Because, if you--
let me just put it to you this way. If offices are closed and 
there's a tardiness in getting--and I understand it's a 
difficult situation for you, Mr. Secretary and the people 
around you. And if those offices are closed and they don't get 
those programs in a timely manner, we're setting ourselves up 
for an explosion in rural America.
    Secretary Vilsack. Well----
    Senator Tester. With the new farm bill.
    Secretary Vilsack. Certainly don't want that, and we're not 
going to have that.
    Senator Tester. Okay.
    Secretary Vilsack. We're not going to have that.
    Senator Tester. Okay.
    So, when you talk about where the work is, you're talking 
about how many contracts we're dealing with as far as per farm? 
How many entities?
    Secretary Vilsack. How many entities; how many, you know, 
contracts they have; how many disaster----
    Senator Tester. How about distance of travel?
    Secretary Vilsack. That is, obviously, you all have 
designated a 20-mile issue here. Frankly, there are, as I said, 
30 offices that have no full-time employees. There's no one 
there, okay. There are 111 offices that have one employee. And 
there are some offices that have one employee that are within 
30 miles of another office.
    Senator Tester. I got it.
    I think the big issue here is that we have a new farm bill. 
In Montana, we've got some pretty vast distances. I mean, my 
brother-in-law travels 70 miles one way to get to the FSA 
office, okay. And I'm not saying that one will be closed down. 
It probably wouldn't be. But there are other places that are 
far more rural than that. And I would just say be very, very, 
very careful because these agencies are very helpful and I 
would love to be able to fill out my maps and do everything at 
home on my kitchen table but we're not even close to that yet. 
I mean, you might be, but the farmer isn't. We're not there. I 
mean, we've got this up but we don't have the stuff. And so, be 
careful when we start talking about closing. Make sure there is 
the support there to take care of these folks because direct 
payments are gone, this is a new system, and it may be a new 
system that we deal with our agents with and not the FSA 
office. I don't know about that because it's a new system. I 
don't know how it's going to be done. So I would just ask you 
be very careful when you start talking about closing offices 
because these are the folks that actually determine whether 
they like you or not. Honestly.
    Secretary Vilsack. Well, the goal here is to make sure that 
we serve folks in a proper and effective way and that we 
modernize a system that honestly, Senator, requires 
modernization but to do it in a way that appreciates the 
concerns that you've raised.
    Senator Tester. Yes. Okay, good.
    And I would just, because my time has run out, I would just 
say that the modernizing the system language has been around 
for 25 years and it hasn't been done yet.
    Secretary Vilsack. Well, it's happening, Senator.
    Senator Tester. Okay.
    Senator Pryor. Thank you.
    I'll now go to the second round. We have another Senator or 
two that's going to be coming in in a moment but I'll go ahead 
and jump in. Let me follow-up on one of Senator Tester's 
questions there about the, sort of, the realignment of the FSA 
offices. Has your Department given consideration to just 
delaying this for a year while the new farm bill comes into 
effect or do you think you can do it right now?
    Secretary Vilsack. Senator, I don't think the new farm bill 
is going to prevent us from doing what needs to be done given 
the context of a reduced workforce and ensuring better service. 
This is about better service. It's not about saving money. It's 
not about consolidation for the sake of consolidation. This is 
about bettering the service to producers.
    And the reality is that we can do more for farmers and 
ranchers who are challenged. This is a challenging environment 
for folks. And I will tell you, it's a real challenging 
environment for folks in the middle. The big guys are doing 
okay. The small guys are coming up. But what's happening is an 
erosion of the middle. And for me, what we can do is help those 
folks stay in business. Now the only way to do that is to 
provide them information, access to new programs, and the 
ability to connect them with new opportunities. That requires a 
different cross-trained personnel. You can't do that if you 
only got one person in an office.
    So you really have to look at how you would realign this. 
This is absolutely not going to compromise our ability to get 
the farm bill done. We understand that that is a principal, 
primary responsibility which is why we're focused on it, which 
is why we put in place these implementation teams, why we have 
prioritized the rulemaking process, because we know what folks 
out in the countryside want us to do and we're doing it.
    Senator Pryor. Also, I think one point that he made is 
true, and I know you'll consider this as you go through it. It 
may be that some of the most rural areas need that FSA office 
the most because they don't have the technology on the farm to 
otherwise connect. So we've talked about that before and I know 
you'll look at that as you go.

                             MIDAS PROGRAM

    Let me also ask about the MIDAS program and the MIDAS 
system. Do you have to--MIDAS has been kind of a long time 
coming and lots of money in it, you know--anyway, we all know 
the history there. But, do you have to make adjustments to it 
based on the new farm bill or is it pretty malleable?
    Secretary Vilsack. The new farm bill doesn't really impact 
the design and the concept of MIDAS. The concept of MIDAS is, 
first and foremost, the ability to access information about 
your farm holdings regardless of what county you're sitting in 
at the time. That's not farm bill related in any way, shape or 
form.
    The second piece of it is, whatever programs FSA offer, 
whatever programs FSA is providing, that you have the capacity 
if you have adequate broadband, and so forth, you have the 
capacity to access that information from a distant location not 
even going into a Farm Service Agency office if you don't have 
to. Your convenience; your choice. That's not farm bill 
dependent either. So this is about creating an infrastructure 
that provides better service regardless of what the farm bill 
is and regardless how many changes we have to make in future 
farm bills.

                         AGRICULTURAL RESEARCH

    Senator Pryor. All right. Let me also say, I'm very pleased 
to see the funding increase for ag research. So, again, thank 
you for that. And I know that there's, you know, the capacity 
and competitive, it seems like there's an emphasis on 
competitive research here. And, could you just talk to the 
subcommittee about that and, you know, how you all made those 
decisions?
    Secretary Vilsack. Well, I think there are three aspects of 
research. One is a modernized Agricultural Research Service 
(ARS) system which is our internal research efforts. We could 
talk about that. Second, is the National Institute of Food and 
Agriculture (NIFA), and that really is designed for our 
external relationships in which we are trying to leverage 
scarce resources. We're trying to stretch scarce resources. 
We're trying to create partnerships. But that is a system that 
we control within USDA.
    The farm bill creates the new foundation which is really 
going to be private sector driven; we provide resources but we 
don't provide much direction. And what we're proposing with the 
institutes, the innovation institutes is filling the gap, where 
we would partner with the private sector, but the private 
sector would help drive this specific research project. We 
would provide funding, we would provide direct assistance but 
the private sector would basically make decisions about where 
best to focus on pollinators. Should it be on the vector; 
should it be on crop diversity; should it be on fort; what 
should it be? The private sector would determine that.
    So if we had that suite of opportunities, we would have, I 
think, all our bases adequately covered and we would have more 
resources going into and we would be more effectively 
leveraging those resources.
    Senator Pryor. Thank you.
    Senator Blunt.

                         INNOVATION INSTITUTES

    Senator Blunt. Mr. Secretary, do you see those as specific 
locations or are those virtual locations in these new research 
development areas that are public and private or how do you 
envision that?
    Secretary Vilsack. Well, I think, Senator, it's probably a 
combination. I think there will probably be some places where 
these institutes may have a staff person or so but, honestly, 
we are really focused on virtual centers these days in an 
effort to try to, again, leverage our resources as effectively 
as we can and our technology as effectively as we can. This is 
really more about identifying an area of need, pollinators and 
microbial resistance issues. And then, saying to the private 
sector, within that topic, what do you think the priority 
research should be; here's money to do it; let's work together. 
As opposed to what NIFA does; which is, NIFA says, we are 
focused on pollinators and we're focused specifically on 
vectors and we want you to look at that specific aspect of it 
and we want to see what you can come up with in terms of 
leveraging our resources on that particular, very specific, 
topic. So it's a combination of things we're trying to put 
together so that we've got all our bases covered.
    Senator Blunt. And for those, like the pollinator research, 
would you expect people to compete to be the lead agency or the 
lead land-grant university, or whatever, in that----
    Secretary Vilsack. That could be a way in which it's done 
or the private sector could come in and say, look, this is 
something that we are specifically interested in. A seed 
company that understands the challenge that we face with 
pollinators right now, they could come in and say, ``You know 
what? We would like to companion partner with you, USDA, on a 
joint relationship.'' We might ask University X to participate 
with us; we might have our own internal research folks work on 
this. It's really about creating as much flexibility and as 
much coverage as we possibly can in agricultural research 
because it has been underfunded and underappreciated for far 
too long. And the President's Council of Advisors on Science 
and Technology (PCAST) system basically suggested six of these 
institutes and we're proposing three in this budget.

                    POULTRY SLAUGHTER MODERNIZATION

    Senator Blunt. Right. And research, as you well know, is 
one of the specific things mentioned when the Department was 
created so that you wouldn't have to have research done all 
over the country in all States and as part of the 1862 concept 
of what this Department would do. Senator Pryor, I'm pleased to 
see the research budget increase. I'm concerned on the food 
safety inspector budget. That it decreases, if I read these 
numbers right. And I suspect a lot of that relates to whether 
or not the new inspection regime on poultry happens during this 
budget year or not. And so, I'd like you to talk about that a 
little bit.
    Secretary Vilsack. Well, that's correct. But, I think it's 
important to put this budget in a larger context before I 
answer your question.
    Fifty percent of this budget is spent on four issues; four 
areas. It's spent on WIC, it's spent on fire suppression, it's 
spent on food safety and it's spent on rental assistance. Fifty 
percent of our budget. So when sequester is put into place or 
cuts are proposed or reductions have to take place, the other 
50 percent of our budget has to bear not only their share of 
the cuts but this other 50 percent share because we've seen 
increases.
    So we have to look for ways in which we can continue to do 
the job on food safety but allow, at least for some time, this 
other 50 percent to get a little bit of relief as we try to 
deal with scarce resources. So, one way to do that is by 
improving and modernizing the way in which we inspect poultry 
which we have not done for 60 years. And we believe, by doing 
this, we can not only save money, but I think more importantly, 
we can save lives. We believe that there are thousands of 
people who are getting sick that won't get sick under this new 
system because it takes our inspectors and gives them 
additional responsibilities to look at places where, we know, 
based on science, pathogens attached to poultry, as opposed to 
what they're currently doing which is focusing more on cosmetic 
issues. That's something, obviously, the company itself should 
be concerned about because it involves not the safety but the 
marketability of a product.
    So our theory is that we would restructure the way in which 
poultry is inspected, save money, and also save lives.
    Senator Blunt. And where are we there? Do we have a 
proposed rule out on this?
    Secretary Vilsack. We have a rule that's currently in the 
process of going through the regulatory process. And, we have 
obviously a lot of concerns expressed about this but I think a 
lot of folks who are expressing concerns may not fully 
appreciate and understand what we're actually focusing on 
trying to do here.
    Senator Blunt. And what would be a reasonable timetable on 
implementing the final rule?
    Secretary Vilsack. Well, our hope is that we get this done 
in 2014 so that we essentially can factor it into the budget 
that you all are working on.

                          WIC FUNDING INCREASE

    Senator Blunt. I'll come back in a minute when we have a 
little more time, assuming we get back to another set of 
questions. I think you mentioned WIC as part of that 50 
percent. I believe, I don't have those numbers in front of me 
at this moment, but I believe I saw a WIC increase of $200 
million. Am I close to the right number?
    Secretary Vilsack. That's for the contingency, I believe. 
It's $200 or $150----
    Senator Blunt. When you're increasing one category by $200 
million it's pretty hard to do the other things that you would 
hope to do.

                       RENTAL ASSISTANCE PROGRAM

    Secretary Vilsack. It is but, of course, there is need and 
there is a need for--the problem with some of these programs is 
that you don't quite know precisely how many people you're 
going to serve from year to year so you have to have some 
wiggle room within that budget. The same thing is true with the 
rental assistance program which is why we're asking for a 
reform of that system to give us greater predictability and 
certainty about exactly what we actually have to spend in that 
category to provide 285,000 families with assistance.
    Senator Blunt. Well, I do think the direction you're headed 
in in the rental assistance is a good one and I look forward to 
working with you on that. And my time is up, Mr. Chairman.
    Senator Pryor. We've been joined by Senator Johnson.
    Senator Johnson.

                       ACTIVE PERSONAL MANAGEMENT

    Senator Johnson. Welcome, Secretary Vilsack.
    The farm bill directed you to develop a framework for 
determining whether an individual is actively engaged in a 
farming operation and thus their eligibility for farm program 
payments. As you know, both the Senate and House bills included 
a meaningful hard cap on payments that would allow payments to 
the operators and crop share landlords as well as one 
additional farm manager. I would urge you to take this approach 
which was endorsed with strong bipartisan support in both the 
Senate and House. But whatever approach you take in this 
rulemaking, can I have your commitment that you will pursue a 
structure that maintains an effective payment limit of $125,000 
that does not allow farms to manipulate the actively engaged 
rules?
    Secretary Vilsack. Senator, we will do what the law 
requires us to do. I would point out that Congress has given us 
limited capacity in this respect based on the definition of 
family farm that's included in that discussion of actively 
engaged. We will take a look at what latitude we have, in terms 
of that definition, and we will do it in a way that maintains 
the integrity of the system that allows us to be able to 
explain it to ordinary folks as to why it's important to have a 
safety net for farmers and we will do it in a way that I think 
is consistent with the intent of Congress. But I will tell you, 
it is a fairly narrow avenue that you all have created for us 
to work in.
    Senator Johnson. Do you have a specific timeframe for 
developing a rule defining actively engaged?
    Secretary Vilsack. Our goal is to have a proposal by the 
end of calendar year 2014.

                   COUNTRY OF ORIGIN LABELING PROGRAM

    Senator Johnson. I appreciate the work you've done to 
restructure our Country of Origin Labeling Program in a way 
that accurately conveys information to consumers while meeting 
our international trade commitments. I also appreciated your 
commitment to defending the program before the World Trade 
Organization (WTO) during the ongoing review. What do you 
anticipate the timeframe will be for the WTO process moving 
forward?
    Secretary Vilsack. Senator, I think the next milestone in 
this process is probably sometime in June and July of this 
year; receiving some indication from the WTO as to whether or 
not we're right that we are in compliance with the WTO ruling 
or whether Canada and Mexico's concerns have not been fully 
addressed. We believe we have addressed them. We believe we've 
done it consistent with the congressional directive as well as 
the WTO directive.

                          SUN GRANT INITIATIVE

    Senator Johnson. With respect to the Sun Grant Initiative 
I'm disappointed that the budget request, once again, proposes 
to eliminate funding particularly since this important program 
was recently reauthorized in the farm bill as a competitive 
program. Noting that the manager's statement of the farm bill 
directs the Department to use the current framework of the Sun 
Grant Centers in order to maintain the current leadership and 
management of the program, what is your intention for the 
future of the Sun Grant Initiative?
    Secretary Vilsack. Senator, I think that we are attempting 
to address the work that's done by the Sun Grants which is 
important work in both the bio-based product manufacturing 
innovation institute that is proposed as well as the increases 
and the resources that we've asked for under our Competitive 
Grant Program in NIFA. We understand the importance of this. We 
just think it ought to be rolled into the existing overall 
structure of research as opposed to being sort of in its own 
little area. Obviously, we will do what Congress instructs us 
to do on this but that's the rationale behind it.

                      LIVESTOCK DISASTER PROGRAMS

    Senator Johnson. I sincerely appreciate the steps you've 
taken to get the livestock disaster programs out to producers 
as quickly as possible, particularly with the April 15 signup 
date. Obviously, there is a unique need for these programs in 
South Dakota as a result of the terrible Atlas blizzard last 
fall.
    What is the Department doing to inform producers about the 
availability of the program as well as about the information 
that will be required to be eligible for payments?
    Secretary Vilsack. At this point, we are making sure that 
our folks in offices around the country are well acquainted 
with what we're proposing and what we're doing so that they 
will be in a position to begin that education process very, 
very quickly. Our expectation is that folks who have been doing 
the disaster programs in the past aren't going to see any 
significant change in the way in which the programs are done. 
So we don't know that it's necessarily going to be a lot of 
education on the producer's side. We do know that we want them 
to be in a position to be able to file applications by April 15 
and we are on track to get that done.
    Senator Johnson. My time has expired.

           LIMITED-IRRIGATION CROP INSURANCE PRODUCT PROGRAM

    Senator Moran. Mr. Chairman, thank you very much.
    Mr. Secretary, unfortunately drought continues in Kansas 
and one of the innovative ways of promoting water conservation 
and yet allowing farmers a shot at success is the limited-
irrigation crop insurance product program. It's a pilot 
program. We've never gotten it beyond the pilot program. Can 
you help us accomplish a broader application of this concept?
    Secretary Vilsack. Senator, I would love to be able to do 
that. But I think we have to do it in a way that is actuarially 
sound. And the reality is that we just, in many places in 
Kansas and other parts of the country, don't feel that we have 
adequate data to be able to do that. So, what we have done and 
attempt to do is on a case-by-case, individual-by-individual 
basis, come up with some kind of agreement that is akin to crop 
insurance and that is being done in a number of counties in 
your State. I think until we amass enough information and have 
enough data, you know, and which we're attempting to do, I 
think it would be a bit premature for us to actually institute 
a policy because we have to make sure that it's going to work.
    You know, I think we have, you know, we are working on some 
strategies but our team has told me that they just simply are 
not comfortable with the data yet. So if there's a way in which 
we can accumulate more information we'd be happy to work with 
you and your----
    Senator Moran. Tell me a little bit more about what you are 
indicating--about a landowner-by-landowner or farmer-by-farmer 
opportunity?
    Secretary Vilsack. It's an agreement. As I understand it, 
that it's a one-on basically. It's not a policy. It's not a 
program. It's working specifically with an individual.
    Senator Moran. Managed by the Risk Management Agency (RMA)?
    Secretary Vilsack. I believe so, yes.
    Senator Moran. Okay.

                     UNIVERSAL SERVICE FUND REFORM

    Mr. Secretary, we've had a conversation about this 
previously, maybe a year ago in this similar setting. You know 
that the Federal Communications Commission (FCC) issued an 
order related to the Universal Service Fund, so-called 
Universal Service Fund Reform. That happened in October 2011. 
There's been some modifications in my view fortunately by the 
FCC to ameliorate some of the problems that we've highlighted 
with that order. And one of the concerns I've raised with you, 
but with the FCC, is the relationship between that order and 
the ability for telephone companies, rural electric--I'm sorry, 
rural telephone companies to be able to repay the loans with 
the Rural Utility Service.
    Can you bring me up to date on the status of that problem 
or that circumstance?
    Secretary Vilsack. We expressed the same concerns and I 
think Chairman Wheeler is sympathetic to this. As I understand 
it, they've essentially capped the impact of some of the 
changes so it makes it a little bit easier for these small 
telecoms, telcos, to be able to make their payments. We have 
had very few incidences within USDA's portfolio of the 
inability to make payments. We'll obviously continue to work 
with folks but at this point in time we're at least 
appreciative of the steps that have been taken by the FCC 
recently. We also appreciate the fact that they've gone through 
a second round of the Connect USA Program, Connect America 
Program, with a little bit more flexibility which I think is a 
good thing as well.
    So we're working with them, we've communicated our 
concerns, and I think there's a bit more flexibility than we've 
seen in the past, and I think that's positive for rural telcos.
    Senator Moran. I do, too.
    And I think that you were instrumental in causing that 
flexibility to occur and I appreciate that. I just encourage 
you to continue to work with us and others to make certain that 
the FCC gets an order that is not--the challenges that we face 
is that these rural telephone companies were doing what, in a 
sense, they were incentivized to do by the Federal Government. 
Asked to do, in fact, to expand broadband both in the 
President's plan and in the Rural Utility Service's program 
that's been around for a long time. And the FCC has an order 
that then it creates, certainly, a different financial 
circumstance than what was expected when these companies began 
the path of expanding broadband to rural America.

                        FSA OFFICE MODERNIZATION

    Let me associate myself with the gentleman from Montana in 
his raising concerns about offices, FSA. I've been through this 
as a member of Congress back in my House days of colocation, 
reducing the number of FSA offices, reducing the number of NRCS 
offices, and there are tremendous challenges still with this 
concept that farmers have the technology necessary to do this 
at home or at their office. And I just would encourage you, and 
I think you had this conversation with Senator Blunt, that 
information would be provided to us as you develop a plan so 
that we can have input in the process. I assume no Secretary 
really wants us to have input in the process. But if we could, 
I think it will avoid us having the arguments and the debate at 
the end. If we can be a partner in this process it would be 
useful.
    Secretary Vilsack. Senator, more than happy to have that. 
But, just again, the context of this is--remember the 50 
percent of the budget? And then the other 50 percent? And then, 
so when you do sequester and when you do some of the things you 
all have done, something's got to give.
    Now, in this particular case, this is not about saving 
money. It's really about modernizing the system. And I think 
that's an important point that I will be emphasizing just as 
you emphasize the challenges of this. This system has got to be 
modernized.
    Senator Moran. I detected your emphasis and I'm not a 
supporter of across-the-board cuts. I think it is the reason I 
would ask you to include us in this conversation is because we 
have a role here to prioritize how money is spent. And I'd like 
the opportunity to help accomplish that.
    Thank you, Mr. Chairman.
    Senator Pryor. Thank you.
    And I assume, as part of modernizing that ultimately we do 
save money and create more efficiency.
    Senator Tester.

                            PUBLIC CULTIVARS

    Senator Tester. Thank you.
    Mr. Secretary, I very much appreciate--you talk about the 
erosion of the middle. I think you are spot-on. And I think 
what you do to encourage the small producers of local food 
systems is very, very important.
    And I, too, want to talk about what Senator Moran talked 
about and that is being an advocate for a way of life that, 
quite frankly, in my 57 years on this earth, I have seen 
evaporate. The way of life we've had in agriculture, when I 
graduated from high school, is leaving exponentially fast. And 
I say that not as an outside observer, I say that as someone on 
the inside looking out. And it's not your fault; it is a 
combination of things that have happened.
    One of the things out there that I am very concerned about 
is the access to public seed varieties. We visited about this 
before and I do know that from a production of agriculture 
standpoint it is always great to think about seeds that will 
grow without any water or without any nutrients and with 
difficult situations with the climate change we have now. And 
that may be all well and good but the fact is we're seeing 
public cultivars. Those cultivars we don't have to pay for. 
Those cultivars that I can buy from you if you're a farmer and 
not have to pay a technology agreement for, are disappearing 
and disappearing quite rapidly. I've tried to advocate for some 
of the money set forth in food research and, by the way, we 
have been very remiss from public dollars going into research 
for seeds. It has been criminal, as a matter of fact. And we've 
seen the private sector do it and we see the private sector 
getting rich off of this.
    So could you give me any idea on what can happen as far 
as--or what needs to happen? What you can do, what we need to 
do to be able to have more public cultivars out there that 
actually meet the needs of different regions of this country? 
Because I think it's very important.
    Secretary Vilsack. Well, Senator, I think it's important 
for us to understand that we are focused on this as well. We 
have essentially over 100 projects in place today; 150 of our 
scientists are working on this in all 50 States to ensure that 
we continue to have the diversity in agriculture that's 
important.
    Last year, I think, 700 germplasm samples were distributed 
from the 20 seed banks that we have. So there is work being 
done in this space, and there is a sensitivity to the need for 
all types of breeding systems to be supported. And I think the 
fact that you raised it last year, you're raising it this year, 
allows me to go back and make sure that our team is sensitive 
to this.
    If I might just--this issue of the middle is just extremely 
important. You mentioned it and at some point in time I'd like 
just 1 minute of the committee's time to talk about it. If this 
is the right time, I'll do it. If not, I'll wait.

                           RURAL DEVELOPMENT

    Senator Tester. It's not a prime time for me because I've 
got questions I've got to ask. But I think the chairman will 
let you have at least a minute on this because I think it's a 
huge--I would just say it and I'm not going to--you understand 
it and you understand it well. I think what I am seeing as a 
farmer and I am still actively engaged in Agriculture is I'm 
not seeing a lot of options out there as far as public. I can 
go buy seed like crazy but as far as public cultivars, there 
aren't many around. I'll just tell you that from my 
perspective. So that be that.
    I want to talk a little bit about that middle a little bit 
from my perspective. And it revolves a lot around rural 
development. And I told you that in my 50 years of paying 
attention on this earth I have watched farmers get bigger and 
smaller and rural communities dry up. That's not stopping. It 
happens every time I go home and I drive into my little town 
that used to have a thousand people in it that now have 600; a 
school that used to have 165 kids in high school now has less 
than 60. We're seeing rural America continue to dry up.
    Can you tell me what's in this budget that you're proud of, 
you're particularly proud of that is going to help rural 
development; it's going to help bring people back into frontier 
and rural America in a way that's positive. And if there are 
multiple things, list them very quickly. And tell me what you 
would like to see us do to really reinvigorate rural America, 
because, quite frankly, we've got a new farm bill right now, I 
voted for it, I support it, but it isn't going to do it. 
Hopefully there are things out there within your budget that 
will do it.
    Secretary Vilsack. Well, Senator, I think that we've begun 
a process. We now have a strategy which I don't think we had 
before and the strategy is very clear: Production agriculture 
and exports, local and regional food systems creating new 
market opportunities, the bio-based economy, the ability to 
take what we grow and what we raise and every aspect of it and 
convert it into not just fuel and energy as we have but 
chemicals, polymers, plastics, I think that is the future, and 
a creative way of using our conservation resources not only to 
improve our land and water but also to meet regulatory 
responsibilities of regulated industries that can be met as 
easily with conservation on the farm as it can be with creating 
great infrastructure.
    All of those aspects are in our budget, supported in our 
budget, and with the assistance of this committee and the 
Senate and the House, we will continue to do work in these four 
areas. And I honestly believe that will be a difference.
    The problem has been that production agriculture is 
extraordinarily efficient and as it has become efficient fewer 
farmers were needed. What wasn't done was to have a companion 
natural resource economy to compliment production agriculture. 
We're putting that in place now. It will not be done overnight 
but it is where I think we're headed in the right direction.

                AGRICULTURAL RESEARCH SERVICE VACANCIES

    Senator Tester. I appreciate that.
    Just a passing note that I also want to get on the record, 
we have an ARS facility in Sidney, Montana. They have three 
openings there that are very, very important when it comes to 
research. Very important. Not just seed crops but pests, all 
sorts of good stuff they do. I would hope that, since we're out 
of sequestration now, that those vacancies might be able to be 
filled.

                               GIPSA RULE

    The last thing I would say is that I was going to get into 
the Grain Inspection, Packers and Stockyards Administration 
(GIPSA) rule but the fact is that, you know, the challenges 
there. If we're going to have a free market system, a 
capitalistic system in agriculture, GIPSA is pretty damn 
important from my perspective and I appreciate anything you can 
do to make sure that happens.
    Secretary Vilsack. We tried, Senator.
    Senator Tester. I know you did.
    Thank you.
    Senator Pryor. Go ahead and speak your piece on the middle.
    Secretary Vilsack. I actually did in 30 seconds.
    Senator Pryor. Okay. Just want to give you a chance to do 
that.

                             WIC FOOD COSTS

    Let me also clarify something. I think that the WIC 
increase is $107-plus million, say $108 million, am I reading 
that right? There is a number, there's a $322 million that 
where you're doing a new WIC package, there's increase but you 
have other offsets and changes in the program. But I do have a 
question about that because I think one of the challenges there 
is food prices go up and down and I think the USDA is expecting 
a 3.5 percent increase in food prices this year. And so, you 
know, they can rise sharply in any given year. So I guess the 
question would be--sounds like you're building in a contingency 
but you feel like you have sufficient contingency there to 
cover any increase in food cost this year?
    Secretary Vilsack. We do, based upon our best estimate as 
to what the package would likely be. There's been a lot of 
conversation about food inflation recently. Unfortunately, 
folks are comparing it to the previous year where inflation was 
pretty low. But even this year, as I think Dr. Glauber will 
attest, it's within historic ranges. So despite our challenges, 
I think we're still going to see, you know, not an 
extraordinarily high rate of inflation. We think we're pretty 
confidant with our WIC numbers.

                   COUNTRY OF ORIGIN LABELING PROGRAM

    Senator Pryor. Senator Blunt, you have a question.
    Senator Blunt. Yes, I do.
    Secretary, on the Country of Origin Labeling Program where 
are we in terms of the WTO action on that? And do we have a 
planned response if that action is an action against us?
    Secretary Vilsack. Senator, I think we will get a read, a 
basic read, in June of what the WTO is likely to do and in July 
perhaps a more formal response. And I think it's important for 
us to allow that system to play out. That's why we were 
concerned about trying to change what we were doing in the 
middle of this process. I think the answer to your question, 
what do we do if we lose? I think a lot of it depends on 
precisely what the WTO says and if they don't agree that we've 
been in compliance, why we're not in compliance. Because, when 
they ruled the last time it was you can label. Our view was, 
from what they said, you weren't specific enough. Well, now 
we're quite specific. So we will see what they determine.
    Senator Blunt. And was, on the not so quite specific 
options, was one of the options North America label or not?
    Secretary Vilsack. There was a lot of that type of 
conversation, but I think what we took from the WTO ruling was 
that you had to be quite specific in terms of the various steps 
in the process: where was the animal raised; where was the 
animal processed; where was the animal slaughtered; et cetera. 
And I think we have done that. We will see what the WTO says 
and once we see what they say, we will respond and react 
accordingly.
    Senator Blunt. And I assume the packers are having to 
adjust their processing lines to meet those various pedigrees 
of animal?
    Secretary Vilsack. They do. And obviously they have raised 
concerns about that.

                           REGULATORY PROCESS

    Senator Blunt. You and I were in Brazil this summer for a 
couple of days talking to them about their regulatory 
environment on science-based changes, on biotech changes. Like 
what we saw there was they have come where they have what 
neither of us would have considered a back log of any kind. 
Whether that's accurate or not, what are your thoughts about 
what we can do to get our process to where it meets every 
requirement we need to meet but isn't needlessly slowing down 
this process of meeting world food needs and other things that 
we're involved in?
    Secretary Vilsack. Senator, first of all, our Brazilian 
friends, they had a different starting point for when they 
began their regulatory process. And if you actually start it 
where we start our regulatory process, their timelines were 
very consistent with our current timelines. We have reformed 
the system. We have reduced the amount of time it takes for the 
regulatory decisions to take place. I think we've cut out 
somewhere in the neighborhood of 360 days in that system. We 
still have a little more work to do. We have also begun the 
process of reducing the backlog that I inherited when I became 
Secretary. I'd say we've probably cut it nearly in half and we 
are projected to continue that reduction to the point where we 
will be on time.
    We've made certain commitments about activities in 
connection with this new system and we've lived up to those 
commitments at this point in time. So I'm reasonably confident 
that we now have a very good streamlined system that does the 
due diligence that is required but doesn't have a 
disproportionate delay just simply because the regulatory 
system is clogged up.
    Senator Blunt. I'm going to look at that chart again, if I 
can get my hands on it, and see. I do think we're a little 
slower but I'm prepared to take your word for that and look and 
see what that starting point is.

                           REGULATORY SYSTEMS

    On that similar topic, Senator Pryor and I hosted a 
discussion session with Bill Gates a few days, about 10 days 
ago with this subcommittee to talk about what they're doing 
with ag research and application around the world, and I guess 
my question is what are we doing if anything to help other 
countries meet a standard that's acceptable and at the same 
time not needlessly slow in meeting the needs that they have.
    Secretary Vilsack. Well, I would say a couple things. First 
of all, we have worked with Brazil in an effort to have the two 
largest producers of biotechnology crops to speak on the same 
page at the same time with the same message to the rest of the 
world. And we are in the process now of taking a look at how we 
might be able to enlarge that in terms of membership both in 
Latin America and South America so that we, at least, have 
consistency.
    We are sending the same level of messages to our friends in 
China about the importance of them understanding that it's in 
their long-term best interest to have a regulatory system 
that's more synchronized with ours. We have a pilot project 
that we're attempting to work with them on so that they can 
learn that synchronization is not going to put them in a 
disadvantageous position. So we are working with China to try 
to embrace this.
    Obviously, we have some challenges with our European Union 
(EU) friends on this topic and I think that's going to be part 
of the overall conversations as we look at trade agreements and 
free trade agreements. We're not going to have a free trade 
agreement unless there is some better understanding upon the 
part of the EU of acceptance and market access to biotechnology 
crops. So it's a combination of things.
    And then I'd say the last thing we are working with 
producers in Africa, in particular, to encourage them to 
understand the opportunities that new technology has created in 
terms of increased productivity. It's rolled up into our 
efforts of Feed the Future and work with the U.S. Agency for 
International Development (USAID) on embracing these new 
technologies in developing countries. So there's a multiple 
process, multiple-step process, in place.
    Senator Blunt. Thank you, Mr. Secretary.
    And thank you, Mr. Chairman.
    Senator Pryor. Thank you.
    And our vote has started, so let me say that I'd like to 
thank you and your team for being here today and your 
preparation and all your answers. We've covered a lot of ground 
and what we'll do is, because we have to run to this vote, 
we'll go ahead and leave the record open.

                     ADDITIONAL COMMITTEE QUESTIONS

    We'd ask our members of the subcommittee who are not able 
to either ask questions today or weren't able to complete their 
questions today, we'd ask them to get all of their questions in 
by Wednesday, April 2. And then, we would appreciate the 
Department, if you could get us answers back within 4 weeks 
that would be great with us. And then, of course we want you to 
answer our questions first, right? Is that right?
    Yes, okay.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted by Senator Mark L. Pryor
                  agriculture buildings and facilities
    Question. Secretary Vilsack, the Department is proposing the 
decentralization of the General Services Administration (GSA) rental 
payments and Department of Homeland Security (DHS) security payments. I 
understand that the increases to USDA Agency budgets are the equivalent 
shares of the costs based upon current space occupancy across the 
United States and that the central account has been reduced 
accordingly.
    Can you please tell me the rationale behind the shifting of funds 
from the central account into the each Agency account?
    Answer. The U.S. Department of Agriculture (USDA) agencies occupy 
centrally funded space for which they have no direct accountability or 
incentive to use in an efficient and effective manner. The centralized 
funding mechanism for GSA rent and DHS Security does not link these 
costs directly to the agencies' programs and delivery activities. 
Having agencies pay for the full cost of their GSA-leased space will 
encourage them to make good business decisions to further consolidation 
efforts, reduce space through teleworking and hoteling strategies and 
affect other economies of scale such as open space. Currently, the 
central account still pays the majority of their space costs and 
results in a lack of ownership by agencies for their occupied space. 
The shift of the rent and security funding will encourage agencies to 
make the best use of scarce funds.
    Question. Will this shift result in savings for the Department? If 
so, will the Department reduce their appropriations request 
accordingly?
    Answer. In the short run this shift will not result in savings for 
the Department. Agencies will have to assume the full costs for the GSA 
rental payment and the DHS Security payments for their occupied space, 
along with any rental or security cost overruns when they begin direct 
payment in fiscal year 2015. Also, GSA is now directing agencies into 
green space leases that often cost more than traditional office space. 
It will take time for the economies of scale to be effective. 
Eventually by having agencies totally responsible for their space usage 
and security payments there will be cost avoidance if not savings to 
the USDA agencies as a result of this initiative as they further their 
consolidation efforts, reduce total space needs through teleworking and 
hoteling strategies, effect other economies of scale such as open 
office space, or move to non-GSA space.
                     agricultural research service
Redirection of Funds
    Question. Mr. Secretary, I do understand some research projects 
should be discontinued for higher priority research and I am happy to 
see that the funding and staff years will remain at the Rice Research 
Facility in Stuttgart, Arkansas. However, I am not sure why the 
research funds for the Development and Characterization of Genetic 
Resources for Agronomic and Quality Traits Using Genomic Tools is being 
redirected to Livestock Genetic Improvements and Translational Breeding 
for Enhanced Food Production.
    Can you please explain the rationale for redirecting the funds to 
this new initiative?
    Answer. Thank you for the opportunity to highlight USDA's continued 
support for the U.S. rice industry, U.S. rice research, and rice 
breeding. Arkansas is the largest rice producing State and the Dale 
Bumpers National Rice Research Center (DBNRRC), Stuttgart, Arkansas, 
and its scientists are key to that continued success.
    The fiscal year 2015 President's budget initiative for ``Advanced 
Crop and Livestock Genetic Improvements and Translational Breeding for 
Enhanced Food Production'', is a cross-cutting initiative that includes 
research locations like the Dale Bumpers National Rice Research Center 
that are 100-percent crop research, and locations that are 100-percent 
animal research.
    To be clear, the focus of the research at DBNRRC remains on rice 
and the rice industry's needs. As you mentioned, the Stuttgart team is 
currently focused on the Development and Characterization of Genetic 
Resources for Agronomic and Quality Traits Using Genomic Tools.
    Under the President's budget initiative for fiscal year 2015, the 
Stuttgart team will conduct similar work but gain access to key genetic 
resources, knowledge and tools for classical and genomics enabled rice 
breeding. This initiative is an example of USDA deploying its resources 
more effectively.
               national institute of food and agriculture
Innovation Institutes
    Question. Mr. Secretary, the report from PCAST recommended the 
creation of six large, multidisciplinary innovation institutes focused 
on emerging challenges to agriculture, supported by public-private 
partnerships. In 2015, the National Institute of Food and Agriculture 
(NIFA) is requesting $75 million for three new institutes which include 
pollination and pollinator health, manufacturing innovation and anti-
microbial resistance.
    Why were these three institutes chosen?
    Answer. The research foci of these three innovation institutes are 
on important agricultural problems in the public domain, but where 
private sector participation can be essential in advancing the research 
goals and also deploying the research outcomes. Their selection was the 
ultimate product of stakeholder listening sessions conducted by the 
Department, administration priorities, and the feedback brought to us 
by members of Congress and a wide cross section of citizens with 
legitimate concerns about pollinator protection, anti-microbial 
resistance, and the state of the rural economy.
    Question. How did USDA determine the scope of the three proposed 
Innovation Institutes?
    Answer. USDA has based actions to date regarding the innovation 
institutes on five organizing principles:
  --1. Public-private partnerships are integral to solving important 
        agricultural issues.
  --2. Competitive processes will be used to select the participants in 
        the Institutes.
  --3. Institutes are to address the challenges to agriculture:
    --a. that the President's Council of Advisors on Science and 
            Technology (PCAST) identified,
    --b. in a manner consistent with the intent of Congress, and
    --c. informed by the President's fiscal year 2015 budget request.
  --4. Institutes will take advantage of university, private sector, 
        and ARS infrastructure.
  --5. Funds should go to research, not to bricks and mortar. The 
        expectation is that multiple partners in diverse universities 
        and organizations will mean a distributed virtual organization.
    The PCAST report suggested several models that fit into these five 
guiding principles. They include bioenergy institutes established by 
the Department of Energy and British Petroleum, as well as the energy 
hubs and energy frontier research centers established by that same 
Department. USDA used these models, listened to stakeholder feedback, 
and determined the scope for the three proposed Innovation Institutes 
that fit into our established guiding principles.
    Question. What criteria will the Department use when selecting the 
recipients of these grants?
    Answer. The National Institute of Food and Agriculture will conduct 
a competitive process to select the recipients of these grants. 
Selection criteria will include the grant recipient's ability to form 
and maintain a high quality public-private scientific consortium; the 
scientific merit of the proposal; the qualifications of project 
personnel, the adequacy of facilities and project management; and the 
relevance of the project, which includes the project's potential for a 
dramatic and demonstrable impact on the defined problem to be addressed 
by the particular innovation institute.
    Question. Will the recipient be expected to match or meet a certain 
funding level?
    Answer. There are no preset funding levels at this time for 
recipients. There is a desire for significant non-Federal investment in 
the innovation institutes, as well as public and private intellectual 
capital, which is shared by both the PCAST report and the Department. 
This desire led the National Institute of Food and Agriculture to 
propose forming the innovation institutes under the authority of 7 
U.S.C. section 450a. It was determined that this was the best of many 
existing authorities under consideration for this purpose because it 
authorizes agreements, including the receipt of funds, from any State, 
other political subdivision, organization or individual for the purpose 
of conducting research projects.
             foundation for food and agricultural research
    Question. Will the new Foundation for Food and Agricultural 
Research receive funding from existing National Institute of Food and 
Agriculture programs?
    Answer. Currently we do not believe that the Foundation for Food 
and Agricultural Research will receive any funding from existing 
National Institute of Food and Agriculture programs in fiscal year 2014 
or fiscal year 2015.
               national animal health laboratory network
    Question. New funding is authorized in the farm bill for the 
National Animal Health Laboratory Network to enhance the capability of 
the Secretary to respond to emerging and existing threats to animal 
health and to coordinate enhancement of national veterinary diagnostic 
laboratory capabilities using existing Federal, State, and university 
facilities.
    How would USDA ensure that this new funding would be leveraged to 
enhance current national veterinary diagnostic laboratory capabilities 
to detect, respond to and recovery from emerging and existing threats 
to animal health across the United States of America?
    Answer. If funding were provided for the National Animal Health 
Laboratory Network (NAHLN) as authorized in the farm bill, the 
Department would prioritize activities based on the NAHLN strategic 
plan, carry out emerging disease detection and response initiatives, 
and increase the capacity and capability of the network. Specifically, 
USDA would increase support for laboratory infrastructure; dedicate 
funding to support the identification of emerging diseases; enhance 
support for animal health community preparedness needs, such as 
business continuity plans and validating diagnostic assays to fill 
identified gaps; and continue to support laboratories' capabilities 
through expanded outbreak scenario exercises. The existing network of 
laboratories across the country, established in 2002--based on long-
standing cooperation, communication, accountability, and adherence to 
standards--would be leveraged through participation in emergency 
response exercises and in development and validation of diagnostic 
methods and techniques. The function of and commitment to the network 
has become integral to many of NAHLN's approximately 60 laboratories. 
The current diagnostic capabilities, facilities and expertise within 
these laboratories will be the basis for moving the network forward and 
addressing identified gaps.
                         agricultural research
Research Investment Balance
    Question. Does USDA anticipate reconfiguring the balance between 
major crop and specialty crop research? If so, how?
    Answer. The President's Council of Advisors on Science and 
Technology (PCAST) raised the issue of the balance of the portfolio of 
research on agriculture in its report to the President on Agricultural 
Preparedness and the Agriculture Research Enterprise issued in December 
2012.
    The Under Secretary for Research, Education and Economics has 
suggested to the National Agricultural Research, Extension, Education, 
and Economics Advisory Board that it examine the question of the 
current balance of research in the Research, Education and Economics 
(REE) portfolio and give her its view of how the balance should be 
regarded and set in the future.
    No decision has been made on reconfiguring the balance between 
major crops and specialty crop research at this time.
                      national science foundation
    Question. The President's 2012 PCAST report included a 
recommendation that the National Science Foundation increase its budget 
for basic science relevant to agriculture to $250 million per year as 
compared to the current $120 million. How has USDA worked with NSF in 
this regard to ensure that there is no overlap?
    Answer. The President's Council of Advisors on Science and 
Technology (PCAST) recommended in its report to the President that the 
National Science Foundation (NSF) should receive an increase to $250 
million in its funding for basic science relevant to agriculture, which 
would have been an increase of $130 million. USDA is not aware that NSF 
has received such an amount for agricultural sciences in recent 
appropriations.
    Across the Department, there is a very cooperative relationship 
with NSF. The joint objective is to maximize the benefits of 
agricultural research and minimize duplication of effort. REE agencies, 
in particular the Agricultural Research Service (ARS) and the National 
Institute for Food and Agriculture (NIFA), consult with NSF about 
research priorities on a consistent basis. Specific projects are 
coordinated with NSF when appropriate and relevant. Because USDA's REE 
agencies have an Action Plan that is posted on our Web site, 
researchers across the country that may be seeking to apply for 
currently available NSF grants can understand what USDA is doing, and 
NSF reviewers can also check on current research projects underway at 
USDA. NIFA grants are also a matter of public information and made 
available through the Current Research Information System and the 
Research, Education, and Economics Information System.
    Through the Agriculture and Food Research Initiative, the 
Department's flagship extramural funding program, the NIFA conducts 
several joint programs with NSF: Ecology and Evolution of Infectious 
Diseases, the National Robotics Initiative, and Water Sustainability 
and Climate. The Ecology and Evolution of Infectious Diseases program 
supports research on the ecological, evolutionary, and socio-ecological 
principles and processes that influence the transmission dynamics of 
infectious diseases. The goal of the National Robotics Initiative is to 
accelerate the development and use of robots in the United States that 
work beside, or cooperatively with, people. The goal of the Water 
Sustainability and Climate (WSC) solicitation is to understand and 
predict the interactions between the water system and climate change, 
land use (including agriculture, managed forest and rangeland systems), 
the built environment, and ecosystem function and services through 
place-based research and integrative models. This programmatic 
cooperation speaks to the close working relationship of the two science 
agencies that helps to avoid duplicative research.
                              nifa grants
    Question. How many competitive agriculture research grants were 
awarded in fiscal year 2014 and fiscal year 2013 compared to fiscal 
year 2012?
    Answer. USDA awarded 996 non-formula agricultural research and 
integrated grants in fiscal year 2012. There were 808 non-formula 
agriculture research and integrated grants awarded in fiscal year 2013. 
Preliminary data show there were 966 non-formula agricultural research 
and integrated grants awarded in fiscal year 2014. The number of grants 
decreased in fiscal year 2013 due to funding reductions including 
rescissions, sequestration, elimination of mandatory funds, and the 
continuing resolution in that fiscal year.
    Question. How many research grant applications were received in 
fiscal year 2014 and fiscal year 2013 compared to fiscal year 2012?
    Answer. USDA received 4,301 research grant applications in fiscal 
year 2012 and preliminary data shows we received 5,650 research grant 
applications in fiscal year 2013. Preliminary data shows we received 
6,191 grant applications in fiscal year 2014.
    Question. Has the median award amount for agriculture research 
grants decreased since fiscal year 2012?
    Answer. Yes, the median award amount for agriculture research 
grants from USDA has decreased from $202,483 in fiscal year 2012 to 
$192,500 in fiscal year 2013. We will not know if it has decreased or 
increased in fiscal year 2014 until all awards are made for the fiscal 
year.
                           farm-vets program
    Question. Mr. Secretary, the Department is requesting $2.5 million 
to establish the FARM-Vets program to promote competition for basic and 
applied research that explores career opportunities and pathways, 
therapeutic interventions, resource conservation, and related studies 
for the veteran population in the food and agriculture sector. I 
understand that the funds will be used for projects that help veterans 
develop farming and ranching skills, business plans, and agriculture 
systems management.
    Please explain how the FARM-Vets program will work?
    Answer. The $2.5 million request to fund the Food and Agriculture 
Resiliency Program for Military Veterans (FARM-Vets) program is 
designed to promote competition for basic and applied research. 
Research will explore career opportunities and pathways, therapeutic 
interventions, resource conservation, and related studies for the 
veteran population in the food and agriculture sector. Understanding 
why and how best to engage veterans in the agricultural sector is 
congruent with the critical need to identify a new generation of 
farmers, livestock producers, and entrepreneurs as an aging workforce 
transitions to retirement, especially in rural areas where shortages 
are acute. Similarly, there is a limited body of research that points 
to the therapeutic value of working the land in terms of psychological 
and behavioral health function and benefit.
    The Department expects FARM-Vets basic and applied research 
projects to inform the establishment and scalability of educational 
programming that helps veterans develop farming and ranching skills, 
business plans, agriculture systems management skills, knowledge and 
access to credit. FARM-Vet research will complement the Beginning 
Farmer and Rancher Development Program (BFRDP) which the USDA also 
administers. BFRDP is an education, training, technical assistance and 
outreach program designed to help U.S. farmers, ranchers, and managers 
of non-industrial private forest land--specifically those who have been 
farming or ranching for 10 years or less and those who aim to start. As 
a result of the 2014 farm bill, at least 5 percent of available BFRDP 
funding will be allocated to programming and services for military 
veteran farmers and ranchers annually through 2018. Since BFRDP cannot 
support research, future FARM-Vets discoveries will inform, improve and 
enhance BFRDP programming.
    Question. How many veterans will benefit from this new program and 
will they receive cash grants?
    Answer. The Food and Agriculture Resiliency Program for Military 
Veterans (FARM-Vets) program will be administered as a competitive 
research grant program in cooperation and coordination with colleges 
and universities. The FARM-Vets program will not provide direct cash 
grants to veterans. It will fund basic and applied research that will 
explore career opportunities and pathways, therapeutic interventions, 
resource conservation, and related studies for the veteran population 
in the food and agriculture sector. NIFA expects FARM-Vets basic and 
applied research projects to inform the establishment and scalability 
of educational programming that helps veterans develop farming and 
ranching skills, business plans, agriculture systems management, 
knowledge and access to credit, and land use issues. Any veterans 
participating in FARM-Vets research projects will benefit directly or 
indirectly based upon outcomes and findings. Actual numbers of veterans 
benefiting will be determined by the number of research studies funded, 
subset size participating, and results extrapolated to the full veteran 
population. The research conducted would also help ensure an evidence-
based foundation on which program and policy can be built.
               animal and plant health inspection service
    Question. Mr. Secretary, what is the status of implementation of 
the national feral hog initiative?
    Answer. The Animal and Plant Health Inspection Service (APHIS) is 
implementing a national, cooperative effort to reduce damage caused by 
feral or free ranging swine. APHIS is utilizing available funding to: 
(1) control feral swine population; (2) test animals for diseases; and 
(3) conduct research to identify better methods of managing feral swine 
damage. APHIS has established operational programs in all States where 
there is a recognized feral swine population. APHIS is leading the 
effort, tailoring activities to each State's circumstance and working 
closely with other Federal, State, tribal, and local entities.
    APHIS has formed State-level task forces, to coordinate approaches 
and further ensure program success. We have begun to conduct 
operational activities in cooperation with our partners. APHIS has 
allowed variation among State agreements to account for individual 
State interests, regulations, along with variation in habitat and 
resources. APHIS' strategy is to provide resources and expertise at a 
national level, while allowing flexibility to manage operational 
activities from a local or State perspective. In States with relatively 
few feral swine we are collaborating on efforts to eliminate the 
animals from those States. In other States where feral swine are more 
abundant we are cooperating to suppress populations in targeted areas 
to reduce damage to agriculture and other resources. APHIS has been 
building upon previous successes, such as the 2013 New Mexico feral 
swine eradication project. Through this continuing effort, APHIS has 
removed feral swine from more than 5.4 million acres in New Mexico.
    Another key part of the national program will include surveillance 
and disease monitoring to protect the health of our domestic swine. 
APHIS is testing feral swine for diseases of concern for U.S. pork 
producers, such as classical swine fever, which does not exist in the 
United States, as well as swine brucellosis, porcine reproductive and 
respiratory syndrome, swine influenza, and pseudorabies. APHIS is 
currently establishing procedures for disease monitoring, including the 
development of new surveillance and vaccination methods. Ensuring that 
diseased feral swine are not a threat to domestic swine keeps U.S. 
export markets open.
    APHIS is conducting research to develop and evaluate new tools to 
further reduce damage inflicted by feral swine. Examples of potential 
tools that could dramatically influence the population growth of feral 
swine include toxicants and fertility control agents, coupled with safe 
delivery systems.
    Question. What roles are States playing and how are costs being 
shared?
    Answer. States will play a critical role in the success of this 
program. APHIS established strong partnerships with organizations such 
as State Associations of Fish and Wildlife Agencies, the National 
Association of State Departments of Agriculture, and the National 
Association of State Animal Health Officials. APHIS is collaborating 
with other Federal agencies, as well as tribal and local cooperators. 
Since environmental conditions and laws governing feral swine vary 
considerably among States, APHIS' strategy is to provide resources and 
expertise at a national level, while allowing flexibility to manage 
operational activities from a local or State perspective. Most States 
are developing feral swine task forces to enhance communication among 
entities that share a common interest in reducing or eliminating 
problems caused by feral swine. APHIS serves on these task forces, 
providing guidance on management options and utilizing available 
resources.
    State, tribal, and local cooperators are providing both financial 
resources and in-kind services. In-kind services offered vary among 
States, ranging from housing for employees working in remote sites to 
supplying helicopters in the aerial program. States also are providing 
staff to assist with operational removal of feral swine in joint-
projects. In fiscal year 2014, cooperators have pledged to provide more 
than $7 million in funding and more than $1 million via in-kind 
services toward reducing problems associated with feral swine.
    Question. How will you determine priorities among States with 
existing heavy infestations and States with small hog populations in 
which elimination is a viable possibility?
    Answer. APHIS will establish an operational program in all States 
where feral swine are recognized. Estimated populations within States 
vary from less than 1,000 feral swine, to more than 750,000 feral 
swine. APHIS worked with State Agencies and groups, such as State 
Association of Fish and Wildlife Agencies, the National Association of 
State Departments of Agriculture, and the National Association of State 
Animal Health Officials, to determine the appropriate strategy to 
address feral swine in each affected State. Consideration was given to 
such things as, estimated State current population, current and future 
damage prevented, as well as considering individual State laws and 
regulations.
    In States where feral swine populations are large and widely 
distributed, our goal will be to suppress populations to a manageable 
level. At that point, we will work with States to utilize control 
methods to ensure agricultural and natural resources remain properly 
protected. Additionally, we will utilize funding where there is an 
opportunity to eliminate animals from a State or targeted area where 
rapid re-establishment is unlikely. As feral swine are eliminated from 
targeted areas, APHIS will shift support to increase emphasis in other 
areas, while maintaining the capacity to monitor for newly introduced 
animals.
                           program reductions
    Question. Mr. Secretary, this budget proposes a reduction of $37 
million in APHIS program funding. These reductions are largely focused 
on programs that are high Senate priorities. Please explain the 
rationale for choosing these programs for reductions.
    Answer. The fiscal year 2015 budget proposes reductions to the 
Avian Health, Cotton Pests, Plant Protection Methods Development, 
Specialty Crop Pests, and Tree and Wood Pests programs. In regard to 
the first two programs listed, APHIS and cooperators have made 
significant progress in meeting program goals. Because of the level of 
surveillance and analysis APHIS has already conducted regarding avian 
influenza, APHIS is able to make targeted reductions in the Avian 
Health program. Additionally, APHIS has eradicated boll weevil from 
99.5 percent of cotton producing land in the United States and is 
beginning a series of surveys to confirm that the pink bollworm has 
been eradicated. The proposed decrease in the Plant Protection Methods 
Development program is for the National Clean Plant Network, for which 
Congress provided ongoing funding through the Agricultural Act of 2014. 
In regard to the reductions proposed for the Specialty Crop Pests and 
Tree and Wood Pests programs, APHIS is continuing its longstanding 
effort to balance the contributions of the Federal Government and 
cooperators, recognizing that there are national, regional and local 
benefits of pest and disease management.
    Question. What assurances can you provide that Senate priorities 
regarding combating invasive pests and diseases will be honored?
    Answer. USDA realizes the importance of these programs, but also 
believes that these activities should be a cooperative effort and a 
shared responsibility between the Federal Government and the State and 
local governments whose people will most directly and immediately 
benefit. The Department's budget represents our determination to find 
the correct balance in these responsibilities. USDA realizes the 
importance of these programs, but also believes that these activities 
should be a cooperative effort and a shared responsibility between the 
Federal Government and the State and local governments whose people 
will most directly and immediately benefit. The Department's budget 
represents our determination to find the correct balance in these 
responsibilities.
                            citrus greening
    Question. Mr. Secretary, please bring us up to speed on how the $20 
million in funds to combat citrus greening are being used and the 
prospects for controlling this ruinous disease.
    Answer. USDA recognizes the devastating impact citrus greening, or 
Huanglongbing (HLB), is having on the Florida citrus industry and the 
threat it poses to other citrus-producing States. USDA established the 
new Multi-Agency Coordination (MAC) response framework in December 2013 
to help address the industry's immediate needs in a more direct way. To 
jump start this initiative, USDA provided $1 million to support 
projects that can bring practical and near-term solutions to combat the 
disease, and Congress also provided $20 million through the Fiscal Year 
2014 Consolidated Appropriations Act. In addition to APHIS, the MAC is 
comprised of representatives from the Agricultural Research Service 
(ARS); the National Institute of Food and Agriculture (NIFA); the Risk 
Management Agency; the Environmental Protection Agency; State 
representatives from Florida, Arizona, California, and Texas; and 
industry representatives from Florida, California, and Texas. The HLB 
MAC Group's priority is to fund projects that are ready to be taken 
from the research arena to the field and used to help growers right 
now. The HLB MAC Group has decided to establish two parallel processes 
for funding short-term, practical HLB research projects: (1) a direct 
funding process and (2) a stakeholder suggestion process.
Direct Funding Process
    The HLB MAC Group will develop project proposals for some of the 
most promising tools identified by group members, with input from 
stakeholders. The MAC Group plans to provide funding for several of 
these projects in early May 2014. Examples of the activities that will 
be funded include scaling up biological control (using specialized 
wasps to control Asian citrus psyllid populations), field testing of 
promising anti-microbial treatments against HLB, and field-delivery 
systems for using thermal therapy to treat HLB-infected trees.
Stakeholder Suggestion Process
    The HLB MAC Group will also use an online suggestion system. 
Industry, academia, and State and Federal researchers can submit short-
term, practical solution suggestions for potential funding. The MAC 
Group is developing specific criteria for evaluating the suggested 
projects, including the stipulation that the tool or technique be ready 
to test in the field, implement immediately, or promise to provide a 
tool or solution for the industry in the near term. After the MAC Group 
reviews the project suggestions to ensure they meet the criteria, a 
science panel made up of Federal, academic, and industry experts will 
further evaluate them.
    The MAC Group is moving as quickly as possible to provide funding 
as we know the urgent need for tangible tools to help growers in the 
most effective ways. Complementing these near-term, ready-to-implement 
solutions the MAC Group is funding, Congress directed at least $125 
million over 5 years to establish a research and extension program to 
combat citrus diseases and pests under the USDA Specialty Crop Research 
Initiative in the Agricultural Act of 2014 (farm bill). This funding, 
administered by NIFA and with input from stakeholders, will greatly 
expand USDA's ability to combat HLB with new science and technology for 
the mid- and long-term. USDA is hopeful that the short-term solutions 
funded by the MAC Group will help citrus growers deal with HLB while 
longer term solutions are developed.
    Question. This budget requests reduced funding to combat citrus 
greening. Is this request adequate for the task?
    Answer. The reduction proposed for Citrus Health efforts is not 
designed to reduce overall funding for the program. The reduction is 
part of USDA's longstanding effort to better balance the Federal 
portion of the costs of cooperative pest and disease programs that 
protect national, local, and industry interests. The budget requests 
sufficient funds to address this pest but relies on States and industry 
partners to increase their contributions to the program to ensure that 
the same level of effort will continue. Additionally, in fiscal year 
2014, Congress provided an additional $20 million in 2-year funding for 
the USDA Multi-Agency Coordination (MAC) Group related to citrus 
greening. The MAC Group will make these funds available in fiscal year 
2014 and fiscal year 2015 to help develop field-delivery systems for 
promising tools to combat citrus greening.
                   food safety and inspection service
New Methods of Poultry Slaughter Inspection
    Question. Mr. Secretary, what is the current status of implementing 
the new poultry inspection processes?
    Answer. We are hopeful that the final rule will be published soon 
so we may begin implementation.
    Question. The Department's position has been that these new 
processes would improve food safety. However, we continue to hear 
dissenting opinions on this issue. What new information do you have 
since our hearing last year, and can you provide additional assurances 
that food safety will be improved as a result of these inspection 
processes?
    Answer. The proposal to modernize inspection allows the Food Safety 
and Inspection Service (FSIS) to realign the duties of our inspectors 
so that they can focus on pathogen prevention and on proven food safety 
measures. Under the proposed new system, all FSIS inspection activities 
would focus on the critical food safety inspection and verification 
tasks, and the quality assurance tasks would be performed by industry. 
FSIS would continue to conduct carcass-by-carcass inspection, as 
mandated by law. A peer-reviewed risk assessment shows that a system 
that provides for increased off-line food safety inspection activities 
results in greater compliance with regulations, as well as lower levels 
of fecal contamination and equivalent or lower levels of Salmonella 
contamination. The risk assessment estimates that this new approach 
will prevent at least 5,000 fewer Salmonella and Campylobacter 
illnesses each year.
    We recognize that there have been concerns expressed about the 
proposed rule based on findings in a GAO report about the pilot 
program. However, while GAO found that there were limitations in the 
Agency's data analysis in evaluating the poultry pilot--the one 
significant finding that GAO outlined with respect to the poultry 
pilot, GAO acknowledged in their report that FSIS plans to address 
these limitations in the final rule. It should be noted that the report 
was not an indictment against the poultry slaughter rule (PSR). In 
fact, GAO described the pilot project, and the effort to deploy 
inspection resources more effectively, as a positive step.
    Question. The fiscal year 2015 request assumes implementation of 
these processes by the beginning of the fiscal year, and significant 
savings during the year. If the process is not implemented by October, 
do you plan to submit a budget amendment to ensure that FSIS has 
adequate administrative resources for the year?
    Answer. At this time we do not plan to submit a budget amendment. A 
determination of adequate administrative resources for FSIS would have 
to be based on when the final rule for PSR is published and the balance 
of remaining appropriations.
                           inspector shortage
    Question. Mr. Secretary, we have been told that USDA's decision to 
rely more on temporary inspectors has resulted in an inspector 
shortage, which is stressing the entire system. Is this 
characterization accurate? Please explain what is going on.
    Answer. This characterization is not accurate. Although the Agency 
has been hiring temporary inspectors, all positions required to 
maintain food safety are being staffed. Meat, poultry and processed egg 
facilities legally cannot operate without FSIS inspectors present, and 
a shortage of FSIS inspectors would result in reduced production or 
facility closures. It is important to note that this has not occurred. 
In the course of normal operations there will be unexpected absences 
that cause temporary staffing shortfalls until another inspector is in 
place. However, no recalls have been due to lack of inspectors on the 
job. The Agency maintains a standing corps of permanent and temporary 
or relief employees to provide inspection services in the event of 
illnesses, vacations, retirements and general scheduling issues. The 
Agency is committed to ensuring that we have the staffing, training, 
lab support, oversight and other resources that are necessary to ensure 
the safety of the food supply.
                           catfish inspection
    Question. Mr. Secretary, as you know both this subcommittee and the 
Agriculture Committee are very interested in USDA issuing a new 
regulation on catfish inspections. The farm bill requires 
implementation within 60 days of enactment. However, your recently 
issued report on the status of the regulation indicates you plan to 
publish the final rule in December 2014. Please let us know if there is 
anything this subcommittee can do to help expedite this process.
    Answer. When the proposed rule was published in February 2011, the 
Department solicited comments on several options for the definition of 
catfish in accordance with the 2008 farm bill, which left the 
definition of ``catfish'' open. Now that Congress has determined that 
all fish in the order Siluriformes are under FSIS jurisdiction, the 
matter is settled. While it is still necessary for a final rule to go 
through the necessary Departmental and OMB reviews, that clarification 
will help expedite the process towards publishing a final rule. FSIS 
estimates that the final rule will be published by December 2014.
                 office closings and agency reductions
    Question. Mr. Secretary, I want to discuss your budget request for 
the Farm Service Agency. We all know the important role this Agency has 
in helping our farmers and ranchers. When comparing apples to apples, 
the budget cuts FSA by nearly $66 million from last year.
    Taking this steep reduction and office closures into account, do 
you believe now is a good time to be cutting FSA especially when a new 
farm bill is being implemented?
    Answer. During preparation of the fiscal year 2015 budget, FSA 
conducted a review of current county offices and staffing levels, and 
found the potential to consolidate approximately 250 field offices. 
There are steps that need to be taken to reshape and restructure FSA's 
county offices and workforce, however, before FSA can begin preparing 
any office consolidation plan. The Agency has not yet identified 
specific offices for closure.
    Question. How can we reassure our farmers that FSA will be 
responsive when there will be fewer personnel and fewer offices open?
    Answer. FSA's salaries and expenses budget request reflects USDA's 
continued commitment to achieving cost-savings and increased 
efficiencies, while continuing to provide farmers and ranchers with the 
highest levels of customer service.
    FSA is presently working on a service center structure concept that 
will realign workforce and invest in improved technology to provide 
quality customer service by providing a full range of access to FSA 
programs, increased efficiencies through specialization, expanded 
customer flexibility and options in program delivery, and serve as a 
referral gateway to other agricultural and rural services.
    The concept is intended to establish a more flexible footprint in 
each State to best utilize staff resources, improve program outreach to 
new and current customers and enhance cross training of FSA employees. 
The centralization of program service, resulting in generally larger 
staffs, will provide managers with greater employee supervision and 
oversight, increased opportunities to train employees, and improved 
internal controls that ultimately will improve efficiencies in program 
delivery and enhance public trust in the Agency.
    Question. Do you believe it's reasonable for this Committee to 
agree to close offices when we don't even know which offices will be 
closed?
    Answer. FSA will conduct a study during 2014 to identify areas for 
realignment. Until then, no specific offices have been identified for 
consolidation, and there is no list of offices under consideration for 
consolidation. Before attempting to close any office, USDA is 
committed, per statute, to hold public meetings in each affected county 
within 30 days of any announcement of pending closure as well as 
providing necessary Congressional notifications. However, FSA needs the 
flexibility to change its county office structure in the face of 
declining resources. Maintaining underutilized offices reduces our 
capacity to adequately serve the Nation's farmers and ranchers.
    Question. Please provide detailed information regarding USDA's plan 
to determine which offices to close, including a proposed timeframe, 
and all information that will be considered, including the weight given 
to each factor.
    Answer. FSA is working to more strategically locate and structure 
its workforce, workload, location, office staffing structures, and 
customer needs. This approach is not fully developed and information is 
not yet available.
                                 midas
    Question. Since fiscal year 2009, this subcommittee has spent 
roughly $300 million on Modernize and Innovate the Delivery of 
Agricultural Systems (MIDAS). While we are committed to modernizing IT 
systems of the Department, we are concerned there is no clear direction 
for the MIDAS program.
    Can you please update us on the status of MIDAS?
    Answer. MIDAS is live and deployed nationwide to 9,000 employees 
across 2,124 State and county offices to manage 11 million customer 
records and 5 million farms with 8.1 million tracts and 38 million 
fields. For the first time ever, the system consolidates land and 
producer information on one computer screen, which dramatically 
improves customer service and FSA processes. MIDAS has improved 
customer service by modernizing FSA processes in the county office, 
streamlining the process to reconstitute a farm replacing manual 
processes with automated workflows, reducing manual handling and paper 
tracking, and accelerating the synchronization of Social Security death 
notifications, reducing erroneous payments. Our roadmap includes 
continued simplification of the IT portfolio, partnering with key USDA 
Agencies and teams, and enhancing service delivery.
    Question. How will MIDAS be used to implement the new farm bill?
    Answer. Because MIDAS is the platform for producer and land 
information, FSA is coordinating the capabilities of MIDAS to meet the 
timelines for farm bill implementation. For example, MIDAS is in use 
today by FSA field office staff supporting producer updates of farm 
information required for farm bill program enrollments.
    Question. After all this investment, how will MIDAS help our 
farmers?
    Answer. Prior to MIDAS going live last year, all field offices and 
employees had to use multiple systems when serving producers who 
visited the county offices. They were required to move between systems 
(e.g. on the AS400, the Web systems, mainframe systems, GIS systems, 
etc.) to enroll producers into programs. They needed to print farm maps 
to work with producers on acreage volumes/content, as well as numerous 
manual processes. Along with providing a single view of producer data, 
MIDAS allows a producer to conduct their farm management business with 
any service center nationwide through a single visualization of the 
farm.
    Question. The budget proposal includes maintenance funding for 
MIDAS. Is additional funding required if MIDAS will be able to, as has 
been stated, allow farmers to access USDA programs from their kitchen 
table?
    Answer. The fiscal year 2015 budget proposes funding for the 
continued operations and maintenance of MIDAS, including support for 
service desk and application maintenance support, software licensing, 
and hosting. The development and maintenance of customer self-service 
that will allow farmers and ranchers to access USDA programs over the 
Internet is included within a larger portfolio of FSA initiatives aimed 
at transforming FSA business processes, service delivery practices, and 
information technology tools.
                       food and nutrition service
Summer EBT Demonstration
    Question. The budget is requesting an additional $30 million to 
expand the summer EBT (electronic benefit transfer) demonstration 
project.
    Can you please explain how you intend continue these demonstration 
projects?
    Answer. USDA's Food and Nutrition Service (FNS) implemented the 
Summer Electronic Benefit Transfer for Children (SEBTC) at sites in 10 
States and Indian tribal organizations which provided the families of 
low-income school aged children with benefits similar to the 
Supplemental Nutrition Assistance Program (SNAP) and the Special 
Supplemental Nutrition Program for Women, Infants, and Children (WIC), 
giving them more resources to use at retail food stores during the 
summer months when school was out of session. A rigorous, independent 
evaluation of the demonstrations shows impressive results, i.e., that 
SEBTC can reduce food insecurity among children substantially. In 
addition, participating children in households with SEBTC ate more 
fruits and vegetables, whole grains, and dairy foods while consuming 
fewer sugar-sweetened beverages. These impacts were present at sites 
using the SNAP EBT model and the WIC EBT model.
    Based on these encouraging results, FNS is proposing to continue 
these demonstration projects in fiscal year 2015, possibly by 
capitalizing on the strength of existing sites through further 
expanding in the same and adjacent areas as were included in the 
original demonstrations, or by testing the model through a full-State 
implementation in one or two small States. The information gleaned from 
statewide implementation in one or two States would provide important 
information on the feasibility of expansion of the pilots--in 
particular, whether the WIC EBT model or the SNAP EBT model has a 
higher possibility of success in implementation.
    Question. Will you be using the WIC EBT model or SNAP EBT model?
    Answer. USDA anticipates using both the SNAP and WIC models, and 
will make determinations based on an individual State's capacity. 
Currently, there are only eight States with statewide WIC EBT systems. 
FNS would likely make State selections based on a number of factors, 
such as rates of poverty and food insecurity, and Summer Food Service 
Program participation. Further, we would use this opportunity to 
further examine the efficacy of the WIC and SNAP models, to determine 
whether future activities should focus on one model over the other.
                            wic food package
    Question. The budget also includes an increase of $322 million to 
implement the new WIC food package.
    Can you please describe how these funds will be utilized?
    Answer. The $322 million will be obligated for food grants in 
fiscal year 2015 as compared to fiscal year 2014. This increase is 
comprised of $207 million in new budget authority and about $115 
million of carryover from prior years. Approximately $102 million of 
the increase in food funding is attributable to normal food inflation. 
The remaining $220 million increase is due to improvements in the food 
package to increase participants' access to fruits and vegetables, 
whole grains and low-fat dairy. The fruit and vegetable cash-value 
voucher for children is increased from $6 to $8 per month, the level 
recommended by the Institute of Medicine. Yogurt has been added as a 
partial milk substitute for children and women. Whole grain and fish 
options have been expanded to include pasta products and canned Jack 
mackerel, respectively.
    These science-based revisions will improve the nutrition and health 
of the Nation to fiscal year 2014. This increase is comprised of $207 
million in new budget authority and about $115 million of carryover 
from prior years.
    Question. If this Committee is unable to provide these additional 
funds, how would the Department prioritize overall WIC funding?
    Answer. We will continue work with the Committee to secure adequate 
funding to serve all who are eligible for the program and support the 
changes in the WIC food packages. Please note that all State agencies 
are required to implement the increase in the cash value voucher by 
June 2, 2014, and the budget request reflects the implementation of 
that change. The other major changes in the food package provide added 
options and flexibilities for State agencies in meeting the nutritional 
needs of participants. However, once the funding level is known for 
fiscal year 2015, State agencies will need to determine if they are 
able to implement the remaining food package improvements based on 
their specific food grant.
                        public law 480, title ii
    Question. While I appreciate the budget keeps funding for Public 
Law 480 within the jurisdiction of this subcommittee, I do have 
concerns with your request allowing 25 percent of the emergency funds 
to be used for local purchase or cash.
    How is providing less U.S. commodities for this important program 
better for our farmers?
    Answer. When Public Law 480 became law in 1954, Congress was 
responding to both international hunger needs and an increasingly 
costly Government-held farm surplus commodities program. At the time, 
USDA was storing significant quantities of surplus commodities at 
considerable cost to the U.S. taxpayers. Donation for international 
food assistance was an effective means to dispose of the surplus 
commodities. Such surpluses do not exist today.
    Given today's market, our food assistance operations need to 
balance market realities and food aid needs while also striving to 
reduce costs, especially in times of emergencies. With the strength of 
commercial agricultural exports, we would not expect substantial 
economic impact from the use of up to $350 million of the Public Law 
480 title II appropriations in emergencies for interventions such as 
local or regional procurement of the agricultural crises, food vouchers 
or cash transfers to provide for improved food aid delivery.
    The administration's budget request seeks additional steps to 
improve the efficiency and effectiveness of the food aid programs. We 
know from the crises in the Philippines, Syria, and Somalia this year 
that these flexibilities helped to get food to thousands of families in 
need and were critical to our success, especially in the immediate 
response.
    The administration continues to seek reforms in food aid due to the 
importance of these life-saving tools and the potential for cost 
savings. Products can be delivered more quickly to recipients, because 
the purchase and delivery of U.S. products can take on average between 
4 and 6 months, while locally and regionally procured products can 
arrive as much as 11-14 weeks sooner. Studies have shown that local and 
regional procurements can reduce costs by 25-63 percent in specific 
situations. The increased efficiency and cost savings would allow USAID 
to reach up to 2 million additional people per year.
    Question. Shouldn't we allow the changes made in the farm bill to 
happen before we start altering the program again?
    Answer. The administration appreciates the additional flexibilities 
that the Agricultural Act of 2014 provided for the food aid programs. 
The budget request for increases in flexibilities reflects the same 
spirit of the farm bill provisions. The intent is to allow for our food 
assistance response to meet the need of the emergency whether it is 
cash, local procurement, prepositioned U.S. commodities or U.S. 
commodities shipped from the United States.
                           rural development
    Question. Mr. Secretary, this subcommittee values the income 
generation and job creation opportunities that Rural Development 
programs provide in rural America. However, this budget cuts overall 
Rural Development (RD) funding by 9 percent in budget authority and 
over 4 percent in program levels, compared to fiscal year 2014. Mr. 
Secretary, please explain why this budget doesn't focus more on the 
residents of rural America.
    Answer. This budget continues USDA and Rural Development's 
commitment to serving rural America. While some programs see proposed 
reductions, others are increased and overall, Rural Development's 
portfolio continues to grow, currently standing at just under $200 
billion. In a time of fewer resources available across the Federal 
Government, this is a time of difficult choices. The funding levels 
requested will enable Rural Development to continue to serve 
individuals, businesses, and communities throughout rural America. His 
proposal builds on RD's foundational support in rural communities.
    [The information follows:]
    Rural Development's reach to residence of rural America is 
significant and will continue under the current budget:
  --RD provided home ownership opportunities for 170,000 residents in 
        2013 (2012: 153 thousand residents).
  --RD's community facilities programs provide 5.4 percent (3.1 million 
        residents), 3.4 percent (1.9 million residents) and 9.3 percent 
        (5.4 million residents) of rural residents new and/or improved 
        essential communities facilities in health facilities, public 
        safety facilities and educational facilities respectively in 
        2013 (2012: 7.42 percent: health 4.3 million residents; 3.71 
        percent safety. 2.1 million residents; 6.41 percent 
        educational, 3.7 million residents).
  --Through Rural Utilities Service, RD provided 8.7 million residents 
        with new and/or improved Electric services in 2013 (2012: 8.3 
        million residents). RD provided 129,000 residents with new and/
        or improved telecommunications and broadband services in 2013 
        (2012: 63,000 residents). And RD provided 1.8 million residents 
        with new and/or improved Water services in 2013 (2012: 2.5 
        million residents).
  --Through Rural Business-Cooperative Service, RD created or saved 
        39,000 jobs through investments in business, entrepreneurship, 
        cooperatives and industry in 2013 (2012: 52,000 jobs). RD 
        provided assistance to 2,240 small business and cooperatives in 
        2013 (2012: 443 small business and cooperatives). RD provided 
        renewable energy and efficiency opportunities with 14,734 
        million of kWh of generation (2012: 7,279 million kWh), and 
        1,379 million gallons of biofuels for rural residents in 2013 
        (2012: 1,232 million gallons).
    RD expects to increase these significant contributions to rural 
American residents in the approved 2014 budget fiscal year and with the 
2015 fiscal year budget proposal.
                           rental assistance
    Question. Mr. Secretary, this budget includes proposed reforms to 
the Rental Assistance program, which provides rent subsidies to the 
poorest rural residents served by the Department. Approximately 6,000 
rural Arkansas households rely on Rental Assistance to obtain 
affordable housing, with about 3,500 of these households being headed 
by the elderly. We need to make this program sustainable for the long 
term.
    Please explain how these reforms will save money while continuing 
to protect the most vulnerable rural households.
    Answer. The Rental Assistance program provides benefits that enable 
low-income Americans in rural communities to enjoy safe, decent and 
affordable rental housing. The cost of Rental Assistance has increased 
substantially. We are committed to maintaining the program, but 
recognize its increasing cost has caused significant budget pressure 
for many Rural Development programs. The 2015 budget requests new 
authorities to improve the management of the Rental Assistance program 
and ensure the long term viability of the program is ensured. Three of 
the authorities will provide systemic changes to increase program 
integrity and predictability. These changes will ensure that the Rental 
Assistance program continues to provide a safety net that assists the 
neediest rural residents and ensures the program's long-term 
sustainability.
    One of the systemic changes to the Rental Assistance program 
establishes a minimum rent requirement of $50 per month regardless of 
tenant income level. The proposal is similar to the minimum rent 
requirement used in HUD affordable rental housing programs. The 
proposal includes hardship exemptions for tenants that can demonstrate 
they are unable to pay the minimum, and eviction of tenants is 
prohibited if they cannot afford to pay the minimum rent. The second 
proposal would provide access to income verification through the 
National Database of New Hires. The third proposal would change Rental 
Assistance agreements so they renew on the 12-month anniversary date of 
the agreement, rather than automatic renewal if funding is exhausted 
prior to the anniversary date.
    Rural Development estimates that the systemic proposals could save 
as much as $20 million in 2015. The other two requested authorities 
will increase flexibility to manage the program, particularly in times 
of reduced budgetary funding or delayed funding under continuing 
resolutions. Having flexibility in renewal amounts and timing will 
extend the available funding to as many properties as possible during 
the reduced funding period.
    Question. Under the minimum rent, how many households will see 
their rent payments increase?
    Answer. The 2015 budget requests the authority to require a minimum 
rent payment of $50 per month regardless of tenant income level. The 
proposal includes hardship exemptions for tenants that can demonstrate 
they are unable to pay the minimum. These hardships may include the 
loss of family income due to the termination of employment, termination 
of benefits from other programs, or the death of an income earner. The 
proposal also prohibits the eviction of tenants if they are financially 
unable to pay the minimum rent.
    There are currently about 42,000 households that pay between $0 and 
$50 per month as their tenant contribution toward the rent payment. The 
actual number that would see their tenant contribution increase to $50 
per month would depend on the number of exemptions approved.
    Question. How much will these reforms save?
    Answer. The budget assumes that minimum rent and eliminating 
automatic renewals will save approximately $20 million in fiscal year 
2015. The savings estimated could decrease depending on the households 
that could be exempted from paying the minimum rent. Additional savings 
can be achieved in the future as all expiring contracts are renewed 
Access to the National Directory of New Hires database will assist in 
maintaining a low improper payments rate and reduce the amount of 
subsidy. The other reforms will provide program flexibility in times of 
reduced funding: ``partial year funding'' and selective renewals both 
will enable the program to utilize available funds to the maximum 
extent possible and will not provide savings.
    Question. Are you considering other reforms to further increase 
savings and improve program management?
    Answer. RD has reached out to stakeholders to discuss the future 
sustainability of the Rental Assistance program and has solicited input 
in developing a long-term plan. Discussions have centered on how to 
determine if properties continue to meet the mission of providing low 
income rural residents with assistance. Rural Development has also 
asked about potential alternatives to improve the predictability of the 
program's funding needs, as RD proposes to achieve through the proposal 
to only fund Rental Assistance agreements once a year, on their 12-
month anniversary date.
               direct single family housing loan program
    Question. Mr. Secretary, the direct single family housing loan 
program has been the flagship housing program in this Department for 
years. Very low- and low-income rural households are provided 
homeownership opportunities with no down payment and low interest 
rates. This is the most efficient Federal homeownership program of its 
type, with its portfolio credit quality at least matching FHA and VA, 
and far exceeding the commercial subprime market.
    This budget cuts this program by 60 percent from the fiscal year 
2014 level, reducing the loan level from $900 million to $360 million.
    Mr. Secretary, we rejected this proposal in fiscal year 2014. Why 
are you bringing it up again, so soon?
    Answer. The Department acknowledges the importance of the Section 
502 Direct Loan program in providing the only way for many low- and 
very low-income families an opportunity to attain homeownership in 
rural America. Our budget authority request for fiscal year 2015 has 
actually increased from $24 million provided last year to $27 million; 
however the subsidy rate has also increased due to cost of borrowing 
for the Federal Government and additional subsidy provided to the 
borrower thereby causing a decrease in program level. With continued 
low interest rates and the increased use of our guaranteed program, we 
project at that about 43,000 of low- and very low-income rural families 
will be served with guarantees of loans from participating lenders. 
Last year, about 22 percent of our nearly 163,000 guarantees went to 
low-income families and 4 percent to very low-income families. The 
Single Family Direct loan program request will still assure families 
participating in Self-Help housing and those with greater needs will 
have access to credit to own their own homes.
    Question. Is there any other Federal homeownership program that can 
help families the way that Section 502 does? If not, where will these 
families go to get housing assistance?
    Answer. Single Family Housing Direct Loan program plays an 
important role in meeting USDA's commitment to improving the economic 
vitality and quality of life in rural America. It is anticipated that 
at the fiscal year 2015 proposed funding level of $360 million for 
Section 502 approximately 2,900 low- and very low-income families will 
achieve homeownership.
    USDA also intends to continue developing partnerships with 
qualified nonprofit organizations in rural areas to deliver program 
funds where they are needed most. These partnerships occur with our 
field offices and local nonprofits. We are also establishing a 
certified loan packager program where trained nonprofit staff would 
assure program funds go to those who lack other housing opportunities. 
We recognize that families living in more rural, poorer communities 
have difficulties accessing programs and services that promote long-
term wealth. The Department anticipates that the assistance from 
nonprofit groups will provide targeted delivery of program funds to the 
most economically distressed and lower income communities.
    Question. What is the current backlog of Section 502 applications?
    Answer. [The information follows:]

  DIRECT 502 LOAN PROGRAM PENDING REQUESTS THROUGH 30-SEP-2012, 30-SEP-
                            2013, 26-MAR-2014
------------------------------------------------------------------------
             Report date               Number pending   Requested amount
------------------------------------------------------------------------
30-Sep-12...........................            10,430    $1,305,987,908
30-Sep-13...........................             7,826       978,056,660
26-Mar-14...........................             7,386       917,123,159
------------------------------------------------------------------------

    These numbers represent the number of unprocessed applications on-
hand and the estimated amount of the requests, including any 
applications carried over from previous years. Upon notification of 
processing, applicants must update information as needed or the request 
is withdrawn.
    Question. A $360 million program level would only fund 60 loans in 
each State. How would you allocate such a small program in the face of 
huge demand in rural areas?
    Answer. With a program level of $360 million funds will be 
allocated to the States using the current allocation formula found in 
Rural Development Instruction 1940-L, which utilize a number of 
criteria, including: State substandard households; population areas 
less than 2,500; rural population; rural households between 50 and 80 
percent of the area Median Household Income (MHI); and households below 
50 percent of the area MHI. If it is determined that program objectives 
cannot be met using the formula allocation an administrative allocation 
could be substituted. An administrative allocation per 1940-L guidance 
would provide greater flexibility to direct limited funds to assure the 
funds best meet the intent of the program. Greater priority could be 
given to Self-Help participants and those most in need of this 
assistance, such as to remote areas and to underserved groups.
            water and waste disposal loan and grant program
    Question. The Water and Waste Disposal Loan and Grant Program 
provides loan/grant combinations to remote, low-income rural 
communities. Lower income communities receive a larger grant share, 
while higher income communities are required to rely more heavily on 
loans. Mr. Secretary, this budget cuts Water and Waste grants by almost 
$150 million.
    With this cut, how will the poorest and most remote rural 
communities afford the investments they need to provide residents with 
clean water and sanitary waste disposal?
    Answer. Rural Development is committed to continuing to serve small 
and economically challenged rural communities. The majority of the 
funds issued through the Water and Waste Disposal Loan and Grant 
program are loans. In most years the program maintains a 70-percent 
loan to 30-percent grant ratio as directed by appropriations. Through a 
scoring system and strict underwriting the program has been successful 
in ensuring that small rural communities have access to funding. In 
2013, 46 percent of the projects funded served populations of 1,500 or 
more and 70 percent of the projects funded were to serve populations of 
2,500 or fewer.
    The reduced subsidy rate on our loan portfolio, combined with the 
low interest rates will make loans more affordable for many 
communities. This will allow Rural Development to ensure that grants 
are reserved for the smallest, most economically challenged 
communities. We will also make use of our Special Evaluation Assistance 
for Rural Communities and Households (SEARCH) program, to provide 
grants for predevelopment, planning, design assistance and technical 
assistance for financially distressed communities with 2,500 or fewer 
residents. In addition, we will continue to partner with other State 
and local programs to fund projects requiring grants. In cases where 
sufficient grant funding for a project is not available, we will work 
with communities to consider other alternatives, such as phasing of 
projects.
    Question. Mr. Secretary, was this proposal included simply to take 
advantage of the $150 million in mandatory funding that the recently 
passed farm bill provides for this program?
    Answer. No. The mandatory funding provided in the Agricultural Act 
of 2014 to address the backlog of applications will allow Rural 
Development to provide assistance to more rural communities needing 
grant to construct water and waste infrastructure and to maintain 
affordable rates for the customers they serve. In April 2014, USDA will 
announce funding for projects. The funding will include the $150 
million in 2014 mandatory farm bill grants, partnered with loan and 
grant funding made available in the fiscal year 2014 appropriations.
                              rural corps
    Question. Mr. Secretary, this budget proposes to hire 150 economic 
development experts to pilot a new initiative, the Rural Corps, to 
deliver development expertise to disadvantaged rural areas. Ten rural 
areas will be selected to participate in the pilot.
    Please describe how this pilot initiative will operate.
    Answer. To clarify, the budget proposes 250 additional staff years. 
Of this total, approximately 100 would fill portfolio management and 
other core functions in the national office. The remaining 150 staff 
would be located in the field. Of the 150 placed in the field, about 50 
would be part of the proposed 21st century workforce pilot called Rural 
Corps.
    Question. What exactly will the pilot be testing?
    Answer. [The information follows:]
    This pilot would test ways of:
  --a. Serving high-need areas, like the Delta, Appalachia, the 
        Southwest border, and Indian country.
  --b. Modernizing Rural Development's field structure to suit a 21st 
        century workforce and to reflect the changing dynamics of rural 
        America, new technology, and the deep challenges in areas of 
        persistent poverty.
  --c. Leveraging Federal investments through increased coordination 
        among Federal, State, local, private, and nonprofit partners; 
        and
  --d. Building a modern workforce that is mobile, flexible, 
        responsive, outcome-oriented and accountable.
    Question. How will the 10 pilot areas be chosen?
    Answer. Rural Development will identify pilot areas first by 
characterizing the pool of communities with greatest demonstrated need 
defined as high poverty and low capacity for economic development. 
Rural Development will then select specific pilot areas applying 
preference for geographic and other forms of diversity in order to best 
apply learnings from the pilot to potential future delivery of RD 
programs.
    Question. How will you measure success or failure?
    Answer. [The information follows:]
    In reviewing our efforts to reach new people and organizations we 
will measure:
  --Number of applications received in pilot vs. comparable non-pilot 
        areas;
  --Portion of applications awarded in pilot vs. comparable non-pilot 
        areas;
  --Number of new contacts and partnerships built vs. comparable non-
        pilot areas;
  --Non-Federal dollars leveraged in pilot vs. non-pilot areas;
  --Periodic surveys of staff and partner organizations in pilot vs. 
        non-pilot areas; and
  --Mapping and tracking of where Rural Development investments are 
        made.
    Question. Doesn't 150 staff seem like a very high density of 
experts to be focused on only 10 areas? That would be 15 staff per 
area.
    Answer. The proposed pilot requests no more than 50 staff in 10 
pilot locations with up to 5 staff per area.
    Question. This new staff would deliver technical assistance and 
coordinate and leverage resources from all Federal agencies. How do 
these responsibilities differ from responsibilities of current Rural 
Development employees?
    Answer. While there are exceptions, most Rural Development staff 
that to work in State, area, and field offices are hired for a very 
specific and relatively limited and inflexible set of duties. In many 
offices more than 50 percent--60 percent of staff work specifically and 
exclusively on Rural Housing Service loans, loan guarantees, and Multi-
Family housing programs. In a State with 50-60 employees, this means 
approximately 30 people who do housing work, 10 run Rural Development's 
other programs including community facilities, water/wastewater, 
business, energy. Add in administrative staff, an engineer, an 
architect, someone to do Human resources work, a public information 
coordinator and that's a full team.
    To better serve and meet the needs of rural communities and to do 
more to support locally identified economic development priorities, 
staff who are part of Rural Corps would be selected for a different and 
broader skill set. For example, Rural Corps staff might be selected for 
expertise in community planning or economic development, and be cross-
trained to understand resources and opportunities across USDA and 
across the Federal Government, as well as in the State and region where 
they work.
                         department initiatives
Strikeforce Initiative
    Question. Mr. Secretary, please describe some of the successes the 
StrikeForce initiative, and lessons learned to date.
    Answer. Since 2010 through the StrikeForce for Rural Growth and 
Opportunity Initiative, USDA has partnered with more than 400 community 
organizations, businesses, foundations, universities and other groups 
to support greater than 80,300 projects and ushered more than $9.7 
billion in investment in rural America. Because of StrikeForce efforts, 
USDA is improving access to capital, markets, healthy, affordable 
foods, electricity, broadband and water, increasing homeownership 
opportunities, and overall, improving the quality of life for rural 
families in areas of persistent poverty.
    For example, in Alabama, Arkansas, and Mississippi, members of 
farmers' agricultural cooperatives are now providing locally grown 
peas, greens and watermelons to national grocery chains for sale in 
selected stores. They have received direct and indirect assistance from 
USDA, as well as support from their 1890s land-grant universities.
    Also in Arkansas, our partnership with the Arkansas Delta Seeds of 
Change Coalition of 40 different organizations helped to create five 
new farmers markets in southeast Arkansas and the first summer feeding 
program using locally grown produce (in Forrest City). They are now 
seeking to expand farm to school opportunities in multiple school 
districts.
    In New Mexico, USDA finalized 75 home loans and grants to families 
living in the colonias communities of Luna, Hidalgo, and Dona Ana 
counties along the United States-Mexico border in 2013--a 30-percent 
increase from the 2012 fiscal year.
    In South Dakota, USDA helped to create the South Dakota Indian 
Business Alliance and the South Dakota Native Homeownership Coalition 
with the Governor's office, other Federal agencies and private funding. 
In the poorest county in the country, the Crow Creek Sioux Tribe just 
began work with another organization to assist with rural housing loan 
applications to increase the success in improving houses on the 
reservation.
    Question. Do you have plans to continue to expand the initiative?
    Answer. StrikeForce now operates in almost 800 rural counties, 
parishes, boroughs, tribal reservations and colonias in 20 States. 
Because of the success of StrikeForce in these States, numerous States 
are requesting to be included as official StrikeForce States. At their 
request, StrikeForce State coordinators are providing briefings and 
materials that explain the approach of the initiative. We will consider 
adding new States, as has happened every year since inception.
    Question. How are you tracking and measuring success?
    Answer. StrikeForce success is measured by the increase in program 
participation in the persistent poverty communities designated as 
StrikeForce areas (more than 20 percent poverty over 30 years). 
Increases in applications, eligible applications, loans, grants, 
contracts and outreach meetings are all StrikeForce performance 
indicators. Participation by socially disadvantaged, limited resource 
producers, women and beginning farmers and increases in local and 
regional food systems are also performance indicators measured by 
StrikeForce. These indicators are tracked and reported throughout the 
year across various USDA agencies.
    In 2013, the Natural Resources Conservation Service saw 
applications in StrikeForce areas increase 82 percent and the Farm 
Service Agency had a 14-percent increase over the year before. In the 
three original pilot States (Arkansas, Georgia, and Mississippi), 
program applications have increased 76 percent since 2010.
    Question. Isn't the proposed Rural Corps initiative duplicative of 
the StrikeForce initiative? Please explain the differences.
    Answer. StrikeForce is an outreach and partnership initiative that 
uses existing USDA personnel to raise awareness of, and break down 
barriers to participation, in all USDA programs in the poorest parts of 
20 States. The participating USDA staff are not trained economic 
development professionals, as proposed under the Rural Corps. By 
working with communities and organizations, StrikeForce seeks to assist 
through available USDA resources, which includes Rural Development as 
well as all the Service Center agencies (FSA and NRCS), as well as 
other USDA agencies. Rural Corps would be able to draw on Rural 
Development resources and public and private resources to expand the 
capacity to assist these rural areas of concentrated poverty.
                        promise zone initiative
    Question. Mr. Secretary, will you please describe the 
administration's Promise Zone initiative?
    Answer. Under the Promise Zones initiative, and the Department of 
Housing and Urban Development and USDA are partnering with high-poverty 
urban, rural, and tribal communities to create jobs, increase economic 
activity, improve educational opportunities, leverage private 
investment, and reduce violent crime. The Promise Zones will benefit 
from a comprehensive approach to development that will enhance and 
connect local assets ranging from schools to housing to jobs.
    The first five Promise Zones are in San Antonio, Philadelphia, Los 
Angeles, southeastern Kentucky, and the Choctaw Nation of Oklahoma. A 
second round of Promise Zones selections will begin fall 2014 and will 
be announced Spring 2015.
    The Promise Zones designation commits the Federal Government to 
partner with local leaders who are addressing multiple community 
revitalization challenges with on-the-ground technical assistance to 
help navigate Federal programs and regulations. This intensive 
engagement will help communities make the most of funding already 
available.
    The participating agencies will be working with selected Promise 
Zones to improve the coordination among Federal resources to enhance 
place-based strategies and increase the progress of community 
revitalization initiatives. As outcomes are achieved and best practices 
are developed, Federal agencies will apply that learning in the 
delivery of Federal funding and services to other communities working 
toward similar goals.
    Question. How were the two rural Promise Zones selected?
    Answer. The first round of Promise Zone designations was made in 
January 2014. In this first round, only communities that had previously 
received Federal support from a certain set of selected programs 
(Promise Neighborhoods, Stronger Economies Together, Sustainable 
Communities, Rural Jobs Accelerator, etc.) were eligible to apply. 
These communities had demonstrated their capacity in one area of the 
Promise Zones work and have already demonstrated their preparedness to 
broaden their efforts to additional revitalization priorities.
    In the next cycle, all high-poverty communities that meet the 
eligibility requirements will be able to apply.
    Applications were scored according to the selection criteria and 
points set forth in the final Application Guide for the appropriate 
category of Promise Zone (urban, rural, or tribal).
    In order to be selected, an application must have scored a total of 
75 points or more. Once scored, applications were ranked competitively 
within each of the three Promise Zone categories. Rural applications 
were ranked against other rural applications, tribal applications were 
ranked against other tribal applications, and urban applications were 
ranked against other urban applications.
    An inter-agency team led by Housing and Urban Development (HUD) ran 
the selection process for 2013, with USDA co-leading the rural and 
tribal selections. The Departments of Education, Justice and Health and 
Human Services participated as reviewers and provided input on the 
application materials.
    Question. How will you track and measure success in these zones?
    Answer. USDA will measure and track success with two processes. 
First, USDA will work with Promise Zone designees, HUD, and the other 
Federal agency partners to track Federal and private-sector activities 
and investments that occur in the Promise Zones. In addition, the 
Department of Health and Human Services (HHS) will lead a rigorous 
external evaluation to assess the outcomes of creating jobs, increasing 
economic activity, improving educational opportunities, and reducing 
violent crime in the Promise Zones. Both of these processes will be 
supported by the commitment that all Promise Zone designees have made 
to tracking progress and sharing data across their community partners 
(private-sector, nonprofits, Federal, State, and local agencies, etc.). 
This will help all partners work towards improvement and 
accountability.
    Question. How does the Promise Zone program differ from the 
Empowerment Zone/Enterprise Community program of some years ago?
    Answer. The Promise Zones Initiative has several key components 
that were absent in the Empowerment Zone/Enterprise Community program. 
The first is the role of Promise Zone lead applicants as the backbone 
organization with leadership responsibility and authority. The second 
is the engagement of high-level officials from across the partner 
agencies who can help create smart and fast solutions to delays or 
issues that may arise for Promise Zone designees. Lastly, the 
initiative does not include an influx of significant grant dollars.
                    made in rural america initiative
    Question. Mr. Secretary, the President recently announced the Made 
in Rural America export and investment initiative. Will you please 
explain and discuss this new initiative?
    Answer. The Made in Rural America export and investment initiative 
was established by the President in February 2014, with the goal of 
bringing together Federal partners to help rural businesses take 
advantage of export opportunities within the Federal Government. The 
President believes that exporting is a key opportunity for American 
businesses to expand and improve, and that access to Federal resources 
currently underutilized by businesses in rural America should be made 
more readily available. I strongly echo that belief, and have increased 
access to programs facilitating exports a priority in 2014. The 
President tasked the White House Rural Council, in coordination with 
the U.S. Department of Agriculture, the U.S. Department of Commerce, 
the Small Business Administration, the Export-Import Bank, the Office 
of the United States Trade Representative, and other agencies, to 
commit to connecting more rural businesses with resources that can help 
them in all phases of the export process, including beginning 
exporting, expanding current exporting operations, and accessing new 
customers in foreign markets. Federal agencies involved in the 
promotion of export resources will provide assistance to help rural 
businesses and leaders take advantage of new investment opportunities 
and access program information and resources from all across the 
Federal Government.
    [The information follows:]
    The Made in Rural America initiative sets out to do this by laying 
out a comprehensive strategy focusing on the following initial 
objectives:
  --Host five Made in Rural America regional forums dedicated to 
        promoting rural exports;
  --Convene an Investing in Rural America conference later this year to 
        connect major investors with rural business leaders, high-level 
        Government officials, economic development experts, and other 
        partners;
  --Host training sessions to equip local USDA Rural Development staff 
        in all 50 States plus territories with the tools they need to 
        counsel businesses on export opportunities and resources;
  --Provide enhanced export counseling for rural businesses to connect 
        with foreign buyers through the Department of Commerce's U.S. 
        Export Assistance Center trade specialists in over 100 domestic 
        locations and in collaboration with USDA's field staff;
  --Coordinate across the administration to promote rural-produced 
        goods and services at trade events including trade missions, 
        buyer programs, trade shows, and other promotion programs;
  --Educate local leaders across the country on the importance of rural 
        exports in partnership with NACo and through the Trade 
        Promotion Coordinating Committee;
  --Use the BusinessUSA online platform to better connect rural 
        businesses with export and investment resources and coordinate 
        support from across the Federal Government.
    Question. What do you estimate the administrative costs to USDA to 
be for this initiative?
    Answer. Administrative costs are expected to be minimal and no 
further funds are expected to be needed, due largely to the partnership 
between the agencies involved and the shared nature of costs.
    Question. Do you have estimates on the job creation, income 
generation, and export enhancement benefits the initiative will foster?
    Answer. Estimates for job creation, income generation, and export 
enhancement have not been developed, but appropriate metrics are being 
developed to measure the impact the initiative will have.
    Question. How long is the initiative planned to last?
    Answer. The Made in Rural America initiative has been implemented 
with the intent of increasing rural businesses' access to Federal 
programs and opportunities that can help connect them with investment 
opportunities and expand their reach to markets abroad. This will be an 
ongoing area of focus for the partners involved. The specific actions 
announced by the White House in February 2014 are expected to be 
delivered within 9 months from the time of the announcement of the 
initiative.
                             biotechnology
    Question. I understand and appreciate the work the Department has 
been doing to try to make deregulation decisions on biotech products in 
a more timely fashion. Secretary Vilsack has stated that USDA has 
reduced the time it takes to deregulate a biotechnology-derived 
agricultural product by roughly 360 days. In reviewing data from APHIS-
BRS, that reference appears to apply to only one product, which was 
deregulated in 658 days.
    BRS's figures show that it took USDA, on average, almost 900 days 
to make deregulation decisions on the eight products approved in 2013, 
with a range of 650 days to 1,366 days. However, Federal regulations 
require USDA to actually make a final decision within 6 months (180 
days) after companies submit a petition for deregulation.
    Can you help us better understand what further improvements will be 
implemented at USDA to ensure ag-biotech products are reviewed and 
deregulation decisions are made in a timely and predictable?
    Answer. In November 2011, USDA announced improvements to its 
process to grant nonregulated status for genetically engineered 
organisms, and published the implementation of this process in a 
Federal Register notice in March 2012. The goal of these efforts was to 
significantly decrease the length and variability of the process 
without compromising the quality of the analyses that support our 
decisions. Our process improvement analysis revealed an estimated 
timeline of 13-15 months is required to conduct quality analysis to 
support our decisions and protect plant health. Additional information 
is provided for the record.
    [The information follows:]
    Prior to implementing our process improvements in March 2012, USDA 
had a backlog of 23 petitions. The average completion time for 
petitions prior to this announcement was nearly 3 years (1,034 days). 
USDA transitioned 12 in-process petitions into the improved process. 
Since our announcement, USDA has also received 10 new petitions that 
are also following the improved process.
    USDA reduced its backlog from 23 petitions to 7 petitions. The 
Department currently has 16 petitions in review. Of those 16 in review, 
9 of the petitions are in the new process and 7 are dependent on the 
preparation of Environmental Impact Statements (EISs). Only one 
petition currently under review, not requiring an EIS, is part of the 
backlog. Petitions that require preparation of an EIS, take longer to 
complete nevertheless we have aggressive schedules to complete them. 
USDA expects to complete the remaining backlogged petitions in fiscal 
year 2015. Completion timelines will continue to decrease as the 
backlog is cleared.
    The improved petition process includes five major phases. Though we 
have not yet reached our overall timeline targets for completing 
petitions, we have made significant progress in decreasing timelines 
for multiple phases of the petition process.
  --1. Review of nine petitions for completeness resulted in an average 
        time savings of 257 days (8.5 months).
  --2. Publication of the petition for 60-day public comment occurred 
        for 16 petitions.
  --3. Preparation of 12 plant pest risk assessments (PPRA) resulted in 
        an average time savings of 53 days.
  --4. Preparation of 10 environmental assessments (EA) in an average 
        of 267 days (target = 180 days). USDA expects completion times 
        to decline towards the 180 day target as the backlog is 
        cleared. USDA has prepared 10 EAs under the new process. USDA 
        had recently improved the EA-preparation process, and since 
        2005 was completing them in an average of 213 days. The present 
        slow-down is attributed to the large petition backlog moving 
        nearly synchronously through the EA-drafting phase; USDA 
        expects completion times to decline towards the 180 day target 
        as the backlog is cleared.
  --5. Publication of PPRAs and EAs has two possible paths:
    --Path 1.--This path is for petitions involving genetically 
            engineered (GE) organisms that raise no substantive new 
            issues. USDA publishes the PPRA and EA for a 30-day public 
            review in the Federal Register with a preliminary 
            determination. The target timeline for Path 1 petitions is 
            just shy of 14 months (420 days).
      Five petitions completed Path 1 in an average of 798 days. Two of 
            these petitions were the first to go from start to finish 
            under the improved process, and they completed the process 
            in 658 days (1.8 years), about a year faster than the old 
            process.
    --Path 2.--This path is for petitions involving GE organisms that 
            raise substantive new issues. USDA publishes the PPRA and 
            EA for 30-day public comment in the Federal Register, 
            revises the documents based upon public input, then 
            publishes a final PPRA, EA and determination in the Federal 
            Register. The target timeline for Path 2 petitions is about 
            15 months (460 days). Two petitions transitioned into the 
            improved process completed Path 2 in 1,364 days. To date, 
            no petitions completed Path 2 from start to finish.
    Question. Is there a role for Congress in helping to improve 
predictability so that farmers continue to gain access to the best 
tools in a timely way?
    Answer. USDA appreciates the efforts of Congress to provide the 
necessary resources to USDA's biotechnology program and its continuing 
efforts to oversee certain genetically engineered (GE) organisms that 
might pose a risk to plant health. The level requested in the 
President's fiscal year 2015 budget proposal for biotechnology 
regulatory services will provide sufficient funding to meet the new 
process timelines.
    Question. The subcommittee also notes, in December 2013, at USDA's 
annual stakeholder public meeting, the Department promised to eliminate 
the current backlog of 16 biotech petitions by the end of 2014. At the 
same meeting in 2011, USDA committed to eliminating the backlog of 22 
petitions in ``about a year.'' In 2 years, USDA was able to decrease 
the backlog by only six petitions.
    How does USDA intent to accomplish its goal of clearing the backlog 
by the end of 2014?
    Answer. Prior to process improvement implementation in March 2012, 
USDA had a backlog of 23 petitions. Since implementation, USDA has also 
received 10 new petitions that also follow the improved process. USDA 
has reduced its backlog from 23 petitions to 7, while also managing 10 
new petitions since implementation. USDA expects to complete the 
remaining backlogged petitions in early 2015. Completion timelines will 
continue to decrease as the backlog is cleared. Though we have not yet 
reached our overall timeline targets, we have made significant progress 
in decreasing timelines. For example, complete reviews have decreased 
from 324 days to 67 days; and plant pest risk assessment preparation 
has decreased from 143 days to 90 days. We remain committed to meeting 
the target timelines.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                                drought
    Question. I want to extend my thanks and gratitude for your efforts 
in assisting California farmers, ranchers, communities, and citizens 
with our historic and unprecedented drought disaster.
    I have no greater priority than leveraging all available resources 
to conserve and maximize water within California, and to help my State 
and its agriculture industry mitigate the impacts of worsening drought 
conditions.
    In just my State alone, the California Farm Bureau estimates that 
500,000 acres of farmland will go fallow. It is also my understanding 
that an estimated 100,000 head of cattle will be lost from my State's 
herds. The California Department of Public Health has estimated that 17 
rural communities are already at risk of running out of drinking water, 
and it is clear that drought conditions will continue to worsen over 
the coming months since there is little chance of significant rain 
beginning this summer.
    How does the Department plan to target conservation programs and 
other resources to safeguard lives, maintain the drinking water 
supplies of rural communities, and help farmers conserve water and save 
their crops, especially permanent crops?
    Answer. USDA is exploring every avenue of assistance through its 
programs to address the drought and its impacts. Since 2012, USDA has 
focused more than $78 million of its Natural Resources Conservation 
Service (NRCS) conservation program assistance in States with extreme 
or exceptional drought to assist producers with mitigation efforts. Of 
these efforts in fiscal year 2014, USDA has made $25 million available 
through the Environmental Quality Incentive Program (EQIP) to help 
California agricultural operators use water more efficiently, stabilize 
fallow cropland, and protect their agricultural lands for future use. 
Funds are available statewide to install a number of conservation 
practices including irrigation efficiency, cover crops, rehabilitation 
of existing spring developments, protection of grazing lands, and other 
supporting components.
    In addition to California, USDA provided $10 million of EQIP funds 
for drought recovery in Nevada, Idaho, Nebraska, Colorado, Kansas, New 
Mexico, Texas, and Oklahoma. These funds will implement long-term 
strategies for conservation practices to mitigate the effects of future 
droughts. Providing this targeted funding allows States to prioritize 
drought mitigation activities through their locally led process.
    Beginning October 1, 2013, the Emergency Assistance for Livestock, 
Honeybees and Farm-Raised Fish Program (ELAP) assists livestock 
producers in recovering losses resulting from the additional cost of 
transporting water to livestock due to an eligible drought. The cost of 
transporting water includes costs associated with water transport 
equipment fees, labor, and contracted water transporting fees.
    The Department has participated in informational drought meetings 
throughout California that are sponsored by the California Department 
of Food and Agriculture. We are diligently addressing questions from 
growers, insurance companies, industry groups, the Farm Bureau, and 
other interested parties on the impact of water availability. We have 
provided explanations of crop insurance policy coverage and prevented 
planting provisions. As a result of significant concern over saving 
perennial crops, the Department has provided information that allows 
producers to consider options to mitigate the impacts of drought 
without jeopardizing their insurance coverage.
    Rural Development is actively working with impacted communities in 
California to determine potential assistance. Through the Water and 
Waste Disposal Loan and Grant Program, loans and grants for immediate 
and longer term infrastructure solutions can be provided to communities 
with populations of 10,000 or fewer to provide safe water and deal with 
waste water.
    The Agency can also provide funding thru the Emergency Community 
Water Assistance Grant (ECWAG). In January 2014, USDA Rural Development 
launched a new simplified process for the ECWAG program. The new 
process will reduce the filing burden on eligible applicants and 
improve the Rural Development's ability to deliver assistance to 
effected areas more quickly.
    Currently, 19 impacted communities have expressed interest in our 
ECWAG Program. The California Rural Development Office is working with 
these communities on application requirements, reviewing submitted 
applications and utilizing the new simplified ECWAG process wherever 
possible.
    In addition, USDA Rural Development Water and Waste Circuit Riders 
are available to impacted communities to provide technical assistance 
and support as they identify needs and explore solutions.
                              food safety
    Question. Mr. Secretary, I am deeply concerned about the increasing 
food safety risk from Salmonella and Campylobacter. As you are aware, 
an ongoing outbreak linked to poultry facilities in California has 
sickened 481 consumers. It is my understanding that there are more 
cases that may be linked to this outbreak, according to the Centers for 
Disease Control.
    According to testing done by the Food Safety and Inspection Service 
during 2012 in processing facilities; approximately 26 percent of 
chicken parts tested positive for Salmonella and 21 percent tested 
positive for Campylobacter.
    Testing by the National Antimicrobial Resistance Monitoring System 
of retail meat in California in 2011 found that 71.7 percent of chicken 
breasts tested positive for Campylobacter. This disturbingly high rate 
has remained essentially the same since this testing began in 2002.
    I am deeply disturbed by the fact that we have not made progress 
over the last 10 years in reducing the number of illnesses and deaths 
attributed to Salmonella and Campylobacter.
    Mr. Secretary, your Acting Under Secretary of Food Safety, Brian 
Ronholm, told me your Department will create a new Salmonella standard 
for poultry parts by the end of September and a revised Salmonella 
standard for ground chicken by the end of the year. I sincerely hope 
that they will be strong enough to result in a significant decrease in 
the number of foodborne illnesses linked to this pathogen.
    I am deeply concerned your Department has no timeline for when it 
will develop Campylobacter standards for these products. When 
specifically will you create Campylobacter standards for poultry parts 
and ground chicken?
    Answer. In May 2010, FSIS announced performance standards for 
Campylobacter in turkey and young chickens. The Agency issued a Federal 
Register notice for not-ready-to-eat (NRTE) ground or otherwise 
comminuted chicken and turkey products in December 2012. This notice 
announces FSIS will conduct Campylobacter testing from samples taken 
from establishments producing these products and also announces FSIS' 
intention to develop new Campylobacter performance standards for these 
products. Efforts are underway toward gathering data and other 
information so that next steps on reducing Campylobacter prevalence can 
be determined. Once these steps are completed it will allow us to 
provide a more specific timeline.
    Question. Mr. Secretary, I applaud your Agency's actions in 2012 to 
declare six additional deadly strains of E. coli as adulterants in 
meat. These bacteria presented a clear and present public health 
threat, and your Agency took a zero-tolerance stance against them.
    I am also gravely concerned that multi-drug resistant strains of 
Salmonella are equally deadly and should also be addressed with a zero-
tolerance standard.
    There have been three multi-State outbreaks of multi-drug resistant 
Salmonella associated with poultry products since 2011, causing 751 
known illnesses and 1 death. According to the Centers for Disease 
Control and Prevention, only 5 percent of Salmonella cases are part of 
recognized outbreaks. Therefore, these highly visible outbreaks may 
only represent the tip of the iceberg.
    What is deeply disturbing to me about the multi-drug resistant 
Salmonella strains is that they are often resistant to medically 
important antibiotics. These multi-drug resistant strains have caused 
alarmingly high rates of hospitalizations and blood infections compared 
to what is normally expected with human cases of Salmonella.
    This is why I wrote to you this past fall, urging you to take a 
stronger regulatory stance against these strains because they represent 
a greater public health risk. Based on your response, it is my 
understanding you do not believe your Department has the authority to 
do so.
    Mr. Secretary, what actions can your Department currently take to 
combat multi-drug resistant Salmonella strains?
    Answer. In the fiscal year 2015 budget, there is funding for 
collaborative work with Centers for Disease Control (CDC) and Food and 
Drug Administration (FDA) Centers for Veterinary Medicine, as well as 
sister USDA Agencies including Agricultural Research Service (ARS) and 
other departments to better understand the source, distribution and 
genetic evolution of antimicrobial resistant strains encompassing the 
entire transmission chain. FDA has the biggest role in combating these 
types of strains, but USDA absolutely sees ourselves as part of the 
solution and cooperates with our sister agencies to that end. In the 
Salmonella Action Plan, FSIS outlines several actions it will take to 
drive innovation that will lower Salmonella contamination rates, 
including establishing new performance standards; developing new 
strategies for inspection throughout the full farm-to-table continuum; 
addressing all potential sources of Salmonella; and focusing the FSIS 
education and outreach tools on Salmonella. The action plan also 
involves enhancing Salmonella sampling and testing programs to ensure 
they factor in the latest scientific information available and account 
for emerging trends in foodborne illness.
    Question. Do you believe USDA needs additional authority to better 
protect the public from multi-drug resistant Salmonella?
    Answer. Under relevant case law, Salmonella is not considered an 
adulterant, but using the existing legal framework, FSIS has 
established situations in which food that is contaminated with 
Salmonella is considered to be adulterated. FSIS is always adapting 
regulatory strategies to maximize their public health benefit. For 
instance, while FSIS has reduced the national average of Salmonella on 
young chicken carcasses during the past decade, our experience this 
past year with the Salmonella outbreak associated with Foster Farms 
poultry products reinforces the need to control this pathogen on 
chicken parts. A recently completed baseline survey found the national 
average of Salmonella on chicken parts to be approximately 24 percent. 
FSIS believes setting a performance standard for chicken parts will 
help reduce consumer exposure to Salmonella. Frequent presence of 
Salmonella in a product may indicate that the production process is not 
adequately controlled, and in situations like this, food that is 
contaminated with Salmonella is considered to be adulterated. In these 
instances, the Agency has the authority to close an establishment for 
failing to produce safe food and to keep it closed until adequate 
control measures are in place. The Agency has exercised this approach 
when supported by evidence that the facility in question was producing 
a product that was injurious to health.
    Question. Mr. Secretary, the Centers for Disease Control reports 
that our food safety system has not made progress in the last decade in 
reducing the number of illnesses and deaths caused by Salmonella. The 
CDC also reports that poultry products remain the most common commodity 
associated with foodborne outbreaks and the most common source of 
Salmonella.
    Mr. Secretary, the Animal and Plant Health Inspection Service runs 
the National Poultry Improvement Program, which tests for Salmonella 
strains that are important to the health of live poultry. The program 
also tests for a strain that causes illnesses associated with eggs.
    However, the National Poultry Improvement Program has not focused 
on testing for Salmonella strains that cause foodborne illness in 
humans, such as Salmonella Heidelberg, the strain implicated in recent 
outbreaks.
    Mr. Secretary, what additional actions can your Department take 
regarding poultry farms to help reduce the incidence of Salmonella 
strains that cause foodborne illness in humans?
    Answer. The Department has identified Salmonella as a top priority 
for FSIS in the 2011-2016 Strategic Plan. To remain on target, the 
Agency convened a working group, which developed a Salmonella Action 
Plan to itemize specific innovations to reduce Salmonella contamination 
rates in meat and poultry products. The Agency's authority starts at 
the establishment, not at the farms. However, FSIS works with its 
sister agencies, the Food and Drug Administration and Animal and Plant 
Health Inspection Service (APHIS) to reduce the prevalence of foodborne 
illness. In order to help decrease the prevalence of Salmonella on 
FSIS-regulated products at pre-harvest, the Agency will develop a 
document summarizing the lessons learned from previous poultry and beef 
pre-harvest meetings, and lessons incorporated into FSIS policies. The 
Agency will also continue to work with industry members on specific 
outbreaks to identify best practices and organize and host pre-harvest 
poultry meetings to inform future multi-agency Government policy or 
best practice guidelines.
                             antibiotic use
    Question. Mr. Secretary, I have become very concerned about the 
overreliance on antibiotics in agriculture and how this trend directly 
contributes to increasing antimicrobial resistance and virulence in 
foodborne pathogens.
    Over the last few years, we have seen the emergence of multi-drug 
resistant, highly virulent Salmonella in poultry products. For example, 
between 2002 to 2011 resistance to Ceftriaxone, an important antibiotic 
used to treat children who have Salmonella, increased from 10 percent 
to 34 percent in chicken, and from 8 percent to 22 percent in ground 
turkey.
    This is why I have introduced legislation to ban the non-
therapeutic use of medically important antibiotics in animal feed. I 
have also worked closely with the Food and Drug Administration on their 
important efforts to achieve this goal through administrative action.
    Specifically, FDA Commissioner Hamburg recently published guidance 
that will require all medically important antibiotics used in animal 
feed to be administered only upon the order of a licensed veterinarian 
and only for therapeutic reasons.
    What will be critical is that veterinarians take a leadership role 
in working closely with producers to prevent infections without using 
antibiotics, and to use antibiotics only when no alternatives exist.
    What steps is USDA taking to reduce antibiotic use in agriculture 
and prevent the development of antibiotic resistance?
    Answer. The issue of antimicrobial resistance (AMR) requires 
multidisciplinary coordination from both the public health and animal 
health sectors. USDA remains firmly committed to working with State and 
Federal partners, veterinarians, and producers to analyze the various 
uses of antibiotics in food animal production and to promote practices 
justified by sound science that could reduce the use of antibiotics on 
the farm while protecting animal health. The Food and Drug 
Administration (FDA) has been developing new Guidance for Industry 
(GFI) related to the AMR issue for the past several years. USDA 
participated in discussions with FDA on several of these Guidance 
documents, most recently GFI 213, which seeks the voluntary removal of 
label claims for growth promotion or feed efficiency for medically 
important antimicrobials which would bring all feed and water uses of 
medically important antimicrobial drugs under the oversight of a 
veterinarian. USDA is supportive of FDA AMR policies that effectively 
secure human and animal health. In addition, we are working with FDA to 
identify metrics to assess the impacts of current and future policy 
actions related to antimicrobial drug use in livestock and poultry.
    USDA is at the forefront of promoting biosecurity practices to 
reduce disease exposure and spread to keep livestock and poultry 
healthy, which can reduce the need for antimicrobial use. These efforts 
include the development of new vaccines, enhanced diagnostics, and 
alternative treatments to antimicrobial products such as 
immunomodulators (drugs which can enhance immune response and could 
potentially reduce some uses of antimicrobials). Furthermore, USDA has 
worked to develop a better understanding of the ecology and 
epidemiology of animal disease agents on-farm and at harvest and 
processing to identify ways to mitigate the risk of animals becoming 
infected and the risk of transmission of disease agents by foodborne 
routes. These efforts, combined with educational efforts promoting the 
judicious use of antimicrobials, will support a strong, healthy, and 
thriving U.S. animal-agriculture system as well as public health. In 
this regard, USDA is working with Federal, State and industry partners 
to help ensure the effectiveness of antimicrobials. Antimicrobials are 
beneficial in animal agriculture to improve the health and welfare of 
animals. We are committed to helping provide sound science to inform 
appropriate policy decisions regarding antimicrobials. The appropriate 
use of health management practices is pivotal to an on-farm strategy to 
optimize antimicrobial use on U.S. livestock and poultry operations.
    Question. How is USDA helping to increase veterinary oversight of 
antibiotic use?
    Answer. USDA has been assisting the Department of Health and Human 
Services (specifically the Food and Drug Administration (FDA)) in its 
development of policies related to the use of antimicrobial drugs in 
food-producing animals. We have provided FDA with results of analyses 
from a small producer survey conducted in part to gain information 
about producers' access to veterinarians. This information was critical 
for FDA to make decisions about how best to require veterinary 
involvement in the selection and use of medically important 
antimicrobial drugs via feed or water in livestock and poultry 
production. In addition, we work with producer groups and veterinary 
organizations to help assure the judicious use of antimicrobial drugs 
through quality assurance programs and educational modules. Further, we 
are working with producers, practitioners, and the pharmaceutical 
industry to describe antibiotic use practices by producers, determine 
the prevalence of antimicrobial resistance on the farm, identify risk 
factors for resistance development, and, develop and implement 
interventions to reduce antimicrobial resistance.
                    downed non-ambulatory veal rule
    Question. Mr. Secretary, I have been concerned over the years by 
the fact that downed, non-ambulatory veal calves can be slaughtered for 
human consumption.
    I wrote to your Department in 2009 asking that the slaughtering of 
downed veal calves be halted, and I have introduced legislation in the 
past to ban this inhumane practice. I was happy to see that your 
Department announced in 2013 that it would propose a rule to finally 
accomplish this important goal.
    However, I was deeply disturbed by the recent, egregious inhumane 
handling of veal calves at a plant in New Jersey. What was particularly 
troubling about this specific situation is that the inhumane handling 
clearly happened over a long period of time and was identified by an 
undercover video, rather than by Federal inspectors that were present 
at the establishment.
    This is why I recently wrote again to Acting Under Secretary 
Ronholm, requesting that USDA move as quickly as possible to propose 
and finalize a rule to ensure that downed veal calves are ineligible 
for slaughter, and that they receive prompt and humane euthanasia.
    Mr. Secretary, do you believe this is a rule you can propose and 
finalize before the end of fiscal year 2015?
    Answer. FSIS anticipates publishing the proposed rule by the end of 
calendar year 2014. In addition, the Agency will continue to use its 
existing authority to ensure that veal calves and other livestock are 
humanely handled in connection with slaughter.
                      federal inspector's training
    Question. Will you agree to re-evaluate the training and deployment 
of your Federal inspectors to better ensure that the health and 
handling of livestock receive adequate oversight?
    Answer. We are fully committed to consistent improvements in our 
training and deployment of our Federal inspectors. We are actively 
developing and implementing action plans to ensure better oversight and 
to fulfill our obligations under the Humane Handling Act at regulated 
industry establishments.
                      specialty crop pest program
    Question. Mr. Secretary, specialty crops are a tremendous part of 
California's $44.7 billion agriculture industry. In fact, my State 
produces the vast majority of the produce, fruits, and nuts consumed 
across the United States.
    I am concerned about the proposed cut to the Specialty Crop Pest 
program. This program received $152 million last year, but your budget 
request for this program is only $137 million. This represents a 
significant cut of 10 percent to this critical program.
    The Specialty Crop Pests program helps to combat devastating pests 
that destroy crops or could result in the loss of critical markets to 
these crops. For example, the Citrus Health Response Program is 
critical to combating citrus greening disease and the pest that spreads 
it. I am deeply concerned that reduced funding for the program could 
allow this disease to spread across California and devastate our citrus 
industry.
    The Specialty Crop Pests program also combats the European 
Grapevine Moth and the Light Brown Apple Moth, two pests of significant 
economic impact to producers in my State. In fact, significant progress 
has been made towards eradicating the European Grapevine Moth from the 
Napa region of California, and it is critical that work continue to 
meet this goal.
    How will the Department plan to safeguard the specialty crop 
industry when faced with a 10 percent cut to the Specialty Crop Pests 
Program?
    Answer. APHIS recognizes the importance of the programs for which 
reductions are proposed. These efforts not only help ensure the 
availability of fresh produce, they also support U.S. producers' 
ability to export their products. USDA realizes the importance of these 
programs, but also believes that these activities should be a 
cooperative effort and a shared responsibility between the Federal 
Government and the State and local governments whose people will most 
directly and immediately benefit. The Department's budget represents 
our determination to find the correct balance in these 
responsibilities. USDA realizes the importance of these programs, but 
also believes that these activities should be a cooperative effort and 
a shared responsibility between the Federal Government and the State 
and local governments whose people will most directly and immediately 
benefit. The Department's budget represents our determination to find 
the correct balance in these responsibilities.
                        domestic flower growers
    Question. Mr. Secretary, I am proud that California is home to many 
of our Nation's top domestic flower growers. I believe one important 
way to support the domestic flower industry is to highlight the 
importance of sourcing locally and domestically grown fresh cut 
flowers.
    This is why I urged the First Lady in 2012 to display domestically 
grown flowers in the White House. I was delighted that the recent State 
Dinner for French President Francois Hollande used domestic flowers--
including blue and purple irises grown in California.
    Mr. Secretary, America's cut flower industry is at a critical 
juncture. Since the early 1990s, the United States cut flower industry 
has rapidly lost market share to imported flowers from South America as 
a result of trade preferences contained in the Andean Trade Preferences 
Act.
    Before the enactment of this law, American producers contributed 64 
percent of the cut flowers sold in this country. Today, American 
producers supply just 20 percent of the total domestic market.
    Mr. Secretary, I am grateful that your Department has been 
supportive of the domestic flower industry, including in the effort to 
have domestic flowers displayed at White House events.
    What additional actions can your Department take to promote the use 
of domestically grown flowers in the United States and to expand this 
unique and important sector of our Nation's agriculture industry?
    Answer. USDA supports the marketing of domestically grown flowers 
through a number of programs. Market News, for example, improves market 
transparency for domestic growers by reporting market prices for cut 
flowers and other ornamental crops at wholesale and shipping points, 
and by reporting the volume of imports through the key entry points 
such as Miami and various Mexican crossing points. Market News also 
publishes several specialized market reports on ornamental crops, 
including the Miami Shipping Point Ornamental Price Report, the Boston 
Wholesale Ornamental Price Report, the Miami Ornamental Shipping Point 
Trends, and the Weekly Summary for Ornamentals. AMS is working toward 
expanding Market News reporting of local and regional markets, which 
will capture cut flowers and other ornamental crops that are sold 
locally. Current reports on farmers' auctions include flower sales. 
Farmers' markets are another sales outlet for domestic flowers.
    USDA also supports marketing by developing and updating U.S. grade 
standards, which are an essential element in resolving disputes 
concerning product quality, provide a basis for domestic and 
international trade, and promote efficiency in marketing. There are 
currently three U.S. grade standards for cut flower products which 
describe the quality of flowers in the marketplace. AMS will work with 
the cut flower industry as needed to develop, update, or otherwise 
improve U.S. grade standards so that they reflect current cultural and 
marketing practices.
    Finally, the Specialty Crop Block Grant Program has funded 23 
projects specifically focused on cut flower research, marketing, 
production, and consumer and producer education since 2009, for a total 
of more than $1.4 million. The 2014 farm bill increased the funding 
available to each State for Specialty Crop Block Grants and these 
resources continue to be available to support industry proposals.
                             horse welfare
    Question. Mr. Secretary, I have long been an advocate of horse 
welfare. One particular egregious example of inhumane treatment of 
horses that concerns me is the practice of soring.
    As you are aware, Mr. Secretary, ``soring'' is a practice employed 
by bad actors to inflict pain, injury, and disfigurement to horses' 
legs to force them to produce an exaggerated gait.
    As you are aware, a 2010 report by the Inspector General found that 
the current legal structure of low fines, weak horse welfare 
safeguards, and a reliance on industry self-regulation have proven 
completely ineffective in ending the abuse of horses.
    It is my belief that USDA would benefit from increased authority 
and additional resources to end the disturbing practice of horse 
soring.
    To that end, I am a cosponsor of the Prevent All Soring Tactics 
Act, along with 50 other members of this chamber. This act would ban 
the use of soring devices like chains, end the failed system of 
industry self-regulation, and increase penalties for violators. This 
legislation is strongly supported by animal welfare groups, the 
national horse industry, and the veterinary community. It is my hope 
that this bill will pass soon.
    Mr. Secretary, how important will the ``Prevent All Soring Tactics 
Act'' be to your Department in its efforts to end the abusive practice 
of horse soring?
    Answer. Soring is a concern, and USDA's Horse Protection Program 
aims to reduce or eliminate the abusive practice of soring of horses. 
Currently, horse show sponsors and/or show management have statutory 
responsibility under the Horse Protection Act (HPA) to prevent unfair 
competition and must identify and disqualify sored horses. USDA works 
collaboratively with the 12 current Horse Industry Organizations (HIOs) 
to train and license designated qualified persons used to inspect 
horses for soring at all events covered by the HPA. In fiscal year 
2013, APHIS' Investigative and Enforcement Services issued 1,255 
official warnings and, in collaboration with USDA's Office of the 
General Counsel, pursued administrative enforcement actions against 36 
alleged violators of the HPA. Beyond this, APHIS obtained 19 decisions 
and orders to resolve alleged violations of the HPA, which resulted in 
orders assessing $4,200 in civil penalties and disqualifying 10 
individuals from participating in HPA-regulated activities.
    Under the proposed Prevent All Soring Tactics Act, USDA would take 
the necessary action to license, train, assign, and oversee horse 
inspectors as required to continue efforts to reduce and eliminate 
horse soring.
                                 ______
                                 
                Questions Submitted by Senator Roy Blunt
                        farm bill implementation
    Question. Enactment of a farm bill this February ended a 2-year 
holding pattern for farmers and ranchers. It authorized new commodity, 
dairy, disaster, and risk management programs and represents the most 
significant change in farm policy in a generation. USDA has already 
started the process of implementing the livestock disaster programs 
with a goal of producer signup starting April 15, 2014. Producers are 
eager for USDA to continue implementation of farm bill programs.
    How are you prioritizing implementation of farm bill programs?
    Answer. Farm bill program implementation has been designed to 
create certainty for our customers, to be orderly for our staff, to 
recognize the deadlines established by law, and to recognize any 
pressing priorities of the farming and ranching community regarding 
markets, weather, and crop cycles. Our initial prioritization, 
therefore, involved making livestock disaster payments to producers 
affected by disasters since October 1, 2011. Payments for those years 
had not been possible until disaster assistance authority was restored 
in the recent farm bill. We sent a clear message that livestock 
producers would be quickly paid for past losses, and started signup on 
April 15--with payment starting shortly thereafter. As of late June, 
over $1 billion in payments have been made, largely under the Livestock 
Forage Program. We also made sure that programs continuing under the 
new farm bill were available to producers this past spring, such as the 
marketing assistance loan program. For example, loan rates were 
announced shortly after bill passage, so that winter wheat producers 
could take out marketing assistance loans as soon as their crop was 
harvested.
    We know that producers are conservers of our soil and water, which 
is also a priority. On June 9, FSA restarted continuous signups in the 
Conservation Reserve Program, as well as the CRP Transition Incentives 
Program for beginning and socially disadvantaged farmers and ranchers. 
In lieu of a general sign-up this year, we're allowing producers with 
CRP contracts expiring this September to receive a 1-year contract 
extension. And we've implemented the farm bill requirement that in 
certain cases producers enrolled through general sign-up for at least 5 
years can opt-out of their contracts. Resumption of the Biomass Crop 
Assistance program began in early June to assist with the peak season 
for the removal of forest residues that pose a fire threat.
    Implementing new programs--such as the new dairy program and 
Agricultural Risk Coverage/Price Loss Coverage (ARC/PLC) is also a 
priority, and this work has been on-going for several months. We are 
very much focused on having these programs be as effective as possible, 
and ensuring that producers understand how best to use them. A robust 
outreach and education plan is being developed to help farmers prepare 
for complex decisions they will make later this year under ARC/PLC, the 
new margin protection program for dairy, and enhanced protection under 
Crop Disaster Assistance Program. These programs will be available, and 
producers will need to start making decisions, this fall.
    Question. The farm bill included $100 million for implementation 
costs. How do you plan to allocate those resources?
    Answer. The 2014 farm bill provided this funding to assist in the 
implementation of title I programs, which continues many programs from 
the 2008 farm bill, but also creates several new programs, a new Margin 
Protection Program for dairy and a new safety net approach for 
agriculture, the Agricultural Risk Coverage and Price Loss Coverage 
programs. These programs all have important implementation activities 
for fiscal year 2014 and fiscal year 2015, including the development of 
software, hiring temporary employees, training field office staff and 
producer outreach and education. Under FSA's current spending plan 
estimates, approximately $33.1 million would be utilized in fiscal year 
2014. The assumptions include $6.2 million for temporary employees, 
$6.4 million for travel related to training, $3.7 million for postage 
and other operating expenses, $10.8 million for IT development and $6.0 
million for extension and education. The remaining $66.9 million would 
be utilized in fiscal year 2015. The assumptions include $27.0 million 
for temporary employees, $10.9 million for travel related to training, 
$8.6 million for postage and other operating expenses, and $20.4 
million for IT development. The spending plan assumptions are subject 
to change as FSA begins the implementation process for each program and 
a clearer understanding of specific administrative requirements are 
better defined.
    Question. USDA has already fast-tracked implementation of livestock 
disaster programs. When can livestock producers expect payments to be 
made for their losses?
    Answer. Payments are issued within a few days of contract approval. 
The timing of a particular payment depends on the complexity of the 
application, the time needed for review, and whether documentation of 
losses provided to FSA offices is complete or requires follow-up. As of 
April 8, just 4 months after the farm bill was signed, USDA has 
received more than 160,000 applications for help and issued more than 
$1 billion in disaster relief to farmers and ranchers nationwide.
    Question. When can producers expect signup to begin for Price Loss 
Coverage and Agricultural Risk Coverage programs?
    Answer. Late this summer FSA plans to provide producers information 
on their current base acres, yields and 2009-2012 planting history and 
offer them an opportunity to verify this information with their local 
FSA office. Then later this fall, there will be an opportunity to 
update yields and reallocate bases--this is the critical first step in 
rolling out the ARC/PLC program. By mid-winter all producers on a farm 
will be required to make a one-time election between price protection, 
county revenue protection, and/or individual revenue protection for the 
2014-2018 crop years.
                          midas implementation
    Question. MIDAS was chartered in 2007 to reengineer and modernize 
the Farm Service Agency's antiquated IT systems. The ultimate goal of 
the system was to streamline delivery of farm programs and give 
producers access to farm programs online.
    The original cost of MIDAS was reported to be $305 million with 
full implementation to be completed in March 2014--this month. However, 
it is clear that USDA will not be able to meet the goals and timelines 
originally envisioned and repeatedly reported to this subcommittee.
    At this time, the subcommittee has already invested over $305 
million in MIDAS, and USDA is far behind schedule on implementing the 
system.
    Further, GAO has reported on separate occasions, in 2008, 2011, and 
2013, that successful implementation of MIDAS is at risk, warning that 
USDA's ability to deliver system capabilities on time and within budget 
is limited by its failure to adopt sound management practices.
    USDA recently embarked on a process to re-scope the timeline and 
cost of the project. This process is ongoing.
    I understand that the Department is in the process of updating cost 
and implementation goals for MIDAS. How much do you expect the scope 
and cost of MIDAS to change?
    Answer. To ensure effective implementation of the 2014 farm bill, 
changes will need to be made to the MIDAS plan. Modernization of the 
FSA acreage reporting and inventory reporting processes included in the 
MIDAS Acreage Reporting/Inventory Reporting release will be placed on 
hold so focus could be placed the Acreage Crop Reporting Streamlining 
Initiative (ACRSI). The original AR/IR release was focused on a 
solution for just FSA, whereas ACRSI is a multi-agency approach to 
acreage reporting and inventory reporting. All remaining MIDAS funds 
are to be focused on the Business Partner release due to be rolled out 
in early fiscal year 2015.
    Question. USDA was given plenty of warning that the MIDAS plan was 
flawed, why did it take the Department so long to address program 
deficiencies and inform the subcommittee of program changes?
    Answer. In recognition of the strategic importance of the MIDAS 
investment to the future transformation of FSA, the Department and FSA 
have been intensely focused on developing a MIDAS plan to address 
program deficiencies. In January 2013, USDA initiated a re-baseline of 
the MIDAS investment. It was expected that the re-baseline would 
produce an approach to mitigate risks and provide improved program 
outcomes. Recommendations provided by oversight bodies such as the 
Government Accountability Office (GAO) regarding the original program 
plan are being incorporated into the re-baseline.
    FSA will take several steps to strengthen the management and 
budgetary controls over the MIDAS program to improve program delivery 
effectiveness. First, it will intensify the focus on business needs and 
program delivery driving the technology and business process changes. 
Second, it will strengthen managerial oversight and accountability to 
focus on FSA's Farm Program Delivery business needs. Third, it will re-
align FSA's organizational structure to better leverage resources 
between/across program delivery and production. Finally, it will 
implement controls and check points on budgetary decisions.
                               ped virus
    Question. There is a threatening animal disease that has severely 
impacted the pork industry in a very short period of time. In the last 
year alone, farms in 27 States have tested positive for the PED virus 
and over 4 million pigs have died as a result. Little is known about 
how the disease came to the United States, nor much about how it is 
spreading, but the potential economic impacts could be devastating. 
Many eyes will be on USDA's quarterly hog report on March 28.
    Demand for pork products is highest in the coming summer months 
when families and friends gather for barbecues, and grocery store 
prices will inevitably reflect supply impacts due to the PED virus.
    How much is the price of pork expected to increase in the coming 
months?
    Answer. The USDA's Economic Research Service forecasts second-
quarter prices of live 51-52 percent lean equivalent hogs to average 
$78-$82 per cwt (hundredweight), about 22 percent above prices a year 
ago.
    Question. What is USDA doing to help mitigate the economic impacts 
to industry and consumers?
    Answer. To prevent further spread of the disease and, evaluate 
control and elimination strategies, USDA is participating and assisting 
in epidemiological investigations and risk assessments of incidents. 
These actions are designed to determine how to minimize the impact of 
porcine epidemic diarrhea virus (PEDV)'s impact on swine producers and 
the swine industry. In addition, the Department is negotiating with 
China to relax their restrictions on live swine shipments from the 
United States. We expect that this issue will be resolved in June 2014. 
We are considering what additional actions, such as assistance with 
diagnostic testing and additional on-farm biosecurity, may be necessary 
to reduce the spread and impact of PEDV.
    Question. Does the budget request dedicate sufficient resources to 
research, surveillance, and other areas to gain control of the virus?
    Answer. Because USDA developed the fiscal year 2015 budget before 
the Porcine Epidemic Diarrhea virus (PEDV) situation became prominent, 
we have not included a specific request for funding in our fiscal year 
2015 request for monitoring and management activities. If additional 
funds are needed in fiscal year 2015, the Department will pursue 
alternative funding sources. Agencies have used programmatic 
flexibility to support activities such as:
  --APHIS, in conjunction with State and industry partners, has been 
        working to develop appropriate responses to PEDV and Swine 
        Delta Coronaviruses at a national level.
  --Furthermore, since the PED virus was identified in the spring of 
        2013, ERS economists have used expert opinions from industry 
        contacts to develop a balance sheet that calculates ranges of 
        production losses due to the virus. ERS took this approach 
        because, as a non-reportable disease, there is no data series 
        that explicitly itemizes PED losses. The forecasts that ERS has 
        submitted to the inter-agency process incorporate calculated 
        production loss estimates. These estimates help to form the 
        basis of pork production and other sectorial indicators that 
        are published monthly in USDA's World Agricultural Supply and 
        Demand Estimates.
  --Moreover, a Hatch Multi-State Group, Enteric Diseases of Food 
        Animals: Enhanced Prevention, Control and Food Safety (NC1202), 
        is in place as a result of the ongoing Hatch capacity funding. 
        This group is funded from October 2012 through September 2017. 
        It is taking steps to address this disease, particularly 
        through work being conducted at The Ohio State University. For 
        example, it developed new diagnostic tests for detection (real-
        time RT-PCR; immunofluorescent antibody). Also funds have been 
        used to support early stages of PEDV vaccine development. 
        Additionally, the National Animal Health Laboratory Network, 
        funded in part through NIFA Food and Agricultural Defense 
        Initiative dollars, is cooperating with disease surveillance on 
        PEDV. Because the disease is so recent, no competitive projects 
        have received funding to date.
  --Lastly, ARS has been developing plans to focus research at the 
        National Animal Disease Center (NADC), in Ames, Iowa, on 
        Porcine Epidemic Diarrhea Virus (PEDV). The aim of the research 
        is to provide scientific information needed to enable the 
        development of countermeasures and enhance on-farm biosecurity. 
        Emphasis will be placed on identifying mechanisms of viral 
        pathogenesis, transmission, and immunity to PEDV, including 
        other emerging coronaviruses of swine.
                           biotech regulation
    Question. The United States remains the global leader in 
agriculture production because American farmers are the best at doing 
what they do if given a level playing field. Improved seed technology 
enables farmers to increase yields or mitigate losses due to drought or 
disease. More than 90 percent of soybeans, corn, and cotton grown in 
the United States are biotech products.
    Before any of these products can be brought to market, they must 
receive approval from USDA. While I recognize that USDA has attempted 
to make improvements to their process, what Americans are witnessing is 
that it takes as much as three times longer to gain approval for a new 
seed in the United States than it does in competing countries like 
Brazil and Argentina--putting American farmers at a competitive 
disadvantage.
    How can USDA improve its review and permitting processes to allow 
for more timely approvals?
    Answer. In fiscal year 2010, USDA conducted an internal review on 
its petition process for genetically engineered (GE) organisms to 
identify ways to speed up the time to reach a deregulation decision. 
While our regulations provide a timeline of 180 days, our process 
improvement analysis revealed an estimated timeline of 13-15 months to 
conduct quality analysis to support our decisions and protect plant 
health. USDA uses the Plant Protection Act and National Environmental 
Policy Act as the framework for its regulatory processes and decision-
making, which ultimately drive our timelines. Other countries do not 
have to necessarily adhere to the same requirements.
    USDA has implemented process improvements to quickly establish what 
path our reviews will take and what level of environmental review is 
necessary.
    In regard to timelines in competing countries, Canada's directive 
does not specify the length of time that they are supposed to finish 
their reviews (with the exception of the timeframes for crops with 
stacked traits). Brazil's timeframe in regulation is 270 days, but they 
do not always meet this.
    Canadian Food Inspection Agency data compiled from February 2010 to 
June 2013 covering 21 applications have a range of 7 months to 3.5 
years, with an average of 22 months. The average timeframe for a 
Canadian cultivation approval for a single event is 24 months. Canadian 
cultivation involving breeding stack adds an additional 2 months on 
average.
    Brazil is taking about 12 months to complete their reviews (prior 
to 2007, length of time was 4-8 years). The average timeframe for a 
Brazilian cultivation approval of a single event is 27 months. 
Brazilian approvals for cultivation of breeding stacks add an 
additional 15 months on average.
    We are making good progress on reducing the time it takes to review 
and complete biotech approvals. USDA is committed to continuing efforts 
to meet the new timeframes it set. We assure the Committee that this is 
a high priority for USDA.
    Question. What is the current backlog of applications and when does 
USDA expect to clear out the backlog?
    Answer. The backlog petitions, or as we generally refer to them as 
legacy petitions, totaled 23 in March 2012. Any petition received after 
that date was not counted as part of the backlog because they were new 
petitions.
    The 23 petitions considered as part of the backlog are:

------------------------------------------------------------------------
 
------------------------------------------------------------------------
03-104-01p*...............................  Scott's/Monsanto HR Creeping
                                             Bentgrass
03-323-01p................................  Monsanto glyphosate-tolerant
                                             sugar beet (Partial
                                             Deregulation)
09-015-01p................................  BASF imidazolinone tolerant
                                             soy
09-055-01p................................  Monsanto drought tolerant
                                             corn
09-063-01p................................  Stine Seed GT corn
                                             (extension)
09-183-01p................................  Monsanto stearidonic acid
                                             soy
09-201-01p................................  Monsanto modified-oil HT soy
09-233-01p*...............................  Dow AAD-1 HT corn
09-328-01p................................  Bayer glyphosate/
                                             isoxaflutole tol soy
09-349-01p*...............................  Dow 2,4-D glufosinate
                                             soybean
10-070-01p................................  Virginia Tech blight
                                             resistant peanuts
10-161-01p*...............................  Okanagan non-browning apple
10-188-01p*...............................  Monsanto Dicamba soybean
10-281-01p................................  Monsanto MS glyphosate
                                             tolerant corn
10-336-01p................................  Syngenta's Rootworm
                                             Resistant Corn
11-019-01p*...............................  ArborGen cold-tolerant
                                             eucalyptus
11-063-01p................................  Pioneer GT Canola
11-182-01p................................  Simplot Low-Browning
                                             Potatoes
11-188-01p................................  Monsanto GT Canola
11-202-01p................................  Monsanto Increased-yield
                                             Soybean
11-234-01p*...............................  Dow 2, 4-D, glyphosate,
                                             glufosinate soybean
11-244-01p................................  Pioneer BT/GT corn
11-342-01p................................  Genective glyphosate
                                             resistant corn
------------------------------------------------------------------------

    The petitions in the chart above highlighted with an asterisk (*) 
are still pending. These account for seven of the 23 backlog petitions. 
The remaining items have been completed; that is, we have made a 
determination of nonregulated status or they were withdrawn by the 
submitter. We have completed 16 petitions since the implementation of 
the process improvements in March 2012. Of the seven still in review, 
Okanagan apples is the only one that is not associated with an 
Environmental Impact Statement (EIS), which are not subject to the 
timeline goals of the petition process improvements and take 
significantly longer to complete. We expect to complete that petition 
sometime this summer. With this determination, all petitions that do 
not require an EIS will be cleared from the backlog.
    Six of our petitions require an EIS; in its November 2011 
announcement, USDA indicated that petitions that require an EIS will 
take more time and could not be completed in the timeframes 
established. With respect to the petitions associated with an EIS, we 
anticipate making final determinations on the following petitions by 
the end of fiscal year 2014:
  --Dow's ADD-1 HT corn;
  --Dow's 2, 4-D, glufosinate soybean; and
  --Dow's 2, 4-D, glyphosate, glufosinate soybean.
    In addition, we are scheduled to complete Monsanto's Dicamba 
soybean by the end of the calendar year.
    Finally, we are projecting a final determination on ArborGen's 
cold-tolerant eucalyptus petition in early calendar year 2015. With 
this determination, APHIS will have cleared the backlog of petitions.
                 international agriculture development
    Question. The subcommittee had the pleasure of hosting Bill Gates a 
couple weeks ago for a discussion about research, innovation, and the 
global landscape of agriculture. He mentioned that one of his 
foundation's greatest challenges is the lack of regulatory processes 
related to biotechnology approvals in many developing countries and the 
hardships faced with trying to introduce improved seed and technology.
    As you alluded to in your opening statement, can you talk about the 
efforts of the Foreign Agricultural Service, and that of USDA in 
general, in working with these countries to develop a regulatory 
process?
    Answer. Promoting agricultural production and biotechnology exports 
to increase food security in the world is a stated strategic goal for 
USDA. It remains one of the key guiding principles for the work of the 
Foreign Agriculture Service (FAS), both in our policy and capacity 
building activities. USDA promotes sustainable, market-led growth 
across the entire food production and market chain.
    Specific capacity building activities organized by USDA include: 
regulatory workshops aimed at science-based, predictable, transparent, 
World Trade Organization (WTO)-compliant regulatory development; 
farmer-to-farmer exchanges; establishment and strengthening of networks 
or associations of farmers; communication trainings for civil society 
and members of the media; information and resource sharing for the 
local academic community; and capacity strengthening of African 
countries to engage in relevant international discussions that impact 
the development or trade of biotechnology products.
    In implementing this activity, USDA works with other relevant U.S. 
Government (USG) agencies, the U.S. university system, and the U.S. 
private and non-governmental sectors. Where applicable and useful, USDA 
also works closely with other like-minded country governments, such as 
Argentina, Australia, Brazil, and Canada.
    Question. With half of the world's remaining planted acreage 
available in Africa, is there a particular focus on African countries?
    Answer. USDA's biotech outreach and capacity building efforts in 
Africa focus on Burkina Faso, Egypt, Ghana, Kenya, Mozambique, Nigeria, 
South Africa, and Uganda. These countries have been identified as 
priority countries based on their acceptance and adoption of the 
technology and the influential role they can play in their respective 
regions. In addition, USDA has been engaging with regional 
organizations, such as the Common Market for Eastern and Southern 
Africa (COMESA) and the Southern African Development Community (SADC). 
In COMESA and SADC, USDA supports the development and implementation of 
regional biosafety regulatory frameworks to help African countries with 
limited resources take advantage of the benefits of the technology.
    Examples of USDA's recently concluded biotech outreach and capacity 
building activities include the following:
  --COMESA Regional Biosafety Framework.--In August 2013, USDA 
        facilitated endorsement of a regional policy on biotechnology 
        and biosafety in eastern and southern Africa. The policy will 
        allow for sharing of regulatory information and resources, and 
        enable adoption of biotechnology in the region. USDA continues 
        its engagement with COMESA to support the implementation of the 
        policy.
  --United States-Brazil Biotech Workshop.--In April 2013, the United 
        States and Brazil concluded a successful outreach initiative on 
        biotechnology to nine influential African countries to develop 
        pro-biotechnology African champions and further strengthen 
        United States-Brazil collaboration in biotechnology.
                      data security in agriculture
    Question. Farmers have been sharing data with agribusiness, State 
agencies, and USDA for decades. Much of this data is personal and 
includes information about specific farming practices. The use of data, 
combined with technology, has given U.S. farmers new tools to maintain 
their competitive edge. However, as with any scenario where a farmer 
shares personal information about their property, farming practices, 
and yield, privacy concerns are raised. It's fair to say a lot of data 
on farmers is out there in the private and public domain, and American 
farmers are rightfully concerned that their data remain private.
    This concern is not unfounded, especially following the 
Environmental Protection Agency (EPA) release of personal information 
on more than 80,000 farmers in 29 States. Lawsuits have been filed to 
stop EPA from disclosing more personal information about farmers.
    In almost every mission area, USDA collects and procures a 
significant amount of producer data for research and statistical 
analysis.
    What assurances do farmers have that personal data collected by 
USDA is protected from public dissemination? Are these protections in 
law or regulation?
    Answer. USDA is committed to protecting a producer's personal data, 
as required by the Privacy Act (5 U.S.C. section 552a--as amended), the 
Freedom of Information Act (5 U.S.C. section 552--as amended), and, 
more specific to the protection of producer data, as identified in 
section 1619 of the Food, Conservation and Energy Act of 2008 (7 U.S.C. 
8791). Since enactment in 2008, 7 U.S.C. 8791 has served as the 
foundational baseline outlining USDA's requirement to protect 
information that has been provided by a producer in order to 
participate in a USDA program and to protect geospatial information 
maintained by USDA. For participants in the Federal crop insurance 
program, information provided by the producer is protected from public 
dissemination by the Federal Crop Insurance Act, section 502(c) (7 
U.S.C. 1502(c)), Protection of Confidential Information, which 
precludes the Department from releasing to the public information 
provided by the producer, unless the producer consents to the release 
of such information.
    Question. Are privacy standards consistent within the Department at 
different agencies? Should they be consistent?
    Answer. USDA agencies are generally governed by the Privacy Act, 
Freedom of Information Act, and E-Government Act of 2002. In addition, 
some programs or agencies within USDA may have program authorizing 
statutes that impose additional, and sometimes differing, privacy 
standards. Also, each USDA Agency has the authority to develop detailed 
policy that is specifically designed to address the protected data 
types most commonly processed within the Agency. For example, Farm 
Service Agency has Agency-specific protected data policy identifying 
the responsibility to safeguard any information that sheds light on a 
producer's financial situation or farm operations, such as farm loans 
or farm loan application information, farm lease agreements, owner and 
operator/tenant agreements, actual crop production amounts, actual crop 
yields, cropland acres, farmland acres, specific crop acres, number of 
livestock, or irrigation/non-irrigation data. Also, the Federal Crop 
Insurance Act specifically prohibits the Department and approved 
insurance providers from disclosing to the public information furnished 
by a producer participating in the Federal crop insurance program.
    Question. Does USDA ever share farmer data with other governments 
to entities outside the Department, such as EPA? If an Agency were to 
request such data, would the Department share it?
    Answer. USDA has shared protected producer data with Government 
entities outside the Department, however, the sharing of protected 
producer data can occur only if the requesting non-USDA Government 
entity meets the authorized disclosure criteria that control USDA's 
ability to share protected producer data. 7 U.S.C. section 8791 
establishes the standard baseline USDA must follow concerning the 
sharing of protected producer data. Within 7 U.S.C. section 8791 there 
is policy indicating that USDA is able to make an authorized disclosure 
of protected producer data when the requesting individual or 
organization is working in cooperation with the Secretary in a USDA 
program. If a non-USDA Government entity were to request that USDA 
share protected producer data, under 7 U.S.C. section 8791 USDA is 
required to confirm that the requesting non-USDA Government entity is 
in fact working in cooperation with the Secretary by providing 
technical or financial assistance concerning a Department program. 
Based on a thorough evaluation of applicable documentary material, USDA 
will make a determination as to whether the requesting non-USDA 
Government entity will or will not be certified as a USDA Cooperator. 
If a non-USDA Government entity does qualify for USDA Cooperator status 
under the authorized disclosure provision within 7 U.S.C. section 8791, 
USDA will share only that protected producer data that is necessary for 
the non-USDA Government entity to participate in the identified USDA 
program. By way of example, when USDA Cooperator status is confirmed 
the Farm Service Agency uses a USDA Cooperator memorandum of 
understanding to document the terms and conditions associated with the 
disclosure of protected producer data to a certified USDA Cooperator. 
If a non-USDA Government entity does not qualify for USDA Cooperator 
status under the authorized disclosure provision within 7 U.S.C. 
section 8791, USDA will not release protected producer data to the 
requesting non-USDA Government entity.
    For participants in the Federal crop insurance program, farmer data 
is not generally shared with other Federal, State, or local agencies 
outside of USDA unless it is to aid in the administration and 
management of the Federal crop insurance program. Farmer data is not 
normally released to other Federal, State, or local agencies unless a 
demonstrated need exists that may impact the Federal crop insurance 
program. However, these agencies are also bound by the same public 
disclosure restrictions contained within section 502(c) of the Federal 
Crop Insurance Act that apply to USDA, insurance companies, etc. 
Generally, the Department's published routine uses of this data guide 
such sharing of the information and can be found in the Privacy Act 
system of records, FCIC-10, entitled ``Policyholder.''
                         food safety inspection
    Question. Since fiscal year 2013, the budget request has assumed 
implementation of a final rule on modernization of poultry slaughter 
operations and the savings associated with it. OMB has not indicated a 
firm date for publishing the final rule, and USDA would seemingly need 
time after its publishing to negotiate with its labor unions before 
implementation could take place. Given these factors, there is little 
confidence that the new inspection system will be implemented in fiscal 
year 2015 and the proposed operational savings will be realized.
    Without taking decentralized rent and security payments into 
account, the request for FSIS is nearly $20 million below current 
operating levels, and that figure assumes pay increases.
    If the modernized inspection system is not implemented in fiscal 
year 2015, does the budget request propose adequate resources for the 
Agency to fully meet its inspection obligations?
    Answer. We are fully committed to maintaining all mandated 
inspection obligations. If poultry inspection modernization is not 
implemented in fiscal year 2015, FSIS would prioritize available 
resources to ensure mandated inspections are performed.
    Question. When can we expect a final rule to be issued on poultry 
slaughter modernization? What is the cause of the delay?
    Answer. FSIS is in the process of preparing a final rule on poultry 
slaughter after considering the comments received. It is not possible 
to provide a specific timeline.
    Question. What is a reasonable timeline for implementing the final 
rule?
    Answer. We anticipate the rule to be fully implemented within 18-24 
months from the date of publication of the rule in the Federal 
Register.
                       country of origin labeling
    Question. The budget request assumes continued enforcement of the 
amended final rule on country-of-origin labeling (COOL) that was issued 
by USDA in May 2013. Like the original final rule, Canada and Mexico 
have challenged its compliance with international trade obligations 
under the World Trade Organization (WTO) agreement. Indications suggest 
that a WTO panel will issue an interim report with their decision in 
June of this year, with a final report the following month.
    Should the WTO panel rule against the United States in its report, 
would USDA further amend its final rule to avoid retaliation?
    Answer. We expect a final report to be circulated publicly this 
fall. Any appeal of the panel report will not be resolved until 
sometime in 2015. USDA's 2013 final rule constitutes compliance. 
Therefore, it would be very premature to speculate on what actions 
would be necessary to further modify the COOL program.
    Question. What would be the Department's COOL activity in fiscal 
year 2015 in the event of an unfavorable ruling?
    Answer. We do not expect the Appellate Body to issue its report 
until sometime in 2015. We consider that the 2013 final rule 
constitutes compliance. It is premature to speculate what actions would 
be necessary following that report.
                         forest service issues
    Question. I understand that the Department of Agriculture, through 
the Forest Service, along with other Federal agencies and the State of 
Missouri, is engaged in discussions with The Doe Run Company concerning 
their legacy liabilities in southeast Missouri. As I hope you will 
appreciate, Doe Run is vital to the regional economy of southeast 
Missouri, and I want you to understand that the continued viability of 
the company is a matter of keen interest and importance to me.
    Are you aware of the ongoing discussions involving your Department?
    Answer. Yes, I am aware of the matter.
    Question. Can I get your personal assurance that you will pay close 
attention to this matter, and that you will make sure that Doe Run 
receives fair treatment, consistent with the importance of this company 
to the long-term economic interests of southeast Missouri?
    Answer. Throughout this process, the USDA and the other Government 
agencies have endeavored to treat Doe Run fairly and with respect.
                        rural electric user fee
    Question. The budget proposes a new user fee on RUS borrowers to 
cover administrative expenses for environmental assessment costs 
associated with electric transmission infrastructure projects. Little 
to no explanation is provided as to the origin of the fee proposal, the 
parameters of how fees would be assessed, or the intended use of the 
fee's revenue other than to supplement salaries and expenses.
    Have current borrowers been consulted during the process of 
formulating the user fee proposal?
    Answer. The origin of this action was a recommendation of the 
inter-agency Rapid Response Team for Transmission (RRTT). The RRTT is 
an outgrowth of the 2009 memorandum of understanding between nine 
Federal agencies regarding coordination in Federal agency reviews of 
electric transmission facilities on Federal land, and other Executive 
orders and Presidential memorandums on expediting the review and 
permitting of electric transmission facilities. A specific goal of the 
RRTT was to ``improve the overall quality and timeliness of electric 
transmission infrastructure permitting, review, and consultation by the 
Federal Government on both Federal and non-Federal lands.''
    Of all of the Federal agencies involved in the review and 
permitting of electric transmission facilities, the Rural Utilities 
Service (RUS) was the only Agency that did not have cost recovery 
authority. This action proposes to give RUS cost recovery authority. 
The proposed cost recovery language is consistent with the intent of 
that for the Federal land management agencies and, if authorized, is 
expected to greatly improve RUS' ability to more effectively manage and 
process transmission related applications for financial assistance from 
its borrowers.
    Transmission line proposals can be very complex covering multiple 
jurisdictions including States with the potential for environmental, 
historic preservation, and landscape-level effects. Many projects are 
locally and regionally significant and controversial and having a 
greater Agency presence is desirable to ensure that the Agency's and 
the public's interests are adequately addressed.
    In many cases RUS is serving as the lead Agency for the 
environmental review activities under the National Environmental Policy 
Act and as the lead Agency in the National Historic Preservation Act, 
Section 106 review process. Not being able to be as hands-on with face-
to-face meetings when necessary has been a deterrent in expediting the 
review and permitting processes for these proposals.
    Current borrowers were not consulted specifically on this proposal. 
However, over the years, many of the RUS's Generation and Transmission 
rural electric cooperative borrowers have requested to be allowed to 
contribute travel expenses for environmental staff to attend meetings. 
These past offers have not been accepted.
    Question. How much revenue is USDA anticipating the user fee to 
incur?
    Answer. RUS estimated that the cost implications for borrowers 
would be modest. The user fee will be limited to travel and per diem 
expenses. RUS estimated that the costs per project would be no more 
than $15,000-20,000 per project ($2,500 per travel event at a maximum 
of 8 travel events per project). RUS estimated that these costs would 
apply to 4-7 projects per year. With a cost of $15,000-20,000 per 
project for 7 projects, the total estimated revenue would be between 
$105,000 and $140,000 per year.
    Question. What will be the fee structure?
    Answer. The fee structure would be limited to and based on the 
General Services Administration's per diem rates, www.gsa.gov/perdiem.
    Question. Will the additional resources for salaries and expenses 
lead to additional RUS staff?
    Answer. All proposed resources will be used by existing RUS staff 
for travel and per diem expenses.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                       commodities/crop insurance
    Question. Secretary Vilsack, as you are aware, cotton producers are 
transitioning to a crop insurance based safety net known as the Stacked 
Income Protection Plan (STAX). Because STAX will not be available to 
producers before the 2015 crop year, the 2014 Agricultural Act provides 
transition assistance for upland cotton producers using their 2013 
cotton base acres. It is my understanding that the payments for the 
2014 crop should be available on or after October 1, 2014. This is 
especially important since the only other risk management tools 
available to cotton growers for the 2014 crop are existing crop 
insurance products and the marketing assistance loan.
    Will it be necessary for the Department to conduct a separate 
signup for the cotton transition payments and if so what information 
will be required from participants?
    Answer. There will be a separate signup for the cotton transition 
program later this summer. Among other eligibility criteria, eligible 
producers should have an upland cotton base on the farm as of September 
30, 2013. Additionally, the Department plans to make STAX available for 
the 2015 crop year, and believes it will be able to offer coverage on 
most of the traditional planted cotton acreage. Materials and areas of 
availability are projected to be released by late summer 2014.
    Question. When do you expect to hold signups for cotton transition 
assistance?
    Answer. We anticipate signup will begin later this summer and 
payments will be made this fall.
    Question. Mr. Secretary, it is important to note that beyond 
defining the term ``significant contribution of active personal 
management,'' the 2014 farm bill does not instruct the Department to 
make any changes to the way individuals and entities are determined to 
be ``actively engaged in farming.'' The limited authority Congress 
granted the Department to change this definition was designed to 
complement existing rules and regulations. It is vitally important to 
maintain consistency, to the extent practicable, with the regulations 
promulgated as a result of the significant changes made by the 2008 
farm law which eliminated the three-entity rule and moved to direct 
attribution. When implementing the provisions of the 2014 farm law, I 
urge you to consider the extensive changes made as a result of the 2008 
law and the costs to many operations associated with making the 
organization changes necessary to comply with the new rules. Any 
further changes that go beyond the scope of the new law will result in 
unnecessary costs to growers and result in uncertainty for our farmers 
and their lenders.
    Additionally, the implementation of the new adjusted gross income 
limit, as well as the new unified payment limitation, in 2014 will have 
a substantial impact on a wide range of farming operations. The 
magnitude of that impact is particularly daunting when such changes are 
considered in combination with the application of possible changes to 
the definition of ``significant contribution of active personal 
management'' beginning with the 2015 crop year. Some farmers will need 
to make substantial adjustments in their farm plans in order to comply 
with the new rules, and those farmers who will no longer be eligible 
for program benefits will have to take that into consideration when 
financing their 2015-18 crops.
    In order for these reforms and related provisions to be well 
understood and implemented in a manner that minimizes confusion, the 
Department should conduct outreach to affected stakeholders in advance 
of promulgating a regulation and, in so doing, provide adequate time 
for public comment on any proposed changes to the regulations.
    I would expect that USDA will publish these regulations for public 
comment at the earliest possible date so our farmers have an 
opportunity to review and comment on the proposal. The timing of 
publication of the final rule and flexibility to comply with the new 
regulations is paramount to applying the new requirements in a manner 
that will be fair, equitable, and enhance program integrity.
    When do you intend to publish the proposed rule?
    Answer. USDA intends to have the proposed rule published by the end 
of 2014.
    Question. What process, including outreach activity, is the 
Department considering to develop the proposed definition for 
``significant contribution of active personal management?''
    Answer. USDA conducted a listening session on March 27, 2014, 
regarding all Farm Service Agency and Risk Management Agency programs, 
including a session on the forthcoming actively engaged proposal. The 
proposed rule will be published in the Federal Register to seek public 
comment. We will also issue a press release soliciting comments. 
Further outreach, public meetings or avenues for public input will be 
explored as the proposal is developed.
    Question. Will the Department consider the impact of these changes 
on different regions and organizational structures as suggested in the 
conference report?
    Answer. Yes, the Department is taking into consideration the 
regional and organizational structure impacts of any proposed changes.
    Question. Will the Department provide adequate time for comment and 
for adjustment to any changes to the rules?
    Answer. The public will be provided with sufficient time to 
evaluate the proposed rule and submit comments for consideration.
    Question. Please provide some insight regarding how USDA intends to 
manage structural changes made to operations as a result of the new 
farm bill programs and new eligibility requirements.
    Answer. Although this cannot be assessed before public comments are 
received, or before the regulation is promulgated, USDA will closely 
consider and evaluate these issues regarding the proposed definition 
change during the rulemaking comment period.
    Question. Will you commit to ensuring that farmers are not 
penalized for making changes to the structure of their operations to 
minimize regulatory burdens and manage risks associated with modern 
agriculture, including changes in land values and changes in operating 
and compliance costs?
    Answer. The process for the proposed rule provides an opportunity 
to evaluate and assess the issues associated with the development of 
the proposed definition.
    Question. Mr. Secretary, the president's fiscal year 2015 proposed 
budget for the Department includes $14.3 billion in reforms to crop 
insurance. As you know, the president signed the Agricultural Act of 
2014 into law on February 7 of this year. This new law, which Congress 
debated for almost 3 years, makes significant reductions in the title I 
safety net programs in favor of greater reliance on the crop insurance 
programs. In fact, the new law reduces the overall level of Federal 
financial support for production agriculture even though the risk of 
loss emanating from natural disasters and global market disruptions 
persist.
    My farmers in Mississippi asked for a new farm bill that would 
provide a reasonable period of certainty in a financial safety net as 
they carry on in a highly risky business. We often hear from this 
administration about how we need to move to risk management programs 
and away from paying farmers just for being farmers. Given the lower 
rates of participation in crop insurance in my area and the additional 
cost of premiums, it wasn't an easy task to convince my growers in 
Mississippi that they needed to balance price risk protection programs 
with crop insurance as the cornerstone of the farm safety net. I fear 
that if the proposed budget cuts were adopted, crop insurance may 
remain affordable for some parts of the country and become a less 
viable tool for other parts of the country, specifically the mid-south. 
The administration's budget proposal to cut crop insurance just a few 
weeks after Congress minimized the strength of the traditional title I 
safety net is deeply concerning.
    The President's budget proposal indicates the rate of return for 
crop insurance companies is currently expected to be 14 percent and 
that an additional $2.9 billion can be removed from the reimbursement 
rate of administrative and operating expenses without harming the 
delivery system. The simple statement equating conditions 8 years 
earlier with today's program is not compelling.
    What was the actual pre-tax rate of return on retained premium for 
crop insurance companies for the crop insurance years 2010, 2011, 2012, 
and 2013?
    Answer. The rate of return on retained premium for insurance 
companies is provided for the record.
    [The information follows:]

------------------------------------------------------------------------
                                                             Return on
                    Reinsurance year                         retained
                                                              premium
------------------------------------------------------------------------
2010....................................................     +32 percent
2011....................................................     +18 percent
2012....................................................     -15 percent
2013 \1\................................................      +8 percent
------------------------------------------------------------------------
\1\ As of April 2014. The return is likely to decrease somewhat as
  additional losses are reported.

    Question. Please provide the analysis, including any and all 
assumptions therein, for the discovery of these rates of return on 
retained premium for the crop insurance companies.
    Answer. No assumptions have been made. The rate of return on 
retained premium for crop insurance companies for 2010 through 2013 is 
calculated directly from accounting data maintained by the Department.
    Question. In 2011, the administration stated that the crop 
insurance companies had an expected rate of return of 14 percent 
(``Living Within our Means and Investing for the Future, The 
President's Plan for Economic Growth and Deficit Reduction,'' page 18). 
That claim was made again with each of the President's budget proposals 
for fiscal year 2013, fiscal year 2014 and fiscal year 2015. Please 
provide the assumptions and analysis that has supported this 14-percent 
estimate in each of these years and indicate how the performance of the 
program in the most recent years has or has not affected this estimate.
    Answer. At the time the current Standard Reinsurance Agreement 
(SRA) was implemented in 2011, the expected rate of return on retained 
premium for insurance companies was around 14 percent. This is the 
assumption that was used in the President's budget proposals for fiscal 
year 2013, fiscal year 2014, and fiscal year 2015.
    At this point in time, complete data is available for only 2 years 
under the current SRA--therefore, at this time RMA does not have a 
basis to change the original return of 14 percent.
    Question. Please provide the analysis, including any and all 
assumptions therein, for the discovery of total administrative and 
operating expenses by the private delivery system.
    Answer. The total administrative and operating (A&O) subsidy paid 
to insurance companies is calculated directly from accounting data 
maintained by the Department. The total A&O subsidy for the last 
several years is provided for the record.
    [The information follows:]

                          [Dollars in billions]
------------------------------------------------------------------------
                          Year                              A&O subsidy
------------------------------------------------------------------------
2010....................................................           $1.37
2011....................................................            1.36
2012....................................................            1.40
2013....................................................            1.39
------------------------------------------------------------------------

    Question. How will the total cost of selling, servicing and 
adjusting polices change with the addition of the new crop insurance 
programs and other requirements contained in the new farm bill?
    Answer. The impact of the 2014 farm bill on the cost of selling, 
servicing, and adjusting policies is not anticipated to change 
significantly with the addition of new programs. The most significant 
changes, the Supplemental Coverage Option (SCO) and Stacked Income 
Protection (STAX) programs, will be accompanied by additional A&O 
subsidy paid to insurance companies for their costs of selling and 
servicing. In addition, they will have the opportunity to earn 
underwriting gains.
    Question. If costs increase, will the insurance companies be 
provided any additional compensation?
    Answer. The two most significant changes to the crop insurance 
program, SCO and STAX, will be accompanied by additional A&O subsidy 
paid to insurance companies based upon the additional premium collected 
from sales of the new programs. These reimbursements will not be 
subject to the A&O cap in the current SRA.
    To the extent that most other farm bill measures will likely result 
in the increase of crop insurance policies sold, such increase in sales 
will be accompanied by additional A&O subsidy reimbursement, subject to 
any applicable A&O reimbursement limitations as specified under the 
current SRA.
                              conservation
    Question. Secretary Vilsack, the 2014 Agricultural Act consolidates 
several existing conservation program authorities into a single 
initiative known as the Regional Conservation Partnership Program 
(RCPP) with the primary purpose of leveraging Federal conservation 
investments in conjunction with local and regional partners. Projects 
carried out through this new authority are to improve soil quality, 
water quality and quantity, and wildlife habitat on a regional or 
watershed scale in areas of the country with a significant presence of 
agricultural production. One major component of the program allows for 
the Secretary of Agriculture to designate eight Critical Conservation 
Areas as geographic priorities within the program. Can you share with 
me the timeline and process by which the Department of Agriculture 
intends to name these regions of the country? I would like to request 
that you and your staff keep me aware of any significant developments 
as this implementation process advances and I hope that the region of 
the Lower Mississippi River Valley receives serious consideration for a 
designation as a Critical Conservation Area within the new Regional 
Conservation Partnership Program.
    Answer. USDA's NRCS has been reviewing the application of the 
statutory criteria to various watersheds through a rigorous, science-
based process in order to designate Critical Conservation Areas (CCAs) 
under the RCPP program. The Lower Mississippi River Valley is among the 
watersheds receiving serious consideration for designation. Selections 
of Critical Conservation Areas along with the RCPP announcement of 
program funding are expected in late May or early June.
    Question. Secretary Vilsack, upon enactment of the 2014 
Agricultural Act several conservation programs were repealed causing 
USDA to request a new apportionment from the Office of Management and 
Budget (OMB) to implement the new law. It is my understanding that USDA 
has not received this new apportionment to date; however, the 
Department's anticipated timeframe to start new enrollments for certain 
conservation programs is this summer. Do you think that USDA will be 
able to conduct sign-ups and obligate all of the fiscal year 2014 
funding in this amount of time? What will happen to the remainder 
fiscal year 2014 funding in the event USDA cannot spend all of it 
within that timeframe?
    Answer. USDA has been working to update guidance and to effectuate 
system changes necessary to manage the funding for the continuing and 
new conservation programs, and is currently holding sign-ups and 
processing applications for most of the conservation programs. USDA 
plans to obligate funds for all programs by September 30, 2014; 
however, any unobligated funds will be fully utilized in the first 
quarter of fiscal year 2015.
    Question. The 2014 Agricultural Act establishes a single easement 
program, the Agricultural Conservation Easement Program (ACEP), through 
consolidating the authorities of the Wetlands Reserve Program (WRP), 
the Grassland Reserve Program (GRP), and the Farmland Protection 
Program (FPP). Earlier this month you made some remarks at the 
Commodity Classic in San Antonio, Texas, in regards to the 
implementation plan and program sign-ups USDA intends to conduct for 
the new easement program during the remainder of fiscal year 2014, 
particularly with regards to enrollment of new wetland easements. I 
understand there is currently a backlog associated with prior year 
enrollments of WRP restoration agreements totaling approximately $500 
million. Can you tell me how USDA intends to address this backlog in 
the context of implementing a new, consolidated easement program moving 
forward? What is the status of USDA's Natural Resource Conservation 
Service's (NRCS) fiscal year 2014 apportionment request associated with 
this issue and do you anticipate any complications from the Office of 
Management and Budget (OMB) in regards to receiving the full 
apportionment request to address this backlog? Can you verify if NRCS 
will be utilizing prior year funds available to address this problem or 
will this issue have to be addressed through the use of new program 
funding provided in the Agricultural Conservation Easement Program?
    Answer. USDA has set WRP State acreage targets to complete closing 
and restoration on prior year enrollments over an anticipated 3-year 
timeframe. Closing and restoration targets are set for each State 
annually and are administered at the State level. States will be able 
to focus more effort on closing, restoration, and monitoring of prior 
year enrollments of WRP in fiscal year 2014 due to the reduction of 
land permitted to be enrolled in ACEP this year compared to prior year 
WRP enrollment levels.
    USDA will be utilizing prior year funds to address the closing and 
restoration of prior year WRP enrollments to the fullest extent 
possible. States will receive an allocation of the restored fiscal year 
2009 through fiscal year 2013 WRP funds for financial and technical 
assistance to complete this work on prior year enrollments. It is 
anticipated that the outstanding work on existing enrollments will 
consume the entire amount of the prior year WRP balances over the next 
3 fiscal years. Once the prior year balances are exhausted, any 
remaining work on prior year enrollments will be financed by new ACEP 
funds.
    Question. New conservation compliance requirements for crop 
insurance eligibility were included in the 2014 Agricultural Act. 
Section 2608 of the farm bill allows for USDA to implement the rules 
and regulations for this new requirement as an interim rule effective 
upon publication with an opportunity for public notice and comment. 
Implementation of conservation compliance will require input from at 
least the Farm Service Agency (FSA), the Natural Resource Conservation 
Service (NRCS), and the Risk Management Agency (RMA). Many outside 
organizations are interested in the outcome of this rule. Since the 
rule will be effective upon publication, how much stakeholder 
involvement will be part of this rulemaking process? Given that 
landowners must be in compliance with sodbuster and swampbuster 
requirements in order to receive payments from USDA, will USDA publish 
a conservation compliance rule that reflects all commodity and crop 
insurance program changes made by the 2014 Agricultural Act? Should 
producers anticipate USDA to issue new regulations for conservation 
compliance and all commodity and crop insurance program changes 
simultaneously? In the past under the leadership of Chief Dave White, 
NRCS tried to address a series of administrative issues in regards to 
wetland compliance such as precipitation data, tile setback distances, 
tract vs. field determinations, etc. What, if any, of these prior 
issues will be addressed in the conservation compliance regulation?
    Answer. NRCS, the Risk Management Agency (RMA) and the Farm Service 
Agency (FSA) meet weekly to ensure a rulemaking, implementing the 
conservation compliance provisions of the Agricultural Act of 2014 
addresses all applicable FSA, NRCS and RMA programs. The original 
conservation compliance provisions from the Food Security Act of 1985 
that require producers to farm highly erodible lands according to an 
approved conservation system and avoid draining wetlands remain. The 
2014 FB rulemaking will offer the public an opportunity to comment. 
Prior to initiating development of the rulemaking, FSA will hold a 
listening session to receive public input on March 27, 2014.
    RMA plans to amend crop insurance policies effective for the 2015 
reinsurance year (July 1, 2014-June 30, 2015) to inform every 
policyholder of the new conservation compliance requirements.
    Section 2611 of the Agricultural Act of 2014 authorizes the 
Secretary of Agriculture to use existing processes and procedures for 
producers to certify compliance with the conservation compliance 
provisions for crop insurance purposes. Therefore, RMA plans to use the 
same processes that FSA has used since enactment of the 1985 Food 
Security Act.
                                 energy
    Question. The 2014 Agricultural Act includes changes in the 
Biobased Markets Program to address the treatment of forest products 
within the Biopreferred Procurement and the Biobased labeling programs. 
The conference report includes several examples USDA should consider as 
it develops what constitutes ``innovative approaches'' in the growing, 
harvesting, sourcing, procuring and manufacturing of forest products in 
order to qualify for entry into the program. Will you commit to 
implement the 2014 farm bill program changes as expeditiously as 
possible, consistent with Congressional intent, and in a manner that 
treats all forest products fairly?
    Answer. USDA's BioPreferred program commits to implementing the 
2014 farm bill program changes as expeditiously as possible, consistent 
with Congressional intent, and in a manner that treats all forest 
products fairly. We are also fully engaged in carrying out the law as 
written in compliance with the Administrative Procedures Act. To that 
end, program staff first implemented a farm bill listening session 
(March 2014) where we summarized the farm bill-mandated program changes 
with approximately 100 program participants, outlined our approach for 
accommodating these changes, and received stakeholder feedback on both.
    BioPreferred program staff is also working with USDA's Forest 
Products Laboratory (Madison, Wisconsin) to draft a procedure to 
determine eligibility for wood-based products for mandatory Federal 
preferred procurement and voluntary product certification and labeling.
                                catfish
    Question. Secretary Vilsack, nearly 6 years have passed since the 
enactment of the 2008 farm bill, which requires the USDA Food Safety 
Inspection Service (FSIS) to create a new science-based program for the 
inspection of all catfish--foreign and domestic. I am concerned about 
the Department's seeming unwillingness to implement a law passed in 
2008--and fortified in the 2014 farm bill--to ensure healthy and safer 
food for consumers.
    Can you provide me assurance that your Department will honor the 
law enacted by the legislative body?
    Answer. Upon the enactment of the 2014 farm bill, FSIS immediately 
began the process of updating a draft final rule on catfish inspection 
to ensure that it covers all fish in the order Siluriformes. FSIS 
estimates that the final rule will be published by December 2014.
    Question. What is the current status of the Catfish Inspection 
Program, which was mandated by Congress to be fully implemented within 
1 year of the date of enactment of the new farm bill law?
    Answer. Upon enactment of the 2014 farm bill, FSIS immediately 
began the process of updating a final rule on catfish inspection in 
accordance with the law. FSIS has established an implementation team 
representative of all program areas from within the Agency and pre-
decisional involvement discussions with union officials has been 
scheduled to occur on May 1, 2014. FSIS estimates that the final rule 
will be published by December 2014.
    Question. What is the current status of your efforts to develop a 
memorandum of understanding (MOU) with the Food and Drug Administration 
(FDA) in order to improve inter-agency cooperation and to ensure that 
inspections of dual jurisdiction facilities are not duplicative?
    Answer. Upon enactment of the 2014 farm bill, FSIS and the Food and 
Drug Administration (FDA) immediately began to engage in discussions 
regarding a draft MOU in order to ensure that inspection oversight will 
be non-duplicative, that requirements for domestic and foreign 
Siluriformes products will be met, that information sharing will 
support these efforts, and that the intent of Congress will otherwise 
be met. A tentative MOU completion date is the end of April 2014.
                              food safety
    Question. Secretary Vilsack, the administration is requesting fewer 
funding resources for the Food Safety Inspection Service (FSIS)--
despite significant food safety challenges facing the American public 
and a growing workload. Are you confident that FSIS can adequately 
protect our Nation's food supply with fewer resources?
    Answer. Yes, we are confident that FSIS can protect our Nation's 
food supply. Both USDA and FSIS have created efficiencies that allow 
for maintaining food safety while utilizing fewer resources. 
Efficiencies such as billing process improvements, travel and other 
operational cost reductions along with a consolidation of District 
offices, are just a few actions the Agency has taken.
    Question. We have received a number of inquiries from industry 
stakeholders regarding USDA's efforts to finalize a rule intended to 
improve poultry slaughter inspection systems, known as HIMP (HACCP-
based Improvement Models Project). When does the Department plan to 
issue this final rule? In light of stakeholder concerns regarding 
worker safety in slaughter facilities, how does the Department intend 
to help improve safety conditions for workers?
    Answer. FSIS is in the process of preparing a final rule on poultry 
slaughter after considering the comments received. It is not possible 
to provide a specific timeline. The safety of FSIS and plant employees 
is an issue we take very seriously. FSIS received numerous comments 
raising worker safety as a potential side effect of the rule, and it 
has partnered with the Federal agencies responsible for worker safety 
to address these concerns in the draft final rule. To ensure that food 
safety improvements are made with the safety of workers in mind, FSIS 
committed in the proposed rule to requesting five Health Hazard 
Evaluations by the National Institute of Occupational Safety and Health 
(NIOSH) to assess the impact these changes could have at poultry 
facilities. The first of these evaluations has been completed, and the 
report can be found at: http://www.cdc.gov/niosh/hhe/reports/pdfs/2012-
0125-3204.pdf. In its report, NIOSH found that working conditions, 
injury rates, and the number of birds processed per employee did not 
change at this plant after implementation of HIMP. It also made several 
recommendations to improve worker safety at this facility, which FSIS' 
Administrator has called on the industry to implement. USDA will 
continue to do everything it can within its authority to encourage 
safer working conditions for its personnel and that of the 
establishments it regulates.
                                 ______
                                 
               Questions Submitted by Senator Jerry Moran
                          brazilian beef rule
    Question. I am aware of the current proposed rulemaking which would 
allow fresh and frozen beef from Brazil to be imported into the United 
States. Can you tell me the last time that USDA employees were in 
Brazil for site visits regarding this rule and what their impression is 
of the commitment and follow through from the Brazilian Government to 
keep the United States safe from foot and mouth disease?
    Answer. USDA employees conducted a rigorous risk analysis of the 
region and visited Brazil five times to verify and complement the 
information provided by the Brazilian authorities. The most recent 
visit was in February 2013. USDA officials found that the surveillance, 
prevention, and control measures implemented by Brazil in the States 
under consideration are sufficient to minimize the risk of introducing 
foot and mouth disease (FMD) into the United States via the importation 
of fresh/frozen boneless beef. Based on the findings of the visits and 
through evaluation of the FMD situation in the region, APHIS concluded 
that the commodity under consideration can be safely imported into the 
United States.
    Question. My constituents tell me that they have asked APHIS for 
documents which were used to prepare this proposed rule, but they have 
only received some of those documents and most of them were in 
Portuguese. Did APHIS not translate these documents in order to take 
their information into account while preparing this rule? Is there a 
reason why the constituents shouldn't have access to these documents to 
help them better understand USDA's rationale for this proposed rule?
    Answer. USDA has shared all of the documents that Brazil provided 
with any constituents who requested them. Some of the documents APHIS 
used as a reference in the risk analysis were submitted to us in 
Portuguese. USDA personnel involved in the evaluation had sufficient 
language skills to read these documents without requiring they be 
translated into English. In addition, in most instances the same or 
related data were provided in other documents or verbally presented to 
USDA during site visits. The information provided by Brazil and the 
conclusions reached are thoroughly described in the risk analysis that 
was made available for public comments.
    Question. Did USDA work with our domestic producers while preparing 
this rule?
    Answer. In December 2013, USDA published a proposed rule to allow 
fresh/frozen beef with foot and mouth disease mitigations to be 
imported from 14 States of Brazil. In March 2014, the Department 
extended the comment period by 60 days, until April 22, 2014. This 
extension provided domestic producers with ample opportunity to 
register their input on this rule. USDA is carefully considering all 
comments received on this rule, and will determine whether to finalize 
or modify the regulatory changes. USDA wants to continue encouraging 
other countries to import more U.S. foods, but these countries will not 
comply if we do not hold ourselves to the same standards we are asking 
of the rest of the world.
                           dietary guidelines
    Question. I know that USDA and HHS are in the process of working 
through your scientific advisory committee process to potentially 
modify the 2010 dietary guidelines. The dietary guidelines are 
important to ensure they are based on the most recent scientific 
information that's available to advise Americans on how a healthful 
diet fits into their lifestyles. Reading some of the information after 
the second meeting about topics outside of nutrition leaves me to 
question the mission of this scientific advisory committee. Can you 
please share what the mission of this committee is and what the process 
will be moving forward?
    Answer. Similar to previous Dietary Guidelines Advisory Committees, 
the 2015 Advisory Committee is currently assessing the nutritional and 
diet-related health status of Americans and will focus on topics that 
they believe are relevant and timely. Because different factors are 
important today than were a decade ago, the 2015 Committee is 
addressing topics not addressed previously. The Advisory Committee has 
acknowledged a need to move away from focusing on individual foods, 
food groups, and nutrients, and is reviewing dietary patterns as a 
whole. They view the diet to be more powerful as a sum of its parts 
rather than being focused on specific aspects of the diet. They have 
also noted that historical focus on specific aspects of the diet may 
have had unintentional consequences that have not been beneficial to 
diet and health over time. Since the diets of Americans have not 
changed much over the past few decades and are in need of improvement, 
the 2015 Advisory Committee has placed an emphasis on behaviors and 
strategies for improving the diets of Americans. Also, in their initial 
deliberations, the 2015 Advisory Committee identified a desire for 
their recommendations to ensure a healthy, nutritious, safe, and 
sustainable diet. The Advisory Committee has discussed the relationship 
between sustainability and our ability to meet dietary goals in the 
future, and plans to look at how other countries have addressed similar 
topics in their guidelines, but they currently have not discussed using 
sustainability as a rationale to change the dietary guidelines.
    The dietary guidelines are based on the preponderance of current 
scientific evidence, and the Committee is currently undergoing an 
extensive, rigorous, transparent review process in developing their 
report. This report will be used by the Government to create the 
dietary guidelines. The Committee examines the state of current 
scientific evidence using systematic reviews (with support from CNPP's 
Nutrition Evidence Library), data analyses, and/or food pattern 
modeling analyses. Additional sources of information may include 
existing evidence-based reports, input from expert guest speakers, as 
well as oral and written comments from the public. Thus, while 
individual studies and personal testimonies may suggest convincing 
results, the Committee is tasked to look at the evidence collectively 
to inform their recommendations. The Advisory Committee is still early 
in its review process and no conclusions or recommendations are 
available at this time.
    The Committee's report informs the Government's development of the 
Dietary Guidelines for Americans, but not all recommendations made by 
the Committee are included in the final policy document. The guidance 
in the policy document is based on those topics with the strongest 
available evidence. Additionally, some topics discussed in the 
Committee's report may only be included contextually in the dietary 
guidelines and thus do not have policy implications.
                             it investments
    Question. Describe the role of the Department of Agriculture Chief 
Information Officer in the oversight of IT purchases. How is this 
person involved in the decision to make an IT purchase, determine its 
scope, oversee its contract, and oversee the product's continued 
operation and maintenance?
    Answer. In compliance with the Clinger-Cohen Act, USDA established 
a Capital Planning and Investment Control division in the Office of the 
Chief Information Officer (OCIO) that also has IT Governance 
responsibility. This division reviews USDA investments and provides a 
monthly report to the Chief Information Officer (CIO).
    In addition, USDA's annual appropriations act that requires the CIO 
approval requests CIO approval for new systems or major upgrades to 
existing systems. Moreover, the purchase of information technology 
projects over $25,000 requires written approval by the CIO.
    Technical reviews of investment progress through the System 
Development Life Cycle (SDLC) are handled by the Integrated Advisory 
Board (IAB), chaired by the Associate CIO for Technology, Planning, 
Architecture, and E-Government. The IAB is comprised of the following: 
Enterprise Architecture Advisory Council, Capital Planning Advisory 
Council, Enterprise Security Governance Council, and the Critical 
Partners Advisory Group. Each of these bodies is made up of subject 
matter experts (SMEs) from each of the USDA Mission Areas (reflecting 
USDA Agencies and Staff Offices) within the areas of capital planning, 
security, enterprise architecture, records management, Section 508, 
budget, procurement, and enterprise infrastructure and applications. At 
each stage of the SDLC, the IAB evaluates IT investments to make 
recommendations to agencies and offices on corrective actions and to 
make final recommendations to the CIO and senior policy officials.
    Question. Describe the existing authorities, organizational 
structure, and reporting relationship of your Department Chief 
Information Officer. Note and explain any variance from that prescribed 
in the Information Technology Management Reform Act of 1996 (aka, the 
Clinger-Cohen Act) for the above.
    Answer. The Office of the Chief Information Officer is a component 
staff office within Departmental Management, which is led by the 
Assistant Secretary for Administration. This allows for regular 
interaction with other staff office directors. However, the CIO reports 
directly to the Secretary on matters regarding information technology, 
consistent with the Clinger-Cohen Act. The existing delegation of 
authority for the Chief Information Officer can be found in Secretary's 
memorandum 1030-30, dated August 8, 1996, at 7 CFR section 2.89.
    Question. What formal or informal mechanisms exist in your 
Department to ensure coordination and alignment within the CXO 
community (i.e., the Chief Information Officer, the Chief Acquisition 
Officer, the Chief Finance Officer, the Chief Human Capital Officer, 
and so on)? How does that alignment flow down to Agency subcomponents?
    Answer. The formal mechanisms are two-fold. First, in 2009, 
Departmental Management was created as an umbrella organization that 
includes several administrative offices. This structure allows the CXO 
community to be brought together on a regular basis to coordinate 
efforts. Departmental Management is led by the Assistant Secretary for 
Administration, who also serves as the Chief Acquisition Officer for 
USDA.
    Second, specifically pertaining to IT, the CXO positions are 
represented on USDA's Executive Information Technology Investment 
Resources Board, or E-Board, chaired by the Deputy Secretary. In 
addition to the CXOs, the E-Board also includes the Assistant Secretary 
for Administration (vice-chair) and USDA's Under Secretaries. The E-
Board ensures that USDA maximizes the value and manages the risk of IT 
investments; aligns investment recommendations with the USDA mission, 
strategic plan, budget, enterprise architecture, and information 
security; develops corrective action plans for IT investments that are 
not performing in accordance with established cost, schedule, or 
technical/business performance; and works to minimize duplicative or 
overlapping investments across USDA.
    Informally, the Chief Information Officer and the Director of the 
Office of Procurement and Property Management (OPPM) meet bi-weekly 
with a few staff from the OCIO and OPPM to explore opportunities for 
improving the acquisition of IT goods and services. This coordination 
has yielded both a closer working relationship and several specific 
initiatives. For example, OPPM staff have been instrumental in 
assisting in the development of several enterprise contracts that have 
saved the Department thousands of dollars and reduced security risks by 
eliminating the use of old versions of software that were vulnerable to 
hackers. Through the utilization of these enterprise contracts, USDA 
has eliminated the widespread duplication of software. Working directly 
with agencies, the Department as a whole will have achieved a 
combination of cost-savings and cost-avoidance from eliminating 
contracts totaling $1.23 million between 2013 the end of fiscal year 
2014.
    Question. How much of the Department's budget goes to 
Demonstration, Modernization, and Enhancement of IT systems as opposed 
to supporting existing and ongoing programs and infrastructure? How has 
this changed in the last 5 years?
    Answer. During the past 5 years, the Department consolidated and 
completed the migration of all USDA agencies into one enterprise 
financial system through the Financial Management Modernization 
Initiative (FMMI). Consequently, the Department's financial systems 
currently have no budget going to Demonstration, Modernization, and 
Enhancement (DME) for IT systems. FMMI completed the DME phase in June 
2013. FMMI is currently in the steady state operations and maintenance 
state, supporting existing and ongoing programs and infrastructure.
    Question. Where and how is the Department of Agriculture taking 
advantage of this administration's shared services initiative? How do 
you identify and utilize existing capabilities elsewhere in Government 
or industry as opposed to recreating them internally?
    Answer. The Department is enthusiastic about our opportunities to 
participate in the administration's shared services initiative, both as 
a service provider to other Federal agencies, and as a consumer of 
financial services. The overall vision of the Financial Management Line 
of Business (FMLoB) is to improve the cost, quality, and performance of 
financial management (FM) systems by leveraging shared service 
solutions and by implementing other Government-wide reforms that foster 
efficiencies in Federal financial operations.
    In fiscal year 2014, the Department has completed the formal 
application process to become a financial shared service provider. The 
Department's Financial Management Modernization Initiative (FMMI) has 
resulted in a state-of-the-art financial management system that all 
USDA agencies use. Our objective is to make USDA's financial management 
system available for other Federal entities, providing economies of 
scale and cost savings across the Federal Government. Our National 
Finance Center (NFC) offers a complete Enterprise Resource Planning 
(ERP) software solution, which integrates all aspects of financial 
management services with a program management support structure.
    The NFC's mission is to provide effective and efficient tools and 
services that are used to ensure proper financial management at the 
Department-wide level, and to ensure that adequate financial records 
are maintained for accountability and reporting to the Inspector 
General, Congress, other Federal agencies, and to the public. NFC 
accomplishes this by maintaining the FMMI ERP financial management 
system, reporting through the Financial Data Warehouse, an automated 
cash reconciliation work sheet used for daily reconciliation with the 
United States Treasury, the Purchase Card Management System, the Travel 
System, the Personal Property System, and the Purchase Order System.
    USDA's primary objectives for this NFC shared services effort are 
to provide:
  --an enterprise financial management service that allows other 
        organizations to reap the benefits in less time and less money 
        with less risk and increased service quality as compared to 
        starting from scratch with a new ERP or financial management 
        implementation;
  --integration with NFC payroll processing services;
  --complete audit compliant financial solution with full documentation 
        meeting financial requirements;
  --continuous process improvements, operational and organizational 
        improvement, for those shared services retained in the future 
        State portfolio;
  --more powerful and flexible financial management and reporting;
  --administrative payments, collections, and certifications;
  --computerized editing/auditing capabilities; and
  --customer focus/advocacy to provide the best possible customer 
        service and support.
    The Department is also looking for opportunities to leverage 
expertise and services from other agencies for applications that they 
could provide more efficiently. For example, the Treasury is offering a 
Centralized Receivable service. USDA has also scheduled an April 
briefing by the Grants Center of Excellence at the Department of Health 
and Human Services. The Department is committed to using its resources 
with optimal effectiveness and efficiency regardless of where these 
services are obtained.
    Question. Provide short, two-page, summaries of three recent IT 
program successes, projects that were delivered on time, within budget, 
and delivered the promised functionality and benefits to the end user. 
How does your Department define ``success'' in IT program management?
    Answer. [Follows:]
             success #1: usda financial management systems
    USDA plays a critical role in the financial management of the 
Federal Government by providing financial services to other Federal 
agencies. USDA's National Finance Center (NFC) administers and operates 
over 20 financial and administrative service systems in support of all 
agencies of USDA and over 100 non-USDA customers. These systems include 
such services as: payroll/personnel, central accounting, billing and 
collections, and travel. In 2013, USDA processed time and attendance 
and payroll for over 655,000 Federal employees on a bi-weekly basis, 
including the Department of Commerce, and others.
    NFC has successfully invested in the reengineering and operation of 
financial management and administrative systems in USDA, consistent 
with the goals and objectives of both the USDA 5-Year Financial 
Management Plan and the Chief Financial Officer's Strategic Plan. This 
has resulted in three important improvements in financial management 
for the Federal Government.
    The Financial Management Modernization Initiative (FMMI) project 
was initiated in 2009 to modernize the technology underlying the USDA 
financial system environment. This initiative replaced the Corporate 
Financial Management System (CFMS), including the mainframe-based 
Foundation Financial Information System (FFIS) financial system, with 
SAP Inc. Enterprise Resource Planning (ERP), migrating the current 
distributed, multi-instance mainframe system to a federally compliant, 
consolidated, single-instance Web-based system. FMMI is operational in 
all USDA Department Staff Offices and Agencies.
    USDA has also increased the usefulness of financial information to 
its customers by deploying SAP Inc. business software, including the 
SAP BusinessObjects (BOBJ) reporting tool, SAP HANA, and more. The BOBJ 
technologically advanced reporting system delivers an ad-hoc financial 
reporting tool and a comprehensive dashboard delivery tool. This 
implementation continues to provide a foundation for future plans to 
support real-time reporting. BOBJ has approximately 4,000 users and 
continues growing.
    Similarly, USDA deployed the SAP HANA software as a means of 
gaining access to real-time financial data, which increases the 
accuracy of financial projections. The Department was an early Federal 
adopter of HANA, and has presented demonstrations to numerous Federal 
audiences.
    USDA also completed software enhancements to the SAP ERP Central 
Component (ECC) and Governance Risk and Compliance (GRC) software 
components, Business Intelligence (BI) and Public Budget Formulation 
(PBF).
    Overall, USDA developed, tested, and implemented in excess of 250 
software changes related to FMMI that enhanced USDA's ability to 
operate efficiently, including: timely payments to vendors, improved 
billing and collections processing, and enhanced reporting. These 
changes were a combination of enhancements and corrective actions that 
improved the usability of the financial system and the accuracy of the 
data reported.
    Finally, USDA has improved IT governance and monitoring of its 
financial systems. For example, USDA became a certified SAP Center of 
Excellence (CoE). This effort includes the strengthening of service 
delivery, process controls, governance and customer advocacy. The USDA 
also initiated the establishment of a business process repository to 
establish a single point of access for all system monitoring and 
enhancements and business process modifications.
    Through these financial system IT modernization and enhancement 
projects, USDA has improved the Federal Government's ability to conduct 
financial business with accuracy, timeliness, and integrity. This 
benefits the many private industry partners with which the Government 
does business, along with the Federal workforce and their communities 
who can rely on prompt, accurate payments. For example, the 
Department's financial systems have successfully provided seamless, 
uninterrupted operation and delivery of payroll to Federal employees 
despite the impact of major disruptions such as the 2013 Government 
shutdown, weather storm closures, and Hurricanes Sandy and Irene. This 
continues the tradition demonstrated by the USDA's financial system 
uninterrupted reliability in spite of the destruction of our primary 
data center by Hurricane Katrina.
    Question. What best practices have emerged and been adopted from 
these recent IT program successes? What have proven to be the most 
significant barriers encountered to more common or frequent IT program 
successes?
    Answer. The USDA continues to address Agency issues and concerns 
resulting from their increased knowledge of FMMI by conducting business 
process re-engineering and listening sessions. This results in a clear 
understanding of the issues being faced, expedites the correction 
process and builds a trusted relationship between the Department and 
agencies. The outcome continues to enhance the software and business 
process improvements.
    Question. Describe the progress being made in your Department on 
the transition to new, cutting-edge technologies and applications such 
as cloud, mobility, social networking, and so on. What progress has 
been made in the CloudFirst and ShareFirst initiatives?
    Answer. The USDA National Finance Center (NFC) already provides 
cloud-like services for Department applications and the Financial 
Management Modernization Initiative (FMMI) system. The Department is 
evaluating how to utilize and provide cloud services to better support 
our mission. The models offered by NFC can be grouped into two 
categories: (1) Software as a Service (SaaS) in which software is 
deployed as a hosted service and accessed over the Internet, and (2) 
Platform as a Service (PaaS) in which platforms can be used to more 
efficiently develop and deploy new applications. The NFC is working 
towards FedRAMP certification for both SaaS and PaaS service offerings.
    Question. How does the Department of Agriculture implement 
acquisition strategies that involve each of the following: early 
collaboration with industry; RFP's with performance measures that tie 
to strategic performance objectives; and risk mitigation throughout the 
life of the contract?
    Answer. USDA has developed management guidelines that are used in 
acquisitions throughout the Department. These include the following:
  --(1) Early collaboration with industry through market research, and 
        interactive vendor participation in pre-proposal activities 
        such as the Request for Information (RFI) process.
  --(2) All contract RFPs are performance-based, which reduces the risk 
        to the Government. All service contracts include performance 
        measures and metrics that are tracked on a regular basis (bi-
        weekly, monthly, and quarterly). These are tied to the 
        Department's strategic performance objectives by the USDA 
        budget formulation process.
  --(3) Risk management is performed for each contract throughout its 
        complete lifecycle. The contractor is required to submit and 
        maintain a risk management plan, and provide a risk register 
        with mitigation strategies at least monthly. In addition, each 
        contractor is required to submit a quality assurance plan with 
        appropriate surveillance metrics.
    Question. According to the Office of Personnel Management, 46 
percent of the more than 80,000 Federal IT workers are 50 years of age 
or older, and more than 10 percent are 60 or older. Just 4 percent of 
the Federal IT workforce is under 30 years of age. Does your Department 
have such demographic imbalances? How is it addressing them? Does this 
create specific challenges for attracting and maintaining a workforce 
with skills in cutting edge technologies? What initiatives are underway 
to build your technology workforce's capabilities?
    Answer. Yes, USDA shares these demographic imbalances with other 
Federal agencies. We have implemented a succession plan to actively 
recruit IT talent under 30 years of age. The Department actively 
recruits through college visits and via college alumni within USDA to 
attract younger recruits. In addition, we are cross-training USDA 
resources to shift responsibilities from IT personnel resources 
scheduled for retirement.
    Question. What information does your Department collect on its IT 
and program management workforce? Please include, for example, details 
about current staffing versus future needs, development of the talent 
pipeline, special hiring authorities, and known knowledge gaps.
    Answer. The Department uses the individual development plan (IDP) 
to plan and monitor employee skills and knowledge. USDA agencies 
maintain a 2-year staffing plan to ensure alignment to the mission of 
the organization. This combination, along with new employee recruiting, 
acts as our talent pipeline to ensure the Department has skilled 
employees in sufficient numbers to fulfill its evolving needs. USDA 
also has special hiring authorities for the IT workforce. Where 
knowledge gaps are identified, the Department uses contracting services 
to fill these gaps as required until such time as they can be 
integrated into the permanent IT workforce. For example, the Department 
uses contractors from Deloitte and Accenture to provide subject matter 
expertise in emerging Big Data analytics.
                                 ______
                                 
               Questions Submitted By Senator John Hoeven
                             county offices
    Question. Mr. Secretary, as USDA's budget proposal includes closing 
250 FSA county offices, I want to make sure you are aware of the fact 
that North Dakota FSA offices are having difficulty in the western part 
of North Dakota recruiting and retaining FSA personnel. Can you tell us 
how the Department determines which offices should close? Are you 
conducting some type of workload assessment or simply selecting offices 
by physical location?
    Answer. FSA is aware of the challenges western North Dakota is 
experiencing with recruiting and retaining employees in FSA service 
centers. FSA has been working with the States in the Bakken area to 
lessen the impact of these issues by providing approval for additional 
hiring and authority to offer relocation and retention incentive 
payments. In preparing the fiscal year 2015 budget, FSA estimated the 
potential to close or consolidate approximately 250 offices. This 
projected level assumed continued declining funding as evidenced in 
previous years, and a shift in workload activity. Although FSA will 
benefit from the efficiencies gained through office consolidations, no 
office closure plan has been approved at this time and the Agency has 
no compiled a list of specific offices to close. Before attempting to 
close any office USDA is committed, per statue, to hold public meetings 
in each affected county within 30 days of any announcement of pending 
closure.
    Question. Mr. Secretary, as you know, the Federal crop insurance 
program provides producers with risk management tools to address crop 
yield and/or revenue losses on their farms and is the best tool North 
Dakota farmers have for managing risks inherent to farming. I 
understand that the provision to link conservation compliance to crop 
insurance, despite my opposition to its inclusion, is being done on an 
accelerated rule making process and will be put out as an interim final 
rule. Can you share with me how you plan to develop the rule to ensure 
penalties for farmers found out of compliance are not unreasonable and 
are widely understood?
    We included wetlands mitigation bank provision in the farm bill to 
help farmers deal with conservation compliance costs. Will you commit 
to working with our producers to make sure that the bank works for 
North Dakota farmers?
    Answer. USDA plans to amend crop insurance policies effective for 
the 2015 reinsurance year (July 1, 2014-June 30, 2015) to inform every 
policyholder of the new conservation compliance requirements, and 
publish a rule (7 CFR, part 12) late this summer to provide the details 
involved with connecting conservation compliance with crop insurance. 
Additionally, a fact sheet and frequently asked questions will be 
published to assist in educating producers. Finally, USDA intends to 
provide a list of policyholders currently out of compliance with the 
provisions to their approved insurance providers during the 2015 
reinsurance year to extend individual outreach. Any violations do not 
result in the loss of premium subsidy until the reinsurance year 
following the violation.
    Question. Mr. Secretary, USDA's budget for fiscal year 2015 once 
again calls for over $14 billion over 10 years in cuts to the crop 
insurance program. When I talk to North Dakota farmers, they tell me 
crop insurance is absolutely critical to their operations, critical to 
their ability to make it through bad weather and markets. That's why I 
supported language in the recently passed farm bill called the ``SRA 
Sideboard'' provision that prevents USDA from cutting crop insurance 
unilaterally through what are called Standard Reinsurance Agreements 
(SRAs). Is it your understanding that none of USDA's proposed $14 
billion in crop insurance cuts could be implemented without an act of 
Congress?
    Answer. Yes, the recent farm bill language amended the Federal Crop 
Insurance Act making the SRA budget neutral with respect to A&O subsidy 
and the financial terms related to risk sharing. In addition, terms for 
premium subsidy are also prescribed in the act and may only be changed 
by Congress.
                           wetland mitigation
    Question. Mr. Secretary, included in the farm bill is report 
language that recommends NRCS adopt an acre-for-acre mitigation 
standard; given congressional intent in this area, how is the 
Department adjusting wetland mitigation policy?
    Answer. The Department is aware of the need to make wetland 
mitigation options more transparent and available for producers. In 
certain situations current policy allows for mitigation to occur on an 
acre-for-acre basis, as recommended by the farm bill report. These 
situations include farmed wetlands and wetland sites with disturbed 
herbaceous vegetation.
                            wic food package
    Question. Mr. Secretary, on behalf of North Dakota's potato 
growers, I am disappointed by the Department's recent decision to 
exclude fresh white potatoes in the food packages for WIC in 
contradiction to the clear direction Congress gave you in the fiscal 
year 2014 Omnibus. What troubles me is the lack of consistency in the 
program and its development. For example, Both the 2005 and the 2010 
DGA notes that potassium and dietary fiber are nutrients of concern, 
potatoes are specifically excluded from purchase despite that both 
nutrients are readily available in fresh white potatoes at an 
affordable price;
    Should changes to WIC food packages be based on the most recent 
Dietary Guidelines for Americans?
    Answer. The WIC food packages are based on scientific 
recommendations from the National Academies' Institute of Medicine 
(IOM).
    The restriction of white potatoes, which was recommended by the IOM 
in 2005 and has been in place since 2007, is based on data indicating 
that consumption of starchy vegetables meets or exceeds recommended 
amounts, and food intake data showing that white potatoes are the most 
widely consumed vegetable.
    Continuing the exclusion of white potatoes maintains consistency 
with the IOM's recommendations and minimizes the introduction of 
additional confusion for WIC participants. That said, the Department 
recognizes the language included in the fiscal year 2014 appropriations 
bill expressing the expectations of Congress that all varieties of 
vegetables be included in the food package. Additionally, the 
Department continues to be committed to a science-based review process 
for the food packages provided by WIC. In order to accommodate both of 
these goals, as we advised Congress in our February 28 letter, the 
Department intends to jumpstart its regular review of the WIC food 
packages in order to seek the assistance of the IOM to learn if the 
basis for its recommendation for the exclusion of white potatoes from 
the WIC food packages is still supported.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                       country of origin labeling
    Question. The World Trade Organization (WTO) is expected to make a 
ruling this summer on the ongoing dispute over country-of-origin 
labeling (COOL) requirements brought against the United States by 
Canada and Mexico. While I have supported COOL since its inception in 
the 2002 farm bill, I am concerned with the U.S. Department of 
Agriculture's decision to continue to implement a final rule, 
``Mandatory Country of Origin Labeling of Beef, Pork . . . ,'' despite 
direction from Congress not to. The Fiscal Year 2014 Consolidated 
Appropriations Act strongly recommends the ``Department delay 
implementation and enforcement of the final rule (78 Federal Register 
31367) until the WTO has completed all decisions related to cases WT/
DS384 and WT/DS386.'' It is my understanding that the Department 
continues to expend resources to implement the final rule, including 
conducting outreach and education for employees who will be responsible 
for compliance activities.
    What actions will the Department take to comply with the Fiscal 
Year 2014 Consolidated Appropriations Act?
    If the Department does not comply, what--if any--legal requirements 
prevent you from doing so?
    Answer. USDA is proceeding with enforcing the May 2013 final rule 
in accordance with the statute and with the need to bring us into 
compliance with our WTO obligations. Should the United States not 
enforce the May 2013 final rule, it could be construed that USDA has 
not taken action to address the findings by the WTO panel.
                            wic food package
    Question. On February 28, the U.S. Department of Agriculture issued 
a final rule to update the food package for the Special Supplemental 
Nutrition Program for Women, Infants, and Children (WIC). I commend the 
Department's work to increase access to fruits and vegetables, whole 
grains and low-fat dairy based products. I also believe that the WIC 
food package should be based on the best scientific research available. 
However, I would like to know more about the metrics used to justify 
the continued exclusion of fresh white potatoes. Specifically, in a 
letter to this subcommittee, you stated that ``the restriction of white 
potatoes, which was recommended by the Institute of Medicine (IOM) in 
2005 and has been in place since 2007, is based on data indicating that 
consumption of starchy vegetables meets or exceeds recommended amounts, 
and food intake data showing that white potatoes are the most widely 
used vegetable.'' However, in your testimony you note that the WIC food 
package was updated to ``better reflect current nutrition science and 
dietary recommendations.'' According to 2009-2010 data from the Centers 
for Disease Control and Prevention (CDC), women and children are 
consuming too few starchy vegetables today. Women aged 19-30 consume 
only 2.4 cups per week, meeting less than half of the 2010 dietary 
guidelines recommended intake of 5 cups. Children also fall short of 
the 2010 dietary guidelines with girls aged 2-4 consuming 0.6 cups per 
week less than the maximum recommendations and boys in the same age 
group consuming 1.4 cups less.
    Given the 2010 dietary guidelines recommended intake and CDC 
consumption findings for women and children, can you explain which 
metrics the Department used to determine that ``consumption of starchy 
vegetables meets or exceeds recommended amounts?''
    Answer. The changes to the WIC food packages were made based on 
scientific recommendations from the National Academies' Institute of 
Medicine (IOM). The IOM was charged with reviewing the nutritional 
needs of the WIC population--low income infants, children, and 
pregnant, postpartum and breastfeeding women who are at nutritional 
risk--and recommending changes to the WIC food packages. The exclusion 
of white potatoes, as recommended by the IOM, is based on the amounts 
suggested in the 2005 Dietary Guidelines for Americans (DGA) for 
consumption of starchy vegetables; food intake data indicating that 
consumption of starchy vegetables meets or exceeds these suggested 
amounts; and food intake data showing that white potatoes are the most 
widely used vegetable.
    The 2010 dietary guidelines were issued subsequent to the IOM 
report that formed the basis of the WIC food package changes. IOM 
determined that the addition of white potatoes in the WIC food packages 
would not support the goal of expanding the types and varieties of 
fruits and vegetables used by program participants. The next regular 
review of the WIC food package is set to begin this year. IOM will 
utilize current science and the 2015 Dietary Guidelines for Americans, 
when available, as it develops its recommendations to the Department to 
inform our next course of action with respect to the WIC food package.
    Question. Furthermore, what nutritional data was used to justify 
the continued exclusion of fresh white potatoes? The white potato is a 
known source of potassium, fiber, vitamin C, and many B vitamins. 
Several of these vitamins have been found to be lacking or inadequate 
in the diets of young children by the IOM.
    Answer. The final WIC Food Package Rule continues to authorize a 
wide variety of choices within the authorized fruit and vegetable 
options. Additionally, the final rule includes several significant 
improvements to the food package that more closely align with the 
National Academies' Institute of Medicine's (IOM) recommendations and 
will increase WIC participants' access to fruits and vegetables, whole 
grains and low-fat dairy.
    Consistent with a major recommendation of the Dietary Guidelines 
for Americans, increasing fruit and vegetable intakes by WIC 
participants was cited as a priority by the IOM. This provision 
supports the goal of expanding the types and varieties of fruits and 
vegetables available to program participants. The WIC Program does, 
however, continue to promote white potatoes as a healthful source of 
nutrients and an important part of a healthful diet, through nutrition 
education provided to WIC participants. WIC clients who also 
participate in the Farmers' Market Nutrition Program (FMNP), may use 
their FMNP vouchers to purchase white potatoes offered at farmers' 
markets.
    Question. Can you provide a timeline for when the Department 
intends to begin its regular review of the WIC food package? What steps 
will you take during this process to ensure the best scientific 
research available is used to determine both sufficient consumption and 
nutritional value when determining what should or should not be 
included in the food package?
    Answer. The Department continues to be committed to a science-based 
review process for the food packages WIC provides and intends to 
jumpstart its regular review of the WIC food package. Initially 
scheduled for mid-to-late 2015, the review is now set to begin more 
than a year earlier, so that we can seek the assistance of the 
Institute of Medicine (IOM), to learn if the basis for its 
recommendation for the exclusion of white potatoes from the WIC food 
packages is still supported by the most current science available. This 
review will incorporate current science and the 2015 Dietary Guidelines 
for Americans recommendations. The Department will use the updated 
scientific information it receives from the IOM to inform its next 
course of action with respect to the WIC food package.

                          SUBCOMMITTEE RECESS

    Senator Pryor. So, but anyway, the subcommittee will meet 
again at 10 a.m. on Thursday, April 3. And we will have the 
Food and Drug Administration.
    So again, I want to thank you for being here today. It's 
been a very useful and productive hearing.
    And with that, we will adjourn.
    Thank you.
    [Whereupon, at 11:10 a.m., Wednesday, March 26, the 
subcommittee was recessed, to reconvene at 10 a.m., Thursday, 
April 3.]


 
              MATERIAL SUBMITTED SUBSEQUENT TO THE HEARING

    [Clerk's Note.--The following testimony was received 
subsequent to the hearing for inclusion in the record.]
 Prepared Statement of Hon. Phyllis K. Fong, Inspector General, Office 
            of Inspector General, Department of Agriculture
    Thank you, Chairman Pryor, Ranking Member Blunt, and members of the 
subcommittee, for the opportunity to submit a statement concerning the 
Office of Inspector General's (OIG) recent and planned audit and 
investigative work, as well as OIG's fiscal year 2015 budget request.
    Despite the past year being a period of restricted resources, OIG 
continues to achieve substantial and far-reaching results that serve 
American taxpayers' interest in more effective government. In fiscal 
year 2013, our audit and investigative work obtained potential monetary 
results totaling over $1.2 billion. We issued 54 audit reports intended 
to strengthen Department of Agriculture (USDA) programs and operations, 
which produced about $1.1 billion in potential results. OIG 
investigations led to 551 convictions with potential results totaling 
almost $122.7 million.\1\
---------------------------------------------------------------------------
    \1\ As established by Congress in the Inspector General Act of 
1978, audit monetary impacts derive from funds put to better use and 
questioned/unsupported costs. Investigation monetary impacts come from 
recoveries, court-ordered fines, restitutions, administrative 
penalties, as well as other judgments.
---------------------------------------------------------------------------
    These monetary results far surpass our annual budget. From fiscal 
year 2006 to fiscal year 2013, the potential dollar impact of OIG 
audits and investigations has totaled $8.5 billion, while our 
appropriations have been just $670 million. For every $1 invested, we 
have realized potential cost savings and recoveries of about $12.62. 
This figure does not capture the significant, but less easily 
quantified, results of our efforts to improve public safety or 
implement program improvements.
    After summarizing our most significant recent audit and 
investigative activities under our major strategic goals, I will 
conclude with a description of what OIG has done over the past several 
years to live within its budget constraints.
    Before I do so, however, I would like to address one of the broader 
concerns facing USDA. In our work, we often find that the Department 
and its agencies need to focus more on how they monitor their programs 
and ensure that participants are complying with requirements. As we 
have identified in our 2013 Management Challenges, many USDA agencies 
place their primary focus on administering programs and providing 
benefits--often at the cost of designing sufficient controls to ensure 
that program funds serve their intended purposes. This problem cuts 
across USDA and has emerged in agencies in all departmental mission 
areas.
    While individual audits and investigations may bring to the fore 
problems specific to particular agencies and programs, USDA needs to 
prioritize compliance and monitoring as vital elements of proper 
program management. In this vein, OIG is evaluating the Farm Service 
Agency's compliance activities; a related project involves reviewing 
the Risk Management Agency's (RMA) national performance reviews and 
determining how useful they are in ensuring program compliance.
                      goal 1--safety and security
Strengthen USDA's Ability To Implement Safety and Security Measures To 
        Protect the Public Health as Well as Agricultural and 
        Departmental Resources
    To help USDA and the American people meet critical challenges in 
safety, security, and public health, OIG provides independent audits 
and investigations. Our work addresses such issues as the ongoing 
challenges of agricultural inspection activities, the safety of the 
food supply, and homeland security.
            Investigation Leads to Judgment Against California Meat 
                    Packing Plant
    In June 2012, two defendants entered into a settlement agreement to 
pay the United States over $304,000 and pay the Humane Society of the 
United States (HSUS) over $19,000. In October 2013, six defendants, 
including individuals and companies, entered into a settlement 
agreement to pay the United States approximately $2.7 million and pay 
HSUS approximately $112,000. In addition, one of the companies entered 
into a consent judgment in favor of the United States Government in the 
amount of $155 million. The settlements resulted from a qui tam civil 
complaint filed by HSUS in February 2008 against the company and its 
entities; the complaint prompted an investigation by OIG and the U.S. 
Attorney's Office for the Central District of California into 
allegations that a California company mistreated cattle destined for 
slaughter and adulterated meat, including some products distributed to 
the National School Lunch Program.
            The Food Safety Inspection Service (FSIS) Needs To Ensure 
                    That Swine Slaughter Plants Follow the Federal Meat 
                    Inspection Act
    FSIS inspects over 600 plants that slaughter swine, and our audit 
of plants subject to FSIS' enforcement found that the agency's actions 
do not deter swine slaughter plants from becoming repeat violators of 
the Federal Meat Inspection Act. As a result, plants have repeatedly 
violated the same regulations with little or no consequence. We found 
that, in 8 of the 30 plants we visited, inspectors did not always 
examine the internal organs of carcasses in accordance with FSIS 
inspection requirements, or take enforcement actions against plants 
that violated food safety regulations. As a result, there is reduced 
assurance that FSIS inspectors effectively identified pork that should 
not enter the food supply. Agency officials concurred with our 
recommendations.
            The Agricultural Marketing Service (AMS) Needs To Ensure 
                    That Organic Dairy Cattle Have Appropriate Access 
                    To Pasture
    OIG also conducted an audit of how AMS implemented the ``access to 
pasture'' rule as part of its National Organic Program (NOP). While the 
agency has generally implemented this rule successfully, we noted that 
NOP officials had not clearly defined how producers should demarcate 
herds of organic milk-producing cattle, which meant that some 
certifying agents treated organic dairy producers differently, allowing 
some to add cattle to organic dairy herds, when other agents would not. 
Because the regulations are not clear in defining herds of organic 
cattle, consumers may not always be receiving the high-quality organic 
product they expect. We also noted that NOP needs to include organic 
feed brokers within the NOP certification process to ensure that 
organic feed is not commingled or contaminated. Finally, we found that 
smaller operations were often unaware of recordkeeping requirements of 
the access to pasture rule regarding livestock confinement, grazing, or 
the cattle's dry matter intake. AMS concurred with our recommendations.
    Among other audits in process, OIG is evaluating how FSIS has 
implemented the Public Health Information System (PHIS) for Domestic 
Inspection, and whether PHIS adequately addresses the agency's key 
mission elements.
                     goal 2--integrity of benefits
Reduce Program Vulnerabilities and Strengthen Program Integrity
    One of OIG's most important goals is helping USDA safeguard its 
programs to ensure that benefits are reaching those they are intended 
to reach. Given the importance of the Food and Nutrition Service's 
(FNS) Supplemental Nutrition Assistance Program (SNAP)--its $86 billion 
in fiscal year 2013 represents 56 percent of USDA's budget--OIG 
continues to direct a large percentage of its resources to combatting 
the trafficking of SNAP benefits. In 2013, OIG's combined audit and 
investigative work was selected for a Council of the Inspectors General 
on Integrity and Efficiency award for excellence. The award cited audit 
findings and criminal prosecutions resulting in more than $84 million 
in questioned costs, funds to be put to better use, restitutions, 
seizures, and other means, as well as FNS' agreement to 58 of OIG's 
recommended program improvements.
    As a recent example of our investigative SNAP work, an employee of 
a Philadelphia supermarket who trafficked in SNAP benefits was 
sentenced to prison time, and was ordered to pay approximately $2.3 
million in restitution. In California, a husband and wife who owned six 
stores that engaged in SNAP trafficking were sentenced to 40 months and 
18 months in prison, respectively. They were also ordered to share in 
paying $6.5 million in restitution to FNS.
    Working jointly with FNS, OIG has also developed a new approach, 
called the SNAP Initiative, which is a tool for further identifying and 
addressing fraud in SNAP on a multi-agency level. The initiative 
combines the resources, ingenuity, and prosecutorial efforts of local, 
State, and Federal law enforcement partners with the common goal of 
preventing and prosecuting SNAP fraud. This multi-step approach helps 
identify SNAP fraud offenders on both the retailer and recipient side 
of trafficking. A vital aspect of the initiative is prevention, to be 
achieved through community outreach and media efforts educating 
citizens and retail owners on Federal regulations concerning SNAP 
benefits. OIG is in the process of rolling out this promising 
initiative with FNS in 2014.
            FNS Needs To More Closely Screen SNAP Retailers
    Likewise, OIG audits have shown how SNAP may be improved to better 
serve its intended purpose. Recently, OIG reviewed how FNS authorizes 
retailers to participate in SNAP to determine if disqualified retailers 
were allowed to continue participating in the program. We found that 
FNS does not have clear procedures and guidance to carry out key 
oversight and enforcement activities to address SNAP retailer fraud, or 
adequate authority to prevent multiple instances of fraud--either by a 
particular owner or within a particular location. As a result, FNS does 
not consistently penalize retailers who illegally exchange SNAP 
benefits. From a sample of 316 locations, we found that FNS did not 
properly determine potentially $6.7 million in penalties, and 
authorized 51 ineligible store owners, who redeemed over $5.3 million 
in benefits since 2006. In addition, we identified 586 owners allowed 
to continue participating in SNAP at other locations after being 
permanently disqualified, and 90 retail locations that had two or more 
firms permanently disqualified. FNS and OIG agreed on 12 of 20 
recommendations; however, further action from the agency is needed 
before management decision can be reached for the other 8 
recommendations.
    OIG also has several upcoming projects that will address food 
benefits. We are currently reviewing the National School Lunch/
Breakfast Program to evaluate the methods FNS is using to lower the 
improper payment error rates for both programs. In a separate project, 
we are determining whether FNS and the State agencies responsible for 
administering SNAP have adequate controls in place to ensure that SNAP 
payment error rates are accurately determined and reported, appropriate 
actions are taken to reduce the error rates, and errors are timely 
corrected when detected. Finally, in a third review, we are evaluating 
the factors causing high average food costs reported for States 
participating in the Special Supplemental Nutrition Program for Women, 
Infants, and Children.
            RMA Needs To Ensure That Its Prevented Planting Provisions 
                    Do Not Discourage Farmers From Planting Crops
    With approximately $4.6 billion in claims paid to producers who 
were prevented from planting from 2008 to 2011, RMA's prevented 
planting provisions offer another opportunity for USDA to achieve 
improved efficiency. OIG determined that RMA needs to improve the 
prevented planting provisions to be more cost effective; to encourage 
producers to plant a crop, where possible; and to make eligibility 
criteria more objective and clear. Specifically, we found that, out of 
concern for covering a producer's pre-planting costs in all cases, RMA 
set current prevented planting coverage levels above the percentages of 
guarantees that farmers needed to cover average pre-planting costs. As 
a result, by establishing coverage levels that provided over $480 
million in potentially excessive payments, we believe that RMA 
inadvertently provided incentives to actively encourage prevented 
planting claims. Also, we found that loss adjusters did not fully 
document and support eligibility for over $43 million in prevented 
planting payments. RMA needs to improve its guidance to better hold 
approved insurance providers accountable, and prevent acres that are 
regularly too wet for crop production from receiving prevented planting 
coverage. The agency generally agreed with our recommendations.
    Also in the area of farm-related programs, in December 2013, OIG 
concluded an investigation into a multi-year scheme to circumvent farm 
program payment limitations. As a result, three producers, collectively 
with several of their corporations and limited partnerships, signed a 
settlement agreement in which they repaid $5.4 million to the 
Government. Our investigation revealed that the three men (the 
principal owner of an Illinois farm, his son, and son-in-law) created 
limited partnerships with other individuals who did not have the 
financial means or ability to operate farming operations that would 
qualify for the program. During crop years 2001-2008, the three men 
participated in at least 17 limited partnerships for which they 
maintained full control and signature authority as general partners, 
even though, on paper, they held only a 2-percent or 4-percent share of 
each. The 17 limited partnerships received farm program payments of 
approximately $6.7 million.
               goal 3--management improvement initiatives
Support USDA in Implementing Its Management Improvement Initiatives
    OIG works to aid the Department in improving the processes and 
systems it needs to function effectively. Notably, we have recently 
issued several reports intended to improve how USDA settles civil 
rights complaints and promotes foreign trade.
            Efforts To Monitor Settlement of Civil Right Complaints
    USDA continues its work concerning complaints filed by different 
civil rights groups. In response to requirements of the Claims 
Resolution Act of 2010,\2\ OIG performed an audit of the In re Black 
Farmers Discrimination Litigation (known as BFDL) claims process. Our 
statistical sample of 100 randomly selected claims found instances 
where the arbiter had reached differing conclusions for claims that 
were essentially identical, allowed multiple claims for the same 
farmer, and approved ineligible claims. The arbiter and the claims 
administrator agreed with our concerns and took action to correct these 
issues and maintain the integrity of the process.
---------------------------------------------------------------------------
    \2\ Public Law 111-291, 124 Stat. 3064.
---------------------------------------------------------------------------
    OIG is currently performing a review, at the Secretary's request, 
intended to determine if the claims review process for women and 
Hispanic farmers is adequate and functioning. OIG is also performing 
additional audit work on the adjudicated BFDL claims to determine if 
awards were granted to eligible claimants.
            The Office of Advocacy and Outreach (OAO) Needs To Improve 
                    Its Process for Selecting Outreach Candidates
    OAO initially selected applicants to receive fiscal year 2012 
grants through the Outreach and Assistance for Socially Disadvantaged 
Farmers and Ranchers Program, even though these applicants may not have 
been the most meritorious and deserving candidates. OAO officials 
disregarded regulatory requirements and guidelines cited in the Funding 
Opportunity Announcement in making those selections. Also, they had no 
documentation to support their decisions and could not explain why some 
applicants that appeared more deserving were not selected to receive 
grant funds. OAO agreed with our recommendation to strengthen the 
selection process and re-selected applicants in a more impartial and 
transparent manner.
            The Foreign Agricultural Service (FAS) Should Improve Its 
                    Strategic Plan for Increasing Trade
    A recent audit determined whether USDA and FAS have developed and 
implemented measurable strategies that are effectively promoting trade. 
We found that, although FAS recently updated its strategic plan to 
include measurable goals and objectives, these goals and objectives 
(which measure the dollar value of exports) do not present the whole 
picture of how FAS' actions are affecting the global market for 
American agricultural goods. FAS' measures are not outcome-based and do 
not show how the United States is performing in a given market compared 
to its competitors. OIG acknowledges that developing outcome-based 
performance measures for FAS' trade efforts is difficult, but we 
maintain that a change in U.S. market share is an outcome-based measure 
that would be of great use to policymakers. FAS generally agreed with 
our recommendations.
            FAS Needs To Improve Controls Over Agricultural Aid to 
                    Afghanistan
    After the U.S. Agency for International Development transferred 
$86.3 million to USDA for capacity-building activities in Afghanistan 
in 2010, OIG was required to monitor how these funds were used. A 
recent review found that senior managers at FAS were aware of general 
control weaknesses before first receiving the funding; nevertheless, 
FAS had not implemented performance monitoring plans for all projects 
until over 2 years after the first project began. Without adequate 
management controls in place, FAS cannot effectively monitor these 
projects and faces difficulty in providing adequate assurance that the 
funds are effectively accomplishing program goals. FAS agreed with all 
recommendations.
            USDA Continues Its Efforts To Improve the Reporting of 
                    Improper Payments and High Dollar Overpayments
    OIG continues to aid the Department in its efforts to reduce 
improper payments as part of the Improper Payments Elimination and 
Recovery Act of 2010 (IPERA).\3\ In our annual report on this topic, we 
found that USDA did not fully comply with IPERA for a second 
consecutive year. Although USDA made progress in improving its 
processes to substantially comply with IPERA, the Department was not 
compliant with several IPERA requirements. By taking more effective 
measures to avoid these noncompliances, USDA could have avoided 
approximately $74 million in improper payments by meeting reduction 
targets.
---------------------------------------------------------------------------
    \3\ Public Law 111-204, 124 Stat. 2224.
---------------------------------------------------------------------------
    USDA has improved in its efforts to report high dollar 
overpayments, according to our annual report. OIG found that USDA 
reported more comprehensive information about high dollar overpayments 
than it did in previous years. Specifically, due to improved reporting 
oversight and processes, USDA reported 239 overpayments, totaling 
approximately $20.3 million in fiscal year 2012. This represents an 
increase of 67 percent over the number of overpayments reported the 
previous year. However, we determined that the quarterly reports 
included errors and were published up to 102 days after the due date. 
Without accurate and timely reporting, the effects of USDA's actions or 
strategies to eliminate the errors causing high dollar overpayments are 
not fully known. USDA's Office of the Chief Financial Officer agreed 
with our recommendation.
            The National Agricultural Statistics Service (NASS) Must 
                    Improve How It Releases Sensitive Information
    OIG has also recently audited how NASS controls access to sensitive 
market data and whether information is being released according to 
established criteria. We found that NASS did not adequately enforce 
critical procedures and physical security measures meant to protect the 
security of NASS information. Notably, OIG was able to bring a cell 
phone into lockup and witnessed a reporter using an iPad during lockup, 
although these items are banned from NASS' facility. As a result, 
sensitive information could be compromised or leaked before its 
official release, which could adversely affect equitable trading in 
commodity markets. We concurred with the actions NASS has taken to 
address 14 of the 17 recommendations made in the report.
    OIG conducts investigations of USDA employees alleged to have 
engaged in criminal activity. In November 2012, an official with Rural 
Development pled guilty to committing wire fraud by depositing $6.2 
million in checks, issued by 10 water authorities and one electric 
authority, into a bank account for which he had the sole signatory 
authority. A joint investigation with the Federal Bureau of 
Investigation disclosed that the employee then transferred those funds 
to his personal accounts. The employee separated from Federal 
employment in January 2013. In March 2013, the employee was sentenced 
in U.S. District Court, Middle District of Alabama, to 60 months in 
prison. In June 2013, the man was ordered to pay $3.9 million in 
restitution to seven water authorities and one electric authority.
    In other upcoming work that may be of interest, OIG is performing, 
at Congressional request, a review to determine the adequacy of USDA's 
management controls over the Department's Economy Act transfers and the 
collection and use of funds under Department-wide reimbursable 
agreements, commonly referred to as ``greenbook'' charges. 
Additionally, OIG is reviewing FAS' controls over private voluntary 
organizations, as well as developing a ``lessons learned'' report 
concerning our Recovery Act oversight.
                 oig budget and cost-saving initiatives
    In response to the budgetary constraints throughout the Federal 
Government, OIG has streamlined its operations to create a leaner, more 
effective agency. In fiscal year 2012, we conducted a functional 
analysis to ensure that OIG, as an agency, is appropriately positioned 
to continue to operate in the most efficient and effective manner. 
Based on this analysis and the limited fiscal year 2013 budget, we took 
the following steps:
  --reduced staffing through attrition;
  --reduced leased office space and office structures;
  --increased use of webinars, video, and teleconferencing to reduce 
        travel costs;
  --allowed employees to fill GS-14 and GS-15 positions without moving, 
        which has reduced relocation costs; and
  --shifted Investigations and Audit employees away from headquarters 
        and to the field to carry out OIG's audit and investigative 
        operations more effectively.
    These steps enabled OIG to continue performing its oversight role 
despite the fact that OIG is presently functioning at its lowest level 
of staffing in its history.
    The increase in OIG's fiscal year 2014 budget allows us to fill 
some critical vacancies that will enhance our ability to deliver high-
quality products. We appreciate the Committee's support in providing 
these much needed resources.
    For fiscal year 2015, the President's budget request proposes a 
total increase of $7.3 million and 12 staff years. Much of this 
increase (about $5.2 million) is intended to pay for decentralizing 
General Services Administration rental payments and Department of 
Homeland Security payments. In addition, we have requested funding for 
staffing an Audit Center of Excellence, an initiative that will review 
agency program vulnerabilities and enhance the Department's oversight 
of improper payments. Audit's Center of Excellence would have a data 
analysis component which would isolate data anomalies within USDA's 
highrisk program payments and allow OIG to better validate how agencies 
calculate their improper payment error rate. We anticipate that this 
initiative will help the Department administer its programs more 
effectively and implement corrective actions necessary to reduce 
improper payments.
    This concludes my statement. My senior management team and I would 
be pleased to address any questions that you and the subcommittee's 
staff may have, at your convenience.


 
   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2015

                              ----------                              


                        THURSDAY, APRIL 3, 2014

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:01 a.m. in room SD-138, Dirksen 
Senate Office Building, Hon. Mark Pryor (chairman) presiding.
    Present: Senators Pryor, Merkley, Blunt, Cochran, and 
Collins.

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

                      Food and Drug Administration

STATEMENT OF HON. DR. MARGARET HAMBURG, COMMISSIONER
ACCOMPANIED BY:
        WILLIAM TOOTLE, DIRECTOR, OFFICE OF BUDGET
        NORRIS W. COCHRAN, DEPUTY ASSISTANT SECRETARY, OFFICE OF BUDGET

               OPENING STATEMENT OF SENATOR MARK L. PRYOR

    Senator Pryor. I`ll go ahead and call our hearing to order 
here. And let me just say welcome everyone to the subcommittee 
on Agriculture, Rural Development, Food and Drug 
Administration, and Related Agencies. And today, we are talking 
about the Food and Drug Administration (FDA).
    So I'd like to thank everyone for being here today, 
especially Commissioner Hamburg who has done great work over 
there, as well as Mr. Tootle and Mr. Cochran. Thank you for 
your time and your preparation. And I know that you have to 
deal with a set of very complex issues not just in what you do 
normally, but also in the budget environment this year, one 
that we're all living in right now. And you're working hard to 
honor the responsibilities of the FDA and we appreciate your 
efforts on that.

                                 BUDGET

    I'm not going to take up a lot of time with an opening 
statement, but I would like to say that this budget is quite a 
change from the budgets we've seen from FDA over the past few 
years. For an agency that regulates products, representing more 
than 20 cents of every $1 that Americans spend, with a budget 
of over $2.5 billion, the increase you're requesting is 
minimal; less than 1 percent. And on the one hand, I think 
people appreciate that, but on the other hand, we recognize the 
challenges that that presents, as well.
    And I know that you will talk about a larger request, but 
it is important to note that that's beyond the jurisdiction of 
our subcommittee because it's based on user fees. And we'll 
focus mostly on what the subcommittee has control over. But, 
certainly, if you want to talk about user fees, you're 
certainly welcome to do that.

                     FOOD SAFETY MODERNIZATION ACT

    It's often pointed out that FDA's responsibilities are 
incredibly vast; certainly they continue to grow and to evolve. 
Currently, you're in the middle of the implementation of the 
Food Safety Modernization Act (FSMA) which, I'm sure, we'll 
hear more about this morning. You're also continuing to respond 
to issues about compounded drugs and implementing the Drug 
Quality and Security Act (DQSA) which was signed into law last 
November.
    So here, again, you have your plate full. We appreciate the 
challenges you face. Look forward to hearing about your budget.
    And also, one thing I think that we need to recognize is 
the world continues to become smaller. And you really are in 
charge of regulating a global marketplace; it's not just the 
U.S. market but really the, because the United States is such 
an important part of the global economy, in your areas of 
jurisdiction, you really are, in some ways, managing or 
overseeing a global marketplace. And that brings its own set of 
responsibilities and challenges.
    New medical treatments are coming onboard. We're going 
from, kind of, a one-size-fits-all in the world of medicine to 
finding drugs and treatments and cures that are very, very 
personalized. And, even though this is exciting, once again, it 
creates a whole new set of challenges for you to have the right 
science and the right methodology and the right approach to get 
the best results we can possibly get while always being safe, 
of course.
    And so that's obviously a big picture overview. Your agency 
has a lot of supporters not just around the country and around 
the world, but also in the Senate. But we also know that 
there's a lot of expectations on this agency because the FDA 
has, really, a long track record of getting it right and we 
appreciate that.

               NATIONAL CENTER FOR TOXICOLOGICAL RESEARCH

    So we can talk about the funding for the National Center 
for Toxicological Research (NCTR). In Arkansas, I know that 
there's a cut there. We'll talk about that. They continue to do 
groundbreaking research in nanotechnology and a number of other 
places. So, we'll talk about that during the question period.
    And you also have a very small increase in your budget 
proposed for implementing the FSMA and with a much larger sum 
proposed in new user fees. And, again, we'll talk about that, 
too.
    So, with all that said, what I'd like to do is turn it over 
to my ranking member, a great leader on these issues, Senator 
Blunt.

                     STATEMENT OF SENATOR ROY BLUNT

    Senator Blunt. Well, thank you, Chairman Pryor. And thank 
you for your extraordinary leadership of this committee and 
your partnership in the issues we deal with.
    Dr. Hamburg, we're pleased you're here. Mr. Cochran and Mr. 
Tootle, thank you for everything you do. I have a statement for 
the record, but let me mention a couple of things in that 
statement.
    First of all, the impact of the agency is significant. 
Twenty cents out of every spending $1 goes to things that FDA 
one way or another is involved in. Americans expect that the 
food they eat to be safe and the drugs they take to be safe and 
effective. Your private sector partners also expect you to be 
that; a partner in trying to make those things work and, to 
those conclusions, in the best way for everybody involved, and, 
ultimately, the best way for the consumer. And, of course, part 
of that means getting products to the consumer as quickly as we 
can but no more quickly than we can.
    It's like somebody once said, ``Everything should be as 
simple as possible but no simpler.'' And, that's sort of what 
we want to see happen at the FDA. We want this done as quickly 
as we can get it done, but obviously it's important that it be 
done in the right way.
    In the last 3 years, the FDA has been given significant new 
responsibilities: The Food Safety Modernization Act; the, what 
sounded easy but turned out not to be so easy, menu labeling 
legislation; the drug compounding legislation that just gave 
you new responsibilities in the last year. And in all of those, 
and everything else you do, I think we need to be careful.
    And our job is to be insistent that we don't get into a 
one-size-fits-all mentality because one size almost never fits 
anybody. And small businesses really suffer from procedures 
that are designed for businesses that are much bigger than the 
job that they're trying to do.

                     FOOD SAFETY MODERNIZATION ACT

    Under the Food Safety Modernization Act, the FDA is tasked 
with implementing the most sweeping changes in food safety in 
over 70 years. There's a lot of anxiety in the agricultural 
community about the implementation of this act. And, back to 
the one-size-fits-all concept of how this act would work, and 
something that Senator Shaheen and I in a letter signed by 
others brought to your attention and you've responded to in the 
last few weeks. And we see that there's a handful of setbacks 
already in addressing this law as people say, ``Well, this 
really doesn't work for us. And here's why we want you to 
understand better that this doesn't work in all of the 
environments that now the Food Safety Modernization Act would 
take today's FDA.''
    But we're glad you're here. I look forward to the chance to 
ask questions about this budget and about the ongoing work of 
the agency.
    And, Mr. Chairman, again thank you for your leadership and 
for calling this hearing today.
    Senator Pryor. Well, thank you.
    And we really only have one witness today, although, she 
has, can I say, two wingmen up there with her. Is that fair to 
say? The wingmen are Bill Tootle, who is the Director of Office 
and Budget at the FDA; and also we have Norris Cochran, he is 
at Department of Health and Human Services (HHS), Office of 
Budget; and of course, the star of the show today is going to 
be Dr. Margaret H. Hamburg.
    Welcome. And I don't think we're necessarily going to put a 
timer on yours. We'd love for you to--you understand you can 
submit your full statement for the record. If you want to 
summarize it, that's up to you.
    And, what we're going to try to do here is probably minute 
rounds, is probably what we're going to do here.
    So, go ahead, Dr. Hamburg. Thank you for being here.

             SUMMARY STATEMENT OF HON. DR. MARGARET HAMBURG

    Dr. Hamburg. Great.
    Thank you so much. And I, of course, would like to submit 
my full statement for the record.
    But, Chairman Pryor and members of the subcommittee, I do 
appreciate the opportunity to come before you today and to 
discuss our fiscal year 2015 budget. I also want to thank you 
for the subcommittee's past investments in FDA. Really, your 
unflagging support for FDA's work to promote and protect public 
health, even in these challenging budgetary times, is deeply 
appreciated. And the recent work you've done to help us around 
some of the sequester issues also has been very meaningful.
    As you know, FDA's mission is far-reaching. We're tasked 
with ensuring the safety, effectiveness, and quality of human 
and animal drugs, biologics, medical devices, and other medical 
products; as well as the safety of our blood supply, safety and 
quality of some 80 percent of our Nation's food supply, and, 
most recently, the responsibility to regulate the 
manufacturing, marketing, and distribution of tobacco products.
    Today, FDA must respond to ever more complex challenges. We 
must stay at pace or ahead of the rapid advances in science and 
technology that are driving product developments and 
innovation. And globalization is dramatically increasing the 
volume of imported goods, as well as the complexity of their 
supply chains.
    I'm happy to report that last year FDA moved forward on 
many fronts to address these and other significant challenges. 
We took major steps towards implementing the Food Safety 
Modernization Act, or FSMA, which will enable FDA to build a 
modern prevention-focused food safety system, protecting 
Americans against foodborne illness from both domestic and 
foreign sources. We approved novel medical products in cutting-
edge areas of science to address critical medical needs. We've 
made progress in reducing drug shortages. And working with 
members of Congress and industry, we reached agreement on an 
approach to pharmacy compounding and set a timeline for a 
National Track and Trace System for prescription drugs that, 
when fully implemented, will further bolster the safety of the 
drug supply chain.

                                 BUDGET

    Looking ahead to next year, FDA is requesting a budget of 
$4.74 billion for fiscal year 2015. This represents a modest 
increase of 8 percent overall, or $358 million, to help fund 
our highest priorities.
    In 2015, as noted, proposed and current user fees account 
for a significant proportion of our total budget request, 46 
percent, with budget authority dollars comprising the rest. We 
recognize the larger pressures on the Federal budgets. So our 
budget request focuses on our most urgent needs; the safety of 
medical products including compounded drugs and the safety of 
our food supply. We're also asking for a small increase for 
infrastructure.
    More specifically, the 2015 budget provides a program level 
of $2.6 billion to continue core medical product activities 
across FDA programs, which is $61 million above the fiscal year 
2014 enacted level. And, importantly, this budget includes $25 
million in budget authority to enhance pharmacy compounding 
oversight activities.

                         COMPOUNDING PHARMACIES

    The 2012 fungal meningitis outbreak that killed 64 people 
and sickened some 750 others across 20 States in this country, 
demonstrated the critical need for improved oversight of 
compounding pharmacies. To better protect the American people, 
FDA quickly stepped up activities within available resources, 
and then Congress passed the Drug Quality and Security Act, in 
November 2013, giving us new responsibilities and authorities; 
though without commensurate resources.

                              FOOD SAFETY

    FDA's 2015 budget also requests an increase of $263 million 
for food safety including resources to continue implementing 
FSMA. Implementation will reduce foodborne outbreaks which 
continue to cause preventable illness, hospitalization, and 
deaths. Implementation will also minimalize the market 
disruptions and economic costs inflicted by these outbreaks and 
significant contamination incidents.
    This is a crucial time if we're to realize the vision and 
mandate of FSMA. While we'll still be able to issue the FSMA 
rules without increased funding, it will be impossible to 
effectively implement these important rules and to reduce or 
prevent serious and costly foodborne disease.
    New resources are required in fundamental areas: Training; 
the provision of guidance and technical assistance to industry 
especially small growers and producers; support to build and 
strengthen partnerships with States; and the creation of a 
modern import safety system.
    In conclusion, I want to underscore that FDA is a unique 
and essential agency. What we do matters for health and quality 
of life of individuals, families, and communities across our 
Nation. And it matters to the health and vibrancy of our 
economy, jobs, and our global economic competitiveness, as 
well. Yet the FDA budget is, in fact, a remarkable bargain.
    As has been noted, the products we regulate account for 
more than 20 cents of every consumer dollar spent on products 
in the United States. Yet, individual Americans pay a scant 2 
cents a day to support our work; a small price to pay for life-
saving medicines approved as fast, or faster, than anywhere in 
the world; a food supply that is among the safest in the world; 
and confidence in a vast array of important products that 
Americans rely on each and every day.
    So I thank you for your past support and I look forward to 
our ability to discuss these important issues this morning.
    Thank you.
    [The statement follows:]
           Prepared Statement of Hon. Dr. Margaret A. Hamburg
    Good morning Chairman Pryor and Members of the Subcommittee, I am 
Dr. Margaret Hamburg, Commissioner of the Food and Drug Administration 
(FDA). Thank you for the opportunity to appear before you today to 
discuss FDA's fiscal year 2015 budget request. I would like to thank 
the subcommittee for its past investments in FDA, which have helped us 
meet the demands of our broad and increasingly complex mission. For 
fiscal year 2015 FDA is requesting $4.74 billion, which represents a 
modest increase to address our highest priorities.
     fda plays a vital role in an increasingly complex environment
    FDA is a science-based, regulatory Agency with a public health 
mission. Our Agency is charged with an enormous and significant task: 
to promote and protect the health of the American people, and 
increasingly, people all over the world. This includes efforts to 
ensure the safety, effectiveness, and quality of human and animal 
drugs, biologics, medical devices, and other medical products, as well 
as the safety and wholesomeness of four-fifths of our Nation's food 
supply. It also includes working to foster the scientific innovation 
that will lead to tomorrow's products, and more recently, regulating 
the manufacturing, marketing, and distribution of tobacco products 
while seeking to reduce the use of tobacco products by minors.
    The medical and food products we regulate have the potential to 
sustain life, reduce suffering, treat previously untreatable diseases, 
and extend lives. They are products that range from those used daily, 
such as fruits and vegetables or medicines to treat other chronic 
conditions, to products that may be needed once in a lifetime, such as 
an automated external defibrillator, to save someone's life. FDA has a 
duty to make safe and effective products available as quickly as 
possible, while at the same time protecting citizens from products that 
may cause harm. It is this dual responsibility to public health that 
highlights the critical nature of the Agency. The ability to prevent 
the outbreak of a foodborne illness is very different but just as 
important as fast approval of a life-changing medical product. The 
health of the citizens of the United States depends on both.
    Many of the products we regulate are more complex than ever. Gone 
are the days when treating patients was based on signs and symptoms 
alone. Rapid developments in science and technology are making it 
possible for physicians to truly personalize diagnosis and treatment. 
For example, just last May, FDA approved two drugs for melanoma along 
with companion diagnostic tests that use the genetic characteristics of 
the patient's tumor to help determine whether a patient will respond. 
The ability to evaluate remarkable products like these requires FDA to 
stay ahead of the curve.
    Scientific innovation is also driving remarkable advances in 
medical device development. For example, we are working hard to support 
the development of an artificial pancreas which would represent a huge 
advance in the management of diabetes. Products such as these offer 
great promise in reducing the burden of disease by tailoring 
interventions more effectively.
    In addition to becoming more complex, the environment in which FDA 
protects and promotes the health and well-being of the American people 
is becoming increasingly global. Over the last 10 years, the number of 
imported shipments of FDA-regulated products has skyrocketed--in 2013, 
approximately 29 million shipments of imported food and medical 
products entered the United States. Imports account for 50 percent of 
fresh fruits and 20 percent of fresh vegetables, 80 percent of seafood, 
and 40 percent of the drugs on our shelves. Most of this increase in 
imports is coming from countries with limited regulatory oversight.
    A strong FDA is critical not only to the domestic and global public 
health, but also to the U.S. economy, the balance of trade, and 
homeland security. The implementation of FDA's mission promotes 
innovation in the industries it regulates and affects costs in the 
broader economic and healthcare systems. Innovations not only create 
jobs, they position the domestic industries to compete in the global 
marketplace. Our history shows that when there is public trust in FDA's 
oversight, our industries flourish. Conversely, when food and medical 
products cause serious harm, the result is often severe economic damage 
across the industry involved--to offenders and non- offenders alike.
               we moved forward on many fronts this year
    This past year's accomplishments on behalf of public health have 
been as substantial as any in FDA's recent history. There were too many 
significant actions to list here; below are just a few of the 
highlights of fiscal year 2013.
    Food Safety.--FDA published seven major proposed rules that form 
FSMA's central framework for moving to a comprehensive 21st Century 
food safety system. These science-based standards are designed to keep 
produce safe, implement modern preventive controls in human and animal 
food/feed facilities, modernize oversight of imported foods, guard 
against intentional contamination, and help ensure the safe transport 
of food and feed. In August, FDA issued a final rule defining ``gluten-
free'' for food labeling, to help the estimated 3 million Americans who 
have celiac disease make food choices with confidence to better manage 
their health. In November, we took further steps to reduce the amount 
of artificial trans fat in processed foods.
    Nutrition.--FDA recently proposed updating the Nutrition Facts 
label on food packages to reflect new public health and scientific 
evidence about nutrition, obesity, and chronic disease. Serving size 
requirements would be updated to reflect the amounts of food people are 
actually eating and drinking, and the format of the label would be 
refreshed, with key parts of the label such as calories, serving sizes, 
and percent daily value displayed more prominently.
    Breakthrough Therapies.--In 2012, FDASIA created a powerful new 
tool to facilitate the development and review of ``breakthrough 
therapies.'' In 2013, FDA's Center for Drug Evaluation and Research 
(CDER) received 121 requests for breakthrough therapy designation, and 
has already granted the designation to 36 potentially innovative new 
drugs that target both rare (epidermolysis bullosa, and Waldenstrom's 
macroglobuilnemia) and common (cystic fibrosis, breast cancer, and 
hepatitis C) conditions.
    Drug Shortages.--In 2013, FDA helped to prevent 170 drug shortages. 
In October, the Agency issued a ``Strategic Plan for Preventing and 
Mitigating Drug Shortages,'' outlining the Agency's strategy for 
improving its response to early notifications of a potential shortage, 
as well as identifying long-term initiatives that the Agency is 
considering or that stakeholders could take to address the underlying 
causes of shortages, such as opportunities for drug manufacturers to 
promote and sustain quality manufacturing.
    FDA also issued a proposed rule that, if finalized, will expand the 
early notification requirements.
    Unique Device Identification.--On September 20, 2013, FDA announced 
the final rule requiring that most medical devices distributed in the 
United States carry a unique device identifier (UDI). The system will 
be phased in over several years, focusing first on the highest risk 
medical devices. Once fully implemented, the UDI system will enhance 
the ability to quickly identify devices when recalled, improve the 
accuracy of adverse event reports, and help prevent counterfeiting and 
diversion. It will also offer a clear way of documenting device use in 
electronic health records and clinical information systems.
    Drug Quality and Security Act.--On November 27, 2013, the Drug 
Quality and Security Act (DQSA) was enacted. Within days of enactment, 
issued three draft guidances for industry related to how the Agency 
intended to implement the new requirements.
    As of March 6, 2014, 32 firms had registered as outsourcing 
facilities--and inspections have begun, focusing first on facilities 
that have not had a recent FDA inspection. A list of the facilities and 
information about what it means to register as an outsourcing facility 
is publicly available on FDA's website and is updated weekly.
    New Molecular Entities.--Last year marked another strong year for 
FDA approvals of novel new drugs (NMEs). In 2013, FDA approved 27 
NMEs--about the same as the 26 average annual approvals since the 
beginning of this decade. Some of these medications offer new hope to 
patients who previously had few or no treatment options. Examples of 
NMEs approved this year include a ``game-changing'' virtual cure for 
Hepatitis C, a drug that attacks breast cancer cells like a ``smart 
bomb'' reducing damage to normal tissues, and four new drugs to treat 
diabetes. Of the NMEs approved in 2013, one-third were identified by 
FDA as ``first-in-class,'' and one-third were approved to treat rare or 
``orphan'' diseases. Almost three-quarters (74 percent) of the NMEs 
approved by FDA in 2013 were approved first in the United States before 
any other country.
    Public Health Preparedness.--We continued our efforts in 2013 to 
work with U.S. Government partners and product developers to facilitate 
the development and availability of medical countermeasures for 
responding to potential public health emergencies. This has resulted in 
the recent approval of several medical countermeasures to help protect 
the Nation from chemical, biological, radiological and nuclear threats, 
including an inhalational anthrax therapeutic, a botulism antitoxin, a 
next-generation portable ventilator, and several influenza diagnostic 
tests. For emerging infectious disease threats, such as the avian 
influenza A (H7N9) virus and the Middle East Respiratory Syndrome 
coronavirus (MERS-CoV), FDA issued Emergency Use Authorizations for 
diagnostic tests using new authorities created under the Pandemic and 
All-Hazards Preparedness Reauthorization Act of 2013. In addition, FDA 
recently approved several seasonal influenza vaccines--including a 
vaccine manufactured using modern cell culture techniques and a vaccine 
made through recombinant DNA technology.
    Family Smoking Prevention and Tobacco Control Act.--In 2013 we made 
significant progress in implementing the Family Smoking Prevention and 
Tobacco Control Act. We signed contracts with state and local 
authorities to enforce the ban on the sale of regulated tobacco 
products to children and teens. By January 31, 2014, approximately 
258,300 inspections were conducted resulting in about 13,400 Warning 
Letters being issued, and over 1,200 Civil Monetary Penalties were 
imposed. We launched a significant research initiative, and issued the 
first-ever determinations on whether certain new tobacco products were 
or were not ``substantially equivalent'' to products already on the 
market. Just last month we launched a national public education 
campaign aimed at reducing the number of young people who use tobacco 
products.
    In addition we took important steps towards fighting the 
development of antibiotic-resistant bacteria, decreased the backlog in 
medical device applications, and exceeded our new ADUFA and AGDUFA 
performance goals. Our emphasis on product quality is accelerating, 
with the Center for Devices and Radiological Health (CDRH)'s Voluntary 
Compliance Improvement Program pilot, and CDER's new Office of 
Pharmaceutical Quality.
    FDA accomplished all this and more while costing Americans only 
about $8 per person a year. FDA is a bargain--the products regulated by 
FDA account for more than 20 percent of every consumer dollar spent on 
products in the U.S., but individual Americans only pay about 2 cents a 
day to ensure that those products are safe and effective. This is a 
small price to pay for life-saving medicines approved as fast or faster 
than anywhere in the world, confidence in medical products that are 
relied on daily, and a food supply that is among the safest in the 
world.
           fda's fiscal year 2015 president's budget request
    The fiscal year 2015 President's budget request for FDA is $4.74 
billion for the total Program Level, which is $358 million above the 
fiscal year 2014 enacted level. Of the total funding, $2.58 billion is 
budget authority and $2.16 billion is user fees. The fiscal year 2015 
increase consists of $23 million in budget authority and $335 million 
in user fees. The growth in user fee funding stems from several new 
programs, along with increased collection authority for many of FDA's 
existing programs.
    We are mindful of the larger pressures on the Federal budget, and 
have focused our request on the most urgent needs for fiscal year 2015. 
Serious product safety and quality lapses in recent years have caused 
serious public health situations, most notably those involving 
foodborne illness and the compounding of unsafe drugs, so FDA is 
seeking increases in order to strengthen oversight of the pharmacy 
compounding industry and to support food safety and implementation of 
FSMA.
    In addition, FDA must continue to advance medical countermeasures 
and maintain the integrity of operations and infrastructure, and is 
asking for small increases to support these activities as well.
                         medical product safety
    The fiscal year 2015 budget provides a program level of 2.6 
billion, which is $61 million above the fiscal year 2014 enacted level, 
to continue core medical product safety activities across FDA programs. 
Within this amount, FDA will invest $25 million in budget authority to 
enhance pharmacy compounding oversight activities in fiscal year 2015, 
which will significantly benefit public health and safety. It also 
includes $4.6 million for proposed International Courier user fees.
    In 2012, a fungal meningitis outbreak associated with a compounded 
sterile drug resulted in 64 deaths and over 750 cases of infections 
across 20 States. Since September 26, 2012, 28 firms ceased sterile 
operations. Since that time, FDA has learned of at least 20 compounders 
that may have shipped contaminated drug products, and has received at 
least 125 reports of adverse events, including serious infections, 
associated with drugs produced by compounders. As of March 6, 2014, FDA 
is aware of 40 recalls by compounding pharmacies, including some 
recalls overseen by FDA, and others overseen by a State.
    These statistics demonstrate the magnitude of the problems with 
compounders' sterile operations.
    FDA intends to continue risk-based, follow-up, and for-cause 
inspections of compounding pharmacies to identify pharmacies with 
deficient sterile compounding practices. FDA is also encouraging 
purchasers of compounded products to buy from registered outsourcers, a 
new category of compounder created by the DQSA and that will be subject 
to enhanced FDA oversight and Federal quality standards.
                              food safety
    The fiscal year 2015 budget provides a total program level of $1.48 
billion for food safety, which is $263 million above the fiscal year 
2014 enacted level. Within this amount, FDA will invest $24 million in 
budget authority to further advance recent gains in food safety 
modernization through implementation of FSMA. A majority of the 
increase is the result of new user fees, including $60 million in Food 
Facility Registration and Inspection fees, and $169 million in Food 
Import fees.
    With the requested increase in budget authority, FDA will be able 
to develop guidance and provide technical assistance for industry, 
provide technical support for FDA inspectors, and begin to implement 
training for FDA and state inspectors. If the proposed user fee revenue 
is authorized and appropriated, FDA will be able to undertake the wider 
array of activities needed to fulfill the food safety modernization 
goals of FSMA, including retraining of the Federal and state inspection 
force, training and technical assistance for small and mid-size growers 
and processors, and building the modern import oversight system 
mandated by FSMA. The implementation of the broad preventive controls 
framework mandated in FSMA will reduce instances of foodborne illness 
seen recently as a result of E. coli O157 contamination of pre-packaged 
salads, Salmonella and Listeria contamination of cheese products, and 
Listeria contamination in cantaloupe, and minimize the market 
disruptions and economic costs inflicted by illness outbreaks and 
significant contamination incidents.
                             infrastructure
    Within the funding for medical product and food safety, and medical 
countermeasures, FDA requests a program level increase of $5.8 million 
for infrastructure. Infrastructure includes GSA Rental Payments, Other 
Rent and Rent Related costs, and White Oak Consolidation.
                         current law user fees
    Within the funding requested is a $75.4 million increase for 
current law user fees, which will allow FDA to fulfill its mission of 
protecting the public health and accelerating innovation in the 
industry. The user fees collected will support the review and 
surveillance of human and animal drugs, medical and mammography 
devices, food and feed, color additives, export certification, and 
tobacco products. The request includes statutorily mandated increases 
for many existing programs, which will expand the available options for 
treating and curing diseases and will fund strategies to prevent and 
reduce the use of tobacco products by young people and reduce the 
burden of illness and death caused by tobacco products. Some of the 
amount requested supports infrastructure costs associated with current 
law user fee programs.
                               conclusion
    FDA's oversight of our food and medical products supply is 
indispensable to the health and well-being of every American. We carry 
out our broad public health responsibilities effectively and with few 
taxpayer dollars--even as those responsibilities are expanding as a 
result of new legislation, technological advances, and a globalized 
marketplace. Our fiscal year 2015 budget targets our spending 
efficiently, on programs that are essential to providing Americans with 
the safe foods and effective medical products they expect. We look 
forward to answering your questions today and to working with you in 
the coming year.

    Senator Pryor. Thank you. And thank you for your testimony.
    Let me go ahead and jump in with the first question. Again, 
we'll do 7-minute rounds.

                              E-CIGARETTES

    Dr. Hamburg, on Monday of this week, I sent you a letter 
about e-cigarettes, e-liquids, or some people call them liquid 
nicotine. There was a recent New York Times article that stated 
that nationwide poisoning linked to e-liquids jumped to 1,351 
in 2013, and that's a 300 percent increase over 2012. And it 
looks like, based on the current numbers, that the 2014 number 
will probably be double what 2013 was. So obviously this is an 
exploding problem. And I think one of the reasons it is 
exploding is because of these little bottles right here.
    This is a product called ``J Juice.'' And this one is, 
believe it or not, the flavor is ``Scooby snacks;'' okay? This 
one over here, the flavor is ``sour apple.'' And this one over 
here, the flavor is ``moon pie.'' And so, the thing that 
concerns me is really the packaging and the attractiveness to 
children. They're actually--you can go to the candy aisle at a 
convenience store or a grocery store and you will see something 
very similar to this except it's candy.
    And I see the numbers and I, obviously, one of the first 
things that concerns me about this is the marketing to 
children, when you have a little friendly, colorful packets 
like this, and then, the packaging itself, it's not childproof. 
Childproofing probably helps the toddlers and the small 
children; it really doesn't help teenagers.
    And we can talk about some of that in just a moment, but I 
do think that at least there's probably a whole range of issues 
to talk about with these, legal and others, but also I do think 
that probably the first priority should be to try to keep these 
out of the hands of children.
    And when I look at Arkansas and I look at our statistics in 
our State, there've been almost 80 cases of poisoning. And, of 
those, about one-fourth were kids age 5 and under. So, again, 
it's not limited to them but you see this really strong 
tendency to kids age 5 and under. And of the more than 1,300 
exposures nationwide in 2013, about 90 percent of them were 
pediatric cases.
    So I know that you're concerned about this, I've talked to 
you and your staff has told us some of the things you're doing. 
So if you don't mind, if you could just walk through with the 
subcommittee some of the things you're doing. I know you're in 
a process and some things you really can't talk about it in 
great detail but the subcommittee would like to hear what 
you're doing with this liquid nicotine.
    Dr. Hamburg. Well, we share your concern about the 
potential risks of these e-cigarettes and liquid nicotine 
exposure and do feel that this is an area that requires greater 
attention, action, and concern.
    At the present time, we do not have the authority to 
regulate e-cigarettes and some of these other products you're 
describing unless they make a therapeutic claim, in which case 
then they can be regulated as a drug.

                              DEEMING RULE

    But in the absence of that, we do need to pursue what we 
call the ``deeming rule,'' which is something that was laid out 
in the 2009 Family Smoking Prevention and Tobacco Control Act. 
That really gave us authority to go beyond what was explicitly 
in the law, which was the oversight of tobacco, roll-your-own, 
and smokeless tobacco--cigarette tobacco, roll-your-own, and 
smokeless tobacco, to other products that are increasingly in 
the marketplace. And we've been working hard on that. And we 
hope, some of you have heard me say this before, but we really 
are making progress and hope that that proposed deeming rule 
will be put forward very soon so that we can have broader 
comment in the input. And that is a critical building block for 
our ability to address what you were describing and other 
products in the marketplace, as well.
    I would also say, though, that while we have been working 
hard on that, we have also been investing in an important 
scientific research that will give us new information so that 
we can most responsibly regulate these products. And we've been 
doing that within our agency and with partners in the Federal 
Government, including the National Institutes of Health (NIH) 
and the Centers for Disease Control and Prevention (CDC); as 
well as providing grants to academic institutions to help us 
build the knowledge base about both the behaviors associated 
with these products and their health impacts, and also to 
better understand some of the constituents of these products 
and the public health implications and medical implications of 
those, as well.
    Senator Pryor. Yes. I know part of what you're striving to 
do is to be very science-based and understand that. But I also 
do think that when you look at the numbers, especially if you 
take one issue here that, to me, would seem fairly easily to 
tackle, at least in the beginning, would be just the packaging 
of this.
    I'm curious, like you mentioned a deeming rule, do you have 
to go through that process on a deeming rule just to work on 
packaging? And then, how long does that typically take? I know 
you said very soon you'd allow for comment but how long does 
that process typically take?
    Dr. Hamburg. Well, we do need to have authority over these 
products in order to regulate them and take certain actions. So 
that is why the deeming rule is so important. It's foundational 
to so many other things that we need to undertake.
    I will be honest with you that I think it has taken too 
long to move the deeming rule forward and we are pushing very 
hard to get it out as a proposed rule for broader discussion 
and then for finalization so that we can take these actions and 
provide the regulatory oversight; always science-based, that is 
crucial. But we need to be able to address these other 
important products that weren't directly covered in the 
original legislation.
    Senator Pryor. Yes. And I'm not trying to just single out J 
Juice because the truth is there are dozens of these different 
companies and labels. And I think, right now, this is such a 
new development, I'm not sure that we really know where all 
this is being made, and what all is in here, and who would 
regulate it and things like that.
    It's a little bit of a Wild West out there but I am seeing 
what we call ``vapor shops.'' Those are starting to spring up 
in Arkansas. And I didn't know this until the other day. I was 
talking to our Alcohol Beverage Control guy in the State that 
does that and he was saying that this is a real challenge, is 
these vapor shops.
    But also online. That's a whole new thing. Again, I had 
some of my staff look at this online. And literally, you say, 
``Oh, yeah, I'm 18,'' or ``I'm 21.'' Click. And then you can 
get just unlimited stuff. And some of the flavors, again: 
``tutti fruity,'' ``fruit punch,'' ``grape,'' ``cherry,'' lots 
of other choices; lots of brands.
    So I'm not really trying to single out just one brand. And 
I'm not even saying that this is all completely horrible, but 
it's a challenge especially with young people that I think 
it's, again, it's a complicated set of issues that I know 
you're focused on. I'd like to continue to work with you on 
that.
    I've exhausted my time for the first round. So, Senator 
Blunt.
    Senator Blunt. Thank you, Mr. Chairman.
    We'll have more than one round, too; won't we? So we'll 
have time to ask questions we want to ask today.
    And again, Dr. Hamburg, thank you for being here.

                        PREVENTIVE CONTROL RULE

    As I may have mentioned in my opening statement, Senator 
Shaheen and I sent a letter in November of last year about the 
Food Safety Modernization Act and certain sections in Produce 
Safety and Preventive Controls for Human Food Rules. You're re-
proposing part of those rules. Why aren't you just re-proposing 
all of the rules so that people can see the new changes in the 
context of the rest of the rule that's out there?
    Dr. Hamburg. Well, this has been a very open process where 
we have tried to reach out and really get input on all of the 
different rules. There are seven foundational rules for 
implementation of this important new law. Congress gave us some 
very rigorous deadlines for implementation and the courts have 
also weighed in as well. So we are really pressed to move 
forward. At the same time, we want to get it right.
    And so, what we have been trying to do is to listen 
carefully, including going out to farms and food producers 
across the country for meetings, visits, and listening sessions 
to understand where the concerns are. And there are a set of 
clear, targeted concerns in the area of preventive controls for 
human and animal feed as well as in the produce area. And 
that's where we think that by re-proposing, we can make a real 
difference.
    We agree with your earlier comment about this is not an 
arena where the one-size-fits-all model can work. We want to 
find practical, workable, solutions that will matter to make it 
feasible for industry to implement these important new rules 
and the spirit of the Food Safety Modernization Act. But that 
will also make a difference for improving public health in 
reducing preventable foodborne outbreaks.
    So I think we're moving forward on the path that makes 
sense that enables us to reach our common goals but in a timely 
way that will matter for both consumers and for industry.

                     ADMINISTRATIVE PROCEDURES RULE

    Senator Blunt. Well, I do think there's some significant 
merit to, when you re-proposed certain rules, other rules that 
were in that package may be impacted by that as well. But I 
know in the Health Committee, in the last month or so, a number 
of our colleagues were concerned that you might not be totally 
adhering to the Administrative Procedures Rule. And you 
addressed that to some length.
    What I'd really like to know today is, as you re-propose 
the Preventive Controls Rule, that you intend to adhere to the 
Administrative Procedures Rule and ensure that any new testing 
requirements would be subject to economic analysis and full 
notice.
    Dr. Hamburg. Well, we certainly are committed to adhering 
to the Administrative Procedures Rule. And we're committed to 
really listening to the various stakeholders as they raise 
issues and concerns. So, I take your comments to heart. And we 
will take them back to the agency to review what we're doing 
and also as we shape the re-proposal.
    Senator Blunt. And that will include an economic analysis?
    Dr. Hamburg. Yes. I----
    Senator Blunt. I think that's----
    Dr. Hamburg. Probably multiple economic analyses.

                            ANIMAL FEED RULE

    Senator Blunt. All right. You just mentioned the part of 
the rule that related to what, I believe, the rule may have 
referred to as ``waste.'' ``Byproducts'' would be another term 
that I would have more traditionally, I think, seen used 
because the waste could wind up in places it doesn't need to 
wind up in if you really, truly, decide that this is just 
material that is to be discarded as opposed to material that 
can be re-purposed, I guess, as we re-propose these rules.
    Last night, FDA announced that brewers' grains would be 
addressed in the re-proposal of the animal feed rule. You and I 
talked about that part of the rule the other day. And, since 
then, I thought about this with some greater thought to what 
we're really doing here. And, I think the issue is larger than 
brewer's grains. I think there are lots of products that, from 
burnt potato chips to orange peels that are re-purposed to 
animal feed and other things, and under all of the restrictions 
that we would want to have there, I'm a little concerned that 
the only thing that FDA appears to be revisiting right now is 
the brewer's grains part of the so-called waste. I think it's a 
bigger issue than that. And any response you'd like to have, 
I'd be glad to hear.
    Dr. Hamburg. Well, I think, I mean, I'll be honest with 
you, that this was an issue that was only recently brought to 
my attention in terms of the agricultural practices. And, in 
discussing it with the team at the FDA, there was a strong 
sense that this is an area of importance that we want to 
support sustainable agriculture practices. And it makes 
enormous sense. We do believe that it can be addressed in a 
practical, sensible way. After our conversation about 
distillers' grains, I took that back and we're looking at that. 
So I think we will be looking at it more broadly.
    Senator Blunt. I think you really need to because the place 
that these things will wind up if we don't make the most out of 
products we can make the most out of, it's going to be in a 
landfill somewhere; nobody benefits from that until you truly 
are at the point that there's no economic or societal purpose 
to be served by getting more out of what we have. World food 
needs are going to increase dramatically. That means that not 
only do we need to think about how we produce more food but how 
we more effectively use the food and food products we have. And 
I think this is a big issue and I'm glad that you're going to 
go back and look at it again.
    This is everything from leftover seeds that aren't used 
that are then mixed into animal feed. I think one of the major, 
maybe all of the companies that have orange peels and citrus 
peels, pelletize those, and then they have found good and 
productive purposes for those. And again, they go somewhere 
that nobody benefits from more things in the landfill, 
particularly if there's real value left in these products. And 
I'm hopeful that you're going to look much more in-depth at 
what all that really means industry-wide.
    Chairman, I'm out of my time, too.
    Senator Pryor. Thank you.
    Senator Merkley.

                              DEEMING RULE

    Senator Merkley. Thank you very much, Mr. Chairman.
    And thank you for all of your testimony.
    And I want to continue the conversation that the chair 
began regarding the deeming regulation. We passed this act in 
June 2009. And it took 4 years and 4 months for the FDA to send 
it to OMB which, to me, is an egregious amount of time.
    At the beginning of that period, we had products being test 
marketed in Oregon and elsewhere in the country that were 
dissolvable tobacco products. We had dissolvable tobacco formed 
into toothpicks like this. We had it being formed into mint-
tobacco candy with caramel and mint flavorings. We had 
dissolvable tobacco being formed into breath strips, as ironic 
as that might seem. Here is some mint breath strips that you 
might want to try made out of tobacco. And we had an explosion 
in the flavors of cigars and cigarillos and so forth. Just a 
little sampling here; we've got ``sweet cherry,'' ``Captain 
Black.'' We've got the ``grape'' cigar; we've got the 
``strawberry'' cigar. Make sure we get some ``apple'' cigars. 
And the list would go on and on.
    The whole point being that the tobacco industry understands 
that you have to addict children because adults don't pick up 
tobacco products and start using them. Essentially, it has to 
happen before the age of 21.
    And all of this, I am told, and have been told repeatedly 
by the FDA, would be covered through the deeming regulation. 
But as you point out yourself, you have to get the deeming 
regulation done to get that authority. And all we're talking 
about now is the draft regulation. It's only the draft 
regulation that's been sent to OMB. And then, OMB has been 
sitting on it the last 4 months. I find this really 
embarrassing, disgraceful, and it's harmful to the children of 
America that the FDA has been sitting by for years with this 
power, enacted in 2009, and not even getting the first step in 
the regulatory process completed which is to get out of draft 
regulation.
    I would like for you and your team to wake up every 
morning, visit the OMB, and get that thing out there, because 
people's lives are being impacted. We've had a huge 
conversation about healthcare in our Nation. Well, this is 
healthcare. This is about the addiction to products that cause 
all kinds of disease over the course of one's life. And it's 
not just the quality of life. It is also the cost to the 
healthcare system treating all of these diseases.
    Now the chair beat me to the punch in talking about the 
next phase of this and you may have started seeing the 
emergence of vape shops. This is a picture of a vape shop. It's 
called ``DC Vape Joint,'' and it has a little underground 
entrance to it here just a few blocks from our Capitol. Inside 
of that ``vape joint'' shop, you find various displays of 
liquid nicotine of all kinds. You find a rack of dozens and 
dozens of different flavors.
    And I brought two of these today because I think they 
demonstrate an insidious strategy to addict our children to 
nicotine. This one, and the chair had a similar bottle, called 
``Scooby Snacks.'' Now, if that's not designed to appeal to a 
child, I don't know what is. And, if you look at it closely, it 
says, ``Zero milligrams of nicotine.'' Oh, there's no nicotine 
in this. Is this a bottle of juice? We're not sure. There are 
no ingredients listed on this. It's designed to go into an 
electronic cigarette, but this is one of those many vials of 
products that are out there being displayed. And the other 
bottles look the same. And, here, we have ``gummy bear.'' Now, 
``gummy bear,'' if you look closely, doesn't have zero 
milligrams of nicotine. It has 10 milligrams.
    And so here you have the starter kit, called ``gummy 
snacks,'' to get kids using this stuff in electronic cigarettes 
that look like this. They sell these little starter kits in 
that vape shop. They're hoping kids will start with this zero 
milligrams, but they'll soon be using the other. And if this 
one with 10 milligrams, is flavored ``gummy bears?'' That's 
obviously marketing to children.
    The ``gummy bear'' one, actually, you can read the 
ingredients on it. And it notes it contains nicotine, so on and 
so forth, keep out of reach of children. This one, it's printed 
in white on black. It's virtually impossible to read so I had 
the expert eyes of my staff tell me what this actually said. 
And, let's see. Where do I have that? Right here. This fine 
print that is in the block that normally would have the 
ingredients says, ``Stay weird, challenge the status quo, 
everybody love everybody and, above all, enjoy yourself.'' 
That's the starter bottle for this line of nicotine products.
    You all have got to get this deeming regulation done. You 
have a responsibility to the health of American citizens, our 
children, and 4 years and 4 months to get the first draft over 
to OMB is unacceptable. And for OMB to be sitting on this now 
over the last few months is unacceptable.
    I had a timeline done of all the times I've contacted the 
FDA about this. It was signed into law in June 2009 and, about 
8 to 10 different times I've either sent letters, met with you, 
or met with Lawrence Deyton who was Director of the Center for 
Tobacco Products, and time and time again it was said, ``We're 
working on it, we're working on it, we're working on it. We 
want to make it, kind of, iron-solid.''
    Well, there's no making anything that can't resist a 
lawsuit. Of course there are going to be lawsuits. There are 
teams of lawyers that've been preparing their cases over the 
last 4 years. I'm sure they'll attack every angle once it's 
done. But, to never get through the gates and get that process 
started of getting a draft regulation, it's completely 
absolutely unacceptable. And I have no idea--we've done 
letters, we've done meetings, with you, we've done meetings 
with folks that work for you.
    How do we possibly convey the importance of this to the 
future of America, to healthcare, and actually get some action?
    Dr. Hamburg. Well, as I said, it has taken far too long. We 
have been working very hard on this. It has been a complex 
challenge for many reasons.
    I do believe that very soon I will be able to call you and 
say that the deeming rule is out. It will just be the first 
step in a process, though. As you noted, it's a proposed rule. 
But it is essential we get it out. I could not agree with you 
more that this is a vital issue that these products represent 
very real threats to health and to the future of our children. 
We have to get it done and we have to get it done soon.
    Senator Merkley. Well, I'm just asking you to make your 
agency as visible as possible with OMB for their review to be 
completed. If you can advise on how we can be helpful. It's 
just, let's not let another month pass with this thing 
gathering dust in some bureaucrat's closet.
    Dr. Hamburg. I think we're almost to the point of the 
proposed rule. And I promise you, you will be among the very 
first calls that I make. But we have to respond, and your 
criticisms are fair. This is one of the most important public 
health challenges before us. And we have this unique 
responsibility in terms of oversight of these products. And we 
are committed to moving forward on this.
    Senator Merkley. Thank you very much.
    Senator Pryor. Thank you.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, I may have not appreciated 
the practical part of the question that we just heard and the 
answer to it.
    I was going to ask about the Modernization Act public 
comment period and whether or not that was going to be 
extended. There's some concern as I understand it that because 
of overlapping and maybe other factors among the new rules that 
the Food and Drug Administration intends to implement, whether 
or not there isn't sufficient comment period.

                             PRODUCE SAFETY

    According to one piece of information I have in front of 
me, it says there was less than a month between publication of 
the Feed Safety Rule and the comment deadline for the draft 
rules on produce safety and preventive controls for human food. 
Is that something we need to worry about or provide advice and 
counsel to how do you do this and still recognize the fairness 
to your consumers that this contemplates?
    Dr. Hamburg. Well, thank you for your questions. And it 
follows nicely on an early question.
    As was noted, this is a sweeping transformation of the food 
safety system in our country recognizing both domestic and 
global needs. The law that was passed by Congress really laid 
out a very ambitious agenda for us including a schedule for a 
set of important rules.
    The comment period is still open on two of the seven 
foundational rules. But on the other ones we have tried to 
extend comment periods to have a broad outreach and opportunity 
for comment and input through, various mechanisms; an open 
docket, public meetings, a range of discussions, etc.
    We are currently continuing our interactions with the range 
of stakeholders. And we are anticipating that we will re-
propose certain aspects of some of the critical rules; the 
preventive controls for animal and human feed and produce where 
there have been areas where the concerns have been very clear 
and where we feel that we do need more opportunity to find the 
right regulatory pathways to really develop the right 
approaches that will make a difference. Make it a law that is 
feasible for industry to implement, but achieve the goals of 
reducing foodborne outbreaks for American consumers.
    Senator Cochran. One of the joys of the community where I 
lived back in Mississippi are the farmers' market outlets where 
produce farmers bring in their wares and provide opportunities 
for the general public to come look and buy fresh fruits and 
vegetables, particularly.
    And this is a very popular avenue for good diet habits. 
Families go to the farmers' market on Saturdays and get up 
early. And I can remember as a young boy my grandparents who 
had truck farming interests in Mississippi, taking items from 
the farm that had been grown there or the farm for display and 
for sale. It was a very exciting thing. And, thinking back on 
it, it was a real tradition that has carried forward even to 
the present day. People really enjoy the opportunities that 
this provides even if you're living in the city and not on a 
farm like my family was when I was small.
    What exemptions, if any, or differences, if any, should be 
recognized and made available for small family farms to provide 
their vegetables and fruits that's grown on their places, to be 
seen and sold without fear of running afoul of some Federal 
official coming and saying, ``You violated some rules and you 
shut down this operation.''
    And, to what extent do you think that the Federal 
Government should be involved in that? Or should we let State 
and local governments manage the Saturday morning visits to the 
farmers' markets?

                            TESTER AMENDMENT

    Dr. Hamburg. Well, we all enjoy, I think, those local 
farmers' markets and they play an important role in the 
community and for health. The law does include some explicit 
recognition of that; the so-called tester amendment gets at 
some of those issues about small growers and producers.
    We also feel that the implementation of this new law has to 
be done in partnership, importantly, including with State and 
local agencies and organizations so that really it will reflect 
and build on what is already being done and what works for 
promoting and protecting the safety of the food supply. Whether 
you're a big grower or a small grower, I think everyone wants 
to produce great, high-quality food. But in terms of the 
application of aspects to the Food Safety Modernization Act, 
there is a recognition of the special needs of small farmers 
and producers. And that is certainly reflected in how we are 
addressing it and will be implementing it.
    Senator Cochran. Does this mean there'll be exemptions for 
State and local governments to regulate and monitor and 
inspect, rather than having the Federal Government?
    Dr. Hamburg. That there will be extensions; did you say?
    Well, we're working closely with USDA and the agricultural 
extension service as we try to implement this.
    And part of what we are seeking in our budget request is 
moneys that will enable us to actually give seed money to State 
agencies as well as technical assistance and training so that 
they can be full partners in implementation.
    Senator Cochran. Thank you.
    Senator Pryor. Thank you.
    Let me just, one last comment on what Senator Merkley and I 
asked you about earlier. And that is, I'll just say we can't 
wait for another tragedy to act. And I know that you're trying 
to act. But just count me in to work with you and industry to 
try to facilitate moving this through as quickly as possible. 
And, to me, it seems like the childproof packaging is a 
commonsense first step. I think there's a lot of other things 
we need to do but I would love to work with you on that and 
continue to move that down the tracks as quickly as possible.
    Dr. Hamburg. Thank you.

                         COMPOUNDING PHARMACIES

    Senator Pryor. Let me change gears, if I can.
    You mentioned compounding pharmacy in your opening 
statement. And I guess what I heard you say is that the status 
report on that is you're making progress. Kind of moving 
through the various things you need to do there. But are there 
any particular challenges? I mean is there a problem with the 
law that was passed? Or is there something going on that you 
didn't anticipate that the subcommittee needs to know about?
    Dr. Hamburg. Well, I think that the passage of the DQSA is 
a very important step. It clarifies one component of the prior 
existing law that related to compounding pharmacies for the 
FDA's so-called 503(a) which had been interpreted differently 
in different courts. And so, we had sort of a patchwork in 
terms of its application. So that is now clarified and it will 
be uniformly applied across the Nation.
    It also created a new category under 503(b), which allows 
compounding pharmacies that are making certain high-risk 
products, sterile injectables, to register with the FDA and be 
subject to our oversight. And I think, to promote safer, better 
quality products for patients, our challenge there is that this 
is a voluntary program and some compounding pharmacies will 
appropriately register with us. And actually, I think about 35 
have to begin that process of coming under our regulatory 
oversight for these very important, medically important 
products, but high-risk products.
    But there may be many other compounding pharmacies that 
are, in fact, making these high-risk products that don't choose 
to register with us, don't choose to become part of this new 
regulatory framework. And we are concerned that some of those 
manufacturers and the products they produce may not be 
adequately safe for patients and medical care in our 
communities.
    So we need to maintain a very proactive posture here. We 
need to continue to monitor who's out there doing what, which 
is hard if they don't have to register with us. We need to work 
closely with States who have the primary responsibility for 
traditional compounding pharmacy regulation. So there are a lot 
of challenges. And we think it's very, very important to 
protecting public health that we maintain a very strong 
presence in this arena and continue to build a strong program.
    Senator Pryor. And, back to your budget, and looking at the 
cost to you of implementing this and rolling this out and doing 
all the things you need to do, as I understand the budget, in 
order to find the resources you need, you're paying for that 
with some unspecified cuts to other medical products' safety 
activities. And do you know what those are yet? And do you know 
how it's going to work?

                               WHITE OAK

    Dr. Hamburg. Well, it is the case that the $25 million for 
this new initiative is not new money but it is coming from 
elsewhere within the agency. We have the opportunity to 
reallocate $15 million that would have been used for White Oak, 
our Washington headquarters' consolidation activities, that 
will go unutilized because, sadly, the General Services 
Administration (GSA) is not funded to do the construction 
necessary to continue to build out our master plan for that 
campus. And the rest of the moneys will be taken from other 
efficiencies that we can find within the agency and really 
trying to leverage resources as best we can.
    This is so important to the health and safety of the 
American public that we feel we need to have resources to build 
a program that will make a difference. And, over time, I think 
we're going to have to find other budget mechanisms to support 
these crucial activities. And it is my guess, based on what I 
see as the need out there and the demands on FDA that likely we 
will have activities and responsibilities that outstrip the 
available resources.

                     FOOD SAFETY MODERNIZATION ACT

    Senator Pryor. And let me change gears here, again, on the 
Food Safety Modernization Act.
    Mr. Tootle here, at some point, wrote on his blog, an FDA 
blog, that ``With current resources, we will still be able to 
issue the FSMA rules but we won't be able to effectively 
implement them.'' And, obviously, I have that concern. I think 
a lot of people have that concern just about resources and how 
we're doing here. But are you requesting enough money to issue 
these rules and to implement them?
    Dr. Hamburg. This is a crucial time in terms of 
implementing the program itself. We can complete the process of 
finalizing the rules as we've been discussing, but what really 
matters to the public and to safety is that we put these 
programs in place in fiscal year 2015 and subsequent years are 
going to be crucial to that effort.
    And we need the moneys that we have requested in order to 
fully implement and realize the potential of this program to 
undertake certain critical activities that are vital to success 
including building the modern Import Food Safety Program that 
we need; including building the important partnership with the 
States, that Senator Cochran and I were just discussing, in 
terms of the seed money States need to build capacity and the 
training and technical assistance that are necessary to be able 
to ensure that they can be full partners in this effort. And we 
need resources so that we can work as effectively as possible 
with industry in terms of training and technical assistance as 
they move to implement this important new law.
    So, it is essential that we have these resources. And I 
think that with those resources, we can really make this law 
work and achieve the vision that Congress had when they passed 
it.
    Senator Pryor. But are you requesting enough for fiscal 
year 2015 to get done what you need to get done in fiscal year 
2015?

                               USER FEES

    Dr. Hamburg. Well, the amount of money that is in the 
budget request reflects our thoughtful and serious assessment 
of what we would need and, I think, mirrors other assessments 
that have been undertaken.
    The Congressional Budget Office (CBO) came out with a 
somewhat higher budget number for the overall implementation 
needs of the Food Safety Modernization Act. We took another 
look and tried to be a little bit more conservative. But, we do 
need money to implement this.
    We also realize that the user fee request is a challenge 
that the user fee option is one that has been utilized in other 
arenas of the FDA but not so much in the food space. And so, as 
we look at fiscal year 2015, we see a budget need and the 
pathway to get there is a complicated one. And we look forward 
to working with you on that because, I think, we all share a 
recognition that being able to really implement this law 
matters to the health and safety of the American public and it 
really matters to the food industry that plays such a crucial 
role in our food safety system.
    Senator Pryor. Senator Blunt.
    Senator Blunt. Commissioner, I think this is the fourth 
year in a row that the budget has requested these fees. And I 
think now they're around $220 million in new and repetitive 
registration and import fees. I think it's unlikely that those 
fees are approved.
    Given the choice, would you rather just have appropriated 
money from general revenue or have this financed on a fee 
basis?
    Dr. Hamburg. Well, what matters to me as Commissioner of 
the FDA and to the team that's been working so hard on food 
safety and what ultimately matters, I think, to our country, is 
that we get the job done; that we successfully implement this 
important law. And from my perspective, we need the dollars and 
we need the money if fiscal year 2015 is a critical year for 
implementation.
    And we need a sustainable funding stream as well. Too 
often, we have been in a position where there's a focus on an 
issue and we get some resources and then they get cut back when 
the attention shifts somewhere else. So we need a level of 
funding that is both adequate and sustainable. And if it comes 
from budget authority, that would be terrific.
    Senator Blunt. Do you know anything that we don't know that 
would make this request for fee increases more likely this time 
than the precious three times you asked for it?
    Dr. Hamburg. Well, I think that it is true that you've seen 
this request before. We have had discussions with industry and 
components of industry are more supportive than others in terms 
of user fees. It will be a discussion that we'll continue. 
Meanwhile, we are trying hard as an agency to implement this 
important law and I think we have to be realistic about the 
need for resources.
    Senator Blunt. On the compounding resources, the CBO's 
score, the Congressional Budget Office score was about half 
what--was $12 million and declined pretty dramatically after 
the first 3 years of getting you up to where, I guess, to 
initiating the program.
    I have two questions, really. One is why is this amount 
twice as big as what the Congress anticipated it to be? And 
two, the budget proposes reductions of $3.685 million in money 
that previously would have gone to looking at human drugs, 
$1.628 million reductions in biologics, a $2.88 million 
reduction in medical device programs without any real 
understanding on, any explanation on how those amounts of money 
that previously we thought we needed in these areas could be 
shifted now to compounding?
    So why the bigger number? And is there any explanation for 
the several millions of dollars shifted around internally; why 
you don't need it there now and did need it there before?
    Dr. Hamburg. Well, first, with respect to the CBO question. 
We are really trying to better understand their estimates 
because we don't think that they actually match what the needs 
are. And this has been an evolving area of focus, but we also 
think that there are some timing issues in terms of how and 
when they did their assessment. And so we're going to be 
working with them to better understand.
    As far as the moving money around, the reductions that you 
note are not because they're being redirected towards the 
pharmacy compounding issue, we're going to be really looking 
across the agency and looking to find efficiencies rather than 
taking from other programs. But we are operating in a very 
constrained budget environment. And, if you ask me, do we have 
what we need in each of these critical program areas to do the 
job that we've been asked to do and I think we must do, in most 
cases, I do believe that the demands outstrip the resources.
    So it's a very challenging time. And we are trying to 
really look at programs in as clear-eyed a way as possible; 
focus on the critical needs and priorities; and to try to build 
strength in other ways. In certain instances, through 
partnerships and collaborative activities, through economies of 
scale and other efficiencies, and by really focusing on what 
are the most critical and urgent needs.

                            SEQUESTERED FEES

    Senator Blunt. In the fee area, one, our committee tried to 
do all we could to be sure you had access to the fees that you 
were able to collect, some of which were set aside by the 
sequester process. And, from an authorizing point of view, Mr. 
Pryor and I both have been very interested to see that happens 
again. But did happen. We got those fees back. But I think 
you've got another $79 million worth of fees that were 
collected prior to 2010 that the Office of Management and 
Budget says can't be spent.
    Do you have any advice here, Mr. Cochran or Mr. Tootle, on 
what we could do about that so that that money could actually 
be used to advance the purposes it was collected for?
    Dr. Hamburg. Well, first, let me thank you for the work 
that you did to help address the problem of the sequestered 
fees, the user fees, which was very worrisome and we're 
grateful for the leadership that you brought to that.
    With respect to the outstanding user fees, in terms of past 
collection, you are right. I think the number is $79 million 
and I think you've created a framework in terms of language 
that enables us to engage in discussions with the Office of 
Management and Budget (OMB) and we're actively in that process 
because we would--as I was saying, in answer to your last 
question, we do have critical needs and those resources could 
make a difference.
    Senator Blunt. Right. Well you do have critical needs and 
you do have this money that's been collected for the purposes 
of some of these needs specifically.
    And I'd certainly be willing to, and have been willing to 
be as helpful as I could be to convince the Office of 
Management and Budget, or whoever needs to be convinced. Maybe 
we need to do that with some further language again this year, 
but we want to work with you on that. There's no reason to have 
that money collected as fees for a purpose not to be somehow 
fenced off from ever serving that purpose. So----
    Dr. Hamburg. Thank you.
    Senator Blunt. Thank you, Mr. Chairman.
    Senator Pryor. Thank you.
    Senator Cochran.
    Senator Cochran. I've already----
    Senator Pryor. Senator Collins.
    Senator Collins. Thank you very much.
    I thank the Senator from Mississippi and the chairman and 
ranking member.

         OFFICE OF FOODS AND VETERINARY MEDICINE--SPENT GRAINS

    Commissioner, I understand that Senator Blunt has brought 
up already the issue of spent grains. Grains that have been 
used to make beer and serve no further purpose to the brewer 
and are now being used for animal feed. I have to tell you, but 
I think the FDA's approach is a perfect example of a solution 
in search of a problem. This practice has been going on for 
literally centuries where brewers have donated or sold, often 
for little money, their spent grains to farmers.
    In Maine, we have an emerging craft beer industry that now 
employs over 1,000 people and 90 percent of spent grains 
produced by craft brewers are disposed of as animal feed. To 
me, this makes great sense. It recycles the remainder of the 
spent grains. And there simply is not evidence of problems.
    I understand, and agree, that it's essential that we ensure 
the safety of our Nation's food supply. But this is an example 
of regulatory overreach that will hurt both the small 
employers, that our craft brewers are, and the farmers that are 
working so cooperatively with them. So I want to just second 
the concerns that Senator Blunt has raised and urge you to take 
a really hard look at what the impact of that rule is and 
whether you're really solving a problem or creating one.
    Dr. Hamburg. Well, thank you.
    And you were not present when we had the early discussion.
    Senator Collins. Correct.
    Dr. Hamburg. I'll just reiterate that we have heard these 
concerns. Senator Blunt actually raised some additional ones 
around this notion of sustainable agriculture and recycling of 
product. We actually do think that this is an arena where there 
are sensible, reasonable solutions and we're committed to 
working towards those. And we think that this issue can be 
effectively addressed when we put forward a re-proposal this 
summer of some of the components of the human and animal feed 
preventive controls rule and the produce rule.

                          ARTIFICIAL PANCREAS

    Senator Collins. Good. I hope we will see a significant 
change.
    I know that you're also aware, well aware, of my strong 
interest in the development and approval of an artificial 
pancreas, which would help people living with type 1 or 
juvenile diabetes to achieve dramatically better control over 
their blood glucose levels until a biological cure is found.
    And I want to start by commending you and your team for all 
your work to advance these critically important technologies by 
streamlining the review structure in improving outpatient 
studies in a timely manner. An extremely important step was 
taken last year when your agency approved a Low Glucose Suspend 
system which is considered, in many ways, to be the first 
generation of an artificial pancreas technology.
    I can tell you from the long years of work that I've done 
with families with children with type 1 that they are so eager 
for a breakthrough in this area. I know you're collaborating 
closely with the families and with stakeholders like the 
Juvenile Diabetes Research Foundation and with medical 
researchers outside the agency. But could you give me an update 
on your timeline, your strategy, for ensuring that these very 
promising new technologies reach patients as soon as possible?
    Dr. Hamburg. Well, thank you for the question and your 
appreciation of how hard we've been working in this area. I do 
think it's really a model for the importance of FDA working in 
full partnership with the scientific search community, medical 
care community, and importantly patients and families.
    The development of an artificial pancreas would transform 
the health and the quality of life of individuals living with 
type 1 diabetes and of course to their families as well. And 
it's not yet available anywhere in the world but we are really 
working hard to make it a reality.
    We put forward final guidance several years ago to really 
lay out what would be the regulatory pathway to try to 
encourage manufacturers to move in this direction and ensure 
the right research and study. We now also have, I think, 12 
clinical studies, some community-based studies, including one 
at a summer camp, to try to really understand how the current 
prototypes would work and, we want to move this as swiftly and 
surely as possible.
    We want to make sure that the product is safe and effective 
because if you are relying on this for the assessment of your 
glucose levels, in a continuing way and the delivering of 
insulin, it needs to do it right. But we think the science and 
technology is coming together with an acute and currently unmet 
medical need. And it's a very exciting and promising 
undertaking.
    And I would just add that it also, I think, is a model for 
other areas of medical product development as well; the 
partnership with key stakeholders and really trying to leverage 
the opportunities in science and technology today with critical 
unmet medical needs.
    Senator Collins. Thank you.
    Mr. Chairman, could I do one more? Or--thank you very much.

                    SEIZURE MEDICATION--CANNABIDIOL

    Commissioner, I recently had a very poignant meeting with a 
family in my office in Maine whose daughter had suffered for 
years, since she was age 11, from uncontrolled seizures. And 
she had been unable to control her convulsions with regular 
seizure medications and her family finally decided to have her 
try a tincture extracted from marijuana with a high cannabidiol 
(CBD) value, which does not cause the psychogenic effects of 
smoking marijuana. And, just so my colleagues don't 
misunderstand, I'm opposed to the legalization of marijuana the 
way that Colorado has done.
    But, for this young girl, the results have truly been 
remarkable and life changing. She's now a college freshman. She 
has not had seizures in many, many months whereas before she 
was having them all the time. And she's not, obviously, 
experiencing any kind of high because of the tincture that she 
is taking; so it's not interfering with her in that way.
    I know that a drug containing highly purified CBD, similar 
to the tincture being used by my constituent, is currently 
under investigation by the FDA under its expanded access 
Investigational New Drug program to help treat a few children 
with intractable epilepsy or other kinds of seizures.
    Could you tell me where you are in this process? Has 
consideration been given to expanding the number of young 
people who could participate in the program? And, as a 
physician, do you have any preliminary thoughts on whether this 
may, in fact, be a promising treatment for children who have 
uncontrollable seizures?
    Dr. Hamburg. Well, you raise many important issues.
    With respect to a specific product that might be under 
review by the FDA, without permission from the sponsor I can't 
speak to that. But what I certainly can say is that, number 
one, I think it's very important that we really study potential 
medical applications of marijuana and marijuana components. The 
active ingredients in a controlled way so that we can really 
understand what works, how, and for what conditions. So I think 
that is a very important undertaking. And certainly, this issue 
of that class of product for epilepsy has been brought to my 
attention as an area where there are scientists and medical 
providers who believe it holds great promise.
    With respect to expanded access while a drug is under 
study, we are very responsive to applications or requests that 
come. At the end of the day, it's the company that has to 
decide with affirmation from us to make the product available. 
But that is something where, over a period of many years now, 
we have had an active program. And, the majority of requests 
for expanded access that come before us are supported by the 
FDA.
    Senator Collins. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Pryor. Thank you.

                               FEED RULE

    I have about four or five questions left. I'm just going to 
try to run through these very quickly.
    One is to follow-up on a question by Senator Blunt and 
Senator Collins, on the feed rule, the feed rule. And actually, 
mine is a little different take on that. I know that under the 
current rule, as I understand it, feed mills are exempted in 
situations where the owners of the mill are feeding animals it 
owns, on land it owns. Animals it owns on land it owns. And 
that's probably a sensible exemption or exception. But the 
question is should it be extended because in the poultry world 
and in the pork or swine industry world, oftentimes they own 
the animals and they own the mill but they contract out to 
independent farmers to do that. Or do you know are all 
considering extending that exemption?
    Dr. Hamburg. What I would like to do, with your permission, 
is take this back to the experts within the FDA because this is 
an important question, but it's at a level of detail that I 
really can't answer.
    [The information follows:]

    Section 415 of the Federal Food, Drug, and Cosmetic Act (the FD&C 
Act) requires the registration of facilities engaged in manufacturing, 
processing, packing, or holding food for consumption in the U.S. These 
requirements are implemented in Title 21 of the Code of Federal 
Regulations, part 1, subpart H, Registration of Food Facilities. Some 
facilities, e.g., farms, are not required to register as a food 
facility under this subpart. The definition of furm is found in 21 CPR 
1.227(b)(3):
    Farm means a facility in one general physical location devoted to 
the growing and harvesting of crops, the raising of animals (including 
seafood), or both. Washing, trimming of outer leaves of, and cooling 
produce are considered part of harvesting. [The preceding sentence 
would be deleted under the proposed rule ``Current Good Manufacturing 
Practice and Hazard Analysis and RiskBased Preventive Controls for 
Human Food,'' 78 Fed. Reg. 3646, 3795 (Jan. 16, 2103).] The term 
``farm'' includes:
    (i) Facilities that pack or hold food, provided that all food used 
in such activities is grown, raised, or consumed on that farm or 
another farm under the same ownership; and
    (ii) Facilities that manufacture/process food, provided that all 
food used in such activities is consumed on that farm or another farm 
under the same ownership.
    Section 103 of the FDA Food Safety Modernization Act applies only 
to facilities that are required to register under section 415 of the 
FD&C Act and its implementing regulations. At this time, FDA is not 
intending to extend/change the definition of ``farm'' to include farms 
providing animal food to other farms. The feed mill in the scenario 
presented would probably be required to register as a food facility as 
the feed is not being consumed on a farm under the same ownership as 
the feed mill.

    Senator Pryor. Sure. Okay. That's great.

                             DRUG SHORTAGES

    And another one, I'm totally changing gears here as well, 
is on drug shortages. And I think we kind of barely touched on 
that in testimony or in questions. But, I know that there are 
drug shortages and there have been some Government 
Accountability Office (GAO) recommendations. And I'm just 
curious about the status of that and if you're working with 
industry to try to make those drug shortages less frequent and 
less severe?
    Dr. Hamburg. Yes.
    Well, it's a really important area. And, as you know, over 
the years there have been shortages in medicines that are 
really critical to the practice of medicine and the care of 
patients. We have seen some very significant progress. We went 
from, I think it was 251 shortages a couple of years ago, to 44 
this past year. But we're seeing another trend that we're 
paying attention to which is we're seeing some of the shortages 
sustained for a longer period of time.
    A number of things are making a difference as we respond to 
shortages and helping us really grapple working with industry, 
of course, who on the frontlines of this to address the 
problem. One is that through the Food and Drug Administration 
Safety and Innovation Act (FDASIA) we got new authorities to 
require companies to report to us not just if they were going 
to discontinue a medically important product within a 6-month 
timeframe, I think it was, but if there was reason to believe 
that there was an imminent threat to a product, a supply chain 
disruption, et cetera. So that's given us an opportunity to 
engage much earlier with companies that might have emerging or 
real shortages.
    We work closely with companies to try to address the cause 
of the shortages whether it's quality or lack of availability 
of a product so that we can keep that product in the 
marketplace. If it's a quality issue that requires them to 
actually stop manufacturing for a while, we work with them to 
try to fix the problem as quickly as possible.
    We also try to identify other manufacturers making that 
same kind of product and encourage them and work with them to 
actually ramp up the manufacturer. Or sometimes identify a 
manufacturer who might not be making that specific product but 
could make that product and, again, we would work with them to 
quickly move them towards an ability to make that product.
    And when necessary, we also will look oversees to see if 
there's an equivalent product that's available and approved in 
another country but not here and then we will move to make that 
drug available through importation to address a shortage need.
    So we have a range of tools. We have tried to be very 
proactive and responsive and flexible working with companies. 
There are some fundamental problems in that the majority of 
these shortages are in the arena of generic sterile injectables 
which are drugs that have a low return on investment but high 
requirements in terms of manufacturing capability and upkeep to 
keep the manufacturing at the appropriate quality level. There 
are, in many of these areas, limited manufacturers who are 
still making these products. So if one has a problem either in 
quality or supply chain, it puts at risk the national supply.
    So, it is something that we need to continue to work on. We 
do believe we have made progress. We do believe that working 
with companies around a broader quality agenda and really 
modernizing manufacturing as part of that will make a long-term 
difference.

               DRUG APPROVAL DUCHENNE MUSCULAR DYSTROPHY

    Senator Pryor. Okay.
    And we talked about before the wide range of topics that 
you have to deal with. Here's another topic: Duchenne muscular 
dystrophy. My understanding is there's a new therapy that's in 
the pipeline that shows some promise. And, apparently, it's not 
a cure but it just maybe will delay the onset of some of the 
symptoms of the disease. And my question really is, is this 
going to be a good candidate for accelerated approval or is 
that not a consideration right now?
    Dr. Hamburg. Well, again, I can't really speak to the 
specifics of a product that's under review. But what I can say 
here is that we all know that Duchenne muscular dystrophy is a 
devastating disease for patients and their families.
    We also recognize that advances in science and technology 
are really opening up huge new opportunities to find meaningful 
treatments. Maybe even someday a preventive or a cure. And we 
are working hard with the scientific research community, as 
well as the patient community, to try to find a pathway to 
realize the promise of science for these patients.
    There has been a huge effort around this disease and the 
products that are in development. I would say that it's an area 
where some of the top scientists and leaders in FDA have 
committed a huge amount of time and effort. And I think we are 
making progress. And, I really hope so because it's such a 
devastating disease. But the science and product development is 
very promising.
    Senator Pryor. Senator Blunt.
    Senator Blunt. Well, on that topic, I know we've had a 
number of Missouri families and clearly the individuals 
involved want to find the best help they can find and they want 
to find it as quickly as they can. And I'm glad you're pursuing 
that and hope we can find the answer to some of these possible 
cures, this one particularly, as quickly as it's possible to do 
and to safely do.

                             MENU LABELING

    On menu labeling, when do you expect the final rule to come 
out?
    Dr. Hamburg. Well, sadly, this is a conversation that we've 
had before.
    Senator Blunt. We have.
    Dr. Hamburg. It has been a long undertaking. And as you, I 
think, noted in your opening remarks, what had initially seemed 
like a relatively straightforward undertaking, menu labeling 
the nutritional content, especially calories, has been much 
more challenging than expected. But we are moving towards a 
final rule. And I do believe that I will not have to come to 
another budget hearing and have this discussion with you. But, 
no, I take very seriously----
    Senator Blunt. Well, depending on the ruling, you might. 
You might have to have this discussion.
    Dr. Hamburg. But you have raised a number of important 
issues over time and issues that have also been reflected in 
other comments on the proposed rule. And, you know, we have 
received lots of comments and undertaken a thoughtful, 
considerate analysis. And I think many of your concerns will be 
reflected back in the final rule.
    Senator Blunt. Some of those, as you know, would include, 
like, prepared food is a very small part of what a grocery 
store might do, a drive-through location, a delivery location 
where very few of the customers would ever see what was posted 
on the wall no matter how many things you posted on the wall.
    Do you have any anticipation, once you propose the rule, 
how long the compliance period would be?
    Dr. Hamburg. You know, I actually don't know the answer to 
that.
    My colleague Mike proposed a year.
    But the other thing I might just mention, I think you're 
probably aware, is that the menu labeling requirement applies 
to restaurant or restaurant-like establishments that are chains 
of 20 or more and have consistent menus. So that helps to 
narrow the focus. Not all restaurants will be asked to 
implement this menu labeling.
    Senator Blunt. Okay, good.

                         MITOCHONOLNAL DISEASES

    As the chairman has prefaced many of his questions on a 
very different topic, the FDA recently held a public meeting on 
reproductive technology. The purpose of the meeting and quotes 
was for the prevention of transmission of mitochondrial 
diseases ended those quotes, which involves cryoembryo using 
DNA from three parents.
    The advisory committee, the FDA briefing for the committee, 
said ``that the FDA recognizes that there are ethical and 
social policy issues related to genetic modification of eggs 
and embryos and that these issues have the potential to affect 
regulatory decisions; however, such issues are outside the 
scope of this meeting.''
    My view of that would be that the ethical questions 
associated with the procedures should be considered before we 
have a lot of discussion about how you do this. I'm just 
wondering if the ethical bridge is outside the scope of FDA. 
When do you think we should have that ethical discussion?
    Dr. Hamburg. We think those discussions should be ongoing 
and we are working to make sure that those discussions are 
engaged. We don't believe that we are the right agency to lead 
those discussions and it needs to be a broader societal 
discussion as well as bringing important expertise to bear. But 
research is going on in this area of what's called ``oocyte 
modification'' in assisted reproduction to address 
mitochondrial disease.
    And we undertook this public meeting in order to begin to 
understand what is the nature of the science and what is being 
done. I would add that research is being done in this country 
and in other countries and is being looked at as a policy 
matter in other countries of the world as well. But it's a very 
preliminary discussion and we do feel strongly that the broader 
social and ethical context has to be addressed.
    And, as I said, we are working to make sure that that 
happens as we also make an effort to understand what's really 
happening in terms of the scientific research. And, of course, 
mitochondrial disease is a serious problem. It affects a 
limited number of people in this country, but for those who it 
affects it is a very serious concern. And so, there's an 
eagerness to understand what kinds of scientific opportunities 
might exist to address it. But we are not unaware of all of the 
other issues that are raised and feel that those need to be 
addressed as a high priority.
    Senator Blunt. And I think you said you were working to 
ensure that the ethical questions are being addressed, though, 
not by you.
    Dr. Hamburg. Well, we would take part just because I think 
this is an issue that needs broad engagement. And, you know, 
certainly we would not move forward. We don't think that the 
science is ready to move forward based on that public meeting 
in terms of moving to clinical studies. But I think that we 
understand the importance of these issues and the broader 
context for this kind of scientific research. And so, as I 
said, we want to make sure that all of the issues; scientific, 
social and ethical, are examined fully.
    Senator Blunt. Well, I would hope so. And I hope you 
continue to use some of you efforts and the ongoing discussions 
with groups who should be talking about this to do so. You 
know, if the purpose of looking at this in the very narrow way 
you did was to see if it was just so dangerous that nobody 
should even being talking about it, I might understand that. 
But when you begin to talk about things that are this different 
from the way humans have always procreated and the potential of 
what might happen unknown, there is an ethical bridge here that 
we all understand that we're crossing that somebody should be 
in charge of that discussion or ensuring that that discussion 
happens before agencies of Government decide, well, this is the 
only thing we really have to do with this, so we should step 
forward and do our part of this before society has had the kind 
of discussion they need to have about the ethics of this kind 
of science and this kind of activity.
    But, Dr. Hamburg, I'm always really impressed by both your 
broad understanding of what you do and your willingness to look 
at things that you realize you don't understand yet because 
this is a huge portfolio. And the worse person we could have 
doing this job is somebody who thought they had all the answers 
on every topic. And I think today, again, you've expressed your 
interest and willingness to look at things that have broader 
context than maybe the agency initially thought they had. And I 
appreciate you and your responses to the questions today.
    Dr. Hamburg. Thank you.
    Senator Blunt. Thank you, Chairman.
    Senator Pryor. Thank you.

                        ELECTRONIC DRUG LABELING

    I have two final questions for you and they're going to be 
quick. One is something I didn't know about until recently and 
that is the electronic distribution of prescribing information 
that goes along with drugs.
    My understanding is that this is the paper insert that you 
kind of get in there and unfold and look at it if you ever want 
to. By the way, I probably throw mine away more often than I 
read it. But every now and then, I want to see it and I want to 
have it. But I can think of lots of examples where that 
information could be and should be included to the end user. 
But anyway, we can talk about those if you want to. But 
regardless of my personal feelings about it, my understanding 
is that there's a possible rule change on that ending with the 
Office of Information and Regulatory Affairs (OIRA), and so I 
was wondering if you have an update on that or a status report 
on that?
    Dr. Hamburg. Well, I think we are looking towards making 
information more available on the Web. Some of us are slower to 
fully adapt. But, you know, there is a sense that that is, in 
fact, how many people get their information and if it's on the 
Web it's there. As you pointed out, many people just throw away 
their labels, their insert information, and I think that is a 
concern.
    In addition, I think one of our critical goals is 
manifested across various aspects of what we do is how can we 
communicate the important information in a way that's more 
understandable, accessible, and useful to consumers. And so, I 
think the move towards the electronic here is really an effort 
to try to make the information, in fact, more available to 
consumers.
    Senator Pryor. I think, again from my standpoint, I think 
of maybe seniors don't, typically don't always have the 
technology other people do. Rural people sometimes have 
challenges connecting to the Internet. You know, you think of 
scenarios: People traveling; people with kids and the kids are 
having a sleepover somewhere. I mean, I can just sort of see 
where that paper, from my standpoint, should continue to follow 
the--we'll see what comes out there.
    And the last thing, of course, I want to do, I've heard you 
sing the praises and you've heard me sing the praise of the 
NCTR many times. And I know that we were able to get them some 
additional money. And you obviously care about NCTR. And could 
you just give me a little update on what you're seeing down 
there and how things are going at the National Center for 
Toxicological Research?
    Dr. Hamburg. Yes.

                             NANOTECHNOLOGY

    Well, we do have a shared interest in NCTR and it really 
does represent a unique resource for FDA and for the Nation as 
a research organization that is really solely based on studying 
really important issues about toxicology, safety, and risk of a 
range of products that we regulate. And we have been able, I 
think, to accomplish some remarkable things there and have been 
very grateful for the interest and support that you have 
provided over the years.
    Most recently, I think we've really done some 
groundbreaking work in the area of nanotechnology, including in 
partnership with the research universities in Arkansas and the 
State of Arkansas. Through a research alliance and 
collaboration we've been able to really build important 
programs to deepen our understanding of the toxicology of 
various components of products to develop new tools; to assess 
potential toxic effects more effectively and swiftly and 
earlier in a product development process, which is important in 
terms of saving time and saving costs; and developing new 
models that whether it's biomarkers or bioimaging that enable 
us to have new models rather than relying on what our 
increasingly outdated approaches as well, where you just try to 
study something in an animal model which isn't really adequate 
for a human model, and then when you try to make the 
translation it may not work.
    So really trying to apply cutting-edge science and 
technology to better and improve toxicology assessment 
technologies. They've also been a leader for us and more 
broadly in terms of the area of bioinformatics and how do we 
really harness the tools of computers and information 
technology to deepen our understanding of existing data, our 
collection of new data, and our analysis of critical problems 
for health. So they really are a very, very important resource.
    And, we have been able to, in recent years, undertake some 
important new projects. And we appreciated the one-time money 
that we were provided with last year that went to support some 
of the important activities I just mentioned.
    Senator Pryor. Well, thank you for that.
    And also, let me say, thank you for this hearing. We've 
kept you here for 95 minutes. You've been on the hot seat for 
that entire time. But thank you for being here and doing this.
    What we're going to do is we're going to leave the record 
open here for the subcommittee members to submit additional 
questions if they have them for another week, which is 
Thursday, April 10, and then we'll allow you all three or four 
weeks to respond to those.

                         CONCLUSION OF HEARINGS

    But anyway, thank you again for your leadership and for the 
FDA and all the things FDA does. And, with that, we'll conclude 
this hearing.
    Thank you.
    Dr. Hamburg. Thank you.
    [Whereupon, at 11:36 a.m., Thursday, April 3, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


 
   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2015

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Agriculture, Rural Development, Food and Drug 
Administration, and Related Agencies for inclusion in the 
record. The submitted materials relate to the fiscal year 2015 
budget request for programs within the subcommittee's 
jurisdiction.]
      Prepared Statement of the Academy of Nutrition and Dietetics
    Dear Subcommittee on Agriculture, Rural Development, Food and Drug 
Administration, and Related Agencies: The Academy of Nutrition and 
Dietetics appreciates the opportunity to submit testimony for the 
fiscal year 2015 appropriations. The Academy is the world's largest 
organization of food and nutrition professionals, and is committed to 
improving the nation's health with nutrition services and interventions 
provided by registered dietitian nutritionists. Nationwide, The Academy 
has over 75,000 members.
    As Congress begins work on fiscal year 2015 appropriations, we 
strongly urge you to fully fund Federal nutrition programs that will 
provide a return on investment to improve health. Investment in these 
programs through the appropriations process will help prevent costly 
healthcare expenses due to chronic diseases.
                agriculture, food and nutrition research
    As you consider the fiscal year 2015 budget, we ask for your 
support of the President's budget for the National Institute of Food 
and Agriculture (NIFA). The National Institute of Food and Agriculture 
(NIFA) funds agriculture and nutrition research that is vital for 
communities and the nation to have new technologies and intervention to 
have healthy Americans. In doing so, we ask that you:
  --Continue to support NIFA research efforts that work with local 
        communities and states to conduct high-quality research to help 
        assure that our food supply is adequate for the future; and
  --Consider restoring the funding for Agricultural Research Services 
        (ARS) to 2014 levels. ARS is an essential in-house, scientific 
        research agency. This agency often provides the solutions to 
        food and nutrition problems that affect Americans every day, 
        from field to table.
            supplemental nutrition assistance program (snap)
   nutrition education and obesity prevention grant program (snap-ed)
    SNAP helps to put food on the table for about 47 million people 
each month. SNAP participation closely follows changes in unemployment 
and underemployment and so is responsive to changes in need. SNAP-Ed 
empowers participants to make healthy food choices using this knowledge 
received from the innovative and engaging nutrition education to 
purchase, prepare and store nutritious foods. During this 
appropriations cycle, we ask that you:
  --Support SNAP as it continues to respond to the elevated need for 
        food assistance with timely benefits; and
  --Fund SNAP-Ed at $407 million, as mandated in the Food and Nutrition 
        Act of 2008.
             the emergency food assistance program (tefap)
    TEFAP is a win/win for farmers, producers, processors and low-
income consumers to assure access to healthy foods through our nation's 
charitable food system, delivering nutrient-rich food through pantries, 
shelters, and kitchens and providing support for storage and 
distribution. The TEFAP program staff works in tandem with SNAP-Ed 
staff to help assure the consumption of these foods through nutrition 
education including preparation and safe storage. We ask that you:
  --Provide the authorized funding level of $100 million for TEFAP 
        storage and distribution funds. The current funding level of 
        $49 million only covers 33 percent of the cost of distributing 
        TEFAP commodities.
  --Fund TEFAP commodities at $324 million, as provided by the 2014 
        farm bill. TEFAP commodities are distributed to low-income 
        people through food banks, pantries, kitchens and shelters.
               commodity supplemental food program (csfp)
    CSFP provides a nutritious monthly food package to approximately 
580,000 low-income participants, primarily to vulnerable low-income 
seniors. The CSFP food package is designed to meet the specific 
nutritional needs of this target population, combating the poor health 
conditions often found in food insecure seniors. We ask that you:
  --Fund CSFP at $208 million, the amount necessary to maintain current 
        caseload; and
  --Provide an additional $5 million allow CSFP to serve the six 
        additional states who meet the criteria set out by USDA for a 
        quality program (CT, HI, ID, MD, MA, RI).
                        child nutrition programs
    Child nutrition programs operate in school, daycare, after school, 
and summer settings, providing nutritious meals and snacks to fuel 
children with the energy they need to thrive in the classroom and 
beyond.
School Meals
    We ask that you:
  --Support the National School Lunch Program, School Breakfast 
        Program, Summer Food Service Program, Child and Adult Care Food 
        Program, and the Fresh Fruit and Vegetable Program to provide 
        children with nutritious meals and snacks; and
  --Provide $35 million in grants for school meal equipment to help 
        schools upgrade their kitchen equipment. This will allow 
        schools to serve healthier meals at a more reasonable price, 
        and will expand access to feeding programs. This is a long 
        overdue change for schools.
Special Supplemental Nutrition Program for Women, Infants and Children 
        (WIC)
    WIC serves low-income women and young children until the age of 
five, providing them with a nutritious monthly food package, nutrition 
education, healthcare and social service referrals to ensure that this 
at-risk population receives the quality nutrition and healthcare 
essential for healthy growth and development. Please:
  --Fund WIC at $6.823 billion to support a projected caseload of 8.7 
        million participants. Monitor food cost inflation and caseload 
        to ensure that appropriated levels meet anticipated needs. 
        Provide $150 million to replenish the WIC Contingency Fund for 
        unforeseen food cost or participation increases.
  --Provide $60 million for breastfeeding peer counselors to improve 
        breastfeeding initiation and duration among the target 
        population, $30 million for Management Information Systems/
        Electronic Benefits Transfer (EBT) funding to improve client 
        access, retailer efficiency, and program integrity, $14 million 
        for infrastructure improvements, and $5 million for program 
        research and evaluation.
             supporting local farmers and improving health
    To support local farmers while improving the health of Americans, 
we ask that you:
  --Provide $17 million for WIC Farmers' Market Nutrition Program 
        (FMNP), which provides vouchers to low-income women, infants, 
        and children;
  --Provide $21 million for the Seniors Farmers' Market Nutrition 
        Program, which provides vouchers for low-income seniors; and
  --Provide $9 million for Community Food Projects to meet food needs 
        of low-income people, increase community self-reliance, and 
        promote comprehensive responses to food, farm and nutrition 
        issues.
                           developing leaders
    To ensure a pipeline of leaders dedicated to improving health and 
reducing hunger in our country, we ask that you:
  --Provide $3 million for the Congressional Hunger Center for the 
        operation of the Bill Emerson National Hunger Fellowships and 
        Mickey Leland International Hunger Fellowships, which focus on 
        developing solutions to hunger based on experience at local 
        field placements and national policy organizations.
    We appreciate your support on these recommendations. We know that 
these expenditures will make for smart, long-term investments into the 
health of Americans.

    [This statement was submitted by Mary Pat Raimondi MS, RD Vice 
President, Strategic Policy and Partnerships Academy of Nutrition and 
Dietetics.]
                                 ______
                                 
      Prepared Statement the of Academy of Nutrition and Dietetics
    The Academy of Nutrition and Dietetics has submitted testimony for 
the fiscal year 2015 appropriations. We would like to add an additional 
request that will help improve the health of Americans. As we shared in 
our previous letter, the Academy is the world's largest organization of 
food and nutrition professionals, and is committed to improving the 
nation's health with nutrition services and interventions provided by 
registered dietitian nutritionists. Nationwide, the Academy has over 
75,000 members.
    The newly-passed Agricultural Act of 2014 offers new opportunities 
for healthy foods to be incorporated in the diet. Pulse foods are some 
of the best sources of important nutrients including dietary fiber, 
vegetable protein, iron and potassium that one can have in his or her 
diet. Introducing children to pulse foods early in life will help 
develop life-long habits to incorporate these foods in their diets. 
Encouraging healthy eating habits in our school children will help 
prevent chronic health issues, like obesity and type-2 diabetes. Pulse 
foods are also known to be economical sources of protein that can help 
to reduce hunger throughout the world.\1\ Having research dollars for 
pulse foods will promote the benefits and identify new ways of 
increasing consumption of these foods. We asked that you include the 
following in funding:
---------------------------------------------------------------------------
    \1\ Dilis V, Trichopoulou A (2009) Nutritional and health 
properties of pulses. Mediterranean Journal of Nutrition and Metabolism 
1: 149-157.
---------------------------------------------------------------------------
pulse crop health initiative-fiscal year 2015 appropriation request $25 
                                million
    The Pulse Crop Health Initiative was included in Section 7209 (e) 
of the Research Title of the Agricultural Act of 2014. The law provides 
an authorization of $125 million dollars over the next 5 years to find 
solutions, through research on pulse crops, to the critical health, 
functionality, sustainability and food security challenges facing U.S. 
citizens and the global community. The initiative will focus on three 
major research areas: health and nutrition, increasing functionality 
and enhancing productivity and sustainability of pulse crops. We ask 
you to fully fund the Pulse Crop Health Initiative in the Agriculture 
Act of 2014 with an appropriation of $25 million for fiscal year 2015.

   school pulse crop products program-fiscal year 2015 appropriation 
                           request $2 million
    The Pulse Crop Products program was included in Section 4213 of the 
Nutrition Title of the Agricultural Act of 2014. The law authorizes $10 
million dollars over the next 5 years. The purpose of the Pulse Crop 
Products program is to increase awareness of nutrient-dense pulse crops 
and increase their use in school meals. We ask you to fully fund the 
School Pulse Crop Products program in the Agricultural Act of 2014 with 
an appropriation of $2 million for fiscal year 2015.

    [This statement was submitted by Mary Pat Raimondi, Vice President, 
Strategic Policy and Partnerships of the Academy of Nutrition and 
Dietetics.]
                                 ______
                                 
  Prepared Statement of the Agriculture and Food Research Initiative 
                            (AFRI) Coalition
    The Agriculture and Food Research Initiative (AFRI) Coalition is 
pleased to submit the following testimony on the fiscal year 2015 
appropriation for the Department of Agriculture's (USDA) Agriculture 
and Food Research Initiative (AFRI). The AFRI Coalition, comprised of 
more than forty scientific societies and science advocacy organizations 
is dedicated to raising awareness of the importance of AFRI and the 
critical research it funds.
    The AFRI Coalition is concerned with the Administration's proposed 
funding level for AFRI, and strongly urges Congress to fund AFRI with 
at least $360 million in fiscal year 2015, far less than its authorized 
level of $700 million.
    AFRI, administered by the National Institute of Food and 
Agriculture (NIFA), is the premier competitive grants program for 
fundamental and applied research, extension and education in support of 
our nation's food and agricultural systems. AFRI funds high priority 
research grants in areas of critical concern to the United States 
including: food safety and security, agricultural production and 
products, plant and animal health, nutrition and human health and 
agricultural economics and others.
    Research supported by AFRI aims to solve critical scientific, 
agricultural and societal problems and deserves steady, predictable and 
sustainable funding. The future of our food and agricultural systems, a 
basis for human health, rely on it. Additionally, for every Federal 
dollar spent on publicly funded agricultural research, $20 or more is 
generated in the U.S. economy.\1\ A strengthened commitment to 
investments in science for food and agriculture, especially during 
difficult economic times, is essential to maintain and grow our 
nation's food, economic and national security.
---------------------------------------------------------------------------
    \1\ The Economic Returns to U.S. Public Agricultural Research, 
Alston, Julian M.; Andersen, Matthew A.; James, Jennifer S.; Pardey, 
Philip G., University of Minnesota, Department of Applied Economics, 
July 2011, http://purl.umn.edu/95522.
---------------------------------------------------------------------------
    The AFRI Coalition appreciates the opportunity to provide written 
testimony and would be pleased to assist the Subcommittee as it 
considers the fiscal year 2015 appropriation for AFRI. To learn more 
about the Coalition or to see a list of members, please visit: http://
africoalition.org.
                                 ______
                                 
         Prepared Statement of the Alliance for a Stronger FDA
    Chairman Pryor and Ranking Member Blunt: The Alliance for a 
Stronger FDA respectfully requests that the Subcommittee recognize the 
critical role and expanding public health mission of the U.S. Food and 
Drug Administration by providing fiscal year 15 budget authority 
appropriations of $2.784 billion for the agency. This amount is $223 
million above fiscal year 14 BA appropriations funding and $200 million 
above the President's request for BA appropriations.
    The Alliance is a 200-member coalition of all FDA's stakeholders--
consumers, patients, health professionals, trade groups and industry. 
Our sole purpose is to advocate for increased appropriated resources 
for the FDA, an agency that oversees 100 percent of drugs, vaccines, 
medical devices, dietary supplements and personal care products and 80 
percent of our nation's food supply.
    Altogether, the products and industries regulated by FDA account 
for nearly 25 percent of all consumer spending in the United States. A 
strong FDA is essential to the U.S. economy, jobs, and the balance of 
trade and is critical to homeland security. Unlike other U.S. 
regulatory agencies, all FDA stakeholders (including consumers, 
patients and industry) support increased funding for the agency.
    The current year's budget authority (BA) appropriation of $2.561 
billion helped FDA rebound from the fiscal year 13 sequester and regain 
and slightly advance above its fiscal year 12 funding level. However, 
in the interim, the continuing growth of FDA's responsibilities has 
meant that the appropriation is still dramatically less than the amount 
the agency needs. The agency's mission is ``at risk.''
   recognizing that fda's public health mission is vital and growing
    New laws take enormous resources to implement. Once implemented, 
they permanently increase agency responsibilities. Since 2009, Congress 
has identified a number of additional public health needs that fall 
within FDA's jurisdiction, resulting in at least seven new laws:
  --Family Smoking Prevention and Tobacco Control Act (2009)
  --Biologics Price Competition and Innovation Act (2010)
  --Secure and Responsible Drug Disposal Act (2010)
  --Combat Methamphetamine Enhancement Act (2010)
  --Food Safety Modernization Act (2011),
  --FDA Safety and Innovation Act (2012), including re-authorization of 
        the Best Pharmaceuticals for Children Act and the Pediatric 
        Research Equity Act
  --Drug Quality and Security Act (2013)
    Other growing responsibilities include: globalization, scientific 
complexity, promoting innovation to benefit patients and consumers, 
public health emergencies, national security, and increasing industry 
size and activity. In sum, the current appropriations level is totally 
inadequate to make up for decades of underfunding AND new and growing 
responsibilities, including but not limited to new laws enacted since 
2009.
   globalization and scientific complexity require fda to expand its 
activities each year to protect and expand public and individual health
    Even were Congress not active in legislating new mandates for FDA, 
the agency's mission and responsibilities would grow enormously each 
year for reasons unrelated to new laws. Our remarks will concentrate on 
two: globalization and increasing scientific complexity.
    One of FDA's highest priorities over the last 6 years has been to 
adjust for the accelerating globalization in all product categories 
overseen by the agency. For example:
  --Food Imports are growing 10 percent annually. Altogether, 10-15 
        percent of all food consumed in the U.S. is imported. This 
        includes nearly 2/3 of fruits and vegetables and 80 percent of 
        seafood.
  --Device Imports are also growing about 10 percent annually. 
        Currently, about 50 percent of all medical devices used in the 
        US are imported.
  --Drug Imports are growing quickly, about 13 percent annually. About 
        80 percent of active pharmaceutical ingredients (API) are 
        manufactured abroad, as are 40 percent of finished drugs.
    Inspections at U.S. ports-of-entry are critical, but ultimately 
less than 2 percent of shipments can be inspected. Instead, FDA is 
following Congressional direction by increasing foreign inspections and 
establishing foreign offices to work globally to improve the standards 
and quality of products entering the U.S.
    The value of this approach cannot really be quantified. For 
example, the cost of illness, death and lost markets--from just a 
single bad actor in a single food category--can cost as much or more 
than the entire investment we put into FDA's food safety activities. 
Drugs and devices are harder to track for a variety of reasons, but 
there is no reason to doubt a similar effect.
    Greater scientific complexity is diffused into every part of the 
agency and its mission. FDA has adopted a number of initiatives, 
including creation of a commissioner-level science office, investment 
in regulatory science, expanded and more intensive training, changes in 
time and manpower allotments for complex assignments, and significant 
reworking of the drug and medical device approval pathways to benefit 
patients. Further, food and medical product safety inspections have 
also become more complex--requiring more scientific training, more 
preparation and, often, more time during the inspection itself.
    Specifically, we have identified five areas in which FDA is 
improving product reviews to respond to more complex science and assure 
that patient need for new therapies is being met. Each comes at a cost 
in additional dollars/manpower:
  --Sponsors Need More Meeting Time and Other Feedback from FDA
  --Applications Require More Patients, Study Sites and Analysis
  --Enhanced Timeliness and Consistency of Product Review
  --Expansion of Pre-and Post-Market Safety
  --Enhance Innovation, Speed Approvals
    A 2011 study quantified some of the changes that require more FDA 
resources:

 
----------------------------------------------------------------------------------------------------------------
                                                                                                   Change 00--11
                All Therapeutic Areas, All Phases                     00--03          08--11             %
----------------------------------------------------------------------------------------------------------------
Unique medical and compliance procedures per protocol (median)..            20.5            30.4             48%
Total procedures per protocol (median)..........................           105.9           166.6             57%
Total investigative site work burden (median units).............            28.9            47.5             64%
Total eligibility criteria......................................              31              46             58%
Median study duration in days...................................             140             175             25%
Median number of CRF pages per protocol (CRF = case report                    55             171            227%
 forms).........................................................
----------------------------------------------------------------------------------------------------------------
 Source: Getz, Campo, Kaitin. Variability in Protocol Design Complexity by Phase and Therapeutic Area, DIJ 2011
  45(4); 413-420; Tufts Center for the Study of Drug Development

 fda's vital, complex world-wide public health responsibilities cannot 
be accomplished with its existing budget. the agency's mission is ``at 
                                risk.''
    FDA is a staff-intensive organization. More than 80 percent of its 
budget is devoted to staff-related costs. If the agency budget fails to 
grow over the next few years:
  --food will be less safe and consumers put at risk,
  --drug and device reviews will be slower, conflicting with promises 
        made to consumers, patients and companies,
  --problems with imports and globalization will become more numerous, 
        and
  --critical efforts to modernize the agency and improve its support 
        for innovation will stall.
    FDA has a broad mandate for a relatively small agency. Its 
activities are a core function of government and its mission and 
responsibilities are increasing. FDA should be a priority and it 
deserves exceptional status when appropriations decisions are made.

    [This statement was submitted by Kasey Thompson, President, 
Alliance for a Stronger FDA.]
                                 ______
                                 
 Prepared Statement of the American Commodity Distribution Association
    On behalf of the American Commodity Distribution Association 
(ACDA), I respectfully submit this statement regarding the budget 
request of the Food and Nutrition Service for inclusion in the 
Subcommittee's official record. ACDA members appreciate the 
Subcommittee's support for these vital programs.
    We urge the subcommittee to fully fund administrative expense 
funding for the Emergency Food Assistance Program (TEFAP) at $100 
million; to approve sufficient funding to maintain caseload in the 
Commodity Supplemental Food Program (CSFP) and provide an increase of 
$5 million to begin operations in six additional states approved by 
USDA, and to actively monitor three matters: further changes in sodium 
standards for school meal programs, recommendations of the Multiagency 
Task Force on commodity procurement required by Section 4205 of the 
Agricultural Act of 2014 (Public Law 113-79), and the National 
Commission on Hunger established by Section 743 of Division A of the 
Consolidated Appropriations Act of 2014 (Public Law 113-76).
    ACDA is a non-profit professional trade association, dedicated to 
the growth and improvement of USDA's Commodity Food Distribution 
Program. ACDA members include: state agencies that distribute USDA-
purchased commodity foods; agricultural organizations; industry; 
associate members; recipient agencies, such as schools and soup 
kitchens; and allied organizations, such as anti-hunger groups. ACDA 
members are responsible for distributing over 1.5 billion pounds of 
USDA-purchased commodity foods annually through programs such as 
National School Lunch Program, the Emergency Food Assistance Program 
(TEFAP), Summer Food Service Program (SFSP), Commodity Supplemental 
Food Program (CSFP), Charitable Institution Program, and Food 
Distribution Program on Indian Reservations (FDPIR).
         itefap food dollars now available for two fiscal years
    We previously called upon the subcommittee to make TEFAP food 
dollars available for two fiscal years, as was done under ARRA. This 
important change was included in the Agricultural Act of 2014, and we 
are thankful for it. We also very much appreciate the increase in food 
funds from $268,750,000 in fiscal year 2014 to $324,000,000 provided by 
the same Act. They are most certainly needed.
    If food orders are cancelled by either USDA or vendors for any 
reason near the end of the Federal fiscal year, state agencies will now 
have the ability to carryover these unanticipated balances to make 
responsible decisions and to take maximum advantage of available 
resources.
    ACDA looks forward to working with USDA for the effective 
implementation of this carryover authority.
         fully fund tefap administrative funds at $100 million
    We continue to urge the subcommittee to fully fund TEFAP 
Administrative Funds at $100 million, and believe that the notable 
increase in food funds will result in more food, more handling, and 
more storage. As a result, operating expenses will most certainly 
increase. In our view, so should the funding for these operating 
expenses. .
    Food banks continue to face increased demands, particularly with 
the reduction in SNAP benefits imposed last November. Higher food 
prices and tighter food supplies are a significant challenge, so we are 
very supportive of the increased food support provided by the 
Agricultural Act of 2014. Food banks for the past several years have 
found that they have had little choice but to convert food dollars to 
administrative expense funds in order to maintain their operations. We 
urge the Committee to not force this choice upon food banks that are 
experiencing reduced private donations in addition to increased 
demands.
          funding for the commodity supplemental food program
    ACDA supports the President's request for $206,682,000 to maintain 
the current caseload for the Commodity Supplemental Food Program 
(CSFP), and urges the Committee provide an additional $5 million to 
begin CSFP operations in six states that now have USDA-approved state 
plans--Connecticut, Hawaii, Idaho, Maryland, Massachusetts and Rhode 
Island. This additional funding would make CSFP available in 45 states. 
CSFP overwhelmingly serves elderly individuals, many of whom are 
homebound, and is being converted to an elderly-only program as a 
result of Section 4102 of the Agricultural Act of 2014.
    monitoring further changes in sodium standards for school meals
    As we stated in our 2014 Issue Paper, in 2012, Congress enacted a 
provision of law requiring USDA to review and evaluate its rule 
reducing the amount of sodium allowable in school meals for the rule's 
costs, practicality and scientific support. ACDA supports that 
provision, but is concerned that USDA will not issue its findings and 
make any resulting changes in the sodium standards in a timely fashion. 
The Department has indicated that it will report in 2016, which is 2 
years after the information is needed in order for manufacturers and 
others in the supply chain to develop, test and market new items before 
the next step in the sodium standards goes into effect. School Food 
Service authorities have made significant changes in the nutritional 
quality of foods served as part of the school lunch and breakfast 
program, and are embarking on additional changes in foods served as 
part of a la carte meals and sold elsewhere throughout the school. ACDA 
is committed to improving the quality of school meals, but believes 
that there needs to be sufficient lead time before the required 
implementation of any further changes in sodium standards. We urge the 
Congress to require that any further changes in sodium standards be 
based on sound science, and that sufficient lead time for the 
development, testing, and production of new products be provided before 
any further changes in sodium standards are required. We also urge the 
Appropriations Committee to continue to monitor this important matter 
should further action be needed.
  interagency panel for evaluation and improvement of the usda foods 
                                program
    ACDA applauds the inclusion of Section 4205 of the Agricultural Act 
of 2014, establishing a multiagency task force at USDA for continuous 
evaluation and improvement of the USDA Foods program. We thank the Food 
and Nutrition Service, the Agricultural Marketing Service, Farm 
Services Agency, and the Food Safety and Inspection Service for the 
efforts they have made to improve procurement operations over the past 
few years following meeting with ACDA. We strongly support the USDA 
Foods program and want to be sure it works effectively. We are prepared 
to work with all of these USDA agencies and our members to develop any 
information that USDA may require. We encourage the Committee to 
monitor developments as this task force gets underway.
                     national commission on hunger
    ACDA looks forward to the activities of the National Commission on 
Hunger established by the Consolidated Appropriations Act, and would be 
pleased to provide information regarding the operation of commodity-
based food assistance programs. We know that most Commission members 
are yet to be appointed and its agenda fully developed. ACDA hopes that 
at least one Commission member will have experience with commodity 
program operations because this experience can be invaluable to the 
Commission's task. ACDA believes that commodities provided to school 
food programs, to TEFAP, to CSFP, and to FDPIR are an important link 
between producers and recipients. They are cost effective and often 
exceed commercial standards, enabling USDA to be a market influencer.
    We look forward to continuing to partner with you and USDA in the 
delivery of these important food assistance programs.
    [This statement was submitted by Wanda Shepherd, President, 
American Commodity Distribution Association.]
                                 ______
                                 
       Prepared Statement of the American Farm Bureau Federation
    The American Farm Bureau Federation has identified the Renewable 
Energy for America Program (REAP) as its program for emphasis and 
funding in the fiscal year 2015 agriculture appropriations bill. REAP 
offers a combination of grants and guaranteed loans for agricultural 
producers to purchase renewable energy systems.
    Farm Bureau has identified eight other areas of importance for 
funding. They are:
                  programs that promote animal health
    Farm Bureau supports a $2 million increase to the Animal and Plant 
Health Inspection Service (APHIS) for voluntary Animal Disease 
Traceability (ADT), offset by a $2 million decrease for Avian Influenza 
(AI) related programs. The ADT program is essential for animal health, 
while avian health has generally improved because of success in 
decreasing the global occurrence of AI.
    Farm Bureau supports additional funding through the Agricultural 
Research Service and National Institute for Food and Agriculture (NIFA) 
for dealing with porcine epidemic diarrhea virus (PEDv). PEDv is an 
especially virulent disease for which there is currently no vaccine.
    Farm Bureau supports $4.8 million for the Veterinary Medicine Loan 
Repayment Program (VMLRP) administered by NIFA. VMLRP veterinarians 
ensure animal health and welfare, while protecting the nation's food 
supply.
    Farm Bureau supports funding $10 million for the Veterinary 
Services Grant (VSG) program, which was authorized in the Agricultural 
Act of 2014. The VSG program helps food animal veterinarians become 
established in rural communities.
    Farm Bureau supports funding $15 million for the National Animal 
Health Laboratory Network (NAHLN), which was authorized in the 
Agriculture Act of 2014. The NAHLN serves as our nation's most vital 
early warning system for emerging and foreign animal diseases.
    Farm Bureau supports funding $10 million for Section 1433 in the 
Agriculture Act of 2014, which establishes a new competitive research 
grants mechanism to address critical priorities in food security, 
zoonotic disease and stewardship.
    Farm Bureau supports $144.5 million for the FDA's Center for 
Veterinary Medicine (CVM). The CVM oversees the safety of animal drugs, 
feeds and biotechnology-derived products.
                   programs that promote conservation
    Farm Bureau supports funding for conservation programs but 
prioritizes working lands programs over retirement-type programs. 
Farmers and ranchers have made great strides in conserving our natural 
resources and these gains can continue through working lands programs.
       programs that expand international markets for agriculture
    Farm Bureau supports funding at authorized levels for:
  --The Foreign Agricultural Service to maintain services that expand 
        agricultural export markets.
  --Export development and expansion programs such as the Market Access 
        Program, Foreign Market Development Program, Emerging Markets 
        Program and Technical Assistance for Specialty Crops Program. 
        These effective programs have resulted in increased demand for 
        U.S. agriculture and food products abroad.
  --Public Law 480 programs which provide foreign food aid by 
        purchasing U.S. commodities.
  --APHIS Plant Protection and Quarantine personnel and facilities, 
        which protect U.S. agriculture from costly pest problems that 
        enter from foreign lands.
  --APHIS trade issues resolution and management activities that are 
        essential for an effective response when other countries raise 
        pest and disease concerns (i.e., sanitary and phytosanitary 
        measures) to prohibit the entry of American products.
  --APHIS Biotechnology Regulatory Services, which oversees the permit, 
        notification and deregulation process for plant biotechnology 
        products.
  --The U.S. Codex Office, which is essential to improving the 
        harmonization of international science-based standards for the 
        safety of food and agriculture products.
      programs that enhance and improve food safety and protection
    Farm Bureau supports funding for food protection at the Food and 
Drug Administration and Food Safety Inspection Service (FSIS) that is 
directed to the following priorities: Increased education and training 
of inspectors; Additional science-based inspection, targeted according 
to risk; Effective inspection of imported food and feed products; 
Research and development of scientifically based rapid testing 
procedures and tools; Accurate and timely response to outbreaks that 
identify contaminated products, remove them from the market and 
minimize disruption to producers; and Indemnification for producers who 
suffer marketing losses due to inaccurate government-advised recalls or 
warnings.
    Farm Bureau supports funding for a National Antimicrobial Residue 
Monitoring System (NARMS) to detect trends in antibiotic resistance. 
NARMS protects human and animal health through integrated monitoring of 
antimicrobial resistance among foodborne bacteria.
    Farm Bureau supports funding for the Food Animal Residue Avoidance 
Databank (FARAD) at the authorized level of $2.5 million. FARAD aids 
veterinarians in establishing science-based recommendations for drug 
withdrawal intervals.
    Farm Bureau opposes the administration's request for new user fees 
for inspection activities. Food safety is for the public good, and as 
such, it is a justified use of public funds.
    Farm Bureau opposes any provision which would prohibit FSIS from 
inspecting equine processing facilities under the Federal Meat 
Inspection Act. Prohibiting the harvest of livestock for reasons 
unrelated to food safety or animal welfare sets an extremely dangerous 
precedent for banning meat inspection from every species, including 
beef, pork, lamb and poultry.
               programs that ensure crop protection tools
    Farm Bureau supports maintaining the current funding level for the 
Minor Crop Pest Management (IR-4) within NIFA Research and Education 
Activities. Developing pest control tools has high regulatory costs, 
and public support has been needed to ensure that safe and effective 
agrichemicals and biopesticides are available for small, specialty crop 
markets.
    Farm Bureau supports maintaining funding for the National 
Agricultural Statistical Service (NASS) in general and specifically 
points out the agricultural chemical-use surveys for fruits, 
vegetables, floriculture and nursery crops. NASS surveys provide data 
about the use of agricultural chemicals involved in the production of 
food, fiber and horticultural products, just as their overall effort is 
critical to understanding the performance of the sector as a whole.
               programs that strengthen rural communities
    Farm Bureau supports USDA implementing a regional approach to give 
its Rural Development (RD) programs greater flexibility and promote 
innovation in rural regions.
  --Farm Bureau supports maintaining funding at authorized levels for:
  --The Value-Added Agricultural Producer Grants, Rural Innovation 
        Initiative, Rural Microentrepreneur Assistance Program, and 
        Business and Industry Direct and Guaranteed Loans, which foster 
        business development in rural communities.
  --Rural Utilities Service for rural broadband and telecommunications 
        services, and the Distance Learning and Telemedicine Program.
  --The Revolving Fund Grant Program for acquiring safe drinking water 
        and sanitary waste disposal facilities.
  --The Community Facility Direct and Guaranteed Loans, which funds the 
        construction, enlargement or improvement of essential community 
        facilities.
  --The Resource Conservation and Development Program, which helps 
        local volunteers create new businesses, form cooperatives and 
        develop agri-tourism activities.
  --The Beginning Farmer and Rancher Development Program, which 
        provides participants with the information and skills needed to 
        make informed decisions for their business.
  --Agriculture in the Classroom, which helps students gain greater 
        awareness of the role of agriculture in the economy and 
        society.
                programs that support wildlife services
    Farm Bureau supports maintaining the funding level for APHIS 
Wildlife Services programs. Wildlife Services works to prevent and 
minimize an estimated $1 billion worth of wildlife damage, while 
protecting human health and safety from conflicts with wildlife.
                          research priorities
    Agricultural research is vital, particularly research focused on 
meeting the growing challenges of production agriculture. The United 
Nations' Food and Agriculture Organization predicts that farmers will 
have to produce 70 percent more food by 2050 to feed an additional 2.3 
billion people around the globe. America's farmers are the most 
efficient in the world, but without a commitment to further 
agricultural research and technological advancement, even America's 
farmers could be hard-pressed to meet these challenges.
    [This statement was submitted by Bob Stallman, President, American 
Farm Bureau Federation.]
                                 ______
                                 
  Prepared Statement of the American Honey Producers Association and 
                     American Beekeeping Federation
    Chairman Pryor and Members of the Subcommittee, our names are Randy 
Verhoek, President of the American Honey Producers Association (AHPA) 
and Tim Tucker, President of the American Beekeeping Federation (ABF). 
We are pleased today to submit the following statement for the record 
on behalf of our two organizations. Collectively, AHPA and ABF 
represent every type of beekeeper across the country, from hobbyists on 
up to the very largest commercial honey producers and pollinators. The 
purpose of this statement is to bring to your attention the continued 
threats faced by American beekeepers and the risk those threats pose to 
billions of dollars in U.S. agriculture that rely upon honey bee 
pollination services. To address these threats, AHPA and ABF strongly 
support the President's fiscal year '15 budget proposal and 
respectfully request that the attached funding increases ($25 million 
for a NIFA Pollination and Pollinator Health (PPH) Institute; a $4 
million increase for ARS honey bee research within crop production 
funds; and $2 million increase for NASS honey bee surveys and studies) 
and report language are included in the fiscal year '15 annual 
appropriations bill.
    A 2013 Time Magazine cover story and thousands of other magazines, 
newspapers, media outlets and government reports have documented the 
scourge of Colony Collapse Disorder (CCD) and other serious declines in 
honey bee health since 2006. Unfortunately, those health challenges 
continue to result in drastic bee colony losses year over year. Still 
lacking a definitive understanding of the causes after more than 8 
years since the onset of CCD, the scientific, agricultural and consumer 
communities have grown increasingly concerned that more than $20 
billion of pollinator-dependent U.S. agricultural output and a full 
one-third of our nation's food supply is at serious risk. Just last 
year the National Agricultural Statistics Service (NASS) estimated more 
than 35 percent of America's bee colonies did not survive the winter 
season, and even greater losses were realized by most commercial 
beekeepers, on average 45 percent. While science has yet to determine a 
definitive cause, the challenges to honey bee health are clearly multi-
faceted, requiring resource intensive and high priority study. USDA has 
done great work in recent years within its resource constraints, but 
its research and other programmatic initiatives are woefully 
underfunded and in need of exponentially increased investments that are 
commensurate with the seriousness of the challenges they face.
    As a result, AHPA and ABF strongly support the President's fiscal 
year '15 budget proposal and respectfully request that the attached 
funding increases and report language are included in the fiscal year 
'15 annual appropriations bill. Doing so will ensure that USDA can, 
among other things, sufficiently enhance its Federal laboratory and 
competitive grant research agenda, strengthen pollinator habitat across 
the country, double the number of acres in the Conservation Reserve 
Program that are dedicated to pollinator health, and increase funding 
for surveys to determine the impacts on pollinator losses, all of which 
are necessary next steps in the battle to ensure commercially viable 
honey bee populations throughout the United States.
    As always, we thank you for your past support of essential honey 
bee research and for your understanding of the critical importance that 
Federal funding plays in ensuring a healthy honey bee supply ready to 
meet the nation's pollination demands.
                  agricultural research service (ars)
  --Funding increase for ARS honeybee research:
    --Request of $4 million increase in crop production funding for 
            additional Federal laboratory research into honey bee 
            health and Colony Collapse Disorder, including research 
            into bee health improvement and risk assessment of 
            pesticides, bee epidemiology, best management practices and 
            genetics relating to diseases and pests of pollinators. 
            This high priority increase should be offset by redirecting 
            funds from ongoing, lower priority research as detailed in 
            the Administration's fiscal year '15 budget documents.
  --ARS Report language:
    --``The Committee is aware that pollinators are responsible for the 
            production of one-third of the Nation's food supply, but 
            the number of managed honeybee colonies in the United 
            States has dropped in half since 1940. Because of the 
            importance of pollinators in the production of the Nation's 
            food supply and their impact on the stability of our 
            agricultural economy, the Committee encourages ARS to 
            increase resources dedicated to protecting the health of 
            both honeybees and other native bees, including continued 
            research into colony collapse disorder.''
  --ARS Report language:
    --``ARS is encouraged to study the feasibility of conducting 
            Federal honey bee research in California with the support 
            of a cooperator university that is well situated to conduct 
            field and other research vital to honey bees and the many 
            specialty crops that rely on them. ARS is also encouraged 
            to report on the feasibility of modernizing the honey bee 
            research laboratory in Baton Rouge, which was included in 
            the agency's 2012 capital investment strategy report. 
            Finally, ARS is encouraged to consider investing additional 
            research dollars with Federal laboratories in the upper 
            Great Plains where the largest number of honey bee colonies 
            are available for research during the honey production 
            season.''
           national institutes of food and agriculture (nifa)
  --Funding for Pollination and Pollinator Health Institute:
    --Request $25 million in funding, available until expended, for a 
            virtual Pollination and Pollinator Health (PPH) Institute 
            that will foster industry and researcher collaboration and 
            utilize input from stakeholders to develop priorities for 
            addressing biological, environmental and management issues 
            associated with the wide-scale decline of honey bees and 
            other pollinators nationwide. No fewer than $5 million of 
            these funds should be designated for pollinator health and 
            Colony Collapse Disorder research.
  --Report Language:
    --``The Committee acknowledges NIFA's continued commitment to 
            pollinator research under the Agriculture and Food Research 
            Initiative, and it encourages increased prioritization of 
            pollinator and CCD research proposals.''
  --Report language:
    --``The Committee emphasizes the important role of the Specialty 
            Crop Research Initiative (SCRI) in addressing the critical 
            needs of the specialty crop industry through research and 
            extension activities, and it encourages NIFA to prioritize 
            proposals for and enhance its overall commitment to 
            identifying and addressing threats to pollinators from 
            pests and diseases.''
            national agricultural statistics service (nass)
  --Funding increase for enhanced NASS surveys:
    --Request of $2 million in increased funding to enhance its annual 
            survey of bee keepers to include questions related to 
            colony losses, pests and parasites, management practices, 
            crops pollinated and locations served, as well as estimates 
            of revenues and expenses, which will result in improved 
            baseline and annual data to determine the extent of CCD, in 
            addition to providing quantitative information on potential 
            causal factors, essential to the industry. This increase 
            should be offset by reductions consistent with those 
            identified in the Administration's fiscal year '15 budget 
            documents.
                                  nrcs
  --Report language:
    --``NRCS, under the Environmental Quality Incentives Program 
            (EQIP), provided $3 million in technical and financial 
            assistance for farmers and ranchers to help improve honey 
            bee health through better conservation practices that will 
            provide honey bees with nutritious pollen and nectar. 
            Because access to good forage is an ongoing challenge for 
            commercial beekeepers, the Committee supports continuing 
            and expanding this technical and financial assistance 
            program, and recommends that a significant portion of the 
            funds should be devoted to facilitating training by expert 
            researchers and beekeepers of NRCS officials and agents in 
            pollinator conservation practices.''

    [This statement was submitted by Mr. Randy Verhoek, President, 
American Honey Producers Association and Mr. Tim Tucker, President, 
American Beekeeping Federation]
                                 ______
                                 
         Prepared Statement of the American Society of Agronomy
    The American Society of Agronomy (ASA), Crop Science Society of 
America (CSSA), and Soil Science Society of America (SSSA) urge the 
subcommittee to support the following areas of the Department of 
Agriculture's (USDA) Research, Education, and Economics (REE) mission 
areas in fiscal year 2015 budget:
    $1.149 billion for the Agricultural Research Service (ARS)
    $1.341 billion for the National Institute of Food and Agriculture 
(NIFA)
    Within NIFA, we specifically support:
    $360 million for Agriculture and Food Research Initiative (AFRI).
    $244 million for Hatch Act formula funding
    The American Society of Agronomy (ASA), Crop Science Society of 
America (CSSA), and Soil Science Society of America (SSSA), represent 
over 18,000 members in academia, industry, and government, 12,500 
Certified Crop Advisers (CCA), and 781 Certified Professional Soil 
Scientist (CPSS), as the largest coalition of professionals dedicated 
to the agronomic, crop and soil science disciplines in the United 
States. We are dedicated to utilizing science to manage our 
agricultural system and sustainably produce food, fuel, feed, and fiber 
for a rapidly growing global population in the coming decades.
    Agriculture and agriculture-related industries contributed $742.6 
billion to the U.S. gross domestic product (GDP) in 2011, a 4.8-percent 
share. In 2012, 16.5 million full-and part-time jobs were related to 
agriculture--about 9.2 percent of total U.S. employment. However, even 
though increased agricultural productivity, arising from innovation and 
changes in technology, is the main contributor to economic growth in 
U.S. agriculture not all people at all times have to access to enough 
food for an active and healthy life. The global number of food-insecure 
people is estimated at 707 million in 2013, up 3 million from 2012. By 
2023, the number of food-insecure people is projected to increase 
nearly 23 percent to 868 million, slightly faster than population 
growth. The Nation's economic prosperity and security depend on our 
dedication to developing innovative, science-based solutions to meet 
our growing agricultural needs and managing efficient food systems.
    We must close the innovation deficit if the United States is to 
remain the world's innovation leader in agriculture. China continues to 
exhibit the world's most dramatic R&D growth at 20.7 percent annually, 
compared to the United States at 4.4 percent growth over the same time 
period. By 2009, agriculture R&D fell to a historically low 0.035 
percent share of the United States economy, a level far below the total 
U.S. R&D spending and that which is necessary to meet the critical 
challenges facing U.S. agriculture in the 21st century.
    ASA, CSSA, and SSSA supports $1.149 billion for Agricultural 
Research Service (ARS), USDA's intramural research and development 
programs, and applaud their ability to respond to and address 
agricultural problems of high national priority. ARS's 2,200 scientists 
are located at 90+ research locations, managing 800 research projects 
that help solve current and future crop and livestock production and 
protection, human nutrition, and environmental quality challenges. ARS 
programs and technologies ensure high-quality, safe food and other 
agricultural products; assess the nutritional needs of Americans; help 
to sustain a competitive agricultural economy; enhance the natural 
resource base and the environment; and, provide economic opportunities 
for rural citizens and communities. ARS also forms key partnerships 
that move new technologies to the marketplace.
    These partnerships are especially important to leverage during a 
time when our nation's economy remains vulnerable and Federal funding 
is constrained. Such cooperative research and development helps foster 
American businesses and enhances the position of the U.S. as a global 
leader in food, feed, fiber, and fuel production.
    We support $1.341 billion for the National Institute of Food and 
Agriculture (NIFA), USDA's suite of extramural programs whose primary 
role is to provide a link between Federal and state research 
initiatives through partnerships with educational institutions and 
competitive grant programs. Within NIFA, we specifically support:
  --Agriculture and Food Research Initiative (AFRI): ASA, CSSA, and 
        SSSA strongly endorse funding AFRI at $360 million, which is 
        about half of what was originally authorized in the Food, 
        Conservation, and Energy Act of 2008. AFRI is the premier 
        competitive grants program for fundamental and applied 
        research, extension and education in support of our nation's 
        food and agricultural systems. Investments in AFRI bolster work 
        performed by ARS, America's land grant colleges and 
        universities, the private sector and the American farmer.
  --Hatch Act Formula Funding: ASA, CSSA, and SSSA support $244 for 
        Hatch Act formula funds. These funds provide research grants to 
        our nation's great land-grant colleges and universities. Any 
        additional cuts to academic funding will reduce the ability of 
        our scientists and students to conduct imperative research such 
        as developing drought resistant wheat varieties.
    A balance of funding mechanisms, including intramural, competitive, 
and formula funding is essential to maintain the capacity of the United 
States to conduct both basic and applied agricultural research, to 
improve crop and livestock quality, and to deliver safe and nutritious 
food products while protecting and enhancing the nation's environment 
and natural resource base.
    Thank you for your consideration. For additional information or to 
learn more about the ASA, CSSA, and SSSA, please visit 
www.agronomy.org, www.crops.org, or www.soils.org.
    [This statement was submitted by the Karl E. Anderson, Director of 
Government Relations, American Society of Agronomy]
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology
    The American Society for Microbiology (ASM), the largest single 
life science Society with over 39,000 members, wishes to submit a 
statement in support of increased funding in fiscal year 2015 for the 
Food and Drug Administration (FDA). The FDA plays a unique and 
essential role in protecting public health by assuring the safety and 
efficacy of products accounting for more than 20 percent of all 
consumer spending in the United States. FDA science based regulatory 
oversight covers the Nation's food supply, human and veterinary drugs, 
vaccines and other biological products, medical devices and more. 
Market globalization and advances in science and technology have 
significantly increased FDA's responsibilities in recent years. FDA's 
current strategic priorities include modernizing regulatory science 
capabilities and building an integrated global food safety system.
    The ASM urges Congress to provide additional funding for the FDA in 
fiscal year 2015 because of the magnitude of its new responsibilities 
and the need for capacity in critical areas such as food safety.
    FDA actions, based on scientific best practices, include consumer 
alerts and warnings; production guidances and tools for food safety; 
approval of new devices, diagnostics, treatments and vaccines; 
strategies to reduce drug resistant microbial pathogens; and safer 
veterinary medicines and animal foods. Recent FDA investigations of 
foodborne disease outbreaks, using laboratory tests to confirm, linked 
illnesses to rice, cheeses and prepackaged salad products. In the past 
year, FDA consumer alerts warned against oysters linked to norovirus 
illness, nonsterile pharmacological solutions, and carrot and beet 
juices possibly contaminated with Clostridium botulinum bacteria.
                              fda science
    FDA has a strategic plan to strengthen regulatory science 
including, developing new tools, standards and methods to assess the 
safety, efficacy, quality and performance of FDA regulated products. 
FDA staff must access the best possible science and technology, as 
products move from premarket review to post market surveillance.
    Science underlies all the activities of FDA's seven product and 
research centers, as well as product regulatory actions. Public health 
often depends upon quick and accurate laboratory analyses. The Office 
of Regulatory Affairs (ORA) operates 13 high throughput field 
laboratories, situated across the United States and Puerto Rico. Lab 
results can support field investigations and regulatory decisions, 
including the thousands of ORA noncompliance citations issued each year 
to firms producing foods, medical devices, drugs, veterinary medicines, 
biologics, etc. Other FDA laboratories operated by the Agency's Foods 
and Veterinary Medicine Program support the broad responsibilities of 
the Centers for Food Safety and Applied Nutrition (CFSAN) and 
Veterinary Medicine (CVM).
    The ASM recommends that Congress fund the FDA at the highest level 
possible in fiscal year 2015.
    FDA scientists conduct research that advances the field of 
regulatory science, while protecting public health, including the 
following accomplishments in fiscal year 2013:
  --An FDA primate study found that FDA licensed acellular pertussis 
        vaccines are effective in preventing whooping cough, but those 
        vaccinated may still become infected with the causative 
        pathogen, Bordetella pertussis bacteria and spread infection to 
        others. Acellular vaccines using only portions of the bacteria 
        replaced whole cell pertussis vaccines the 1990s. The study was 
        initiated to help explain increasing whooping cough rates since 
        the 1980s.
  --A new FDA developed tool will improve security against intentional 
        food contamination. The software program helps owners and 
        operators of food facilities customize food defense plans to 
        minimize risk in their specific facility. Content of the Food 
        Defense Plan Builder tool is based on FDA guidance documents.
  --A handheld FDA developed device to identify counterfeit 
        antimalarial drugs, the Counterfeit Detection Device (CD-3), is 
        being field tested in Ghana under a multiagency partnership. 
        Counterfeit treatments complicate the already difficult global 
        battle against a killer of more than 660,000 each year and 
        whose causative pathogens are increasingly resistant to drugs. 
        Scientists at the FDA's Forensic Chemistry Center developed the 
        easy to operate tool, which uses light of varying wavelengths 
        to compare a product with an authentic sample.
                              food safety
    Food items account for about 75 percent of consumer spending on FDA 
regulated products. The food industry in the United States contributes 
about 20 percent of the Gross National Product, employs about 14 
million individuals and has ties to an additional 4 million jobs in 
related industries. FDA's Center for Food Safety and Applied Nutrition 
(CFSAN) generally oversees all domestic and imported food except meat, 
poultry and frozen, dried and liquid eggs, which are regulated by the 
Department of Agriculture (USDA).
    CFSAN regulates an estimated $417 billion worth of domestic food, 
$49 billion worth of imported foods and over $60 billion worth of 
cosmetics. Several industry and consumer trends have greatly increased 
CFSAN responsibilities, including globalization of the food supply and 
demand for imported foods, greater numbers of aging people vulnerable 
to foodborne illness, new food types and food production methods, 
emerging foodborne pathogens and growing concern over intentional food 
contamination.
    CFSAN responsibility stretches from the point of US entry or 
processing to their point of sale. There are more than 377,000 FDA 
registered food facilities (approximately 154,000 domestic and 223,000 
foreign) that manufacture, process, pack or store food consumed by 
humans or animals in the United States, as well as several thousand 
cosmetic manufacturers. Possibilities for food contamination are 
immeasurable and include every step from preharvest conditions to 
processing, packaging, transportation and preparation. CFSAN personnel 
routinely examine large numbers of food samples for a long list of 
specific contaminants that include toxins and microbial pathogens.
    Imported foods give regulators fewer opportunities to oversee the 
food supply chain from farm to table. Food enters ports from about 150 
different countries and accounts for about 15 percent of the food 
supply, including about 50 percent of fresh fruits and 20 percent of 
fresh vegetables we consume. In mid-2013, FDA proposed new rules that, 
for the first time, would (1) hold importers accountable for verifying 
their foreign suppliers implement adequate food safety practices and 
(2) raise the standards for third party auditors who inspect as 
contractors for food companies and importers. In December, the agency 
proposed a rule requiring larger food facilities, in the United States 
and abroad, to have a written food defense plan that identifies and 
resolves processing steps most vulnerable to intentional contamination.
    To protect the food supply, FDA inspects facilities and collects 
samples, monitors imports, responds to adverse event reports and 
consumer complaints, reviews new food additives, releases regulations 
and guidelines to stakeholders, conducts lab research, educates food 
producers and the public and if necessary enforces rules and 
regulations by recalling or seizing faulty products. These activities 
demand up to date knowledge and technology utilized by CFSAN's many 
scientific specialists, including microbiologists, molecular 
biologists, chemists, toxicologists, food technologists, pathologists, 
pharmacologists, nutritionists, epidemiologists, mathematicians, 
physicians and veterinarians.
    FDA regularly builds strategic partnerships with other public 
health institutions. Many of its responsibilities are shared with other 
Federal agencies like USDA and CDC. Because large amounts of food and 
cosmetics are imported, CFSAN works with international groups like the 
World Health Organization and sometimes directly with foreign 
governments. Products made and sold entirely within a state are 
regulated by that state, but FDA coordinates with state agriculture and 
health departments to resolve problems. CFSAN also collaborates with 
several academic institutions through its Centers of Excellence 
program, funding food safety and nutrition research at universities in 
four states.
                        advances in biomedicine
    FDA scientists regularly evaluate biomedical products with 
considerable public health and economic value, divided among various 
research centers focused on drugs, medical devices or biologics like 
vaccines. Examples from the past year show the diversity and medical 
significance of FDA's involvement in the biomedicine enterprise:
  --A newly implemented FDA plan would phase out the use of medically 
        important antimicrobials in food animals for food production 
        purposes to address the public health crisis of rising drug 
        resistance among microorganisms causing human infectious 
        diseases.
  --An approved rapid diagnostic is the first test that simultaneously 
        detects tuberculosis bacteria and determines whether they 
        contain genetic markers for resistance to rifampin, an 
        important TB antibiotic. Test results are ready in about two 
        hours versus traditional lab culture methods requiring one to 3 
        months.
  --FDA allowed marketing of the first mass spectrometer system to 
        automatically identify bacteria and yeasts pathogenic to 
        humans. It can identify 193 different microorganisms and 
        perform up to 192 different tests in a single series. Unlike 
        many test systems that require abundant microbial growth 
        pretesting, the new system uses a small amount of material with 
        more rapid results.
  --A new drug approved for chronic hepatitis C virus (HCV) infection 
        is the first effective in treating certain types of HCV without 
        co-administration of interferon. It is the third drug 
        designated a ``breakthrough therapy'' to receive FDA approval. 
        Breakthrough therapies are those shown by early clinical 
        testing to have substantial advantage over available therapies 
        for serious diseases. An estimated 3.2 million or more people 
        are thought to be HCV infected.
  --The first genotyping test for HCV infected patients identifies the 
        genotype of HCV infecting a patient. It will help select the 
        best treatment; HCV genotypes respond differently to available 
        drugs. It is approved for patients with chronic infections, not 
        as a screening or diagnostic test.
  --FDA approved the first adjuvanted vaccine for H5N1 influenza (bird 
        flu). Not intended for commercial availability, the vaccine 
        will be included in the National Stockpile for distribution if 
        H5N1 develops the capability to spread easily from human to 
        human.
  --A newly approved drug to treat HIV-1 infection contains an 
        inhibitor that interferes with one of the enzymes necessary for 
        HIV to multiply. FDA also approved the first rapid HIV test for 
        simultaneous detection of HIV-1 p24 antigen and antibodies to 
        both HIV-1 and HIV-2 in patient blood. Detection of the antigen 
        permits earlier detection than possible with antibodies alone.
  --Patients exposed to toxin secreted by botulism causing bacteria can 
        now receive the first antitoxin that neutralizes all of the 
        seven toxin serotypes known to cause botulism.
    FDA regulatory actions in biomedicine serve the FDA's partnership 
in several initiatives, including strategies to halt rising drug 
resistance among microbial pathogens, remedy the growing shortage of 
new therapeutic drugs or stimulate innovation in personalized medicine. 
FDA funding not only subsidizes its own invaluable work, but it also 
supports the FDA's collaborations with other public health agencies at 
the Federal, state and local levels.
    [This statement was submitted by the Public and Scientific Affairs 
Board, American Society for Microbiology.]
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology
    The American Society for Microbiology (ASM), the largest single 
life science society with over 39,000 members, wishes to submit the 
following statement in support of increased funding in fiscal year 2015 
for research and education programs at the US Department of Agriculture 
(USDA). Funding for USDA research invests in sectors important to 
public health and the economy, including food safety and food security, 
production sustainability, bioenergy sources, plant and animal health 
and the environment. The ASM recommends funding USDA agriculture and 
science programs to the highest level possible in fiscal year 2015.
    Agriculture is important to health and the environment and yields 
broad economic benefits. The range of industries related to agriculture 
combines for nearly 5 percent of the national gross domestic product 
(GDP). In 2012, over 16 million jobs were related to agriculture, over 
9 percent of total employment (2.6 million were direct on the farm 
employment). In recent years, farm asset values have surged upward, 
while agriculture exports have reached historical highs. At a time when 
US global competitiveness is being challenged, agriculture exports 
embody productivity and innovation in the United States. In fiscal year 
2013, exports reached over $140 billion, exceeding the previous record 
of $137 billion in fiscal year 2011. The average volume of exports has 
increased by nearly four million tons annually over the past 5 years. 
Farm exports also support about one million jobs in the country.
    USDA productivity statistics show that total farm production more 
than doubled between 1948 and 2011, with total output growing at an 
average annual rate of 1.49 percent. Almost all growth was due to 
increased productivity, much of it fueled by research. Although USDA 
research receives considerably less than 5 percent of the USDA budget, 
USDA's research support has consistently generated high returns.
                             usda research
    USDA research interconnects issues of global food supply and 
security, climate and energy needs, sustainable use of natural 
resources, nutrition and childhood obesity, food safety and consumer 
education. USDA's Research, Education and Economics Action Plan (REE) 
focuses on a number of efforts using the microbiological sciences to 
mitigate animal and plant diseases, to reduce foodborne illnesses, to 
identify bioenergy sources and to protect the environment. Projects 
involve both national and international collaborations and research 
results are regularly shared with producers, regulatory agencies, 
consumers, industry and commodity organizations.
    USDA support for research has significant economic consequences. In 
2013, the World Organization for Animal Health upgraded the United 
States' risk classification for bovine spongiform encephalopathy (BSE) 
to negligible risk, expanding market potential (exports of US origin 
beef and beef products exceed $5 billion). In December, USDA launched 
its new, unified emergency response framework to address citrus 
greening disease, also known as Huanglongbing (HLB), a serious threat 
to the $3 billion plus citrus industry. This will coordinate HLB 
resources, share information and develop operational strategies on a 
national scale with multiple stakeholders. USDA science underlies 
numerous policy and regulatory actions like food recalls or guidelines 
to food processors, exerting significant economic and societal 
influence within and beyond the agriculture sector.
    USDA supports innovation through its intramural research, 
extramural university research grants, financial awards to small 
businesses and partnerships with government, academia and industry. The 
Agricultural Research Service (ARS) serves as the in house research 
agency, with more than 2,200 scientists and a portfolio of about 800 
research projects divided among 18 programs. Extramural research is 
supported by NIFA, while the Economic Research Service and National 
Agricultural Statistics Service contribute interdisciplinary analyses 
that guide USDA involvement in agriculture.
    When Congress created NIFA in 2008, it emphasized the national 
importance of food and agriculture sciences. NIFA supports research, 
education and extension programs in the land grant university system, 
primarily through competitive grants distributed by NIFA's Agriculture 
and Food Research Initiative (AFRI). The ASM urges Congress to fund 
AFRI with at least $360 million in fiscal year 2015 as part of a 
sustained commitment to agriculture research.
    NIFA also administers USDA's Small Business Innovation Research 
(SBIR) program, which since 1983 has awarded more than 2,000 grants to 
US owned small businesses. AFRI supports six priority areas: 1) plant 
health and production; 2) animal health and production; 3) food safety, 
nutrition and health; 4) renewable energy, natural resources and 
environment; 5) agriculture systems and technology and 6) agriculture 
economics and rural communities.
                     food safety and food security
    USDA contributes to safeguarding the Nation's food supply and 
ensuring food security through adequate wholesome foods. Both ARS and 
NIFA programs fund research to reduce the approximately 48 million 
foodborne illnesses annually, which cost the economy billions of 
dollars each year. Working from field offices, the Food Safety and 
Inspection Service (FSIS) regulates the supply of meat, poultry and egg 
products, and is responsible for recalling contaminated foods. The 
Animal and Plant Health Inspection Service (APHIS) protects the health 
of animals and plants that are important to the food supply, public 
health and economy. Much of this collective effort targets pathogenic 
microorganisms transmitted through food, by identifying microbial 
threats, studying basic biology of foodborne pathogens, developing 
technologies for contaminant detection and devising intervention and 
prevention strategies along the farm to table continuum.
    In 2013, USDA researchers reported on food safety studies that 
included mapping microbes in cattle feedlot soil, a joint risk 
assessment conducted with the Food and Drug Administration to evaluate 
listeriosis in retail delis, and an FSIS developed Salmonella Action 
Plan that outlines the steps needed against Salmonella bacteria in meat 
and poultry products, the most pressing problem FSIS faces. Every year, 
there are an estimated 1.3 million illnesses that can be attributed to 
Salmonella. In large part through USDA efforts, there has been 
progress: Salmonella rates in young chickens have dropped over 75 
percent since 2006. The listeriosis study, which is the first of its 
kind, concluded that multiple interventions are required to prevent the 
often fatal infection by Listeria bacteria and thus reduce the 1,600 
illnesses that occur annually.
                        animal and plant health
    Last year, APHIS transferred one million doses of Classical Swine 
Fever (CSF) vaccine to Guatemala's Ministry of Agriculture and Food 
Safety. ARS scientists also genetically altered the CSF virus toward 
developing better vaccines and invented a polymerase chain reaction 
(PCR) assay to detect the virus. Although the United States has been 
CSF free for over 30 years, these actions recognized the globalization 
of agriculture products, as well as the crucial role played by science 
and technology in protecting the public. USDA funded research on animal 
and plant diseases reported in 2013 includes:
  --ARS scientists studying foot and mouth disease (FMD) identified a 
        DNA sequence in FMD virus that, when removed, permits pathogens 
        to still multiply in cell culture but the viruses are no longer 
        virulent, suggesting a new approach to vaccine development. 
        Researchers also created a new animal cell line used to rapidly 
        detect FMD virus in field samples, the first capable of 
        identifying all seven FMD serotypes. They incorporated FMD 
        receptor genes cloned from cattle tissue into an established 
        cell line.
  --Using a protein interaction reporter (PIR) technology developed by 
        USDA, for the first time researchers have mapped protein 
        structures known as virions that help plant viruses move from 
        plants to insects, through the insects and back into plants. 
        The new technology could lead to methods disrupting plant 
        disease transmission by insects.
  --More specific testing for Johne's disease in cattle will be 
        possible with the first discovery of an antibody that binds 
        only to the causative agent, Mycobacterium avium subspecies 
        paratuberculosis (MAP). The USDA patented antibody will improve 
        diagnostic testing for a disease that costs the US dairy 
        industry more than $220 million each year.
  --Plant geneticists developed new disease resistant pea plants to 
        protect against common root rot of legumes, a fungal disease 
        caused by Aphanomyces euteiches that can lead to crop losses of 
        20--100 percent. Others bred a wheat cultivar with innate 
        resistance to multiple fungal diseases. Of particular concern 
        is stripe rust (fungus Puccinia striiformis) which has caused 
        crop losses of up to 40 percent in the Pacific Northwest.
  --Adding nickel and phosphite to an existing fungicide spray regimen 
        improves control of the fungus (Fusicladium effusum) causing 
        pecan scab, the most destructive disease of pecan in the 
        southeastern United States. The new information is timely as 
        the scab fungus is developing resistance to some currently used 
        fungicides.
  --Exposing citrus seedlings to a minimum of 48 hours of temperatures 
        of 104 to 107 degrees Fahrenheit significantly reduces and 
        often eliminates HLB infection, according to USDA field trials. 
        The finding suggests practical measures to slow spread of 
        citrus greening disease.
                        biocontrol and bioenergy
    In recent years, USDA has intensified its research on renewable 
energy, natural resources and environmental issues. Microorganisms have 
been particularly useful in studies of bioenergy and biocontrol, 
including the following examples:
  --The fungus Myrothecium verrucaria, which naturally attacks the weed 
        Palmer amaranth, is being studied as a possible biocontrol 
        agent against the weed, which can grow two inches a day and 
        crowd out commercial crops. The southern weed is acquiring 
        resistance to glyphosate herbicides, and the ARS reported 
        research is the first showing the fungus' bioherbicidal action 
        against a weed species with glyphosate resistance.
  --ARS field trials are assessing effectiveness of spraying avocado 
        trees with foam that contains insect killing fungi against 
        ambrosia beetles, wood boring pests that threaten the nation's 
        $322 million avocado crop. Earlier lab studies used bioassays 
        to genetically confirm the ability of the fungi to infect and 
        kill the beetles. In those tests, more than 95 percent of 
        beetles exposed to the fungi died.
  --Pathogen carrying house flies are being deliberately infected in 
        lab studies with salivary gland hypertrophy virus (SGHV), 
        member of a newly discovered family of viruses called 
        Hytrosaviridae, which stops flies from reproducing.
    Bioenergy strategies commonly rely upon fuels converted from widely 
available biomass like grasses, cereal grains or tree cellulose. 
Agriculture clearly plays an important role in renewable energy and 
USDA's biofuels portfolio includes both intramural and extramural 
projects. In November, for example, USDA awarded nearly $10 million to 
a consortium of academic, industry and government organizations across 
several western states, to evaluate insect killed trees in the Rocky 
Mountains as a bioenergy feedstock. Since 1996, pine and spruce bark 
beetles have devastated over 42 million acres of western U.S. forests. 
The consortium will explore use of scalable, on site thermochemical 
conversion technologies to better access the beetle killed trees. At 
ARS, molecular biologists recently created a new strain of yeast that 
can break down and ferment sugars in corn cobs after xylose has been 
extracted for other commercial uses, previously impossible with yeasts 
inhibited by processes required. Since 2006, NIFA has collaborated with 
the Department of Energy in a joint grant program to improve biomass 
for biofuels, intent on increasing plant yield, quality and 
adaptability to harsher environments.
    The ASM encourages Congress to increase the fiscal year 2015 budget 
to the highest amount possible in support of USDA's science, research 
and food safety programs. USDA funded research is critical to the 
health of our nation's food and agriculture industries as well as the 
global economy. USDA science protects human and animal health, prevents 
crop losses from disease and climate changes, seeks best practices to 
preserve the environment, encourages innovation in valuable agriculture 
based products and supports new generations of agriculture scientists 
and educators.
    [This statement was submitted by the Public and Scientific Affairs 
Board, American Society for Microbiology.]
                                 ______
                                 
        Prepared Statement of the American Society for Nutrition
    The American Society for Nutrition (ASN) respectfully requests that 
the U.S. Department of Agriculture (USDA)/National Institute of Food 
and Agriculture/Agriculture and Food Research Initiative receive no 
less than $360 million and that the Agricultural Research Service 
receive $1.2 billion in fiscal year (FY) 2015. ASN has more than 5,000 
members working throughout academia, clinical practice, government, and 
industry, who conduct research to advance our knowledge and application 
of nutrition.
                agriculture and food research initiative
    The USDA has been the lead nutrition agency and the most important 
Federal agency influencing U.S. dietary intake and food patterns for 
years. Agricultural research is essential to address the ever-
increasing demand for a healthy, affordable, nutritious and sustainable 
food supply. The Agriculture and Food Research Initiative (AFRI) 
competitive grants program is charged with funding research, education, 
and extension and integrated, competitive grants that address key 
problems of national, regional, and multi-state importance in 
sustaining all components of agriculture. These components include 
human nutrition, farm efficiency and profitability, ranching, renewable 
energy, forestry (both urban and agro forestry), aquaculture, food 
safety, biotechnology, and conventional breeding. AFRI has funded 
cutting-edge, agricultural research on key issues of timely importance 
on a competitive, peer-reviewed basis since its establishment in the 
2008 Farm Bill. Adequate funding for agricultural research is critical 
to provide a safe and nutritious food supply for the world population, 
to preserve the competitive position of U.S. agriculture in the global 
marketplace, and to provide jobs and revenue crucial to support the 
U.S. economy.
    In order to achieve those benefits, AFRI must be able to advance 
fundamental sciences in support of agriculture and coordinate 
opportunities to build off of these discoveries.
    Therefore, ASN requests that the AFRI competitive grants program 
receive at least $360 million in fiscal year 2015. ASN also strongly 
supports funding AFRI at the fully authorized level of $700 million as 
soon as practical. Current flat and decreased funding for AFRI hinders 
scientific advances that support agricultural funding and research.
                     agricultural research service
    The Agricultural Research Service (ARS) is the Department of 
Agriculture's lead scientific research agency. The ARS conducts 
research to develop and transfer solutions to agricultural problems of 
high national priority. USDA's program of human nutrition research is 
housed in six Human Nutrition Research Centers (HNRCs) across the 
nation, that link producer and consumer interests and form the core for 
building knowledge about food and nutrition. HNRCs conduct unparalleled 
human nutrition research on the role of food and dietary components in 
human health from conception to advanced old age, and they provide 
authoritative, peer-reviewed, science-based evidence that forms the 
basis of our Federal nutrition policy and programs. Funding for ARS 
supports all of the USDA/HNRCs and ensures that these research 
facilities have adequate funding to continue their unique mission of 
improving the health of Americans through cutting-edge food, nutrition 
and agricultural research.
    Nutrition monitoring conducted in partnership by the USDA/ARS with 
the Department of Health and Human Services (HHS) is a unique and 
critically important surveillance function in which dietary intake, 
nutritional status, and health status are evaluated in a rigorous and 
standardized manner. (ARS is responsible for food and nutrient 
databases and the ``What We Eat in America'' dietary survey, while HHS 
is responsible for tracking nutritional status and health parameters.) 
Nutrition monitoring is an inherently governmental function and 
findings are essential for multiple government agencies, as well as the 
public and private sector. Nutrition monitoring is essential to track 
what Americans are eating, inform nutrition and dietary guidance 
policy, evaluate the effectiveness and efficiency of nutrition 
assistance programs, and study nutrition-related disease outcomes. 
Because of past funding deficiencies, some food composition database 
entries do not reflect the realities of the current food supply, which 
may negatively impact programs and policies based on this information. 
It is imperative that needed funds to update USDA's food and nutrient 
databases and the ``What We Eat in America'' dietary survey, both 
maintained by the USDA/ARS, are appropriated to ensure the continuation 
of this critical surveillance of the nation's nutritional status and 
the many benefits it provides.
    It is the job of ARS to ensure high-quality, safe food, and other 
agricultural products; assess the nutritional needs of Americans; 
sustain a competitive agricultural economy;enhance the natural resource 
base and the environment; and provide economic opportunities for rural 
citizens, communities, and society as a whole. Therefore, ASN requests 
that ARS receive at least $1.2 billion in fiscal year 2015. At least 
ten million dollars above current funding levels is necessary to ensure 
the critical surveillance of the nation's nutritional status and to 
continue the many other benefits that ARS provides. With such funding, 
the ARS will be able to support its vision of leading America towards a 
better future through agricultural research and information.
    Thank you for the opportunity to submit testimony regarding fiscal 
year 2015 appropriations for the U.S. Department of Agriculture/
National Institute of Food and Agriculture/AFRI competitive grants 
program and Agricultural Research Service. ASN also supports the Farm 
Bill provision that authorizes $200 million in mandatory funding for 
the new Foundation for Food and Agricultural Research, which will 
stimulate private investment in agricultural research on food safety 
and nutrition, plant and animal health, renewable energy, natural 
resources and environment, agricultural and food security, technology, 
agricultural economics and rural communities.
    [This statement was submitted by the Gordon L. Jensen, M.D., Ph.D. 
President, American Society for Nutrition]
                                 ______
                                 
 Prepared Statement of the American Society of Plant Biologists (ASPB)
    On behalf of the American Society of Plant Biologists (ASPB), we 
submit this statement for the official record in support of funding for 
agricultural research by the U.S. Department of Agriculture (USDA). 
ASPB supports the funding levels of $383 million for USDA's Agriculture 
and Food Research Initiative (AFRI) and $1.28 billion for the 
Agricultural Research Service (ARS).
    This testimony highlights the critical importance of plant biology 
research and development to addressing vital issues including: 
achieving a sustainable food supply and food security; energy security, 
including attaining reduced reliance on all petrochemical products 
through game-changing sustainable renewable biomass utilization 
approaches; and in protecting our environment.
    food, fuel, environment, and health: plant biology research and 
             america's competitiveness and self-sufficiency
    We often take plants for granted, but they are vital to our very 
existence, competitiveness, and self-sufficiency. New plant biology 
research is now addressing the most compelling issues facing our 
society, including: identifying creative and imaginative approaches to 
reaching Congress's goals of achieving domestic fuel security/self-
sufficiency; environmental stewardship; sustainable and secure 
development of even better foods, feeds, building materials, and a host 
of other plant products used in daily life; and improvements in the 
health and nutrition of all Americans.
    Our bioeconomy and Federal partnership is based upon foundational 
plant biology research--the strategic research USDA funds--to make 
needed key discoveries. Yet limited funding committed to fundamental 
discovery now threatens our national security and leadership. Indeed, 
in his 2012 annual letter to the Gates Foundation, Bill Gates wrote, 
``Given the central role that food plays in human welfare and national 
stability, it is shocking--not to mention short-sighted and potentially 
dangerous--how little money is spent on agricultural research.'' \1\ 
This is especially true considering the significant positive impact 
crop and forest plants have on the nation's economy (the agricultural 
sector is responsible for one in 12 American jobsespecially true 
considering the significant positive impact crop and forest plants have 
on the nation's economy (the agricultural sector is responsible for one 
in 12 American jobsespecially true considering the significant positive 
impact crop and forest plants have on the nation's economy (the 
agricultural sector is responsible for one in 12 American jobs.\2\
---------------------------------------------------------------------------
    \1\ Gates, Bill. (Jan 2012). 2012 Annual Letter from Bill Gates. 
Retrieved from http://www.gatesfoundation.org/annual-letter/2012/Pages/
home-en.aspx.
    \2\ Vilsack, Tom. (Mar. 9, 2012). Public Comments Before PCAST. 
Retrieved from http://www.tvworldwide.com/events/pcast/120309/
globe_show/default_goarchive.cfm?gsid=
1977&type=flv&test.
---------------------------------------------------------------------------
    Given these concerns and our nation's fiscal situation, the plant 
science community has been working toward addressing our nation's 
looming challenges--ASPB organized a two-phase Plant Science Research 
Summit (held in September 2011 and January 2013). With funding from 
USDA, the National Science Foundation, the Department of Energy, and 
the Howard Hughes Medical Institute, the Summit brought together 
representatives from across the full spectrum of plant science research 
to develop a community agenda document. Released in August 2013 as 
Unleashing a Decade of Innovation in Plant Science: A Vision for 2015-
2025 (plantsummit.files.wordpress.com/2013/07/
plantsciencedecadalvision10-18-13.pdf), the report puts forth a ten-
year consensus plan to fill critical gaps in our understanding of plant 
biology and address the grand challenge of sustainably feeding the 
world and providing other useful plant products in the face of 
burgeoning population growth, diminishing natural resources, and 
climate change.
                       immediate recommendations
    The ASPB membership has extensive expertise and participation in 
the academic, industry, and government sectors. Consequently, ASPB is 
in an excellent position to articulate the nation's plant science 
priorities and standards needed as they relate to agriculture. Our 
recommendations are as follows:
  --Since the establishment of the National Institute of Food and 
        Agriculture (NIFA) and AFRI, interest in USDA research has 
        increased dramatically--a trend ASPB hopes to see continue in 
        the future. However, an increased, strategic and focused 
        investment in competitive funding and its oversight is needed 
        if the nation is to continue to make ground-breaking 
        discoveries and accelerate progress toward resolving urgent 
        national priorities and societal needs. ASPB encourages 
        Congress to fund AFRI at $383 million in fiscal year 2015, 
        which, although less than the recently reauthorized level of 
        $700 million, would provide sound investment in today's fiscal 
        environment.
  --The Agricultural Research Service (ARS) provides vital strategic 
        research to serve USDA's mission and objectives and as well as 
        the nation's agricultural sector. The need to bolster and 
        enhance ARS efforts to leverage and complement AFRI is great 
        given the challenges in food and energy security. ASPB is 
        supportive of a strong ARS and recommends a congressional 
        appropriation of $1.28 billion in fiscal year 2015.
  --USDA has focused attention in several key priority areas, including 
        childhood obesity, climate change, global food security, food 
        safety, and sustainable bioenergy. Although ASPB appreciates 
        the value of such strategic focus, we give our most robust 
        support for AFRI's Foundational Program. This program provides 
        a basis for outcomes across a wide spectrum, often leading to 
        groundbreaking developments that cannot be anticipated in 
        advance. Indeed, it is these discoveries that are the true 
        engine of success for our bioeconomy.
  --Current estimates predict a significant shortfall in the needed 
        agricultural scientific workforce as the demographics of the 
        U.S. workforce change.\3\ For example, there is a clear need 
        for additional training of scientists in the areas of 
        interdisciplinary energy research and plant breeding. ASPB 
        applauds the creation of the NIFA Fellows program and calls for 
        additional funding for specific programs (e.g., training grants 
        and fellowships) to provide this needed workforce over the next 
        10 years and to adequately prepare these individuals for 
        careers in the agricultural research of the future.
---------------------------------------------------------------------------
    \3\ President's Council of Advisors on Science and Technology. 
(Dec. 2012). Report to the President on Agricultural Preparedness and 
the Agricultural Research Enterprise, p. 41. Retrieved from 
www.whitehouse.gov/sites/default/files/microsites/ostp/
pcast_agriculture_20121207.pdf.
---------------------------------------------------------------------------
  --Considerable research interest is now focused on the use of plant 
        biomass for energy production. However, if we are to use crops 
        and forest resources to their full potential, we must expend 
        extensive effort to improve our understanding of their 
        underlying biology and development, their agronomic 
        performance, and their subsequent processing to meet our goals 
        and aspirations. Therefore, ASPB calls for additional funding 
        targeted at efforts to increase the utility and agronomic 
        performance of bioenergy crops using the best and most 
        imaginative science and technologies possible.
  --With NIFA, USDA is in a strong position to cultivate and expand 
        interagency relationships, as well as relationships with 
        private philanthropies, to address grand challenges related to 
        food, renewable energy and bioproducts, the environment, and 
        health. ASPB appreciates the need to focus resources in key 
        priority areas. However, ASPB urges a significant increase in 
        funding to individual grantees, in addition to putting in place 
        robust evaluations of group awards and larger multi-
        institutional partnerships. Paradigm-shifting discoveries 
        cannot be predicted through collaborative efforts alone; thus 
        there is an urgent need to maintain a broad, diverse, and 
        robust research agenda.
  --ASPB encourages some flexibility within NIFA's budget to update and 
        improve its data management capabilities.
    Thank you for your consideration of ASPB's testimony. For more 
information about ASPB, please visit us at www.aspb.org.
    [This statement was submitted by Tyrone C. Spady, PhD, Director of 
Legislative and Public Affairs, American Society of Plant Biologists.]
                                 ______
                                 
           Prepared Statement of the Animal Welfare Institute
    Thank you for the opportunity to submit testimony as you consider 
fiscal year 2015 funding priorities. Our testimony addresses programs 
and activities administered by the U.S. Department of Agriculture's 
(USDA) Agricultural Research Service (ARS), Animal and Plant Health 
Inspection Service (APHIS), and Food Safety Inspection Service (FSIS).
  usda-ars-national agricultural library--animal welfare information 
                                 center
    The Animal Welfare Information Center (AWIC) serves as a 
clearinghouse, training center, and education resource for those 
involved in the use of animals for research, testing, and teaching (as 
well as other entities covered by the AWA), and the need and demand for 
its services continue to outstrip its resources. AWIC's activities 
contribute significantly to science-based decisionmaking in animal 
care, as the Center disseminates scientific literature on subjects 
including husbandry, handling, and care of animals; personnel training; 
animal behavior; improved methodologies; environmental enrichment; pain 
control; and zoonotic disease. Its services are vitally important to 
the nation's biomedical research enterprise and other regulated 
entities because they facilitate compliance with specific requirements 
of the Federal animal welfare regulations governing research. We 
request that AWIC funding remain level with fiscal year 2014 
appropriations.
                       usda-aphis-animal welfare
    APHIS's Animal Welfare activities are critical to the proper 
regulation and care of animals protected under the Animal Welfare Act 
(AWA), 7 U.S.C. Sec. Sec. 2131--2159, and the Horse Protection Act 
(HPA), 15 U.S.C. Sec. Sec. 1821--1831. AWI requests that, consistent 
with the President's fiscal year 2015 budget proposal, $29 million be 
allocated to Animal Welfare activities.
  usda-aphis-animal welfare--animal welfare act enforcement--class b 
                                dealers
    Nearly fifty years after enactment, the AWA routinely fails both to 
reliably protect pet owners and animals from Class B dealers who sell 
``random source'' dogs and cats for use in research. These dealers use 
deceit and fraud to acquire animals, who are often subjected to 
shocking cruelty. A National Academy of Sciences study of the use of 
Class B dogs and cats in NIH-funded research acknowledged animal 
welfare and enforcement problems and noted ``descriptions of thefts 
provided by informants in prison . . . and documented accounts of lost 
pets that have ended up in research institutions through Class B 
dealers.'' \1\ The study concluded that there is no scientific need for 
these Class B dealers.
---------------------------------------------------------------------------
    \1\ National Academy of Sciences Institute for Laboratory Animal 
Research, Scientific and Humane Issues in the Use of Random Source Dogs 
and Cats in Research (2009).
---------------------------------------------------------------------------
    USDA must use a costly and time-consuming enforcement protocol for 
these random source dealers, involving quarterly inspections (more than 
any other licensees) and ``tracebacks,'' in order to attempt to verify 
the source of their animals. Congress, too, has spent an inordinate 
amount of time reviewing the actions of Class B dealers and prodding 
USDA and NIH to address their respective Class B dealer problems. As a 
result of the NAS study, a prohibition on the use of dogs and cats from 
random source Class B dealers in all NIH-supported research will be 
fully in place in 2015.
    Although few of these dealers remain, they are an unjustifiable 
drain on USDA resources. But as long as it is possible to issue and 
renew Class B licenses, this system will continue to waste taxpayer 
money and perpetuate the inhumane treatment of animals. For this 
reason, we urge the Subcommittee adopt the following language: 
Provided, that appropriations herein made shall not be available for 
any activities or expense related to the licensing of new Class B 
dealers who sell dogs and cats for use in research, teaching, or 
testing, or to the renewal of licenses of existing Class B dealers who 
sell dogs and cats for use in research, teaching, or testing.
      usda-aphis-animal welfare--horse protection act enforcement
    The Horse Protection Act of 1970 (HPA) was passed to end soring, 
the cruel practice of applying chemical and mechanical irritants the 
legs and hooves of horses through to produce an exaggerated gait. Yet 
soring, condemned as ``one of the most significant welfare issues 
affecting any equine breed or discipline,'' \2\ has continued as 
limited funding has hampered enforcement. To enable USDA to better meet 
the objectives of the HPA, we request that $893,000 be appropriated for 
HPA enforcement.
---------------------------------------------------------------------------
    \2\ American Association of Equine Practitioners, Putting the Horse 
First: Veterinary Recommendations for Ending the Soring of Tennessee.
---------------------------------------------------------------------------
    Because USDA inspectors are able to attend a mere fraction of 
Tennessee Walking Horse shows, monitoring responsibility usually falls 
to ``Designated Qualified Persons'' (DQPs), usually industry insiders 
with a history of ignoring violations. Reliance on DQPs has been an 
abysmal failure. Statistics clearly indicate that the presence of USDA 
inspectors at shows results in a far higher rate of noted violations 
than occurs when DQPs are present. For instance, USDA has released 
foreign substance results gathered through the Horse Protection Program 
at horse shows from 2010 through 2013. In 2013, an evaluation of horses 
at 17 shows revealed that 62 percent of the samples analyzed were 
positive for soring agents.\3\ At the 2013 Tennessee Walking Horse 
National Celebration in Shelbyville, Tennessee, 86 of the 128 horses 
sampled tested positive for soring agents during USDA inspections, and 
at some 2013 shows every single horse examined had been exposed to 
soring chemicals.\4\ In 2012, 309 of 478 horses sampled (65 percent) 
tested positive for soring agents,5 while in 2011 and 2010, 97 percent 
and 86 percent, respectively, had been sored. Data from DQP horse show 
inspections in 2009 (the most recent year for which reports are 
available) reveal that for 436 shows at which 70,122 inspections were 
conducted and 889 violations of any type were cited, only 61, or 0.087 
percent of horses inspected, were for prohibited foreign substances.
---------------------------------------------------------------------------
    \3\ http://www.aphis.usda.gov/animal_welfare/hp/downloads/
show%20tally%202013%20for%20
web.pdf
    \4\ Id.
    \5\ USDA-APHIS Horse Protection Program, 2012 Foreign Substance 
Results, available athttp://www.aphis.usda.gov/animal_welfare/hp/
downloads/show%20tally%202012%20for%20web.pdf.
---------------------------------------------------------------------------
    From this comparison, it is clear not only that horse soring 
remains a serious problem, but also that there is no substitute for 
inspections by USDA personnel to ensure compliance with theWALKING 
HORSES (2008).
    HPA. The greater the likelihood of a USDA inspection, the greater 
the deterrent effect on those who routinely sore their horses. 
Enforcement should not be entrusted to individuals with a stake in 
maintaining the status quo. USDA cannot make progress in this area 
without adequate funding.
        usda-aphis-wildlife services--wildlife damage management
    We request that APHIS-Wildlife Services' (WS) wildlife damage 
management budget be reduced by $13 million and that WS be prohibited 
from using funds for lethal wildlife control.
    The WS program allocates millions of dollars each year to lethal 
wildlife management efforts, relying on methods that are cruel, 
ineffective, costly and outdated. WS uses poisons, body-gripping traps, 
snares and firearms to indiscriminately kill wildlife--including 
endangered species, family pets, and countless non-target animals--
while ignoring humane, cost-efficient approaches to wildlife management 
that have been proven effective in the field. These irresponsible 
practices threaten not only target and non-target animals, but also the 
environment, public safety, national security. Accordingly, we support 
the inclusion of language prohibiting the use of USDA funds for WS' 
lethal wildlife management activities in the fiscal year 2015 
agriculture appropriations bill.
    In addition to a restriction on funds for lethal control 
activities, we request a reduction in funding from the fiscal year 2014 
allocation and USDA's fiscal year 2015 request for WS. The program is 
notoriously secretive, and has repeatedly declined to disclose to both 
Congress and the public its expenditures on lethal and inhumane 
wildlife management practices. Despite this glaring lack of 
accountability, WS' budget was increased substantially in fiscal year 
2014, and the Administration's budget proposes to maintain that funding 
level for fiscal year 2015. Alarmingly, a substantial portion of the 
fiscal year 2014 increase was allocated to ``wildlife damage 
management,'' the division within WS that is responsible for killing 
millions of animals on public and private lands each year. We request 
that WS' Wildlife Damage Management budget be reduced by $13 million, 
the program's estimated annual expenditure for lethal predator control 
practices intended to protect livestock. It should no longer be the 
taxpayers' responsibility to subsidize these inhumane, costly practices 
to which effective alternatives are readily available.
   usda-aphis-wildlife services--wildlife damage management program, 
                             airport safety
    APHIS' Airport Wildlife Control Program is intended to address the 
control of wildlife at military and civilian airports to reduce the 
threat of aircraft striking wildlife, which can lead to aircraft 
damage, delays, and accidents. While the media often sensationalize 
such incidents, the statistical likelihood of a bird or other wildlife 
striking an aircraft is exceedingly small. The chances of a strike 
resulting in aircraft destruction, damage, delay, or an accident is 
even more remote. Indeed, since 1988, according to the Bird Strike 
Committee USA, only slightly more than 250 people worldwide have been 
killed as a result of bird strikes on aircraft. This loss of life is 
tragic, but when compared to the total number of aircraft passengers 
(commercial and civilian) worldwide since 1988, it is obvious that the 
risk of dying as a result of a bird strike is infinitesimal. Similarly, 
though the Federal Aviation Administration documented 133,000 reported 
wildlife strikes (bird strikes comprise approximately 97.5 percent of 
all wildlife strikes) at civilian and military airports in the United 
States between 1990 and 2011, only an extraordinarily small fraction of 
these reported strikes resulted in the damage, delay, or destruction of 
an aircraft or injuries or death to passengers. Furthermore, when the 
total number of aircraft (private, commercial, and military) takeoffs 
and landings are considered over that 21 year period, again the risk of 
an aircraft striking wildlife is exceedingly small.
    Recognizing that the risk of wildlife strikes to aircraft is real 
but not statistically significant, we ask that any funds allocated to 
the airport wildlife control program be earmarked only for non-lethal 
management programs. There are a variety of non-lethal strategies that 
are effective and feasible to address wildlife strikes to aircraft 
including fencing, habitat management, runway sweeps using pyrotechnics 
and other noise-making devices, trained falcons, removal of standing 
water/areas that attract birds/wildlife on airport properties, 
modification of airport structures to deter bird use, and public/
airport employee education to avoid behaviors (i.e., feeding birds) 
that may attract animals to airports.
     usda-aphis-wildlife services--oral rabies vaccination program
    APHIS' oral rabies vaccination (ORV) activities, which are carried 
out under the National Rabies Management Program, have made significant 
progress in controlling the spread of rabies in the United States in an 
effective, humane, and cost-effective manner. To ensure that this 
success continues, we request that $23.76 million be allocated to the 
ORV program for fiscal year 2015, consistent with the program's 
estimated fiscal year 2014 expenditures.
           usda-aphis-investigative and enforcement services
    APHIS' Investigative and Enforcement Services (IES) handles 
investigations related to enforcement of the laws and regulations for 
APHIS' programs, which involves: collection of evidence; civil and 
criminal investigations; and investigations carried out in conjunction 
with Federal, state and local enforcement agencies. IES, in 
collaboration with USDA's Office of the General Counsel, also handles 
stipulations and formal administrative proceedings. We request that IES 
funding remain level with fiscal year 2014 appropriations so that the 
Service may fulfill its full range of responsibilities, particularly 
its increasing HPA and AWA investigatory demands.
         usda-fsis--humane methods of slaughter act enforcement
    We appreciate the generous support provided by Congress during the 
past decade for USDA's enforcement of the Humane Methods of Slaughter 
Act (HMSA). However, while enforcement has increased in recent years, 
attention to the issue remains uneven among districts.
    An analysis of Humane Activities Tracking System (HATS) data 
reveals that some USDA districts spend 10-20 times the number of hours 
on humane enforcement, per animal slaughtered, as other districts. 
Overall, USDA continues to allot an extremely small percentage of its 
resources to humane slaughter. For example, in fiscal year 2012, only 
2.8 percent of all FSIS verification procedures were performed for 
activities related to humane handling and slaughter.
    Repeat violators present a major enforcement problem for FSIS. Of 
the 285 federally inspected plants that have been suspended for humane 
slaughter violations since January 1, 2008, 33 percent have been 
suspended more than once within a 1 year period. Moreover, 56 plants 
have been suspended on three or more occasions during the past 5 years.
    Federal inspection personnel have inadequate training in humane 
enforcement and inadequate access to humane slaughter expertise. 
Enforcement documents reveal that inspectors often react differently 
when faced with similar violations. District Veterinary Medical 
Specialists (DVMS) are stationed in each district to assist plant 
inspectors with humane enforcement and to serve as a liaison between 
the district office and headquarters on humane matters. However, the 
work load of each of the DVMSs, which includes visiting each meat and 
poultry plant within the district to perform humane audits and 
conducting verification visits following suspensions, severely limits 
the effectiveness of the role.
    The problems of inadequate and inconsistent enforcement can be 
resolved by increasing the number and qualifications of the personnel 
assigned to humane handling and slaughter duties. No fewer than 148 
full-time equivalent positions should be employed for purposes 
dedicated solely to inspections and enforcement related to the HMSA. In 
addition, the number of DVMS positions should be increased to a minimum 
of two per district. Enforcement records suggest that violations are 
reported with greater frequency in the presence of outside inspection 
personnel, such as DVMSs. Hiring additional DVMSs will provide for 
increased auditing and training to help uncover problems before they 
result in egregious humane handling incidents.
            usda-fsis--horse slaughter facility inspections
    In 2013, Congress approved language to prevent the use of tax 
dollars to fund horse slaughter facility inspections. This language is 
critical to protect horses, taxpayers, communities, and public health. 
We strongly support the inclusion of this prohibition in the fiscal 
year 15 budget.
    [This statement was submitted by Christopher J. Heyde, Deputy 
Director, Government and Legal Affairs, Animal Welfare Institute.]
                                 ______
                                 
  Prepared Statement of the Campaign for Contract Agriculture Reform 
                                 (CCAR)
    On behalf of the farmer, rancher, and consumer groups represented 
by the Campaign for Contract Agriculture Reform (CCAR), I am providing 
this testimony to urge the Subcommittee to exclude from the bill any 
legislative riders to limit the authority of the Secretary's regulatory 
authority under the Packers and Stockyards Act. The member 
organizations of CCAR include: the Alabama Contract Poultry Growers 
Association, Contract Poultry Growers Association of the Virginias, 
Food & Water Watch, Hmong National Development, Inc., National Family 
Farm Coalition, National Farmers Union, National Sustainable 
Agriculture Coalition, and the Rural Advancement Foundation 
International-USA.
    The Packers and Stockyards Act is one of the most important Federal 
statutes for our nation's livestock and poultry farmers and ranchers. 
This is because it prohibits meatpackers and poultry companies from 
using their market power to subject farmers and ranchers to 
anticompetitive, deceptive, fraudulent and abusive
    business practices.
    Although the Act was originally enacted in 1921, its importance is 
even greater now because of the extent to which these firms have become 
vertically integrated, giving them even greater market power and 
enabling contracting practices that are even more abusive.
    Understanding these trends, the 2008 Farm Bill required USDA to 
write regulations to address some of the abusive and anti-competitive 
practices that have become common in the livestock and poultry sectors. 
Based in part on the Farm Bill requirements, as well as testimony heard 
during a series of Agriculture Competition workshops hosted by USDA and 
the U.S. Department of Justice, USDA issued a package of proposed rules 
in June of 2010 to address many of these concerns.
    Since the date these rules were first proposed by USDA's Grain 
Inspection Packer and Stockyards Agency (GISPA), the meatpacker and 
poultry company groups have launched a full-scale attack on the 
regulations and the authority of the Secretary to enforcement many 
aspects of the proposed GIPSA rule.
    The appropriations process has been one of the venues for those 
attacks, and unfortunately, a legislative rider limiting the 
Secretary's authorities under the Packer and Stockyards Act has been 
included in the agriculture appropriations provisions of each of the 
past three fiscal years. While each of the 3 riders has been somewhat 
different, they each have significantly undermined important basic 
protections for our nation's livestock and poultry farmers and 
ranchers.
    The GIPSA rider included in the fiscal year 2014 appropriations 
cycle (Section 744, Division A, Consolidated Appropriations Act of 
2014-H.R. 3547) prohibits the Secretary from taking action on a long 
list of commonsense protections for our nation's livestock and poultry 
farmers. Here are just some of the protections that the fiscal year 
2014 GIPSA rider prohibits:
  --Regulations to make it an unfair practice under the Packers and 
        Stockyards Act for meatpackers and poultry companies to 
        retaliate against farmers for exercising their rights to free 
        speech and/or association. This includes providing protection 
        for farmers who speak out publicly, or to USDA officials or 
        Members of Congress, about what is taking place on their farms 
        and with their contracts.
  --Regulations to require meatpackers and poultry companies to give 
        farmers statistical information and data about how their pay is 
        calculated, if the farmer requests such information.
  --Regulations to prohibit meatpackers and poultry companies from 
        using contracts to force farmers to give up their legal right 
        to a jury trial to address future disputes with the company.
  --Regulations to require meatpackers and poultry companies to submit 
        to GIPSA sample contracts that they are using in their contract 
        relationships with farmers, with a clear statement that all 
        confidential business information and trade secrets are to be 
        redacted.
  --Regulations to clarify that it is an unfair practice under the Act 
        for poultry companies to require farmers to compete against 
        each other for performance pay, unless they are given the same 
        type of birds to raise by the company. This addresses a current 
        poultry company practice of giving one farmer a breed of bird 
        that performs poorly in feed conversion efficiency, while 
        giving another farmer a better-performing breed of bird, and 
        then requiring both farmers to compete for performance pay 
        based on feed conversion success of the bird during grow-out 
        period. This practice is fraudulent because it allows the 
        companies to make farmers pay the cost for a company decision 
        to produce some chickens with lower feed conversion attributes. 
        The farmer has no choice about the quality of chicken placed on 
        his farm by the poultry company, and is rewarded or penalized 
        based on factors outside the farmer's control.
  --Regulations to clarify that the Packers and Stockyards Act does not 
        require farmers to show a competitive injury to the entire 
        industry in order to prove that they have been harmed by unfair 
        and deceptive trade practices or other anti-competitive 
        practices of meatpackers or poultry integrators. In other 
        words, if a poultry company has used fraudulent or deceptive 
        business practices in a manner that defrauds a poultry grower 
        out of thousands of dollars of pay, they should not have to 
        prove that the action by the company is likely to cause a 
        competitive injury across the entire poultry sector. The 
        Packers and Stockyards Act was written specifically to provide 
        protection for individual farmers in their dealings with 
        meatpackers and poultry companies. In recent years, some courts 
        have reinterpreted the law to require that farmers prove 
        competitive injury beyond themselves, and this GIPSA regulation 
        was intended to clarify the original intent and meaning of the 
        statute.
    It is important to note that during the 2014 Farm Bill debate, the 
Farm Bill conferees rejected a strong push by the meatpacker and 
poultry companies to include a provision in the final bill that would 
have placed great limits on the authority of the Secretary to enforce 
many aspects of the Packers and Stockyards Act. Thisprovision, similar 
but not identical to the GIPSA rider in recent appropriations bills, 
was firmly rejected by the authorizing Committee, and excluded from the 
final 2014 Farm Bill.
    We strongly urge the House Agriculture Appropriations Subcommittee 
to do the same, and reject any legislative riders to limit the 
Secretary's authority under the Packers and Stockyards Act.
    [This statement was submitted by Steven Etka, Policy Director, 
Campaign for Contract Agriculture Reform.]
                                 ______
                                 
           Prepared Statement of the Catholic Relief Services
    Thank you Chairman Pryor and Ranking Member Blunt for receiving 
this testimony. Catholic Relief Services (CRS) requests that fiscal 
year (FY) 2015 appropriations provide at minimum $1.55 billion for the 
Food for Peace program, $200 million for the McGovern-Dole Food for 
Education program, and $80 million for the Local and Regional 
Procurement program. Additionally, we request that you direct amounts 
of Food for Peace funding to certain specific purposes.
                    crs and the u.s. catholic church
    CRS is the international relief and development agency of the U.S. 
Catholic Church. We are one of the largest implementing partners of 
U.S. Agency for International Development (USAID) and U.S. Department 
of Agriculture (USDA) food aid programs. Our work reaches millions of 
poor and vulnerable people in nearly 90 countries. CRS works with 
people and communities based on need, without regard to race, creed, or 
nationality. CRS often partners with local institutions of the Catholic 
Church and other local civil society groups, which are essential to 
connecting us with communities that are often inaccessible to others.
                       the food for peace program
    Approximately 842 million people worldwide face hunger on a daily 
basis. People facing chronic hunger do not have access to enough food 
to maintain healthy and productive lives.
    Often times it is the most vulnerable in a community who suffer the 
greatest from chronic hunger--women, smallholder farmers, the elderly 
and children. Overall, communities that suffer from chronic hunger are 
less productive and less stable.
    U.S. food aid programs, led by Food for Peace, help to address 
chronic hunger. Food for Peace development programs target assistance 
to poor and vulnerable communities that improve their long-term food 
security. CRS implements Food for Peace development programs in ten 
countries. Through these programs beneficiaries are able to grow more 
food, earn more to purchase the food they need, and help in 
infrastructure improvements that bolster community resilience. A good 
of example our Food for Peace funded is in Madagascar.
    CRS leads a consortium implementing the Strengthening and Accessing 
Livelihood Opportunities for Household Impact (SALOHI) project in 
Madagascar. For its part, CRS has implemented a diverse array of 
programming to aid farmers and vulnerable populations. Over 58,000 
farmers participated in farmer field schools that introduced improved 
rice varieties capable of increasing yields. Farmers learn agribusiness 
skills to better manage their crops post- harvest leading to greater 
profits, and to create better linkages with rice buyers and 
agricultural tool suppliers. Food rations are provided in exchange for 
community labor to rehabilitate critical infrastructure, such as a dam 
that will help irrigate fields. Community health volunteers in the 
program have treated 15,000 malnourished children and taught their 
parents better nutritional practices to use for lasting impact. And, 
over 30,000 people have joined Village Savings and Loan (VSL) programs 
that help poor farmers pool, save and manage their money, allowing them 
to raise capital to purchase additional land to farm and other needs.
    In addition to addressing chronic hunger, Food for Peace programs 
assist the millions of people forced into hunger due to sudden and 
severe disruptions of their normal lives. Disruptions can take the form 
of natural disasters, like Typhoon Haiyan in the Philippines, or they 
could be the result of armed conflict as we have seen in Syria.
    While the emergency needs in the Philippines and Syria have been 
well documented in the news, we feel additional attention needs to be 
place on two other countries in the midst of emergencies--the Central 
Africa Republic (CAR) and South Sudan. In both cases, internal violence 
in recent months has sparked a significant number of refugees and 
Internally Displaced Persons (IDPs). In CAR, at the peak of the 
violence CRS worked with private resources to help shelter, feed and 
care for 40,000 IDPs who had taken refuge at the compound of 
Archdiocese of Bossangoa. More than half of the country's 4.5 million 
people are in need of assistance, with an estimated 625,000 IDPs in CAR 
and many more in neighboring countries as refugees.
    In South Sudan, the violence has led to over 800,000 IDPs and over 
250,000 refugees in neighboring countries. CRS is currently reaching 
more than 12,000 IDP households across South Sudan. CRS had been 
implementing a Food for Peace development program in South Sudan when 
fighting broke out. The instability has prevented implementation of the 
development program in recent months, and CRS has requested a 
modification to its agreement in order to use program resources to meet 
emergency needs. We have taken such measures in the past, specifically 
in Mali in 2013 and in Haiti following the 2010 earthquake, and hope 
USAID will be able to accommodate this requested modification as well.
           food for peace and mcgovern-dole funding requests
    CRS requests that Food for Peace receive at minimum $1.55 billion, 
and McGovern-Dole receive at minimum $200 million in the fiscal year 
2015 appropriations. These increases over fiscal year 2014 appropriated 
amounts are largely to take into account the increased costs for 
transportation of food that U.S. food aid programs now have to bear as 
a result of the 2013 Murray-Ryan budget deal.
    For the last several years transportation costs related to the 
overseas shipment of U.S. commodities in food aid programs--Food for 
Peace, McGovern-Dole, and Food for Progress--have been partially offset 
by reimbursements provided through Transportation Authorization bills. 
These reimbursements were reinvested into food aid programs, allowing 
them to help more people. However, in last year's budget deal this 
reimbursement mechanism was struck from the law. The practical effect 
of this change is that food aid programs will now shoulder the full 
cost of overseas transportation, which will cut the amount of food that 
can be purchased and shipped, and ultimately decrease the number of 
people helped compared to present levels.
    CRS estimates that lost transportation reimbursements could be 
between $50 and $70 million each year. Additionally, CRS estimates the 
McGovern-Dole and Food for Progress programs each will lose between $10 
and $15 million each year. In order to maintain the reach that food aid 
programs had in fiscal year 2014, an increase in funding to Food for 
Peace and McGovern- Dole is necessary. We also note that while Food for 
Progress is not directly appropriated annually, a $40 million cap on 
transportation costs in its authorization gives it no flexibility to 
absorb additional transportation costs, and we ask the Subcommittee to 
explore ways of addressing the unique impact that the elimination of 
reimbursements will have on that program.
    We would also like to point out that further increases in food aid 
funding may be needed to offset another proposed and troubling change. 
On April 1, 2014, the House passed H.R. 4005, the Coast Guard and 
Maritime Transportation Act of 2014, which reauthorizes the Coast Guard 
and maritime transportation legislation for 2 years. Our concern with 
this bill pertains to Section 318 that requires 75 percent of overseas 
food aid shipments to be carried on U.S. flagged vessels, an increase 
from the current 50 percent requirement. According to sponsors of the 
bill, using U.S. flagged vessels is 30 percent more expensive than 
using regular commercial channels. Should H.R. 4005 be enacted into law 
with this provision, an even greater portion of food aid funding will 
go to overseas transportation instead of providing food and other 
assistance to hungry people. As such, higher levels of funding for Food 
for Peace and McGovern-Dole will be required to offset these additional 
costs and maintain the present reach of food aid programs.
               food for peace development program funding
    The recently enacted Farm Bill reauthorization maintains a minimum 
commitment for Food for Peace development programs of $350 million a 
year, but also allows the allocation for such programs to rise to 30 
percent of overall Food for Peace funding. Food for Peace development 
programs have been appropriated $375 million in each of the last two 
fiscal years, and this figure falls within the new funding range set by 
the Farm Bill. We hope USAID will consider this as guidance from your 
Subcommittee in their allocation of Food for Peace funding in fiscal 
year 2015.
                     monetization in food for peace
    The recently enacted Farm Bill also increased the amount of Food 
for Peace funding going to its existing cash account, referred to as 
202e, and broadened the uses of this funding to include directly paying 
for Food for Peace program costs. It is our understanding that this 
change was made primarily to reduce the need to monetize food aid 
commodities.
    Monetization of in-kind food donations is an inefficient means to 
raise proceeds to payfor Food for Peace program costs. CRS has 
implemented monetization programs for many years and our experience 
shows that on average 25 percent of the value in the commodities and 
shipping costs are lost in these transactions. It is our goal to reduce 
the need to engage in monetization in Food for Peace programs. As 
provided in the fiscal year 2014 appropriations, we request that you 
direct an additional $35 million in this year's Food for Peace budget 
to 202e for the express purpose of replacing monetization. This 
additional $35 million in 202e, along with the new flexibilities in the 
Farm Bill, should provide enough cash funding to forgo the use of 
monetization in all Food for Peace programs except for one (note, the 
recently passed Farm Bill retains a requirement that at least 15 
percent of Food for Peace development resources be dedicated to 
monetization and the one remaining monetization program is projected to 
meet this requirement).
                 local and regional procurement program
    CRS requests that the Subcommittee fund the permanent Local and 
Regional Procurement (LRP) program, authorized by the recently enacted 
Farm Bill, at $80 million for fiscal year 2015. CRS supports the use of 
LRP in conjunction with McGovern-Dole programming, as was suggested in 
authorizing language. We also recognize that LRP can be useful in other 
food assistance programming and should be available to project 
implementers to achieve food security objectives. CRS has successfully 
implemented projects in Mali and Burkina Faso in conjunction with 
McGovern-Dole programs under the auspices of the pilot LRP program 
authorized by the 2008 Farm Bill. In these projects, we found that 
using locally sourced food helped lay the ground work for 
sustainability of the programs, by connecting local farmers to schools, 
helping these farmers produce appropriate products for local schools, 
and teaching parent-teacher associations to purchase, prepare, and 
manage locally grown foods. Food costs were also generally lower, thus 
making it more likely that national governments could ultimately assume 
the costs of implementing the program. We also note that replacing US 
commodities with locally produced ones would require a gradual 
transition period and that even after this period, US commodities would 
likely be needed since local crop yields can vary significantly from 
yearto year and thus additional food would be required to fill these 
gaps.
    [This statement was submitted by Dr. Carolyn Woo, President and 
Chief Executive Officer of Catholic Relief Services.]
                                 ______
                                 
  Prepared Statement of the Center for Science in the Public Interest
    2015. My testimony is focused on appropriations for the food 
programs at the Food and Drug Administration (FDA) and the U.S. 
Department of Agriculture (USDA). We are requesting additional budget 
authority above the President's request for FDA's Foods Program of $100 
million and for the Food Safety and Inspection Service (FSIS) at USDA 
of $9.3 million.
    The Center for Science in the Public Interest (CSPI) is a nonprofit 
health advocacy and education organization focused on health and 
nutrition, and food safety issues. CSPI is supported principally by the 
900,000 subscribers to its Nutrition Action HealthLetter and by 
foundation grants. We do not accept government or industry funding.
                           fda funding levels
    FDA is in the third year of implementing the Food Safety 
Modernization Act (FSMA). Under FSMA, food producers, importers, and 
manufacturers are responsible for the safety of the food they market to 
consumers. FDA is required to oversee the food industry's efforts by 
issuing risk-based standards for growing, manufacturing, and importing 
food, and by conducting compliance inspections. For FSMA implementation 
in fiscal year 2015, the President has proposed a $20.6 million 
increase in budget authority for the Foods Program at FDA. 
Additionally, the President has proposed two new fees to support FSMA 
activities. The user fee on imported foods would generate $137.5 
million to support border inspections and implementation of FSMA's 
import provisions. A registration and inspection user fee would 
generate $50.7 million to support inspection programs.
    In recent years, Congress has recognized the need to increase food 
safety resources at FDA and fund implementation of FSMA. We are 
grateful for the Subcommittee's support and urge that it continue to 
provide the agency with adequate funding to carry out its critical food 
safety mission.
    It is our belief that an increase of $20.6 million is inadequate, 
and that it is the two fee proposals that outline the true scope of 
what the agency needs to fully implement FSMA. However, Congress has 
not been receptive to new user fee proposals in prior budgets, and we 
do not anticipate that changing in the current budget cycle. We request 
that the Subcommittee increase appropriations for food safety, 
consistent with its past actions, by at least $90 million for FSMA 
implementation above the President's request for fiscal year 2015. The 
basis for our request is the May, 2013, report mandated by FSMA in 
which the agency estimated its funding will have to increase by $400 
million to $450 million above the fiscal year 2012 baseline over 5 
years to fully implement FSMA. While not fully funding the needs of the 
agency for implementing FSMA, the requested increase puts FDA's funding 
level on a closer trajectory to fulfill its responsibilities than would 
the President's budget.
    In addition, we believe FDA needs at least an additional $10 
million to meet critical public health needs in the area of nutrition 
policy. FDA has made an initial determination to remove the GRAS 
(Generally Recognized as Safe) status for partially hydrogenated oils 
(PHO), a decision that would save an estimated 3,000 to 7,000 lives 
annually. The comment period on this proposal has just closed and it is 
incumbent on FDA to make a final determination in an expeditious manner 
and implement an aggressive, but reasonable, timetable for industry to 
comply.
    The Agency has also recently published a proposed revision of the 
Nutrition Facts label that provides for many important improvements 
based on today's scientific evidence, including a bolder statement of 
calories, removal of unnecessary text, and adding a line for ``added 
sugars.'' Again, it is critical that FDA acts with dispatch in 
reviewing the comments that this proposal will engender and make a 
final decision with a timely implementation schedule. It has been more 
than 20 years since the Nutrition Facts panel was established and our 
current knowledge of the roles various nutrients play in our health 
should be reflected in today's food labeling. Maintaining the momentum 
on this issue is essential to reaping the benefits of these changes.
    FDA also has much unfinished business in nutrition policy. Front-
of-package (FOP) labeling and the clarity of ingredient labels need to 
be addressed. FDA has sponsored consumer research on front-of-package 
nutrition labels, and 3 years ago the Institute of Medicine (IOM) 
recommended that FDA mandate a uniform national system of FOP labels. 
FDA should have seized the opportunity provided by the Nutrition Facts 
panel changes to address the confusing signals sent by many food 
packages on the front of the label, which every consumer sees. Yet the 
primary display panels on packages are often jumbles of messages about 
healthy aspects of food that are misleading when the food is considered 
as a whole. Also, ingredient labels on many packages remain painfully 
difficult to read. FDA should have sufficient resources to address this 
important outstanding business on labeling.
    Moreover, more definitive action on sodium is required. Four years 
ago, the IOM published a landmark report laying out a road map for FDA 
to reduce sodium in the food supply. The Dietary Guidelines for 
Americans recommends that people over 50, African-Americans, and people 
with hypertension--or more than half of all adults--should limit 
themselves to 1,500 milligrams of sodium per day. Americans average 
about 4,000 milligrams of sodium per day. That higher level is causing 
about 100,000 more deaths per year from heart attacks and strokes than 
would occur if people were consuming 2,000 milligrams per day. While 
the revisions to the Nutrition Facts panel include a very modest 
reduction in the daily value for sodium from 2,400 mg to 2,300 mg, much 
more is needed, especially the publication of a guidance for industry 
that would provide targets for lowering sodium.
    In addition, FDA has yet to publish the final rule for calorie 
labeling in chain restaurants, where Americans consume one-third of 
meals and caloric intake is higher than at home. FDA must not let these 
matters be further delayed, and for this kind of forward movement on 
public health, with the potential for saving tens of thousands of lives 
and tens of billions of dollars annually, the agency requires 
resources. These critical public health needs require additional 
funding so that FDA has the scientific base and staff resources to act 
today, not tomorrow or the day after.
                          usda funding levels
    The President's budget proposes cutting FSIS by $9.3 million in 
fiscal year 2015. This is premised upon the agency achieving savings 
from implementation of the proposed poultry slaughter inspection 
program. Since FSIS has not finalized a rule and has not announced a 
date for doing so, this cut seems to put the cart before the horse. The 
Subcommittee should reject this premature cut until FSIS can 
demonstrate that its program is effective at protecting public health 
and can achieve the projected savings. We request the Subcommittee fund 
discretionary programs in FSIS at the fiscal year 2014 level of $1,011 
million.
    Again, thank you for the opportunity to submit testimony on the 
fiscal year 2015 Agriculture, Rural Development, Food and Drug 
Administration, and Related Agencies Appropriations Bill.
    [This statement was submitted by Michael F. Jacobson, Ph.D., 
Executive Director, Center for Science in the Public Interest.]
                                 ______
                                 
 Prepared Statement of the Central Arizona Water Conservation District 
                                (CAWCD)
    On behalf of the Central Arizona Water Conservation District 
(CAWCD), I am writing to ask that you include at least $17.5 million 
from the U.S. Department of Agriculture's Environmental Quality 
Incentive Program (EQIP) for the Colorado River Basin Salinity Control 
Program in the fiscal year 2015 Appropriation bill. Funding for the 
salinity control program will help protect the water quality of the 
Colorado River that is used by approximately 40 million people for 
municipal and industrial purposes and used to irrigate approximately 4 
million acres in the United States.
    CAWCD manages the Central Arizona Project (CAP), a multi-purpose 
water resource development and management project that delivers 
Colorado River water into central and southern Arizona. The largest 
supplier of renewable water in Arizona, CAP delivers an average of more 
than 1.5 million acre-feet of Arizona's 2.8 million acre-foot Colorado 
River entitlement each year to municipal and industrial users, 
agricultural irrigation districts, and Indian communities.
    Our goal at CAP is to provide an affordable, reliable and 
sustainable supply of Colorado River water to a service area that 
includes more than 80 percent of Arizona's population.
    These renewable water supplies are critical to Arizona's economy 
and to the economies of Native American communities throughout the 
state. Nearly 90 percent of economic activity in the State of Arizona 
occurs within CAP's service area. CAP also helps the State of Arizona 
meet its water management and regulatory objectives of reducing 
groundwater use and ensuring availability of groundwater as a 
supplemental water supply during future droughts.
                negative impacts of concentrated salts:
    Natural and man-induced salt loading to the Colorado River creates 
environmental and economic damages. EPA has identified that more than 
60 percent of the salt load of the Colorado River comes from natural 
sources. Additionally, human activity, principally irrigation, adds to 
the salt load of the Colorado River. The U.S. Bureau of Reclamation 
(Reclamation) has estimated damages at about $376 million per year. 
Modeling by Reclamation indicates that damages will rise to 
approximately $577 million per year by the year 2030 without 
continuation of the Program. These damages include:
  --A reduction in the yield of salt sensitive crops and increased 
        water use to meet the leaching requirements in the agricultural 
        sector;
  --Increased use of imported water and cost of desalination and brine 
        disposal for recycling water in the municipal sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --An increase in the cost of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector; and
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins.
    Funding for salinity control will prevent the water quality of the 
Colorado River from further degradation and significant increases in 
economic damages to municipal, industrial and irrigation users.
  history of the usda's colorado river basin salinity control program:
    Recognizing the rapidly increasing salinity concentration in the 
Lower Colorado River and its impact on water users, Arizona joined with 
the other Colorado River Basin States in 1973 and organized the 
Colorado River Basin Salinity Control Forum (Forum). In 1974, the Forum 
worked with Congress in the passage of the Colorado River Basin 
Salinity Control Act (Act) to offset increased damages caused by 
continued development and use of the waters of the Colorado River.
    Congress authorized a salinity control program (Program) for the 
United States Department of Agriculture (USDA) through an amendment of 
the Act in 1984. With the enactment of the Federal Agriculture 
Improvement and Reform Act of 1996 (FAIRA), Congress directed that the 
Program should continue to be implemented as part of the newly created 
EQIP. Since the enactment of the Farm Security and Rural Investment Act 
(FSRIA) in 2002, there have been, for the first time in a number of 
years, opportunities to adequately fund the Program within EQIP.
    In 2008, Congress passed the Food, Conservation and Energy Act 
(FCEA). The FCEA addressed the cost sharing required from the Basin 
Funds. In so doing, the FCEA named the cost sharing requirement as the 
Basin States Program (BSP). The BSP will provide 30 percent of the 
total amount that will be spent each year by the combined EQIP and BSP 
effort. With the passage of the Agricultural Act of 2014 the 
authorities for USDA to implement salinity control activities in the 
Colorado River Basin were continued.
    The Program, as set forth in the Act, is to benefit Lower Basin 
water users hundreds of miles downstream from the sources of salinity 
in the Upper Basin. The salinity of Colorado River waters increases 
from about 50 mg/L at its headwaters to more than 700 mg/L in the Lower 
Basin. There are very significant economic damages caused downstream by 
high salt levels in the water. EQIP is used to improve upstream 
irrigation efficiencies which in turn reduce leaching of salts to the 
Colorado River. There are also local benefits in the Upper Colorado 
River Basin from the Program in the form of soil and environmental 
benefits, improved agricultural production, improved water 
efficiencies, lower fertilizer and labor costs, and water distribution 
and infrastructure improvements. The mix of funding under EQIP, cost 
sharing from the Basin States and efforts, and cost sharing brought 
forward by local producers have created a most remarkable and 
successful partnership.
    The threat of salinity continues to be a concern in both the United 
States and Mexico. In 2012, a five-year agreement, known as Minute 319, 
was signed between the U.S. and Mexico to guide future management of 
the Colorado River. Among the key issues addressed in Minute 319 
included an agreement to maintain salinity standards. The CAWCD and 
other key water providers are committed to meeting these goals.
                              conclusion:
    Implementation of salinity control practices through EQIP has 
proven to be a very cost-effective method of controlling the salinity 
of the Colorado River. CAWCD urges the subcommittee to include at least 
$17.5 million from the USDA's Environmental Quality Incentive Program 
for the Colorado River Basin Salinity Control Program in the fiscal 
year 2015 Appropriation bill. If adequate funds are not appropriated, 
significant damages from the higher salt concentrations in the water 
will be more widespread in the United States and Mexico.
    [This statement was submitted by David V. Modeer, General Manager, 
Central Arizona Project.]
                                 ______
                                 
                   Letter From the Choose Clean Water
                                                     March 28, 2014
Hon. Mark Pryor,
Chairman, Subcommittee on Agriculture, Rural Development, Food and Drug 
        Administration and Related Agencies,
Washington, D.C. 20510
Hon. Roy Blunt,
Ranking Minority Member, Subcommittee on Agriculture, Rural 
        Development, Food and Drug Administration and Related Agencies,
Washington, D.C. 20510
    Dear Chairman Pryor and Ranking Member Blunt: As members of the 
Choose Clean Water Coalition we are requesting continued support for 
clean water in the Chesapeake Bay watershed through the conservation 
programs of the new Farm Bill (the Agricultural Act of 2014). There are 
87,000 farms in the Chesapeake region, and those that are well run 
protect their water resources and add much to our landscape, 
environment and economy. We want to ensure that these responsible farms 
and farmers remain economically viable. These conservation programs are 
critical for maintaining and restoring clean water to the rivers and 
streams throughout the Chesapeake Bay region, and for the Bay itself. 
These programs are also essential for the agricultural sector to meet 
requirements under the Clean Water Act.
    We urge you to oppose cuts to mandatory agricultural conservation 
programs in fiscal year 2015. The recent enactment of a new Farm Bill 
sets us on a new path toward clean water in our region, but only if key 
conservation programs are funded as Congress intended.
    At least 11 million people in this region get their drinking water 
directly from the rivers and streams that flow through the cities, 
towns and farms throughout our region. The quality of this water is 
critical to both human health and to the regional economy. The efforts 
to clean the Chesapeake began a generation ago under President Reagan 
in 1983. In his 1984 State of the Union speech President Reagan said, 
``Preservation of our environment is not a liberal or conservative 
challenge, it's common sense.''
    In order to follow a common sense path to maintain economically 
viable well run farms and to have healthy local water and a restored 
Chesapeake Bay, which is critical for our regional economy, we request 
full fundingfor the authorized amount in the Farm Bill for the 
following programs in fiscal year 2015:
u.s. department of agriculture--natural resources conservation service 
                                 (nrcs)
Environmental Quality Incentives Program (EQIP)--$1.6 billion
    This national Farm Bill conservation program provides a formula 
based allocation to farmers by state and is used for various 
conservation practices, such as nutrient management, cover crops, 
conservation tillage, fencing animals out of streams, restoring 
vegetative buffers along streams, etc., that are critical to protecting 
and restoring water quality throughout the region and the nation. EQIP 
has been essential over the years in this region for farmers to 
implement and maintain practices that enhance their operations and 
benefit the local environment. We support full funding for the $1.6 
billion for which this program is authorized in the new Farm Bill. This 
funding level is also critical to the success of the Regional 
Conservation Partnership Program that is allocated 7 percent of EQIP 
funds.
Regional Conservation Partnership Program (RCPP)--$100 million
    We support the $100 million authorized level of this new Farm Bill 
program, as well as the President's $100 million budget request for 
fiscal year 2015. A number of former Farm Bill programs, including the 
Chesapeake Bay Watershed Initiative, were ended and incorporated into 
the new RCPP. In order to continue the success that our region's 
farmers have had in reducing their impacts to local waters and the Bay 
over the past 5 years we strongly urge you to fully fund the RCPP in 
fiscal year 2015 and beyond. This new program is critical to continuing 
the march toward clean water throughout our region.
    Thank you for your consideration on this very important request to 
maintain funding for these programs which are critical to both our 
agricultural community and for clean water throughout the mid-Atlantic 
region.
            Sincerely,

1000 Friends of Maryland
American Rivers
Anacostia Watershed Society Audubon Naturalist Society Blue Water 
Baltimore Chapman Forest Foundation
Citizens for Pennsylvania's Future
Clean Water Action Conservation Pennsylvania Delaware Nature Society
Elk Creeks Watershed Association
Friends of Dyke Marsh
Friends of Frederick County
Friends of Lower Beaverdam Creek
IFriends of the North Fork of the Shenandoah River
IFriends of the Rappahannock Friends of the Rivers of Virginia 
Interfaith Partners for the Chesapeake James River Association
Loudoun Wildlife Conservancy
Maryland Academy of Sciences at the Maryland Science Center
Maryland Conservation Council
Maryland League of Conservation Voters Mattawoman Watershed Society 
National Parks Conservation Association National Wildlife Federation
Natural Resources Defense Council
Nature Abounds
New York State Council Trout Unlimited Pennsylvania Council of Churches 
Pennsylvania Council of Trout Unlimited Piedmont Environmental Council 
Potomac Conservancy
Rivanna Conservation Society Rock Creek Conservancy Sassafras River 
Association
Savage River Watershed Association Shenandoah Riverkeeper Shenandoah 
Valley Network Stewards of the Lower Susquehanna
St. Mary's River Watershed Association Theodore Roosevelt Conservation 
Partnership Trout Unlimited
Trout Unlimited Mid-?Atlantic Council Upper Susquehanna Coalition 
Virginia Conservation Network
Virginia League of Conservation Voters
Waterkeepers Chesapeake
West Virginia Rivers Coalition
                                 ______
                                 
 Prepared Statement of the Colorado River Basin Salinity Control Forum
    Waters from the Colorado River are used by approximately 40 million 
people for municipal and industrial purposes and used to irrigate 
approximately 4 million acres in the United States. Natural and man-
induced salt loading to the Colorado River creates environmental and 
economic damages. The U.S. Bureau of Reclamation (Reclamation) has 
estimated the currently quantifiable damages at about $376 million per 
year. Modeling by Reclamation indicates that the quantifiable damages 
will rise to approximately $577 million per year by the year 2030 
without continuation of the Program. Congress authorized the Colorado 
River Basin Salinity Control Program (Program) in 1974 to offset 
increased damages caused by continued development and use of the waters 
of the Colorado River. The USDA portion of the Program, as authorized 
by Congress and funded and administered by the Natural Resources 
Conservation Service (NRCS) under the Environmental Quality Incentives 
Program (EQIP), is an essential part of the overall effort. A funding 
level of $17 million to $18 million annually is required to prevent 
further degradation of the quality of the Colorado River and increased 
downstream economic damages.
    In enacting the Colorado River Basin Salinity Control Act in 1974, 
Congress directed that the Colorado River Basin Salinity Control 
Program should be implemented in the most cost-effective way. The 
Program is currently funded under EQIP through NRCS and under 
Reclamation's Basinwide Program. The
    Act requires that the basin states cost share 30 percent of the 
overall effort. Historically, recognizing that agricultural on-farm 
improvements were some of the most cost-effective strategies, Congress 
authorized a program for the United States Department of Agriculture 
(USDA) through amendment of the Act in 1984. With the enactment of the 
Federal Agriculture Improvement and Reform Act of 1996 (FAIRA), 
Congress directed that the Program should continue to be implemented as 
part of the newly created Environmental Quality Incentives Program. 
Since the enactment of the Farm Security and Rural Investment Act 
(FSRIA) in 2002, there have been, for the first time in a number of 
years, opportunities to adequately fund the Program within EQIP. In 
2008, Congress passed the Food, Conservation and Energy Act (FCEA). The 
FCEA addressed the cost sharing required from the Basin Funds. In so 
doing, the FCEA named the cost sharing requirement as the Basin States 
Program (BSP). The BSP will provide 30 percent of the total amount that 
will be spent each year by the combined EQIP and BSP effort. With the 
passage of the Agricultural Act of 2014 the authorities for USDA to 
implement salinity control activities in the Colorado River Basin were 
continued.
    The Program, as set forth in the Act, is to benefit Lower Basin 
water users hundreds of miles downstream from the sources of salinity 
in the Upper Basin. The salinity of Colorado River waters increases 
from about 50 mg/L at its headwaters to more than 700 mg/L in the Lower 
Basin. There are very significant economic damages caused downstream by 
high salt levels in the water. EQIP is used to improve upstream 
irrigation efficiencies which in turn reduce leaching of salts to the 
Colorado River. There are also local benefits in the Upper Colorado 
River Basin from the Program in the form of soil and environmental 
benefits, improved agricultural production, improved water 
efficiencies, lower fertilizer and labor costs, and water distribution 
and infrastructure improvements. Local producers submit cost-effective 
applications under EQIP in Colorado, Utah and Wyoming and offer to cost 
share in the acquisition of new irrigation equipment. The mix of 
funding under EQIP, cost share from the Basin States and efforts and 
cost share brought forward by local producers has created a most 
remarkable and successful partnership.
    After longstanding urgings from the states and directives from 
Congress, NRCS has recognized that this Program is different than small 
watershed enhancement efforts common to EQIP. In the case of the 
Colorado River salinity control effort, the watershed to be considered 
stretches more than 1,400 miles from the Colorado River's headwater in 
the Rocky Mountains to the Colorado River's terminus in the Gulf of 
California in Mexico. Each year the NRCS State Conservationists for 
Colorado, Utah and Wyoming prepare a three-year funding plan for the 
salinity efforts under EQIP. The Forum supports this funding plan which 
recognizes the need for $17.5M in fiscal year 2015. This includes the 
moneys needed for both on-farm and technical assistance. State and 
local cost-sharing is triggered by the Federal appropriation. The Forum 
appreciates the efforts of NRCS leadership and the support of this 
Subcommittee in implementing the Program.
    The Forum is composed of gubernatorial appointees from Arizona, 
California, Colorado, Nevada, New Mexico, Utah and Wyoming. The Forum 
is charged with reviewing the Colorado River's water quality standards 
every 3 years. In so doing, it adopts a Plan of Implementation 
consistent with these standards. The level of appropriation requested 
in this testimony is in keeping with the adopted Plan of 
Implementation. If adequate funds are not appropriated, significant 
damages from the higher salinity concentrations in the water will be 
more widespread in the United States and Mexico.
    Concentration of salt in the Colorado River causes approximately 
$376 million in quantified damages and significantly more in 
unquantified damages in the United States and results in poor water 
quality for United States users. Damages occur from:
  --a reduction in the yield of salt sensitive crops and increased 
        water use to meet the leaching requirements in the agricultural 
        sector,
  --increased use of imported water and cost of desalination and brine 
        disposal for recycling water in the municipal sector.
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector,
  --an increase in the cost of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector,
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector,
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector, and
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins.
    Over the years, NRCS personnel have developed a great working 
relationship with farmers within the Colorado River Basin. Maintaining 
salinity control achieved by implementation of past practices requires 
continuing education and technical assistance from NRCS personnel. 
Additionally, technical assistance is required for planning and design 
of future projects. Lastly, the continued funding for the monitoring 
and evaluation of existing projects is essential to maintaining the 
salinity reduction already achieved.
    In summary, implementation of salinity control practices through 
EQIP has proven to be a very cost effective method of controlling the 
salinity of the Colorado River and is an essential component to the 
overall Colorado River Basin Salinity Control Program. Continuation of 
EQIP with adequate funding levels will prevent the water quality of the 
Colorado River from further degradation and significantly increased 
economic damages to municipal, industrial and irrigation users.
                                 ______
                                 
          Prepared Statement of the Cystic Fibrosis Foundation
    On behalf of the Cystic Fibrosis Foundation and the approximately 
30,000 people with cystic fibrosis (CF) in the United States, we are 
pleased to submit the following testimony to the Senate Appropriations 
Committee's Subcommittee on Agriculture, Rural Development, Food and 
Drug Administration, and Related Agencies for fiscal year 2015. In 
order to encourage efficient review of drugs for cystic fibrosis and 
other rare diseases, we urge the Committee to prioritize the Food and 
Drug Administration (FDA) in fiscal year 2015 by providing the highest 
possible funding level for this essential agency. We encourage special 
consideration and support for the Center for Drug Evaluation and 
Research (CDER), its Office of New Drugs (OND), and the Office of 
Orphan Products Development (OOPD).
    The Cystic Fibrosis Foundation is appreciative of the fiscal year 
2014 funding level the Committee provided the Food and Drug 
Administration, an increase of $91 million over the fiscal year 2013 
enacted level. However, as the agency's responsibilities continue to 
grow and we enter an unprecedented era of innovation in drug 
development for rare diseases, even more needs to be done.
    Cystic fibrosis is a rare genetic disease that causes the body to 
produce abnormally thick mucus that clogs the lungs and other bodily 
systems, resulting in life-threatening infections and other 
complications. There are nearly 2,000 mutations of the CF gene that can 
impact those with CF. In recent years, genetically-targeted treatments 
have become a reality for cystic fibrosis patients with particular CF 
mutations, changing the face of this chronic disease for a small 
portion people of with CF. Now, therapies that target other mutations 
are moving through the pipeline.
    With these groundbreaking advancements, clinical trial design 
issues have been identified by cystic fibrosis experts that may arise 
in review of future treatments. For example, researchers and clinicians 
are concerned about the challenges inherent in executing placebo-
controlled trials for genetically-targeted treatments when successful, 
genetically-targeted drugs are already approved and on the market. 
Outcome measures for young children and infants and the need for 
flexibility for the use of markers reasonably likely to predict 
clinical outcome are also concerns. How to accelerate classification of 
biomarkers, test combinations of drugs in populations that might 
include patients with several different CF mutations, develop and test 
single and combination therapies in n of 1 trials (those that consist 
of a single patient), and develop and implement Patient Reported 
Outcomes (PROs) are all questions that need to be considered as we 
enter this era of personalized medicine.
    The Cystic Fibrosis Foundation and the patients, families, 
researchers, and clinicians we represent commend the FDA for its 
flexible and patient-centered approach to drug development. The 
agency's flexible attitude toward new drug review has produced 
significant treatment advances for those with CF, and demonstrates how 
the funding the agency receives is used effectively and efficiently.
    We also note that FDA has moved expeditiously to implement a number 
of important provisions of the Food and Drug Administration Safety and 
Innovation Act (FDASIA), including but not limited to the breakthrough 
therapy designation, and to convene public meetings to consider 
important questions related to patient-focused drug development in a 
number of different therapeutic areas.
    However, it is important that the FDA use the resources provided by 
this Committee to make the most of all tools at its disposal as it 
considers innovative new treatments and confronts the challenges ahead. 
As the Committee considers next year's funding for the FDA, the CF 
Foundation encourages the Committee to direct the Food and Drug 
Administration to fully implement Section 903 of FDASIA, Consultation 
with External Experts on Rare Diseases, Targeted Therapies, and Genetic 
Targeting of Treatments. Signed into law nearly 2 years ago, we 
encourage the FDA to utilize this provision to the fullest extent 
possible.
    Section 903 requires the agency to ensure that opportunities exist 
for FDA consultation with rare disease experts. Specifically, it 
states, ``The Secretary shall develop and maintain a list of external 
experts who, because of their special expertise, are qualified to 
provide advice on rare disease issues . . . The Secretary may, when 
appropriate to address a specific regulatory question, consult such 
external experts on issues related to the review of new drugs and 
biological products for rare diseases and drugs and biological products 
that are genetically targeted.''
    Potential topics of consultation are encompassed in the law. They 
include rare diseases and their severity, the unmet medical need 
associated with rare diseases, the willingness and ability of 
individuals with a rare disease to participate in clinical trials, 
assessment of the benefits and risks of therapies to treat rare 
diseases, the general design of clinical trials for rare disease 
populations, and the demographics and the clinical description of 
patient populations.
    The CF Foundation strongly supported the inclusion of section 903 
in the user fee reauthorization. This type of case-by-case consultation 
with external experts, initiated by FDA reviewers, is different from 
other provisions of FDASIA. Section 903 calls for proactive outreach to 
rare disease experts when ``such consultation is necessary because the 
Secretary lacks the specific scientific, medical or technical expertise 
necessary for the performance of the Secretary's regulatory 
responsibilities.'' This outreach is on a case-by-case basis on a 
particular issue. It is not tied to drug sponsors, and it is not part 
of a pre-scheduled public meeting or workshop. There are 7,000 rare 
diseases, each with their own demographics, consideration of unmet 
medical need and disease.
    [This statement was submitted by Robert J. Beall, Ph.D., President 
and CEO, Cystic Fibrosis Foundation.]
                                 ______
                                 
    Prepared Statement of the Federation of American Societies for 
                          Experimental Biology
    The Federation of American Societies for Experimental Biology 
(FASEB) respectfullyrequests a fiscal year (FY) 2015 appropriation of a 
minimum of $335 million for the Agriculture and Food Research 
Initiative (AFRI) within the National Institute of Food and 
Agriculture. We strongly urge a sustained commitment to investment in 
the critical field of agriculture research, with an ultimate target of 
the authorized funding level.
    FASEB, a federation of 26 scientific societies, represents more 
than 115,000 life scientists and engineers, making it the largest 
coalition of biomedical research associations in the United States. Our 
mission is to advance health and welfare by promoting progress and 
education in biological and biomedical sciences.
    AFRI is the preeminent competitive grant program of the U.S. 
Department of Agriculture (USDA), facilitating collaborative, 
interdisciplinary research at universities and private research 
institutions across the country to address significant societal 
challenges such as food safety and security and the need for 
sustainable agriculture practices. Research funded through AFRI 
generates knowledge in the food, nutrition, and agricultural sciences 
and translates these discoveries into practice. AFRI also encourages 
young scientists to pursue careers in agricultural research by 
providing funding for more than 1,500 of the nation's most promising 
pre- and postdoctoral scholars in agricultural, nutrition, and food 
sciences.
    Examples of recent USDA-funded research include:
  --New Environmentally Friendly Products: Wood adhesive, used to make 
        plywood and various other composite materials, is traditionally 
        a noxious, petroleum based compound. Researchers at the 
        University of Oregon successfully developed a nontoxic and 
        environmentally friendly alternative made from soybean flour. 
        Using the new wood adhesive reduced hazardous air pollutant 
        emissions at production facilities by 90 percent.
  --Increasing Food Safety: AFRI-funded researchers developed a new 
        two-step process to eliminate E. coli bacteria contamination 
        from spinach. The process involves using ultrasound waves and a 
        chemical washing treatment to eliminate 99.99 percent of 
        bacterial presence from fresh spinach. Industry is exploring 
        ways to broaden the use of this process for other fresh fruits 
        and vegetables to reduce contamination and increase consumer 
        safety.
  --Improving the Health of Honeybees: Honeybees are an integral part 
        of the agriculture system and pollinate over 130 fruit and 
        vegetable crops in the U.S. Over the past several years, the 
        honeybee population has been declining due to Colony Collapse 
        Disorder (CCD), which has tripled the cost of maintaining 
        beehives. An AFRI-funded research team identified the varroa 
        mite as a key cause of CCD, helping honeybee breeders to choose 
        variants that protect against the disorder.
  --More Efficient and Effective use of Fungicides: Delivering safe, 
        healthy fruit to market is the goal of every grower. 
        Traditionally, growers must estimate the best time to apply 
        fungicide and how much to use to protect their plants from 
        fungal rot. AFRI-funded researchers developed a web-based 
        prediction tool to help growers determine how much fungicide to 
        use and when to apply it. The system has helped growers reduce 
        fungicide use by 50 percent, improving fruit safety for 
        consumers and increasing profits for farmers.
            realizing the potential of agricultural research
    With an increasing world population, demand for innovative food and 
agricultural products has never been greater. Agricultural, nutrition, 
and food scientists are developing more abundant, nutritious food, 
creating new biofuel materials, and designing more sustainable 
agriculture practices. AFRI research and education programs support the 
translation of cutting edge science into solutions for some of the 
greatest challenges facing our nation.
    Agricultural research directly benefits all sectors of society and 
every geographic region of the nation. The food, nutrition, and 
agriculture industries rely on Federal funding for basic scientific 
research that leads to the development of innovative products that 
industry can bring to market, as well as programs that train the next 
generation of agricultural researchers. With rising challenges from 
foreign competitors and growing demand for agricultural products, AFRI 
is significantly underfunded. AFRI's budget has not increased since it 
was established in 2008. FASEB recommends a minimum of $335 million for 
AFRI in fiscal year 2015 as part of a sustained commitment to 
investment in the critical field of agricultural research, with an 
ultimate target of the authorized level of $700 million.
    Thank you for the opportunity to offer FASEB's support and 
recommendations for AFRI.
    [This statement was submitted by Meghan McCabe, Legislative Affairs 
Analyst, Federation of American Societies for Experimental Biology.]
                                 ______
                                 
  Prepared Statement of the Association of Fish and Wildlife Agencies
    On behalf of millions of sportsmen conservationists, livestock 
producers, and state and private academic research institutions, we ask 
your help in the end-game strategy for controlling zoonotic diseases in 
the United States, particularly bovine brucellosis and bovine 
tuberculosis. These diseases are transmissible between livestock and 
wildlife--and under certain circumstances, humans. Despite nationwide 
efforts to eradicate zoonotic diseases in livestock, both bovine 
brucellosis and bovine tuberculosis remain active in isolated wildlife 
reservoirs in the West and Midwest. To bring this decades-long campaign 
to a long-term resolution, we ask the Subcommittee to include language 
encouraging the use of competitive grants for zoonotic disease research 
under the National Institute of Food and Agriculture (NIFA) Animal 
Health and Disease Research Initiative.
    The Agricultural Act of 2014 recognized the need for this research 
by making the development of improved surveillance and vaccine systems 
a priority research area under the Competitive, Special, and Facilities 
Research Grant Act. If funded, researchers nationwide using matching 
investments and collaboration among state and private research 
institutions could compete for grants to address bovine brucellosis and 
bovine tuberculosis. Many partnerships have already been built in this 
wide network, representing significant non-Federal investment, which 
includes recent upgrades in laboratories to higher standards of safety 
for handling the bacteria that cause these diseases. The persistence of 
these diseases is an obstacle for wildlife conservation and livestock 
health. The current strategy of responding to outbreaks by slaughtering 
or depopulating infected herds and populations sacrifices economic and 
social values. Depopulation as a management tool necessarily involves 
the taking of healthy animals along with the sick and deprives 
economies and communities of benefits from livestock industry and 
wildlife recreation. False-positive detections using current tests are 
also a problem, costing ranchers substantial sums out of profit. 
Financial pressure on livestock operations is also a risk to 
conservation as these businesses keep America's rural lands as open 
spaces under good stewardship. When ranches fail and land is developed, 
wildlife habitat is lost.
    The use of competitive grants under the existing Animal Health and 
Disease ResearchInitiative ensures that Federal resources to combat 
this animal health problem are used effectively. We seek to focus the 
combined efforts of many who are already struggling with the problem 
diseases in livestock and wildlife. This approach is designed for clear 
accountability of measurable results.
    Thank you for your consideration.
    [This statement was submitted by Greg Schildwachter, Watershed 
Results.]
                                 ______
                                 
       Prepared Statement of the Friends of Agricultural Research
    Mister Chairman and Members of the Subcommittee, thank you for this 
opportunity to present our statement supporting funding for the USDA's 
Agricultural Research Service (ARS), and especially for its flagship 
research facility, the Henry A. Wallace Beltsville Agricultural 
Research Center (BARC), in Beltsville Maryland. We strongly recommend 
full fiscal-year 2015 funding support for research programs at 
Beltsville.
    Henry A. Wallace Beltsville Agricultural Research Center--the 
nation's premier agricultural research center that includes the 
Beltsville Human Nutrition Research Center and the research operations 
of the U.S. National Arboretum--has spearheaded technical advances in 
American agriculture for over 100 years. Beltsville celebrated 100 
years of research leadership and technical advances in 2010. The long 
list of landmark research achievements over that time is truly 
remarkable. Still at the threshold of its second century, Beltsville 
stands unequalled in scientific capability, breadth of agricultural 
research portfolio, and concentration of scientific expertise. The 
location of BARC in close proximity to many other Federal research 
agencies as well as the University of Maryland allows for significant 
joint research activities and the leveraging of resources.
    Priorities in the President's fiscal year 2015 Budget Request--Now, 
Mr. Chairman, we turn to key research areas that were highlighted in 
the President's proposed fiscal year 2015 budget. We were pleased to 
see that the fiscal year 2015 budget includes increases for crop 
breeding and protection; animal breeding and protection; enhanced 
environmental stewardship; food safety; and human nutrition. Obviously, 
these are areas of great importance to all Americans, and they are 
certainly among the highest priorities for agricultural research today. 
All of these research areas are strengths of the Beltsville 
Agricultural Research Center and they will benefit well from the unique 
facilities and scientific expertise at the Center. We encourage you to 
seriously consider funding the proposed budget and to ensure that 
Beltsville receives the funding that it needs to address these critical 
research needs.
    In summation, we would highlight these spheres of excellence:
    Crop Breeding and Protection: Beltsville scientists have an 
extensive record of ongoing research relating to protecting crops from 
pests and emerging pathogens. Beltsville's Bee Research Laboratory is 
at the forefront of efforts to determine the cause of colony collapse 
disorder that is devastating the bee industry that is critical for the 
pollination of many crops. Beltsville houses matchless national 
biological collections that are indispensable to the well-being of 
American agriculture. In addition to the actual collections, Beltsville 
scientists are internationally recognized for their expertise and 
ability to quickly and properly identify insect pests, fungal 
pathogens, bacterial threats, and nematodes. This expertise is crucial 
to preventing loss of crops ensuring that invasive threats to American 
agriculture are identified before they can enter the country, thus 
helping to protect homeland security, and ensuring that American 
exports are free of pests and pathogens that could prohibit exports. At 
BARC, research on the breeding of crops and plants has led to improved 
varieties of vegetables, nursery stock, fruits and even turf grasses.
    Animal Breeding and Protection: Beltsville conducts extensive 
research on animal production and animal health. The U.S. Poultry 
industry depends on Beltsville scientists to develop new and more 
effective vaccines and immunological approaches to prevent losses to 
flocks. Animal scientists at BARC have been using cutting-edge genomic 
approaches to increase the feed efficiency of animals used for food and 
to improve disease resistance in farm animals. Many of the emerging 
diseases affecting humans are zoonotic in that they arise first in 
animals. By understanding these diseases in animals and how they might 
be controlled, BARC scientists are helping human as well as animal 
health. BARC has worked with the Smithsonian Museum of Natural History 
to ensure the continued curation of the National Animal Parasite 
collection and with the dairy industry to transfer the technology to 
enhance milk yield in dairy cows. Both of these activities allow for 
BARC scientists to continue to meet the needs of commodity groups and 
producers and to leverage its resources to expand research activities.
    Enhanced Environmental Stewardship: BARC scientists are at the 
forefront of research aimed at development of climate resilient land, 
crop, grazing and livestock production systems. Beltsville became 
actively engaged in climate change research long before climate change 
became a topic of intense media interest; scientists have been able to 
increase our understanding how climate change affects crop production 
and the effects of climate change on growth and spread of invasive and 
detrimental plants such as weeds. The facilities at BARC to replicate 
environmental changes and to model changes in plant production are 
truly unique. Since BARC is an actively farmed facility that is close 
to an urban center and drains into the Chesapeake Bay, it is 
significantly involved in research on agriculture at the ag-urban 
interface and for controlling agricultural impacts on the environment.
    Food Safety: BARC houses the largest food safety laboratory in the 
Agricultural Research Service. It is highly regarded for its research 
on improving the safety of animal products by improving pathogen 
reduction on the farm. This is a significant issue as this research is 
able to reduce the use of antibiotics in agriculture and greatly reduce 
the development of antibiotic resistant organisms in the environment 
and in humans. Beltsville scientists have been and continue to be 
involved in research aimed at keeping pathogens out of our fruits and 
vegetables and to develop effective and efficient ways of monitoring 
contamination of these important commodities.
    Human Nutrition: The Beltsville Human Nutrition Research Center 
(BHNRC) is the nation's largest, oldest and most comprehensive Federal 
human nutrition research center. Unique activities at BHNRC include 
conducting the What We Eat in America survey, which is the government's 
nutrition monitoring program, and the National Nutrient Databank, which 
is the gold standard reference of food nutrient content that is used 
throughout the world. These two activities are the basis for food 
labels, nutrition education programs, food assistance programs 
including SNAP, the Supplemental Nutrition Assistance Program, school 
feeding programs, and government nutrition education programs. Human 
feeding studies conducted by BHNRC scientists were the first ever to 
demonstrate the harmful effects of trans fats in the human diet and 
they have worked with the food industry develop alternatives for their 
removal from the food supply.
    Food Quality Laboratory: The Laboratory concerned with maintaining 
and enhancing fruit and vegetable food quality is to be redirected, but 
the research funding is to remain at the Center. We are supportive of 
keeping the funding for these projects concerning food quality at the 
Henry A. Wallace Beltsville Agricultural Research Center.
    You can see that the Beltsville Agricultural Research Center 
conducts impactful research in those areas that are a priority in the 
President's fiscal year 2015 budget. It is perhaps one of the real 
strengths of the Center that research is conducted in each of these 
areas thereby allowing for unique multidisciplinary activities that cut 
across each of these priorities. It is not uncommon at BARC to see 
plant scientists working side by side with animal scientists. The 
Beltsville Human Nutrition Research Center hired a climate change 
scientist over 10 years ago. The research conducted at BARC not only 
adds to our scientific knowledge but truly improves the quality of life 
for all Americans and significantly impacts American agriculture.
    Lastly, Mr. Chairman, I would like to call to your attention an 
urgent facilities need that is highlighted in the President's fiscal 
year 2015 budget. The Center has aggressively moved to consolidate 
space and reduce costs and has been very successful at doing so. 
However, these plans require the renovation of a building--Building 
307A--that was vacated some years ago in anticipation of a complete 
renovation. In the past, Congress approved partial funding for this 
renovation, and those monies were retained pending appropriation of the 
full amount required for the renovation. Unfortunately, those funds now 
have been lost to ARS. Consequently, renovation of this vacant, highly 
useful building is on indefinite hold. While we realize that funding is 
extremely tight, we affirm that Beltsville urgently needs a renovated 
Building 307A for adequate, high quality lab space. Moreover, a 
renovated Building 307A would not only yield substantial energy savings 
and reduce operating costs, but also would allow Beltsville to move 
forward with other long-delayed relocation and consolidation plans. At 
a minimum, funds are urgently needed to stabilize this vacant building 
from continuing deterioration.
    Mr. Chairman, this concludes our statement. Thank you for 
consideration and support for the educational, research, and outreach 
missions of the Beltsville Agricultural Research Center.
    [This statement was submitted by James D. Anderson, Ph.D., 
President, Friends of Agricultural Research.]
                                 ______
                                 
   Prepared Statement of the International Walking Horse Association 
                                 (IWHA)
    We submit the following testimony seeking funding for the USDA/
APHIS Horse Protection Program of $893,000 for fiscal year 2015. We 
recognize that Congress is focused on the imperative of cutting Federal 
spending. But we believe that it should be possible to achieve 
meaningful reductions in the overall budget while still addressing 
shortfalls in very specific accounts that are vital and have been 
seriously underfunded. This $893,000, the same amount provided by the 
Senate committee in its fiscal year 2014 bill, is urgently needed to 
begin to fulfill the intent of the Horse Protection Act--to eliminate 
the cruel practice of soring--by allowing the USDA to strengthen its 
enforcement capabilities for this law.
    In 1970, Congress passed the Horse Protection Act to end soring, 
the intentional infliction of pain to the hooves and legs of a horse to 
produce an exaggerated gait, practiced primarily in the Tennessee 
Walking Horse show industry.
    For example, caustic chemicals--such as mustard oil, diesel fuel, 
and kerosene--are painted on the lower front legs of a Tennessee 
Walking Horse, then the legs are wrapped for days in plastic wrap and 
bandages to ``cook'' the chemicals deep into the horse's flesh. This 
makes the horse's legs extremely painful and sensitive, and when 
ridden, the horse is fitted with chains that slide up and down the 
horse's sore legs, forcing him to produce an exaggerated, high-stepping 
gait in the show ring. Additional tactics include inserting various 
foreign objects such as metal screws or hard acrylic between a heavy 
stacked shoe and the sole of the horse's hoof; pressure shoeing--
cutting a horse's hoof down to the sensitive live tissue to cause 
extreme pain every time the horse bears weight on the hoof; and 
applying painful chemicals such as salicylic acid to slough off scarred 
tissue, in an attempt to remove evidence of soring.
    The Horse Protection Act authorizes the USDA to inspect Tennessee 
Walking Horses, Racking Horses, and Spotted Saddle Horses--in transport 
to and at shows, exhibits, auctions and sales--for signs of soring, and 
to pursue penalties against violators. Unfortunately, since its 
inception, enforcement of the Act has been plagued by underfunding. As 
a result, the USDA has never been able to adequately enforce the Act, 
allowing this extreme and deliberate cruelty to persist on a widespread 
basis.
    To eliminate soring, the goal of the Act, USDA officials must be 
present at more shows. However, limited funds allow USDA attendance at 
only about 20 percent of more than 500 Tennessee Walking Horse shows. 
Thus, the agency set up an industry-run system of certified Horse 
Industry Organization (HIO) inspection programs, which are charged with 
inspecting horses for signs of soring at the majority of shows. These 
groups license examiners known as Designated Qualified Persons (DQPs) 
to conduct inspections in a self-regulatory role. To perform this 
function, some of these organizations hire industry insiders who have 
an obvious stake in preserving the status quo. Statistics clearly show 
that when USDA inspectors are in attendance to oversee shows affiliated 
with these organizations, the numbers of violations recorded are many 
times higher than at shows where industry inspectors alone are 
conducting the inspections. Unfortunately, the largest, most popular 
HIOs in the industry are the most conflicted, resulting in ongoing, 
widespread abuse of horses. By all measures, the overall DQP program as 
a whole has been a failure--the only remedy is to abolish the 
conflicted industry-run inspection programs charged with self-
regulation and have USDA oversee a legitimate inspection program.
    The USDA appears to have attempted to step up its enforcement 
efforts in recent years, and has begun to work with the Department of 
Justice in prosecuting criminal cases as provided for under the Act. In 
2011, a Federal prosecutor sought the first-ever criminal indictments 
under the Act and as a result, a well-known, winning trainer in the 
Spotted Saddle Horse industry served a prison sentence of over 1 year. 
A former Walking Horse Trainers' Association Trainer of the Year and 
winner of the Tennessee Walking Horse World Grand Championship, Jackie 
McConnell, was indicted in 2012 on 52 counts (18 of them felony) of 
violating the Act and pleaded guilty to felony conspiracy to violate 
the Act. He was sentenced to 3 years of probation and a $75,000 fine in 
Federal court. Another Tennessee trainer, Larry Wheelon, and three of 
his employees have been indicted on 19 counts of aggravated animal 
cruelty charges under state law in a case flowing from a USDA Office of 
Inspector General investigation.
    While these are significant actions which should have a deterrent 
effect, there are scores of other violators who go undetected and many 
cases that go unprosecuted due to a lack of resources. USDA needs 
enhanced resources to carry out its responsibilities under this Act, as 
Congress, and the public, expects.
    In years past, inspections were limited to physical observation and 
palpation by the inspector. Protocols for the use of new technologies, 
such as thermography and ``sniffer'' devices (gas chromatography/mass 
spectrometry (GC/MS) instruments), have been implemented, which can 
help inspectors identify soring more effectively and objectively. The 
results of USDA's recent GC/MS testing for prohibited foreign 
substances used by violators on the legs of horses (either to sore 
them, or to mask underlying soring and evade detection by inspectors) 
are staggering: 62 percent of samples taken by the USDA at 17 horse 
shows in 2013 tested positive for illegal foreign substances, including 
soring, masking, and numbing agents. In 2012, 65 percent of samples 
tested at 24 horse shows by USDA tested positive for illegal foreign 
substances.
    Effective though this inspection protocol may be, due to budget 
constraints, USDA has been unable to purchase and put enough of this 
testing into use in the field, allowing for industry players to 
continually evade detection. In 2013, USDA was able to afford to 
collect and test samples at only 17 of the industry's largest shows; in 
2012, only 24. With increased funding, the USDA could purchase more 
equipment and dispatch more inspectors to use it properly, greatly 
increasing its ability to enforce the HPA.
    Currently, when USDA inspectors arrive at shows affiliated with 
some industry organizations, many of the exhibitors load up and leave 
to avoid being caught with sored horses. While USDA could stop these 
trailers on the way out, agency officials have stated that inspectors 
are wary of going outside of their designated inspection area, for fear 
of harassment and physical violence from exhibitors. Armed security is 
frequently utilized to allow such inspections, at additional expense to 
this program. The fact that exhibitors feel they can intimidate 
government officials without penalty is a testament to the inherent 
shortcomings of the current system.
    Lack of a consistent presence by USDA officials at events featuring 
Tennessee Walking Horses, Racking Horses, and Spotted Saddle Horses has 
fostered a cavalier attitude among industry insiders, who have not 
stopped their abuse, but have only become more clandestine in their 
soring methods. The continued use of soring to gain an advantage in the 
show ring has tainted this segment of the horse industry, and creates 
an unfair advantage for those who are willing to break the law in 
pursuit of victory. Besides the indefensible suffering of the animals 
themselves, the continued acceptance of sored horses in the show ring 
prevents those with sound horses from competing fairly for prizes, 
breeding fees and other financial incentives, while those horse owners 
whose horses are sored may unwittingly suffer property damage and be 
duped into believing that their now abused, damaged horses are 
naturally superior.
    The egregious cruelty of soring is not only a concern for horse 
industry and animal protection organizations, but also for 
veterinarians. In 2008, the American Association of Equine 
Practitioners (AAEP) issued a white paper condemning soring, calling it 
``one of the most significant welfare issues faced by the equine 
industry.'' It called for the abolition of the DQP Program, saying 
``the acknowledged conflicts of interest which involve many of them 
cannot be reasonably resolved, and these individuals should be excluded 
from the regulatory process.'' The AAEP further stated, ``The failure 
of the HPA to eliminate the practice of soring can be traced to the 
woefully inadequate annual budget . . . allocated to the USDA to 
enforce these rules and regulations.''
    The USDA Office of Inspector General conducted an audit of the 
Horse Protection Program, and issued its final report in September of 
2010. The report recommends the abolition of the DQP program, and an 
increase in funding for APHIS enforcement of the Horse Protection Act. 
The agency concurred with the findings and recommendations in the 
report, specifically Recommendation 2: ``Seeking the necessary funding 
from Congress to adequately oversee the Horse Protection Program,'' 
indicating that it would develop a budgeting and staffing plan to phase 
in the resources needed to adequately oversee the Horse Protection 
Program.
    It is unacceptable that more than 40 years after passage of the 
Horse Protection Act, the USDA still lacks the resources needed to end 
this extreme form of abuse. It is time for Congress to give our public 
servants charged with enforcing this Act the support and resources they 
want and need to fulfill their duty to protect these horses as 
effectively and safely as possible.
    We appreciate the opportunity to share our views about this serious 
problem, and thank you for your consideration of our request.
    [This statement was submitted by Mark Matson, President, 
International Walking Horse Association.]
                                 ______
                                 
          Prepared Statement of the Meds & Food for Kids (MFK)
    Meds & Food for Kids (MFK) appreciates the opportunity to submit 
testimony to the Senate Appropriations Subcommittee on Agriculture, 
Rural Development, Food and Drug Administration, and Related Agencies, 
and requests that the Subcommittee fully fund the Local and Regional 
Food Aid Procurement Project (LRP) at $80 million for fiscal year 2015, 
as authorized in section 3207 of the Agricultural Act of 2014 (the Farm 
Bill) and administered by the U.S. Department of Agriculture's (USDA) 
Foreign Agricultural Service (FAS). The LRP is a critical tool for 
international development that saves and improves lives by quickly 
purchasing necessary food aid locally or regionally, while also 
increasing resiliency through the further development of local food 
systems.
    MFK is a U.S. non-profit organization that manufactures high 
quality, peanut-based ready-to-use therapeutic and supplementary foods 
in Haiti that are used to treat and prevent malnutrition in young 
children. MFK intimately knows the importance of local production and 
procurement of food aid, including ready-to-use foods for treating 
children with malnutrition, to Haiti's vulnerable populations. MFK has 
been fighting malnutrition and poverty, its root cause, in Haiti since 
2003. After the earthquake MFK transported all its available stocks to 
Port au Prince for use in hospitals, clinics and orphanages. In total 
we have saved the lives of over 120,000 in the last 10 years. Most of 
those children were treated after we scaled up in 2012, by building a 
new $3.2 million state-of-the-art factory in Cap Haitien, increasing 
our annual production capacity from 80 to 800 metric tons (MT). We made 
this urgent investment because every life saved, every body healed; 
every brain protected, is an investment in Haiti's future. MFK believes 
that Haiti, and countries like it, deserve a bright future.
    MFK is working not only to rescue children from malnutrition, but 
create a sustainable solution to the problem of food insecurity. We do 
this by igniting economic development and building local technical 
capacity. This longer-term mission just isn't possible without funding 
for local and regional food aid procurement. We must move beyond rescue 
to establish sustainable, locally-based solutions to achieve real and 
lasting change. To this end, MFK employs 48 Haitian people in the 
production of our peanut-based RUFs. MFK has also trained over 1,120 
small-scale peanut farmers and supplied them with a reliable customer 
for their peanuts. MFK is working with Clinton Giustra Foundation to 
create Haitian agricultural ``middle men'' to supply inputs to farmers. 
MFK will buy 50 MT of Haitian peanuts this year and has invested more 
than $200,000 in local procurement of peanuts since 2008. In 
complement, the U.S. Agency for International Development (USAID) has 
donated to MFK over $100,000 of peanut equipment and funding for farmer 
training.
    With the help of development partners like USAID and USDA, we are 
building sustainable supply chains, and creating expertise in food 
safety and manufacturing. To date, MFK has passed three international 
food safety audits, the only entity in Haiti to have done so. MFK also 
recently completed a $1 million USDA McGovern Dole Micronutrient 
Fortified Food Aid Pilot Project (MFFAPP) to develop and test a 
nutritious school snack in Haiti. Making local and regional procurement 
funds available to further projects like this one would only add value 
to the McGovern Dole investment. MFK is an example of a success story 
in helping to build resilience and sustainable food systems in Haiti. 
By supporting local and regional food and agricultural supply chains 
through the LRP, we will see more success stories in the future.
    From our experience, the addition of local and regional procurement 
of food to the U.S. Government's aid toolbox allows the policy and 
programming flexibility necessary to best meet the needs of vulnerable 
populations. It also helps to support and protect local farmers and 
food manufacturers, allowing for longer term economic development. For 
this reason, we support full funding of the Local and Regional Food Aid 
Procurement Project along with the development of a strategy that will 
be beneficial to both the world's most vulnerable populations and the 
American tax-payers.
    Thank you for providing MFK the opportunity to submit testimony 
regarding the Local and Regional Food Aid Procurement Project. Please 
do not hesitate to contact me if the Subcommittee has any questions or 
would like further information.
    [This statement was submitted by Dr. Patricia Wolff, Executive 
Director, Meds & Foods for Kids.]
                                 ______
                                 
   Prepared Statement of the National Affordable Housing Management 
                          Association (NAHMA)
    Thank you, Chairman Pryor and Ranking Member Blunt for the 
opportunity to submit this testimony on behalf of the National 
Affordable Housing Management Association (NAHMA). My testimony 
concerns the fiscal year 2015 budget for the U.S. Department of 
Agriculture (USDA), and in particular, funding for the USDA-Rural 
Development (RD) multifamily housing programs. The majority of my 
testimony will discuss RD's requested funding and new legislative 
authorities for its Section 521 Rural Rental Assistance (RA) Program.
                              about nahma
    NAHMA members manage and provide quality affordable housing to more 
than two million Americans with very low to moderate incomes. Our 
membership consists of presidents and executives of property management 
companies, owners of affordable rental housing, public agencies and 
national organizations involved in affordable housing, and providers of 
supplies and services to the affordable housing industry. In addition, 
NAHMA serves as the national voice in Washington for 19 regional, state 
and local affordable housing management associations (AHMAs) 
nationwide.
              funding for rd multifamily housing programs
    Section 521 Rural Rental Assistance: The Section 521 Rural Rental 
Assistance (RA) program is project-based rental assistance administered 
by USDA-RD. It is often used in conjunction with Section 515 housing or 
farm labor housing to pay apartment owners the difference between 
tenants' contributions (30 percent of their income) and the monthly 
rental rate.
    For fiscal year 2015, USDA requests $1.089 billion for Section 521 
Rural Rental Assistance. RD believes this request is sufficient to 
accommodate renewals. NAHMA urges the Subcommittee to review this 
request thoroughly, as it is based on assumptions for new legislative 
authorities that affect the level of necessary funding. NAHMA firmly 
believes that appropriations for this program must be sufficient to 
provide 12 months of funding for all contracts.
    This year, RD also requests legislative changes which would:
  --Remove the requirement to fund RA contracts for a 1 year period, 
        and replace it with language to fund contracts ``up to 1 
        year'';
  --Eliminate the automatic renewal of rental assistance contracts that 
        occur within the 12-month contract period; and
  --Provide that ``rental assistance will be renewed at the discretion 
        of the Secretary.''
    RD believes these changes will provide greater predictability in 
the RA budget, as well as the necessary flexibility to prioritize RA 
contract renewals during times of funding uncertainty (such as 
continuing resolutions or under sequestration). NAHMA is concerned that 
the specific language proposed is too broad, and we recommend that it 
be revised to more closely reflect its stated intent.
    After the RA shortfall which resulted from fiscal year 2013 
sequestration, it is clear that RHS needs some degree of flexibility in 
its contract renewal procedures during times of extraordinary budget 
uncertainty. That said, the flexibility must not absolve the agency of 
its financial obligations to owners for payment of RA during the term 
of the contract, nor should it be used as a budget gimmick to request 
less appropriations than are necessary to provide 12 months of contract 
funding at the time of renewal.
    Likewise, NAHMA respectfully suggests that an advanced 
appropriation would offer a more straightforward mechanism to ensure RD 
has the necessary funding for contract renewals when the agency must 
operate under a continuing resolution. Advanced appropriations have 
been used successfully for several years to renew HUD's Project-Based 
Section 8 and Housing Choice Voucher contracts during the first quarter 
of the fiscal year when continuing resolutions are in place.
    In section 725 of USDA's proposed general provisions, the Agency 
also requests authority to access the same interagency databases used 
for income verification by the U.S. Department of Housing and Urban 
Development (HUD). RD is especially interested in using this authority 
to reduce improper payments in its RA program. NAHMA supports this 
request in concept. If Congress provides such authority, NAHMA 
recommends that USDA-RD implement it by seeking access to HUD's 
Enterprise Income Verification (EIV) System for RHS staff, as well as 
for authorized property owners and managers. EIV obtains monthly Social 
Security and Supplemental Security Income benefits data from the Social 
Security Administration, and monthly employer new hires (W-4), 
quarterly wage for Federal and non-Federal employees, and quarterly 
unemployment data from the Department of Health and Human Services' 
National Directory of New Hires (NDNH). It would seem more efficient 
for RD to use the EIV system for income verification than to create an 
entirely new system.
    Section 515: Section 515 Direct Rural Rental Housing Loans are 
competitive mortgage loans which finance affordable multifamily rental 
housing for low-income families, the elderly and persons with 
disabilities in rural America. The 2015 budget request proposes $28.432 
million for the Section 515 direct loan program. NAHMA supports funding 
at a level of at least $28.432 million.
    Section 538: The Section 538 Multifamily Loan Guarantee program 
provides loan guarantees which encourage construction, acquisition, or 
rehabilitation of rural multifamily housing for low-income residents. 
NAHMA supports RD's request of $150 million for this program.
    Multifamily Preservation and Revitalization (MRP) Program: The 
Multifamily Housing Revitalization Program funds tenant protection 
vouchers, property rehabilitation and preservation demonstration 
programs. RD requests $28 million for this program. Of this total 
funding, $8 million would be directed to the Rural Housing Voucher 
Program, which provides a rental subsidy to any low-income household 
(including those not receiving rental assistance) residing in a 
property financed with a Section 515 loan which has been prepaid after 
September 30, 2005. Likewise, $20 million is proposed for the 
demonstration program to preserve and recapitalize aging rural 
multifamily rental properties. NAHMA supports funding for MRP program 
at a level of at least $28 million. We are, however, concerned about 
the proposed reduction in voucher funding from nearly $12.58 million in 
the fiscal year 2014 Omnibus Appropriations Act to $8 million in RD's 
fiscal year 2015 budget request. We urge the Subcommittee to carefully 
consider whether $8 million will be sufficient to meet the demand for 
these Rural Housing Vouchers in fiscal year 2015.
                               conclusion
    Thank you again for the opportunity to submit this testimony. I 
look forward to working with the Subcommittee to ensure that USDA-RD's 
multifamily housing programs are fully funded and properly 
administered.
    [This statement was submitted by Kris Cook, CAE, Executive 
Director, National Affordable Housing Management Association.]
                                 ______
                                 
  Prepared Statement of the National Animal Health Laboratory Network
    I am writing to urge your support for the inclusion of the National 
Animal Health Laboratory Network in the fiscal year 2015 Agriculture 
Appropriations Bill. The NAHLN was authorized in the recently passed 
Farm Bill (Section. 12105). Serving as our nation's most vital early 
warning system for emerging and foreign animal diseases, we are urging 
the members of the Appropriation Committee to fund the NAHLN at $15 
million for fiscal year 2015.
    The NAHLN was developed in response to the Public Health Security 
and BioTerrorism Preparedness and Response Act of 2002, and the 
Homeland Security Presidential Directive-9 (HSPD-9) of 2004 to 
``develop nationwide laboratory networks for food, veterinary, plant 
health and water quality that integrate existing Federal and State 
laboratory resources, are interconnected, and utilize standardized 
diagnostic protocols and procedures''.
    During the past 12 years the NAHLN, composed of Federal, 
university, and state veterinary diagnostic laboratories, has 
established the framework of a surveillance and emergency response 
system (not research) that provides critical and ongoing resources for 
laboratory testing, surveillance, information management, quality 
assurance and the development and validation of new tests.
    Funding of NAHLN at $15 million would result in improved compliance 
with HSPD-9 by: 1) expanding surveillance and surge capacity of the 
NAHLN by increasing the number and level of participating state 
laboratories; 2) additional development of the infrastructure for 
electronic transmission of data between sample collectors, laboratories 
and state and Federal databases; and 3) increasing efficiency and 
effectiveness of laboratory personnel training and employment both 
regionally and nationwide. Federal funding for the NAHLN at $15 million 
would be leveraged over six times by direct state appropriations. A 
survey of 34 NAHLN laboratories conducted by the American Association 
of Veterinary Laboratory Diagnosticians revealed direct state 
appropriations of $100 million to NAHLN laboratories toward total 
laboratory operation expenses of $186 million.
    The NAHLN enables laboratories to test for economically devastating 
diseases such as mad cow disease, foot-and-mouth disease, avian and 
swine influenza, and classical swine fever. Without the NAHLN and the 
early disease detection it provides, an outbreak of Foot and Mouth 
Disease (FMD) could cost US agriculture an estimated $128 billion. This 
includes decreased revenues for corn and soybean of $44 billion and 
$24.9 billion, respectively. This loss translates into roughly 154,000 
jobs over the course of the outbreak.
    An August 2011 report from the GAO and a report from the Commission 
on the Prevention of Weapons of Mass Destruction, Proliferation and 
Terrorism both gave the nation a failing gradefor its ability to 
respond to and recover from a biological attack, natural disaster or 
animal disease event as required by HSPD-9. In order for the nation to 
adequately respond to, and recover from, a biological attack; the NAHLN 
needs $15 million to ensure such a threat would be quarantined in a 
timely manner.
    Wisconsin has benefited from the Wisconsin Veterinary Diagnostic 
Laboratory being a NAHLN laboratory on several occasions. Having the 
ability to rapidly deliver foreign animal disease diagnostic samples to 
the local laboratory has provided test results to State Animal Health 
Officials hours or days before the same reports were received from the 
National Veterinary Services Laboratory due to the time it takes to 
ship samples. This early reporting has allowed the state to release 
quarantines which were impacting commerce at slaughter facilities or 
livestock production sites.
    Thank you for your leadership on this vital issue to the 
agriculture industry and consideration of this funding in the fiscal 
year 15 Agriculture Appropriations Bill.
    [This statement was submitted by Ben Brancel, Secretary, Wisconsin 
Department of Agriculture, Trade & Consumer Protection.]
                                 ______
                                 
            Prepared Statement of the National Farmers Union
    On behalf of the family farmer and rancher members of National 
Farmers Union (NFU), thank you for the opportunity to present funding 
requests for fiscal year 2015. As a general farm organization, NFU has 
a broad array of interests in the agricultural appropriations process. 
This letter enumerates a few of the highest priorities for our members.
    Additionally, the recent passage of the 2014 Farm Bill deserves the 
attention of the subcommittee. I ask that programs that were granted 
discretionary funding through the farm bill receive their full 
appropriations, and that the subcommittee not reduce other program 
funding through changes in mandatory programs.
REQUEST: No legislative riders or targeted funding reductions to limit 
        or restrict the enforcement, legal defense or study of Country-
        of-Origin Labeling (COOL).
    The 2008 Farm Bill requires retailers to notify customers through 
labeling of the source of nearly all muscle cuts and ground meat, along 
with fish, fruits, vegetables, nuts and a variety of other generally 
unprocessed products. As of 2013, the U.S. Department of Agriculture 
(USDA) enacted rules that require the labeling of production steps--for 
example, ``Born, Raised, and Harvested in the U.S.''--as directed by a 
World Trade Organization (WTO) dispute. Another WTO proceeding is 
currently underway to review the new COOL regulations' compliance with 
trade agreements. A lawsuit is pending in U.S. court regarding 
implementation of the new labels and initial attempts to enjoin the new 
COOL requirements were defeated. Additionally, the 2014 Farm Bill 
requires a study on the economic impact of COOL.
    NFU opposes any funding cuts or legislative riders that would 
circumvent enforcement, implementation, legal defense or study of COOL. 
Studies have found that more than 90 percent of consumers support COOL. 
Any threats of retaliation from Canada and Mexico are extremely 
premature, as WTO appeals are slow-moving and typically last for years.
REQUEST: No legislative riders to limit or restrict the USDA's 
        rulemaking and enforcement authority under the Packers and 
        Stockyards Act of 1921.
    Because of appropriations riders in the last 3 years, USDA has not 
been allowed to write rules that would provide greater fairness for 
livestock sellers and poultry growers in the agriculture marketplace, 
as directed by the 2008 Farm Bill. This includes prohibiting deceptive 
or fraudulent buying practices and permitting farmers and ranchers to 
seek protection under the Packers and Stockyards Act if they have been 
harmed by unfair trade practices.
    While the last three legislative riders on GIPSA have varied, they 
each have significantly undermined important protections for livestock 
and poultry ranchers and growers. These provisions must not be 
prevented; thus, NFU strongly urges the Subcommittee to reject any 
legislative riders that would undermine GIPSA's authority and ignore 
congressional intent.
REQUEST: Funding for the Food and Drug Administration to implement the 
        Food Safety Modernization Act (FSMA) and to study its economic 
        impacts on farmers.
    NFU asks that the FDA be adequately funded at the president's 
request level for fiscal year 2015 with $253 million to be used for 
implementation of FSMA. There are many areas of possible improvement 
within the proposed FSMA rules, but it is imperative that the process 
be provided resources in order to be effective. Of particular 
importance is funding to provide food safety training to family farmers 
and small processors. The president's request to spend $2.5 million on 
that initiative is a low amount but a good start to prepare our members 
to work well within the upcoming FSMA rules.
    Additionally, I ask that no action be taken during the 
appropriations process that would derail or detract from FDA's study of 
the economic impacts of FSMA on farmers, as mandated by the 2014 Farm 
Bill.
REQUEST: Report language on public cultivar development through the 
        Agriculture and Food Research Initiative (AFRI).
    The 2008 Farm Bill created the Agriculture and Food Research 
Initiative (AFRI), which called for AFRI to make ``conventional'' plant 
and animal breeding a priority for research grants. Implementation of 
these directives has been slow. NFU asks that the fiscal year 2015 
appropriations bill include report language that reiterates the need to 
prioritize funding for classical plant and animal breeding within the 
AFRI process.
REQUEST: Provide $25.9 million to the Genetic Improvement and 
        Translational Breeding Initiative, along with report language 
        directing funds to the development and release of regionally 
        adapted, public cultivars.
    The administration's fiscal year 2015 budget requests $25.9 million 
for a new Genetic Improvement and Translational Breeding Initiative to 
be administered by the Agricultural Research Service. Given the very 
substantial private and public investments in genomics and the lack of 
funding for classical breeding for public cultivar development, clear 
language ought to be included to direct ARS to focus all of the funding 
provided for this initiative on the development and release of 
regionally adapted, publicly held, cultivars to benefit farmers and 
ranchers across the country.
REQUEST: Fully fund farm bill energy title programs at discretionary 
        funding levels and do not reduce program funding through 
        changes in mandatory programs. Also, allow 2014 Biomass Crop 
        Assistance Program (BCAP) funds to carry over into 2015 if they 
        are not expended.
    The 2014 Farm Bill makes substantial investments in existing energy 
programs such as the Rural Energy for America Program (REAP), Biomass 
Crop Assistance Program (BCAP), and Biorefinery Assistance Program 
(BAP). NFU asks that the subcommittee not reduce any of the funds 
allocated to these programs. In addition, because USDA may not expend 
all funds for BCAP in 2014, NFU asks that language be inserted allowing 
for unexpended 2014 BCAP funds to be carried over into 2015.
REQUEST: Provide $10 million for competitive grants and formula-based 
        funding for animal health and disease research.
    Public investment in animal science has slipped in recent years, 
especially in comparison to the economic impact of animal agriculture. 
By 2050, global meat consumption is expected to increase by 73 percent, 
dairy production by 57 percent, and per capita egg consumption in 
developing countries is projected to rise by almost 40 percent. Animal 
agriculture has a clear impact on rural America, as livestock and 
poultry sales account for 40 percent of all U.S. farm income.
    The 2014 Farm Bill revitalized the structure of a public funding 
opportunity for animal science. I ask that $10 million be made 
available to establish the new competitive grants program on sound 
financial footing.
    Thank you for your consideration of these requests.
    [This statement was submitted by Roger Johnson, President, National 
Farmers Union.]
                                 ______
                                 
  Prepared Statement of the National Sustainable Agriculture Coalition
    Thank you for the opportunity to present our fiscal year 2015 
funding requests. The National Sustainable Agriculture Coalition is a 
national alliance of over 100 organizations that advocates for policies 
that support the sustainability of agriculture, natural resources, and 
rural communities. Our USDA requests are as follows, in the order they 
appear in the appropriations bill:
                      departmental administration
    Office of Advocacy and Outreach. The Office of Advocacy and 
Outreach coordinates policy and outreach in three vital areas--small 
and beginning, socially disadvantaged, and veteran farmers. We urge 
that $1.4 million be provided for the OA&O, as requested by USDA.
    Outreach and Assistance for Socially Disadvantaged Farmers and 
Ranchers and Veteran Farmers and Ranchers. We urge you to provide $10 
million in discretionary funding and no limitation in mandatory program 
spending to restore total program funding to its historical level in 
order to meet the increased demand for outreach and technical 
assistance by military veteran farmers, and other historically 
underserved producers.
                      agriculture research service
    New Priority Research Initiative. We urge you to support the 
reallocation of $25.9 million for a new Genetic Improvement and 
Translational Breeding Initiative, as proposed by the Administration, 
provided that report language directs ARS to use the funding to advance 
classical breeding research and germplasm infrastructure to protect 
agricultural genetic diversity and address long-term challenges to 
agriculture such as climate change and global food security.
               national institute of food and agriculture
    Sustainable Agriculture Research and Education Program. We urge you 
to fund this innovative competitive grants program at $30 million. The 
fiscal year 15 Budget Request once again proposes to combine research, 
education, and extension into a single line item. We do not oppose 
consolidation, so long as funding is increased to cover all functions 
outlined in statute, including Federal-state matching grants (7 U.S.C. 
5813). To that effect, we urge the reiteration of the fiscal year 14 
Senate report language (113-46) clarifying that ``all three activities 
authorized in Subtitle B of the Food, Agriculture, Conservation and 
Trade Act of 1990 are vital to the success of the SARE program, and the 
Committee directs the Department to ensure that each activity remain 
intact in thefuture.'' SARE has helped turn farmer-driven research, 
education, and extension into profitable and environmentally sound 
practices for over 25 years. At $30 million, SARE would be at just half 
its authorized level, half the level recommended by the National 
Academy of Sciences, and nearly a quarter of the authorized level if 
that level were updated to 2014 dollars. There is no other REE 
competitive grant program that has a bigger bang for the buck.
    Organic Transitions Integrated Research Program. We request $5 
million to invest in innovative organic research with strong farmer 
delivery mechanisms built in. This level of funding is critical to help 
keep organics from falling further behind in its fair share of the 
research budget.
    Food Safety Outreach Program. We request $5 million to help small 
and mid-size farms and small processing facilities comply with new 
proposed food safety regulations. FDA is in the process of proposing 
new, expansive food safety regulations for farmers and food processors 
under the Food Safety Modernization Act (FSMA). This FSMA-authorized 
Food Safety Training Program will provide farmers with the training 
they need to implement and comply with new food safety rules. We are 
thrilled USDA has requested funding to begin this program, but believe 
their request of $2.5 million is insufficient and therefore urge you to 
launch this urgently needed program at $5 million to ensure that 
multiple regions of the country can benefit rather than just a single 
region.
                     agricultural marketing service
    Federal-State Market Improvement Program. FSMIP provides matching 
funds to state departments of agriculture to help grantees conduct 
research and create innovations to increase new markets for farmers. We 
request $1.363 million, the same as fiscal year 2014 funding.
    Organic Production and Market Data Initiatives. As the organic 
industry surpasses $31 billion a year in sales, organic market 
reporting is vital to creating fair risk management tools and 
collecting adequate data on organic markets. We request $0.3 million 
for AMS to continue and enhance reporting on organic production, 
marketing, and pricing data. We also support ongoing organic data 
collection and analysis through NASS and ERS.
    Local Food Data Collection and Analysis. Information concerning 
state and regional food needs is not readily available to food system 
developers and investors who need to gain a better understanding of the 
opportunities and challenges that exist for agricultural food systems 
across the country. We support the President's request of $2.6 million 
for AMS to partner with Federal and state agencies, Land-Grant 
Universities, Regional Planning Commissions, and other entities to 
conduct 6 to 10 state local and regional food system assessments. We 
would also encourage the Committee to include report language directing 
AMS to incorporate data collection and assessments of market price 
information for direct and intermediated local and regional food 
markets.
                          farm service agency
    Direct Farm Ownership Loans, Direct Operating Loans, and Individual 
Development Accounts. Direct loans provide capital for beginning 
farmers and others not served by commercial credit. This is critical in 
light of the increasing age of farmers and the land access challenges 
faced by beginning farmers. Similarly, the Beginning Farmer and Rancher 
Individual Development Account (IDA) program, authorized by the 2008 
and 2014 Farm Bills, will enable limited-resource beginning farmers and 
ranchers to save for asset-building purchases, including farmland, 
equipment, breeding stock, or similar expenditures.
    Through the IDA program, FSA will offer competitive grants, with a 
50 percent local match required, and financial management training as 
the core component of the program. We support the President's fiscal 
year 15 Budget Request for program levels of $1.5 billion for Direct 
Farm Ownership loans, $1.252 billion for Direct Operating Loans, and 
$2.5 million for the IDA program. We also request an additional $4 
million in ACIF administrative expenses \1\ specifically to allow FSA 
to provide intermediary technical assistance and loan delivery services 
to new microloan borrowers. This combined package will serve new, 
beginning, and veteran farmers well, and at a reduction in the actual 
appropriated amounts relative to fiscal year 14--$46 million in budget 
authority and approximately$51 million in outlays, a net reduction in 
actual appropriations of $24 million and approximately $16 million, 
respectively, according to OMB's figures.
---------------------------------------------------------------------------
    \1\ See ``Agricultural Credit Insurance Fund Program Account'' on 
page 104 of the President's Budget Appendix
---------------------------------------------------------------------------
                 natural resources conservation service
    Conservation Technical Assistance. CTA, a subset of Conservation 
Operations, helps farmers develop and implement conservation plans to 
conserve resources on their farms. NRCS also uses CTA funds to assess 
conservation practices and systems, and to collect, analyze, and 
disseminate data on the condition of the nation's natural resources. We 
urge you to provide no less than $717 million for CTA, as requested in 
the President's fiscal year 15 budget request.
                 rural business and cooperative service
    Value-Added Producer Grants. VAPG offers grants to farmers and 
ranchers developing farm- and food-related businesses that boost farm 
income and create jobs in rural America. VAPG encourages the kind of 
entrepreneurship that enables rural communities to grow economically. 
Growing interest in local and regional foods means greater need for 
regional supply chains and enterprises that aggregate local production, 
exactly the kind of rural development strategy VAPG is designed to 
support. We request no changes in mandatory program spending as well as 
$15 million in discretionary funding for VAPG, the same level as 
included in the final fiscal year 14 bill.
    Rural Microentrepreneur Assistance Program. RMAP provides business 
training, technical assistance, and microloans to owner-operated 
businesses with up to ten employees. It is specifically targeted at 
very small business development, the leading job creator in rural 
communities. The 2014 Farm Bill renews a modest investment of $3 
million per year in direct farm bill spending for RMAP loans and 
grants. The President's fiscal year 15 Budget Request includes $3.3 
million in discretionary funding for RMAP loans, as well as no changes 
in mandatory program spending. For a second year in a row, the Budget 
Request recommends that Congress combine the RMAP grant component with 
several other rural development programs. Congress considered this 
proposal during the fiscal year 14 appropriations process and during 
farm bill proceedings, and in both cases, wisely rejected the 
consolidation proposal. We support the President's fiscal year 15 
Budget Request of no changes in mandatory program spending, as well as 
$3.3 million in discretionary funding; however, we urge that this 
discretionary funding be provided for the cost of loans and grants. 
This level of appropriation combined with the new farm bill funding 
will result in over $40 million in new microloans plus expanded 
entrepreneurial development training, an incredibly smart investment.
    Appropriate Technology Transfer for Rural Areas. The ATTRA program, 
also known as the National Sustainable Agriculture Information Service 
and reauthorized by the 2014 Farm Bill, provides critical support to 
farmers, Extension agents, and conservation and energy specialists 
throughout the country. We urge $2.5 million for ATTRA for fiscal year 
2015.
    Rural Cooperative Development Grants. RCDG invests in rural 
development by helping individuals start or expand cooperatives. We 
oppose the Administration's proposal to consolidate RCDG into a Rural 
Business and Cooperative Grants program. We request $9.1 million for 
RCDG, including $3 million for centers targeting socially disadvantaged 
producers.
                           general provisions
    Repeated annual cuts to the Conservation Stewardship Program, 
Environmental Quality Incentives Program, and other farm bill 
conservation programs have created enormous backlogs of applications 
among highly qualified producers and made it difficult for farmers to 
maintain healthy soil, protect water, and mitigate and adapt to the 
impacts of drought. We strongly oppose changes in mandatory program 
spending to these critical conservation programs.
    Finally, we oppose the inclusion of any policy riders that limit 
implementation and enforcement of the Packers & Stockyards Act. 
Limiting farmers' free speech rights to consult with Members of 
Congress and limiting USDA's ability to protect market transparency has 
no rightful place in the appropriations bill or any other legislation.
    [This statement was submitted by Juli Obudzinski, NSAC Senior 
Policy Specialist.]
                                 ______
                                 
     Prepared Statement of the National Multiple Sclerosis Society
    Ms. Chairwoman and Members of the Committee, thank you for this 
opportunity to provide testimony regarding funding of critically 
important Federal programs that impact those affected by multiple 
sclerosis. We urge the Subcommittee to provide $3.784 billion in 
discretionary spending for the Food and Drug Administration (FDA).
    Multiple sclerosis (MS) is an unpredictable, often disabling 
disease of the central nervous system that interrupts the flow of 
information within the brain, and between the brain and body. Symptoms 
range from numbness and tingling to blindness and paralysis. The 
progress, severity, and specific symptoms of MS in any one person 
cannot yet be predicted. Most people with MS are diagnosed between the 
ages of 20 and 50, with at least two to three times more women than men 
being diagnosed with the disease.
    The National MS Society sees itself as a partner to the government 
in many critical areas. For instance in fiscal year 2013, we dedicated 
approximately $48 million in MS research through funds generated 
through the Society's fundraising efforts. While we're here to advocate 
for Federal funding, we do it as an organization that commits tens of 
millions of dollars each year to similar or complementary efforts as 
those being funded by the Federal government, including partnerships 
with the National Institutes of Health (NIH).
                             administration
    The FDA is the United States' pre-eminent public health agency. Its 
role as the regulator of the country's pharmaceutical industry provides 
invaluable support and encourages vital progress for people living with 
MS and other diseases. In its capacity as the industry's regulator, the 
FDA ensures that drugs and medical devices are safe and effective for 
public use and provides consumers with confidence in new technologies. 
Because of the tremendous impact the FDA has on the development and 
availability of drugs and devices for individuals with disabilities, 
the National MS Society requests that Congress provide $2.784 billion 
in discretionary appropriations. This funding will allow FDA to 
complete its current mandates, which include developing a biosimilar 
approval pathway and appropriately implementing the Food and Drug 
Administration Safety and Innovation Act (FDASIA) of 2012.
    Advancements in medical technology and medical breakthroughs play a 
pivotal role in decreasing the societal costs of disease and 
disability. The FDA is responsible for approving drugs for the market 
and in this capacity has the ability to keep healthcare costs down. 
Each dollar invested in the life-science research regulated by the FDA 
has the potential to save upwards of $10 in health gains. Breakthroughs 
in medications and devices can reduce the potential costs of disease 
and disability in Medicare and Medicaid and can help support the 
healthier, more productive lives of people living with chronic diseases 
and disabilities, like MS.
    The approval of low-cost generic drugs saved the healthcare system 
$140 billion in 2010 and nearly $1 trillion over the past decade. 
However, recent funding constraints have resulted in a 2 year backlog 
of generic drug approval applications and could potentially cost the 
Federal government and patients billions of dollars in the coming 
years. Similarly, FDA was tasked with creating a biosimilars approval 
pathway in 2010, which still needs to be finalized. This pathway is 
expected to allow a cheaper alternative for some very expensive 
biologic medications. The potential for these cost-saving medical 
breakthroughs and overall healthcare savings relies on a vibrant 
industry and an adequately funded FDA.
    Entire industries are working to enhance the lives of Americans 
with new medical devices and pharmaceuticals with tens of billions of 
dollars being spent annually by the NIH and industry in pursuit of new 
breakthroughs. The FDA has a comparatively small budget yet is charged 
with ensuring the safety and efficacy of these new products.
                               conclusion
    The National MS Society thanks the Committee for the opportunity to 
provide written testimony and our recommendations for fiscal year 2015 
appropriations. The agencies and programs we have discussed are of 
vital importance to people living with MS and we look forward to 
continuing to working with the Committee to help move us closer to a 
world free of MS. Please don't hesitate to contact me with any 
questions.
    [This statement was submitted by Ted Thompson, Vice President of 
Federal Government Relations, National MS Society.]
                                 ______
                                 
         Prepared Statement of the National Wildlife Federation
    On behalf of the National Wildlife Federation (NWF), the nation's 
largest conservation advocacy and education organization, and our more 
than four million members and supporters, we thank the Senate 
Appropriations Subcommittee on Agriculture for the opportunity to 
provide fiscal year 2015 funding recommendations for the Department of 
Agriculture. We urge the Subcommittee to oppose all cuts to mandatory 
agricultural conservation programs in the fiscal year 2015 agriculture 
appropriations legislation.
    After several years of negotiation, Congress recently passed 
Agriculture Reform, Food and Jobs Act (Public Law 113-79) with broad 
bipartisan support. This recently passed Farm Bill includes much needed 
funding for conservation priorities, and it is critical that Congress 
ensure that all of this allocated funding, as signed into law, can be 
spent as Congress intended.
    Farm Bill Conservation programs--including the Conservation Reserve 
Program, Environmental Quality Incentives Program, Regional 
Conservation Partnership Program, Agricultural Conservation Easement 
Program, Conservation Stewardship Program, and Voluntary Public Access 
Program--have been disproportionately cut in recent appropriations 
cycles and in this last farm bill.
    From fiscal year 2003-2012, Changes in Mandatory Program Spending 
(CHIMPS) for farm bill conservation programs have increased steadily, 
threatening to undermine our most critical conservation programs. 
According to the Congressional Research Service (CRS), total CHIMPS to 
mandatory agricultural programs from fiscal year 2003-2010 equaled $7.5 
billion.\1\ These cuts increased to over $9 billion in fiscal year 
2012. The Conservation Title of the Farm Bill has been unduly targeted, 
accounting for over 50 percent of cuts to mandatory agricultural 
programs from fiscal year 2003 to fiscal year 2010 and 83 percent of 
all Farm Bill CHIMPS from fiscal year 2007 to fiscal year 2010.\2\ 
Since the enactment of the 2002 Farm Bill, appropriators have taken 
roughly $4.4 billion from Farm Bill mandatory conservation spending.\3\ 
On top of this, conservation programs were cut by an additional $6 
billion in the latest Farm Bill.
---------------------------------------------------------------------------
    \1\ Jim Monke and Megan Stubbs, Reductions in Mandatory Agriculture 
Program Spending, CRS Report for Congress (Congressional Research 
Service, May 19, 2010), http://www.nationalaglawcenter.org/assets/crs/
R41245.pdf.
    \2\ Monke and Stubbs, Reductions in Mandatory Agriculture Program 
Spending. National Sustainable Agriculture Coalition, comparison of 
budget authority to appropriations bills. Note: does not include 
rescissions.
    \3\ National Sustainable Agriculture Coalition, comparison of 
budget authority to appropriations bills.
---------------------------------------------------------------------------
    With increased pressures on working lands to produce food, fuel, 
and fiber for our nation and the world, farm bill conservation programs 
critically important now more than ever. These conservation programs 
are crucial to the health and viability of agriculture and rural 
America. They help farmers, ranchers and foresters to voluntarily 
address their key resource concerns and assist them in complying with 
local, state, and Federal regulations. They deliver demonstrated 
environmental benefits including clean air, healthy soil, clean water, 
and abundant habitat for wildlife. And they bring important economic 
benefits and jobs to rural areas, including increased revenues from 
hunting, fishing, and other recreational activities. The demand for 
enrollment in these programs routinely exceeds the funds available, 
even without any cuts.
    Mandatory funding levels for farm bill programs were just agreed 
upon by Congress during the Farm Bill reauthorization process; it is 
unacceptable to continue to slash these programs yearly during the 
appropriations process and to continue to disproportionately target 
farm bill conservation programs. We ask the Appropriations Committees 
to recognize the importance of agricultural conservation programs by 
rejecting cuts to mandatory Farm Bill conservation programs and 
allowing these programs to receive the full allocation as set by the 
Agriculture Reform, Food and Jobs Act (Public Law 113-79).
    [This statement was submitted by Aviva Glaser, Senior Agriculture 
Policy Specialist, National Wildlife Federation.]
                                 ______
                                 
    Prepared Statement of the Oregon Water Resources Congress (OWRC)
    The Oregon Water Resources Congress (OWRC) strongly supports the 
budget for the U.S. Department of Agriculture's (USDA) Natural 
Resources Conservation Service (NRCS) and we are very excited about the 
new Regional Conservation Partnership Program (RCPP) in the recently 
passed 2014 Farm Bill. However, because the RCPP combines the 
authorities of several existing programs, clarification is needed on 
how some of the provisions will be implemented. Specifically, we 
request detail on how the new RCPP will cover existing multi-year 
agreements funded under the Agricultural Water Enhancement Program 
(AWEP) or Cooperative Conservation Partnership Initiative (CCPI). OWRC 
also requests that the Columbia River Basin and Klamath River Basin be 
considered for inclusion in the Critical Conservation Areas (CCAs). 
Furthermore, it is crucial that the RCPP has adequate resources to 
leverage partnerships and tackle the complex natural resources 
conservation issues facing the nation. Lastly, we are strongly 
supportive of coordinated Federal agency watershed planning and funding 
for the Small Watershed Rehabilitation Program.
    OWRC was established in 1912 as a trade association to support the 
protection of water rights and promote the wise stewardship of water 
resources statewide. OWRC members are local governmental entities, 
which include irrigation districts, water control districts, drainage 
districts, water improvement districts, and other agricultural water 
suppliers that deliver water to roughly 1/3 of all irrigated land in 
Oregon. These water stewards operate complex water management systems, 
including water supply reservoirs, canals, pipelines, and hydropower 
production.
                    clarification of rcpp provisions
    OWRC is requesting that funding for the NRCS RCPP be clarified to 
ensure that projects with existing AWEP and CCPI agreements are 
eligible for funding. OWRC has members with multi-year agreements with 
NRCS under AWEP and/or CCPI and they are concerned that the remainder 
of those years may not be funded. This concern is based on remarks made 
by USDA officials in Washington DC stating that AWEP and CCPI ``went 
away'' with the new Farm Bill. As OWRC and its national partners 
understand the 2014 Farm Bill, it was the intent to consolidate the 
authorities and maximize the benefits of AWEP and CCPI, not to 
eliminate these valuable programs. Our organization is hopeful that 
clarification will be provided so that NRCS can merge the existing 
agreements into the new RCCP program in a seamless manner. It is in the 
best interest of those holding current multi-year agreements that this 
is done as quickly as possible so that they can continue with these 
beneficial long-term projects that leverage the investments of multiple 
state and Federal partners.
    OWRC also strongly supports the additional 7 percent (7 percent) of 
funding on top of the $100 million that is to be transferred from AWEP 
and other related conservation programs that are being combined into 
the RCPP. It is important to note that we are concerned about 
implications for program expenditures since the April 1st deadline 
referenced in Section 2401 for any uncommitted funds returning to each 
covered program has now passed. Ideally, solicitations for RCPP 
projects should be issued between Oct-Dec 2014 in order to obligate 
funds in a timely fashion to meet the March 31st commitment date.
    Additionally, as the Secretary of Agriculture considers 
recommendations regarding the new Critical Conservation Areas (CCAs) 
under the 2014 Farm Bill, OWRC requests that the Columbia Basin and the 
Klamath Basin be considered for inclusion as CCAs. Both Basins are 
facing significant natural resources challenges, span multiple states, 
and would be excellent candidates to more efficiently promote soil, 
water and habitat conservation programs on a regional level. The 
Columbia Basin, which covers parts of seven states and is the fourth 
largest watershed in the nation, continues to be one of the nation's 
largest environmental challenges as it wrestles with implementing 
recovery efforts under the Endangered Species Act (ESA) while balancing 
other diverse resource needs. The Klamath Basin, which covers parts of 
Oregon and California, is also facing a complex set of ESA issues that 
have been further compounded by a devastating drought that has dire 
impacts for the both agricultural and environmental resources. NRCS 
funding and participation are an essential part of the cooperative 
conservation efforts for addressing the complex ESA needs in both of 
these basins.
                               rcpp needs
    Federal support of water conservation activities funded through 
NRCS programs, including the RCPP is essential to the conservation of 
our natural resources and critical to protecting our food, energy and 
water supply. Financial assistance has diminished in recent years and 
there is a backlog of unmet need. We worry that a further decline of 
funding for fiscal year 2015 will severely impact districts and other 
agricultural water suppliers. For example, in 2013, Oregon requested 
$24.7 million in financial assistance for NRCS funding, but received 
approximately $20 million. Because of the large unmet need, we are 
strongly supportive of providing allocations for fiscal year 2014 year 
to meet state requests that have been unfunded in recent years.
    While we recognize that the Administration has increased funding 
for some of the NRCS programs, the need for additional financial 
assistance with conservation projects still far outweighs the budget. 
NRCS programs are essential to irrigation districts in developing and 
implementing conservation projects that benefit not only the individual 
farmers they serve but also the entire watershed and community as a 
whole. Furthermore, conservation projects also benefit the economy 
through job creation and ensuring the future viability of American 
agriculture.
    RCPP helps fill a funding void for multi-partner conservation 
projects. Often large conservation projects do not include individual 
on-farm projects which limits the effectiveness of the project. RCPP 
allow farmers to pool together and leverage the dollars invested in the 
off-farm project with the addition of EQIP on-farm projects. And as 
previously mentioned, due to the large number of successful project 
applications for AWEP, USDA should continue to fund existing AWEP 
projects within the new RCPP program to finish out existing multiyear 
projects. It is important that the funding for these projects not be 
interrupted so that they may be completed. However, it is equally 
important to have funding available for new eligible RCPP projects that 
simultaneously benefit the environment and economy.
                             rcpp benefits
    OWRC strongly supports the new RCPP, which we see as a critical 
tool for districts and other agricultural water suppliers in developing 
and implementing water and energy conservation projects in Oregon. In 
the past AWEP has been highly successful in developing cooperative 
approaches on a basin-wide scale, and historically, the CCPI 
partnerships in the past allowed Federal, State and Local interests to 
address ESA and Clean Water Act (CWA) issues in watershed basins and 
sub basins.
    We are hopeful the RCPP will continue to allow districts and other 
agricultural water suppliers to partner with farmers to address 
regional water quantity and quality issues in local watersheds. It is 
our belief that water supply issues in Oregon and elsewhere in the 
nation can be resolved best at the local level, in cooperative 
partnership efforts that promote conservation with a more aggressive 
Federal funding partnership as defined in RCPP.
             examples of successful awep projects in oregon
    Oregon has had several successful AWEP applicants over the past 
several years, three from our member districts (described below).
  --The Whychus Creek/Three Sisters Irrigation District Collaborative 
        Restoration Project focuses on irrigation water efficiency with 
        irrigation improvements in the Upper Division of the Three 
        Sisters Irrigation District, which is the project partner. The 
        effort will improve stream flows and water quality for native 
        fish while providing farmers a reliable supply of water. Fiscal 
        Year 2013 Funding: $180,000; Fiscal Year 2012 $251,300
  --The Talent Irrigation District Project works with agricultural 
        producers to install conservation practices that will properly 
        utilize limited surface water resources, improve water quality 
        on flood irrigated land by converting to more efficient 
        irrigation systems, and apply irrigation water management to 
        eliminate irrigation runoff. Fiscal Year 2013 Funding: $0; 
        Fiscal Year 2012 Funding: $4,470
  --The Willow Creek Project helps landowners in the Lower Willow Creek 
        Watershed portion of Malheur County convert to water-saving 
        irrigation systems, reduce irrigation runoff, and improve water 
        quality in Willow Creek and Malheur River. The project partner 
        is the Vale Oregon Irrigation District. Fiscal Year 2013 
        Funding: $180,000; Fiscal Year 2012 $251,300
  --In Oregon, NRCS is helping develop the Save Water, Save Energy 
        Initiative, a multi-agency cooperative effort to develop a 
        clearinghouse of information on financial incentives and 
        technical expertise to assist districts and their water users 
        in implementing conservation measures.
    Additional innovative projects like the ones above could be 
developed and implemented in Oregon if more funding is made available.
  small watershed rehabilitation program and watershed planning needs
    OWRC also strongly supports the Small Watershed Rehabilitation 
Program. One of our members, Sutherlin Water Control District (SWCD) 
has two dams that were built under PL-566. Both dams are reaching 50 
years old and while they were built to seismic standards 50 years ago, 
they are no longer up to par. In 2010, SWCD received $40,000 ($20,000 
for each dam) for a needs assessment study that determined that both 
dams are high hazard and in immediate need of retrofit and repair. The 
two dams are in such desperate need of repair that they are numbers 1 
and 2 on Oregon NRCS' priority list for funding. A more thorough 
seismic study is needed to determine how to bring the dams up to code, 
but it is important to note that even a small earthquake (less than a 
2.0 on the Richter scale) has the potential to damage the dams severely 
enough to cause breaches, flooding and damaging property and resources 
in the surrounding area. NRCS needs significant funding so it can 
address its high priority dams, like the ones in the SWCD. A minimum of 
$250 million dollars in funding is needed for NRCS to address and 
repair high priority dams, like the ones in the SWCD. It would also be 
beneficial if the program was given flexibility to include piping and 
water conservation projects that have multiple environmental, farming 
and safety benefits.
    OWRC also reiterates requests made in previous years that the 
``Bridging the Headgates'' MOU be reactivated and expanded to include 
other Federal agencies. The need for continued coordination among 
Federal agencies, including NRCS, the Bureau of Reclamation (BOR), 
Bureau of Land Management (BLM), Environmental Protection Agency (EPA), 
NOAA Fisheries, US Fish and Wildlife Service, and Army Corps of 
Engineers (ACOE), is a significant issue. With the historic loss of 
watershed planning funding, reactivating and expanding this program to 
other Federal agencies would be a very cost-effective alternative.
    In the past, Oregon NRCS used a watershed resources planning team 
to conduct Rapid Watershed Assessments throughout Oregon. This planning 
program helped prioritize projects to bring about the most benefit in 
critical watersheds and getting on-the-ground conservation projects 
completed in a timely manner. A number of NRCS funded district projects 
have been implemented using the data from this program.
    Following in the vein of the Rapid Watershed Assessments, Oregon 
has adopted a Strategic Approach to Conservation. The goal is to invest 
technical and financial resources to strategically solve natural 
resource problems and be more effective, efficient, and accountable for 
staffing, funding and partnerships. This strategy is intended to 
accelerate the conservation implementation and leverage technical and 
financial resources required to solve the problem. These types of 
program activities are effective tools that need a consistent funding 
source.
                               conclusion
    Our member districts, the farms and other water users they serve, 
and the communities in which they are located benefit greatly from the 
NRCS programs described in our testimony. Oregon's agricultural 
community is actively committed to water conservation programs, but 
those programs require Federal participation if the agricultural 
community is to be able to continue its efforts to address Oregon's 
water supply needs through water conservation. Increasing the budget 
for NRCS programs is a strategic investment that will pay both 
environmental and economic dividends to Oregonians and America as a 
whole. Thank you for the opportunity to provide testimony for the 
record on the proposed fiscal year 2015 budget for the U.S. Department 
of Agriculture.
    [This statement was submitted by April Snell, Executive Director, 
Oregon Water Resources Congress.]
                                 ______
                                 
       Prepared Statement of the Organic Trade Association (OTA)
    Chairman Aderholt, Ranking Member Farr, and Members of the 
Subcommittee, I am Laura Batcha, Executive Director and CEO of the 
Organic Trade Association (OTA).\1\ The organic agricultural economy 
continues to be one of the fastest-growing sectors of American 
agriculture and is a job creator. The Organic Foods Production Act of 
1990 (OFPA) set in motion the creation of a vibrant marketplace that 
has grown to $35 billion in sales over 22 years, at a 2012 growth rate 
of over 10 percent.\2\ The industry is comprised of over 17,000 organic 
businesses in the U.S., and is creating jobs in the manufacturing 
sector at four times the rate of the economy as a whole.\3\
---------------------------------------------------------------------------
    \1\ The Organic Trade Association is the membership-based business 
association representing more than 6,500 organizations in the organic 
industry including growers, shippers, processors, certifiers, farmers' 
associations, distributors, importers, exporters, consultants, 
retailers, and others. OTA's mission is to promote and protect the 
growth of organic trade to benefit the environment, farmers, the 
public, and the economy.
    \2\ 2013 Organic Trade Association Organic Industry survey.
    \3\ National Organic Program database.
---------------------------------------------------------------------------
    Organic is more than simply a marketing seal; it is a distinct 
production system with independent marketplace dynamics. When viewed as 
a distinct class, organic ranks fourth in food/feed crop production at 
farm-gate values.\4\ This parallel stream of commerce and agricultural 
production is a bright spot in the American marketplace of innovation 
and entrepreneurship. Organic is no longer a niche product category, it 
is a mainstream market.
---------------------------------------------------------------------------
    \4\ NASS USDA 2011 Organic Production Survey.
---------------------------------------------------------------------------
    The Farm Bill passed into law earlier this year recognizes this, 
and brings an enhanced array of authorities and resources to help the 
organic sector continue to grow, innovate, create new markets and jobs, 
provide certified operations new tools to succeed, and ensure access to 
safe and nutritious food supply. To facilitate this, we respectfully 
request the following funding levels for programs pertinent to the 
organic industry: USDA (AMS) National Organic Program--$9.1 million; 
USDA (AMS) Organic Data Initiative--$309,000; USDA (NASS) Organic Data 
Initiative--$250,000; USDA (NIFA) Organic Transition Research Program--
$4 million; USDA (RCBS) Appropriate Technology Transfer for Rural 
Areas--$2.5 million; USDA (ARS) Genetic Improvements and Translational 
Breeding Program--report language directing the funding be fully 
allocated to regionally adapted public cultivar development; and USDA 
(NIFA) Food Safety Outreach Program--$2.5 million.
                     national organic program (nop)
    OTA requests $9.1 million for the National Organic Program, which 
is charged with regulating the organic sector, and not only enforcing 
the organic regulations, but ensuring they evolve to keep pace with 
consumer expectations. This program is vital to meeting growing 
consumer demand for organic products. Recognizing continued growth of 
the industry and the need for fiscal restraint, we ask for $9.1 
million, the amount in the President's Budget and an amount that 
reflects the over 10 percent growth rate of the sector. The industry 
currently returns over $200 for every $1 spent on the NOP, so an 
increased investment would garner a strong return for the Federal 
government.
                     organic data initiative (odi)
    ODI collects and disseminates data regarding organic agriculture 
through the Agricultural Marketing Service (AMS) and the National 
Agricultural Statistics Service (NASS). This program has been 
successful in providing valuable information to Congress, government 
agencies, and the organic industry at a low cost. Because ODI was 
appropriately funded with mandatory funding in the 2014 Farm Bill, we 
ask for a modest amount of $309,000 in discretionary funding for AMS 
and $250,000 in discretionary funding for NASS.
    AMS collects organic prices and disseminates the data through 
Market News Reports, which give producers and buyers farm-gate selling 
prices for several organic products, helping to create a more stable 
organic market. This is an excellent first step, but organic pricing 
information falls far behind what is available to conventional 
agriculture. Organic producers currently receive farm-gate prices for 
only a limited number of products, while conventional producers receive 
farm-gate, terminal, and retail price information for many products in 
all regions of the country. Organic producers, processors, and 
retailers need this information to maintain a stable organic market. 
Moreover, this information is necessary for the Secretary to fulfill 
his recently announced policy directive regarding crop insurance. We 
therefore request $309,000 for AMS to continue and expand organic price 
reporting services in fiscal year 2015.
    NASS provides surveys based on Census of Agriculture data. In 
October 2012, NASS released the Organic Production Survey (2011), the 
second survey to provide a state-by-state collection of the amount of 
farmland used for organic production and gross farm sales of organic 
products. Such information has long been provided for conventional 
production, and should continue to be funded for organic production. 
OTA requests that NASS receive $250,000 in fiscal year 2015, to 
continue work on the next Organic Production Survey.
               organic transition research program (org)
    OTA requests that ORG be funded at $4 million in fiscal year 2015, 
the same level that is included in the President's budget. Authorized 
by Section 406 of the Agricultural Research, Extension, and Education 
Reform Act of 1998, ORG provides funding for research grants that 
specifically study the relationship between organic agriculture and 
improving critical water quality problems. This program consistently 
receives many more funding requests than it can accommodate.
    Organic retail sales have grown to over 4 percent of retail 
agriculture sales, but research funding provided to organic agriculture 
has never exceeded 2 percent of all agriculture research dollars. 
Without continued funding of ORG as an organic-specific research grant 
program, this gap will only increase. The program should be funded at 
$4 million to facilitate growth of this important research.
        appropriate technology transfer for rural areas (attra)
    We request $2.5 million to fund ATTRA, the amount that is found in 
the President's budget. ATTRA helps thousands of organic and 
conventional farmers across the country by supplying information about 
a wide range of issues. Topics that are routinely asked about include 
creating rural jobs by encouraging farming; developing new marketing 
opportunities by focusing on local foods, farm-to-school, and farmers' 
markets; reducing the use of herbicides and pesticides; employing farm 
practices that help protect air, water, and soil resources; and 
reducing energy and water use. ATTRA reports that 30 percent of the 
calls received relate to organic practices.
        genetic improvements and translational breeding program
    OTA requests that the entirety of the funding dedicated to the 
Genetic Improvements and Translational Breeding Program be dedicated to 
regionally adapted public cultivar development. Public resources for 
classical breeding have dwindled in recent decades, and our capacity 
for public breeding is in critical condition. U.S. agricultural 
productivity and resilience will be strengthened by the development of 
new public breeds, lines, and strains with better climate adaptation, 
drought tolerance, disease resistance, nutritional value, production 
efficiencies, and impact on the environment. It is essential that the 
work done by USDA on breeding--investment of public monies--be 
dedicated entirely to regionally adapted public cultivar development. 
Public monies should go to public research, not research on privately 
held breeding technologies.
                      food safety outreach program
    OTA requests that the Food Safety Outreach Program be funded at 
$2.5 million, the amount that is in the President's budget. This will 
provide food safety training and technical assistance, education, and 
extension to owners and operators of small farms, small food 
processors, and small fruit and vegetable vendors affected by the Food 
Safety Modernization Act of 2011 (FSMA). This money will help farmers 
and food processors understand, interpret, implement, and comply with 
the new food safety regulations currently being proposed by the FDA.
                               conclusion
    Organic agriculture creates economic opportunities for farmers and 
rural communities, while improving and conserving the condition of the 
environment and giving consumers the choice to buy foods and other 
products that are produced according to organic standards. Meeting 
these funding requests will help to ensure the continued growth of U.S. 
organic agriculture by promoting and supporting the integrity of the 
organic label, providing important data, and continuing to support 
research for organic agriculture.
    I thank the Committee and look forward to working with you to 
advance the organic industry.
    [This statement was submitted by Laura Batcha, Executive Director 
and CEO of the Organic Trade Association (OTA).]
                                 ______
                                 
     Prepared Statement of the Outreach and Assistance to Socially 
             Disadvantaged and Veteran Farmers and Ranchers
    As the subcommittee considers fiscal year 2015 Agriculture 
Appropriations, we urge you to provide adequate funding for a set of 
critical programs that make a real difference in communities that most 
need support. While only a fraction of the full agriculture budget 
these are the lifeblood for socially disadvantaged, new entry and 
veteran producers, farmworkers and communities:
    Outreach and Assistance to Socially Disadvantaged and Veteran 
Farmers and Ranchers: We request that the committee restore the funding 
base of the OASDVFR Program to allow the Secretary of Agriculture to 
assist both socially disadvantaged and veteran farmers and ranchers in 
participating equitably in the full range of USDA agricultural 
programs. Specifically we urge you to provide not less than $10 million 
in additional funding to supplement the direct funding of $10 million 
annually in order to assure the program can accommodate both the 
traditional and new constituencies of the program, and ensure that 
Veteran Farmers and Ranchers are able to fully benefit from the 
program.
    The OASDVFR Program helps our nation's historically underserved 
producers gain access to the United States Department of Agriculture's 
credit, commodity, conservation and other programs and services by 
supporting technical assistance to producers through community-based 
organizations, tribes and educational institutions best prepared to 
reach and serve them. Established in Section 2501 of the 1990 Farm 
Bill, OASDFR provides technical assistance to reduce the trend among 
socially disadvantaged producers of engaging in fewer farm program 
payments, fewer and lower-valued loans, and less outreach and training 
than other producers.
  --The OASDVFR Program in recent years has served more than 100,000 
        rural constituents and is an invaluable resource for the more 
        than 400 counties in more than 35 states serving a wide range 
        of socially disadvantaged recipients living in persistent 
        poverty areas of the country.
  --The program is bringing diverse producers back to USDA or in the 
        door for the first time greatly increasing participation in the 
        NRCS High-tunnel program and the FSA microloan program. OASDVFR 
        programs are fundamental to the goals and work of Secretary 
        Vilsack's Strikeforce Initiative.
  --The 2014 Farm Bill expanded the program to include Veteran Farmers 
        and Ranchers, but with a 50 percent reduction from previous 
        funding levels to provide only $10 million in direct funds 
        annually. With adequate resources, the OASDVFR Program can also 
        provide critical support for veteran farmers and ranchers. The 
        2010 Census identified 21.9 million veterans in 2009, including 
        156,000 American Indian Veterans, 2.4 million African American 
        Veterans, 1.2 million Hispanic Veterans, and 265,000 Asian 
        Veterans. Many Veterans are from rural areas.
  --The lack of funding for the program in fiscal year 2013 has meant 
        that groups receiving support have already or are laying off 
        hundreds of experienced staff as the final year of their 
        contacts have expired creating a service gap to thousands of 
        producers who need their assistance to access USDA programs. 
        Restoring these services is essential with a new Farm Bill 
        coming into effect.
    We strongly support this important program and ask you to support 
funding at the fully authorized level to ensure both the traditional 
constituencies and the expanded constituency of Veteran Farmers and 
Ranchers are able to fully benefit from the program.
    USDA Coordination Activities: Beginning and socially disadvantaged 
producers have long needed an office at USDA to help better understand 
and utilize the wide array of USDA services. The Office of Advocacy and 
Outreach, established in the 2008 Farm Bill, is in full operation and 
working effectively with communities across the nation to provide 
equitable access to its programs and enhance the viability and 
profitability of our nation's diverse and new entry producers. We urge 
you to provide the full $2 million authorized to support OAO's staffing 
and operational needs and activities related to the new Military 
Veterans Agricultural Liaison as well as the Farmworker Coordinator and 
the OASDVFR Program; overseeing the Advisory Committees on Minority 
Farmers and Ranchers, and Beginning Farmers and Ranchers; and managing 
the 1890, 1994 and Hispanic serving institutions programs. Adequate OAO 
funding will enhance coordination among USDA agencies as a new Farm 
Bill takes effect to include underserved constituencies and Strikeforce 
areas.
    In order to provide critically needed services to tribal producers, 
we urge you to expand funding for the federally Recognized Tribal 
Extension Program (FRTEP) to at least $10 million for fiscal year 2015 
to reach at least 100 of the 566 Tribes. Congress mandates research and 
extension services in every county in the nation--over 3,100 offices 
nationwide, funded cooperatively by county, state, and Federal levels 
of government. Extension services are not extended to Indian 
Reservations, except through the limited Federal funds provided through 
USDA to the FRTEP. Tribes contribute in-kind cost share for office 
space and a small portion of operating expenses.
    Only 36 extension agents are supported on Indian reservations with 
current funding of $3 million. The inadequate funding of FRTEP has a 
profound negative impact on the long-term viability of tribal 
agriculture, which remains a critical basis for the economic security, 
health and nutrition of Native Americans.
    Fewer than 4 percent of American Indians living on America's Indian 
reservations have access to these programs, yet more than 97 percent of 
America's counties have had robust programs since 1914. Increased 
funding would allow FRTEP to serve better the many tribes who have 
repeatedly requested full access to these programs. It is time that 
Native American producers, families, youth and reservation residents 
receive the same level of service as US citizens who are not 
reservation-bound. In order to correct this grave inequity, we urge you 
to provide $10 million for this program in the fiscal year 2015 
Agriculture Appropriation.
    The Beginning Farmer and Rancher Individual Development Account 
(BFRIDA) Program is designed to help beginning farmers and ranchers of 
limited means finance their farming endeavors through business and 
financial education and matched savings accounts. This new program 
helps individuals with financial training and assistance so they can 
build assets and make needed purchases to get started in agriculture. 
We urge you support of $2.5 million fiscal year 2015 appropriation for 
BFRIDA so it can work together with other new farmer initiatives to 
create economic opportunities and greater stability for both urban and 
rural beginning farmers. We further urge you to support the President's 
fiscal year 2015 Budget Request for program leve1s of $1.5 billion for 
Direct Farm Ownership loans and $1.252 billion for Direct Operating 
Loans. We also urge you to instruct FSA to develop price information to 
improve eligibility and lending capabilities for farmers growing for 
local and regional food markets.
    We also urge you to ensure that farmers and ranchers who are in 
economic trouble receive fair loan restructuring and servicing of their 
loans by funding the Federal match for State Mediation Programs at $5 
million. These programs currently operate in 40 states.
    Sustainable Agriculture Research and Education (SARE)--We request 
that you invest in critical sustainable agriculture research and 
education conducted at the field level by farmers themselves by 
including funding for fiscal year 2015 of $30 million the SARE program.
    Healthy Food Financing Initiative: We urge you improve health 
outcomes and increase access to healthy foods for low-income people by 
strengthening local food systems through significant investments of 
funds from both the Department of Agriculture and Department of 
Treasury necessary to get the Healthy Food Financing Initiative fully 
operational in fiscal year 2015.
    Summer Electronic Benefits Transfer BT (SEBTC) pilot projects: For 
the past 2 years, USDA has been conducting pilot projects in eight 
states and two Indian nations that used electronic benefits to reach 
children when school meals are unavailable. These pilots have been 
proving remarkably successful at reducing childhood hunger and we urge 
they be continued with a $30 million investment.
    Agriculture and Food Research Initiative (AFRI): We support 
inclusion of report language and funding for increased public research 
and development of seed varieties and livestock breeds to ensure the 
diversity of our nation's food supply. Specifically, we urge the 
inclusion of report language on public cultivar development be included 
under AFRI, and for USDA to see classical plant and animal breeding as 
a priority area within the AFRI process.
    Rural Cooperative Development Grants: We urge you to provide $9.1 
million for RCDG, including $3 million for centers targeting socially 
disadvantaged producers to assist individuals in beginning and 
expanding cooperatives. We oppose the Administration's proposal to 
consolidate RCDC into a Rural Business and Cooperative Grants program.
    Rural Microenterprise Assistance Program: We urge you to foster 
development in rural areas by preserving the full mandatory funding of 
$3 million as provided in the 2014 Farm bill and by adding an 
additional $3.3 million in discretionary funding, for total support of 
$6.3 million.
    Value-Added Producer Grants: VAPG offers grants to farmers and 
ranchers developing farm- and food-related businesses that boost farm 
income and create jobs in rural America. Growing interest in local and 
regional foods means greater need for regional supply chains and 
enterprises that aggregate local production, exactly the kind of rural 
development strategy VAPG is designed to support. We request no changes 
in mandatory program spending as well as $15 million in discretionary 
funding for VAPG, the same level as included in the final fiscal year 
14 bill.
    Food Safety Training: We urge you to provide funding to assist 
farmers to adapt to coming Food Safety and Modernization Act rules for 
Food Safety Training at $5 million for fiscal year 2015.
    Appropriate Technology Transfer for Rural Areas: We urge you to 
provide $2.5 million to ATTRA for fiscal year 2015 to provide support 
to farmers and extension agents across the country.
    Organic Transitions Integrated Research Program: We urge you to 
provide $5 million to invest in new organic research with farmer 
delivery systems included and allow organics a fairer portion of the 
research budget.
    Federal-State Market Improvement Program: We request funding be 
continued at the fiscal year 2014 level of $1.363 million. This program 
is critical in matching funds to state departments of agriculture to 
assist with research and creating new markets for farmers.
    Conservation Programs: We further urge you to protect and maintain 
direct funding for agricultural conservation programs including the 
Environmental Quality Incentive Program and the Conservation 
Stewardship Program, and other programs that help producers across the 
nation protect their land. The diverse producers we represent are 
returning to USDA through these programs, and building up small 
operations that care for the land and contribute to the economic 
viability of small rural communities in some of the poorest areas of 
the nation.
    Implementation and Enforcement of Existing Laws: We strongly 
support allowing USDA to implement and enforce existing laws relating 
to provisions of Country of Origin Labeling (COOL) and the Grain 
Inspection Packers and Stockyards Administration (GIPSA) as included in 
the 2008 Farm Bill. We strongly oppose the use of riders within the 
appropriations process to limit the authority of the USDA to enforce 
these important laws.
    As you proceed with funding for these important programs for fiscal 
year 2015, we urge you to consider the impacts of your funding 
decisions on the next generation of American farmers and ranchers, and 
with great care to being inclusive of beginning, minority, tribal, 
women, and limited resource farmers who are often in most need of these 
important programs.
    Rural Coalition/Coalicin Rural, Washington, DC Community Food & 
Justice Coalition, Oakland, CA Farmers Veteran Coalition, Davis, CA
    Federation of Southern Cooperatives Rural Training and Research 
Center, Epes, AL
    National Alliance of Farmworker Women, Oxnard, CA National Family 
Farm Coalition, Washington, DC National Hmong American Farmers, Inc., 
Fresno, CA
    National Latino Farmers and Ranchers Trade Association, Washington, 
DC
    National Sustainable Agriculture Coalition, Washington, DC
    North Carolina Association of Black Lawyers Land Loss Prevention 
Project, Durham, NC
    21st Century Youth Leadership Movement, Eutaw, Alabama Alabama 
State Association of Cooperatives, Forkland, AL Albany Food Justice 
Coalition, Albany, NY
    American Federation of Government Employees Local 3354, St. Louis, 
MO
    American Indian Mothers Inc., Shannon, NC
    Arkansas Land and Community Development Corporation, Brinkley, AR
    Ashtabula, Geauga, Lake Counties Farmers Union (Ohio), OH Atrisco 
Land Grant, Atrisco, New Mexico
    California FarmLink, Santa Cruz, CA
    Carolina Farm Stewardship Association, Pittsboro, NC CASA del 
Llano, Hereford, TX
    Center for Social Inclusion, New York, NY Citizens For Water, New 
York, NY
    Colorado Latino Farmers and Ranchers, Antonito, CO
    Concerned Citizens of Wagon Mound and Mora County, Wagon Mound, NM
    Dakota Rural Action, Brookings, SD
    Damascus Citizens for Sustainability, Milanville, PA
    Delgado Farms, El Paso, TX
    Ecohermanas, Washington, DC
    Environmental Justice and Health Alliance for Chemical Policy 
Reform, Washington, DC
    Fair World Project, Portland, OR
    Farmworker Association of Florida, Apopka, FL
    Fernandez Ranch, Centerville, WA FOCUS Churches of Albany, Albany, 
NY
    Food Chain Workers Alliance, Los Angeles, CA Grassroots 
International, Boston, MA
    Hmong National Development, Inc., Washington, D.C. Hunger Action 
Network of New York State, New York, NY
    Indian Country Agriculture and Resource Development Cooperation, 
Anadarko, OK Indian Nations Conservation Alliance, Twin Bridges, MT
    Institute for Agriculture and Trade Policy, Minneapolis, MN Land 
Stewardship Project, MN
    Latino Economic Development Center, Minneapolis, MN Local Matters, 
Columbus, OH
    Los Jardines Institute (The Gardens Institute), Albuquerque, NM 
Maine Rural Partners, Orono, MAINE
    Michael Fields Agricultural Institute, East Troy, WI Mississippi 
Association of Cooperatives, Jackson, MS
    Nebraska Sustainable Agriculture Society, Ceresco, NE
    Northern New Mexico Stockmans' Association, Espanola, New Mexico
    Northwest Farm Bill Action Group, Seattle, WA Northwest Forest 
Worker Center, Albany, CA NYH2O, New York, NY
    Oklahoma Black Historical Research Project, Inc., Oklahoma City, OK
    Operation Spring Plant, Inc., Oxford, NC Orangeburg County Young 
Farmer, Orangeburg, SC Pesticide Action Network, Oakland, CA
    Pululu Farms, Arroyo Seco, NM
    Quote...Unquote, Inc, Albuquerque, NM Roots of Change, Oakland, CA
    Rural Advancement Fund, Orangeburg, SC
    Rural Development Leadership Network, New York, NY
    San Diego 1 in 10 Coalition, San Diego, CA San Diego Hunger 
Coalition, San Diego, CA Slow Food California, Sacramento, CA
    South Valley Regional Association of Acequias, Albuquerque, NM
    Southwest Workers Union, San Antonio, TX
    Taos County Economic Development Corporation, Taos, NM
    Victory Garden Foundation, Oakland, CA Viva Farms, Burlington, WA
    Western Sustainable Agriculture Working Group, Austin, NV 
WhyHunger, New York, NY
    Winston County Self Help Coop, Louisville, MS World Farmers, Inc., 
Lancaster, MA

    [This statement was submitted by Lorette Picciano, Rural 
Coalition.]
                                 ______
                                 
      Prepared Statement of the Pickle Packers International, Inc.
concern for sustained and increased research funding usda/agricultural 
                            research service
Summary
    Sustained and increased funding is desperately needed to maintain 
the research momentum built over recent years and to defray rising 
fixed costs at laboratory facilities. Companies in the pickled 
vegetable industry generously participate in funding and performing 
short-term research, but the expense for long-term research needed to 
insure future global competitiveness is too great for individual 
companies to shoulder on their own.
Additional Budget Requests for fiscal year 2015
    Funding needs for USDA/ARS laboratories are as follows:

         I. Requests for Program Enhancement--Pickled Vegetables
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Emerging Disease of Crops...............................        $500,000
Quality and Utilization of Agricultural Products & Food          500,000
 Safety.................................................
Applied Crop Genomics...................................         500,000
Specialty Crops.........................................         500,000
    Total Program Enhancements Requested--Pickled             $2,000,000
     Vegetables.........................................
------------------------------------------------------------------------

                      usda/ars research provides:
  --Consumers with over 150 safe and healthful vegetable varieties 
        providing vitamins A, C, folate, magnesium, potassium, calcium, 
        and phytonutrients such as antioxidant carotenoids and 
        anthocyanins.
  --Genetic resistance for many major vegetable diseases, assuring 
        sustainable crop production with reduced pesticide residues--
        valued at nearly $1 billion per year in increased crop 
        production.
  --Classical plant breeding methods combined with bio-technological 
        tools, such as DNA markers, genetic maps, and genome sequence 
        to expedite traditional breeding and increase efficiency.
  --New vegetable products with economic opportunities amidst 
        increasing foreign competition.
  --Improved varieties suitable for machine harvesting, assuring post 
        harvest quality and marketability.
  --Fermentation and acidification processing techniques to improve the 
        efficiency of energy use, reduce environmental pollution, and 
        reduce clean water intake while continuing to assure safety and 
        quality of our products.
  --Methods for delivering beneficial microorganisms in fermented or 
        acidified vegetables, and produce reduced sodium, healthier 
        products.
  --New technology and systems for rapid inspection, sorting and 
        grading of pickling vegetable products.
                     health and economical benefits
  --Health agencies continue to encourage increased consumption of 
        fruits and vegetables, useful in preventing heart disease, 
        cancer, stroke, diabetes and obesity.
  --Vegetable crops, including cucumbers, peppers, carrots, onions, 
        garlic and cabbage (sauerkraut), are considered ``specialty'' 
        crops and not part of commodity programs supported by taxpayer 
        subsidies.
  --Current farm value for just cucumbers, onions and garlic is 
        estimated at $2.4 billion with a processed value of $5.8 
        billion. These vegetables are grown and/or manufactured in all 
        50 states.
  a statement of concern for sustained and increased research funding 
                   usda/agricultural research service
    The pickled vegetable industry strongly supports and encourages 
your committee in its work of maintaining and guiding the Agricultural 
Research Service. To accomplish the goal of improved health and quality 
of life for the American people, the health action agencies of this 
country continue to encourage increased consumption of fruits and 
vegetables in our diets. Accumulating evidence from the epidemiology 
and biochemistry of heart disease, cancer, diabetes and obesity 
supports this policy. Vitamins (particularly A, C, and folic acid), 
minerals, and a variety of antioxidant phytochemicals in plant foods 
are thought to be the basis for correlation's between high fruit and 
vegetable consumption and reduced incidence of these debilitating and 
deadly diseases.
    As an association representing processors that produce over 85 
percent of the tonnage of pickled vegetables in North America, it is 
our goal to produce new products that increase the competitiveness of 
U.S. agriculture as well as meet the demands of an increasingly diverse 
U.S. population that is encouraged to eat more vegetables. The profit 
margins of growers continue to be narrowed by foreign competition. This 
industry can grow by meeting today's lifestyle changes with reasonably 
priced products of good texture and flavor that are high in nutritional 
value, low in negative environmental impacts, and produced with assured 
safety from pathogenic microorganisms and from those who would use food 
as a vehicle for terror. With strong research to back us up, we believe 
our industry can make a greater contribution toward reducing product 
costs and improving human diets and health for all economic strata of 
U.S. society.
    Many small to medium sized growers and processing operations are 
involved in the pickled vegetable industry. We grow and process a group 
of vegetable crops, including cucumbers, peppers, carrots, onions, 
garlic, cauliflower, cabbage (Sauerkraut) and Brussels sprouts, which 
are referred to as `minor' crops. None of these crops are in any 
``commodity program'' and do not rely on taxpayer subsidies. However, 
current farm value for just cucumbers, onions and garlic is $2.4 
billion with an estimated processed value of $5.8 billion. These crops 
represent important sources of income to farmers and rural America. 
Growers, processing plant employees and employees of suppliers to this 
industry reside in all 50 states. To realize its potential in the 
rapidly changing American economy, this industry will rely upon a 
growing stream of appropriately directed basic and applied research 
from four important research programs within the Agricultural Research 
Service.
                         applied crop genomics
    The USDA/ARS has the only vegetable crops research unit dedicated 
to the genetic improvement of cucumbers, carrots, onions and garlic. 
ARS scientists account for approximately half of the total U.S. public 
breeding and genetics research on these crops. Their efforts have 
yielded cucumber, carrot and onion cultivars and breeding stocks that 
are widely used by the U.S. vegetable industry (i.e., growers, 
processors, and seed companies). These varieties account for over half 
of the farm yield produced by these crops today. All U.S. seed 
companies rely upon this program for developing new varieties, because 
ARS programs seek to introduce economically important traits (e.g., 
pest resistances and health-enhancing characteristics) not available in 
commercial varieties using long-term high risk research efforts. The 
U.S. vegetable seed industry develops new varieties of cucumbers, 
carrots, onions, and garlic and over twenty other vegetables used by 
thousands of vegetable growers. Their innovations meet long-term needs 
and bring innovations in these crops for the U.S. and export markets, 
for which the U.S. has successfully competed.
    ARS scientists have developed genetic resistance for many major 
vegetable diseases that is estimated at $670 million per year in 
increased crop production, not to mention environmental benefits due to 
reduction in pesticide use. New research has resulted in cucumbers with 
improved disease resistance, pickling quality and suitability for 
machine harvesting. New sources of genetic resistance to viral and 
fungal diseases, tolerance to environmental stresses, and higher yield 
have recently been identified along with molecular tools to expedite 
delivery of elite cucumber lines to U.S. growers.
    There are still serious vegetable production problems which need 
attention. For example, losses of cucumbers, onions, and carrots in the 
field due to attack by pathogens and pests remains high, nutritional 
quality needs to be significantly improved and U.S. production value 
and export markets should be enhanced. Genetic improvement of all the 
attributes of these valuable crops are at hand through the unique USDA 
lines and populations (i.e., germplasm) that are available and the new 
biotechnological methodologies that are being developed by the group. 
The achievement of these goals will involve the utilization of a wide 
range of biological diversity available in the germplasm collections 
for these crops. Classical plant breeding methods combined with bio-
technological tools such as DNA markers, genetic maps, and genome 
sequences to expedite traditional cucumber, carrot and onion breeding 
and increase its efficiency. With this, new high-value vegetable 
products based upon genetic improvements developed by our USDA 
laboratories can offer vegetable processors and growers expanded 
economic opportunities for U.S. and export markets.
     quality and utilization of agricultural products & food safety
    The USDA/ARS maintains a food science research unit that our 
industry looks to for new scientific information on the safety of our 
products and development of new processing technologies related to 
fermented and acidified vegetables. Major accomplishments include: 
pasteurization treatments currently used for most acidified vegetables; 
the preservation technology used for manufacturing shelf stable sweet 
pickles; and fermentation technology (purging) used to prevent the 
formation of air pockets within fermented pickles. With the passage of 
the Food Safety Modernization Act, commercial producers of acidified 
foods must prove that they meet critical limits established for 
microbial safety. USDA-ARS has supplied technical expertise and the 
scientific data needed to define safe processing conditions for 
domestic and imported pickled vegetable products, saving considerable 
expense to the industry for microbial challenge studies. These data are 
currently used to support required process filings, and have helped 
establish a scientific basis for acidified food regulations. Additional 
funding is needed to support the important research initiatives 
detailed below.
    First, nearly all retail pickled vegetables are pasteurized for 
safety and shelf stability. Current steam and water bath pasteurizers 
rely on technology from the 1940s and 50s. Promising new technologies 
include continuous flow microwave technology and ``hot-fill-and-hold'' 
pasteurization. The objective is to reduce water use and significantly 
improve energy efficiency with new, scientifically validated thermal 
processing technology.
    Second, additional research that offers significant economic and 
environmental advantages to the U.S. industry includes the reduction or 
replacement of salt in commercial vegetable fermentations and bulk 
acidification. Calcium substitution of salt in commercial vegetable 
processing has the potential to significantly reduce chloride levels in 
waste waters and sludge currently delivered to landfills; and create 
opportunities to manufacture healthier, calcium enriched, reduced 
sodium vegetable products. Reducing environmental impact and production 
costs for the manufacture of healthier products is essential to the 
sustainability of the U.S. industry.
    Third, the market of refrigerated vegetable products is rapidly 
growing in the U.S. These products are attractive to conscientious 
customers targeting healthier, beneficial and bioactive food 
formulations. Fermented vegetables presented in the refrigerated sector 
deliver natural microbiota perceived as probiotic bacteria by a growing 
market. New processing technologies and knowledge of the intrinsic 
value of the natural microbiota in fermented vegetables are needed to 
develop genuine, high value, probiotic vegetable products that provide 
health benefits for the average U.S. citizen.
                            specialty crops
    The USDA/ARS conducts research on the development of innovative 
technologies for rapid, nondestructive measurement and grading of 
fruits and pickling vegetables to enhance product quality and 
marketability and achieve labor cost savings. The research program is 
nationally and internationally recognized for its pioneering research 
and development and technology transfer effort in imaging and 
spectroscopic inspection technologies, which have found wide 
applications in food quality and safety inspection. Currently, ARS 
researchers are developing a spectral imaging-based common inspection 
platform and other related sensing technologies with substantially 
improved capabilities for quality evaluation and grading of pickling 
vegetables and fruits at the processing facility and in the field.
    Development of new and/or improved sensing technologies will help 
growers and processors assess, monitor, inspect, and grade pickling 
vegetables and horticultural products rapidly and accurately for 
internal and external quality characteristics at various steps of 
harvest and postharvest handling and processing operations. This will 
minimize postharvest losses of food that has already been produced, 
ensure high quality, consistent final product and consumer 
satisfaction, and reduce production cost. Expansion of the USDA/ARS 
research in food quality sensing and automation is critically needed, 
so that it can develop and deliver these much needed technologies to 
the specialty crop industry.
                       emerging disease of crops
    USDA/ARS vegetable research addresses national problems confronting 
the vegetable industry of the southeastern U.S. The mission of the 
laboratory is to develop disease and pest resistant vegetables, and 
also new, reliable, environmentally-sound disease and pest management 
practices that do not rely on conventional pesticides. Programs 
currently address 14 crops, including those in the cabbage, cucumber, 
and pepper families, all of major importance to the pickling industry. 
USDA/ARS research is recognized world-wide, and its accomplishments 
include over 150 new vegetable varieties and many improved management 
practices.
    Expansion of this program would directly benefit the southeastern 
vegetable industry. Vegetable growers depend heavily on synthetic 
pesticides to control diseases and pests. Without the availability of 
certain pesticides that have been eliminated for use, producers are 
likely to experience crop failures unless other effective, non-
pesticide control methods are readily identified. In this context, the 
research on improved, more efficient and environmentally compatible 
vegetable production practices and resistant varieties continues to be 
absolutely essential. This research can help provide U.S. growers with 
a competitive edge they need to sustain and keep their industry 
vibrant, allowing it to expand in the face of increasing foreign 
competition. Current cucumber varieties are highly susceptible to a new 
strain of the downy mildew pathogen which has caused considerable 
damage to commercial cucumber production in eastern states in recent 
years. A new plant pathologist position could address this critical 
situation.
                      funding needs for the future
    It remains critical that funding continues the forward momentum in 
pickled vegetable research that the U.S. now enjoys and to increase 
funding levels as warranted by planned expansion of research projects 
to maintain U.S. competitiveness. The diverse array of companies making 
up our industry assumes responsibility for short-term research, but the 
expense and risk are too great for individual companies to commit to 
the long-term research needed to insure future competitiveness.
    It is important to note that fiscal year 2013 Enacted funding for 
USDA/ARS laboratories totaled $10,212,000. However, fiscal year 2013 
Enacted funding for all cucurbits equaled just $3,665,000 with only 
$1,876,000 directed toward cucumber and pickled vegetable research. For 
fiscal year 2015, PPI is requesting an additional $2,000,000 in program 
enhancements that will provide needed research for cucumber and pickled 
vegetables.
                       emerging disease of crops
    There is a critical need to establish and fund a plant pathology 
position to address cucumber diseases, especially the disease caused by 
a new strain of the downy mildew pathogen responsible for recent 
extensive damage to cucumber production in eastern states. The 
pathologist is needed to characterize pathogen strains and to develop 
new management approaches, as well as resistant cucumber varieties, to 
combat the disease. Ultimately, this proposed plant pathologist would 
accomplish research that results in effective protection of cucumbers 
from disease without the use of conventional pesticides.

------------------------------------------------------------------------
                                                       Amount
------------------------------------------------------------------------
Fiscal year
    2013Enacted...........................  $425,000
    2014 Estimate.........................  $425,000
    2015 (Proposed budget)................  To be determined
    2015 Additional Request (Plant          $500,000
     Pathologist & support).
------------------------------------------------------------------------

    quality and utilization of agricultural products and food safety
    The current funding includes research and development for a variety 
of vegetable products, including fermented and acidified vegetables. 
For new research initiatives to reduce energy and water use, reduce 
environmental impact from commercial fermentations, and develop new 
health-promoting food (probiotic) technology, we request additional 
support of $500,000. This will provide support for Post-Doctoral or 
Pre-Doctoral research associates along with necessary equipment and 
supplies.

------------------------------------------------------------------------
                                                       Amount
------------------------------------------------------------------------
Fiscal year
    2013 Enacted..........................  $599,000
    2014 Estimate.........................  $599,000
    2015 (Proposed budget)................  To be determined
    2015 Additional Request (Post-doctoral  $500,000
     and Pre-doctoral Research Associate &
     support).
------------------------------------------------------------------------

                         APPLIED CROP GENOMICS

    Emerging and persisting diseases, such as downy mildew, 
southern root knot nematode, and angular leaf spot of cucumber, 
threaten production of the crop in all production areas. We 
request an additional $500,000 to fully fund the scientists and 
support staff, including graduate students and post-doctorates 
for identifying and researching new sources of genetic 
resistance to emerging diseases.

------------------------------------------------------------------------
                                                       Amount
------------------------------------------------------------------------
Fiscal year                                 ............................
    2013 Enacted..........................  $421,000
    2014 Estimate.........................  $421,000
    2015 (Proposed budget)................  To be determined
    2015 Additional Request (Post-doctoral  $500,000
     and Pre-doctoral Research Associate &
     support).
------------------------------------------------------------------------

                            specialty crops
    The current funding is far short of the level needed to carry out 
research on inspection, sorting and grading of pickling cucumbers and 
other vegetable crops to assure the processing and quality of pickled 
products. An increase of $550,000 in the current base funding level 
would be needed to fund the research engineer position.

------------------------------------------------------------------------
                                                       Amount
------------------------------------------------------------------------
Fiscal year                                 ............................
    2013 Enacted..........................  $145,000
    2014 Estimate.........................  $145,000
    2015 (Proposed budget)................  To be determined
2015 Additional Request (Research Engineer  $500,000
 & support).
------------------------------------------------------------------------

                                ------                                

  Prepared Statement of the Rural Cooperative Development Grant (RCDG)
    CooperationWorks! is requesting the Rural Cooperative Development 
Grant (RCDG) program of USDA's Rural Business--Cooperative Service be 
continued in the fiscal year 2015 Agriculture, Rural Development, Food 
and Drug Administration, and Related Agencies Appropriations bill.
    The President's fiscal year 2015 budget request, like the previous 
fiscal year 2014 budget request, contains a proposal to eliminate a 
number of rural development programs, including the Rural Cooperative 
Development Grant (RCDG) program, and consolidate them into a new $57.5 
million economic development grant program. CooperationWorks! is 
seriously concerned with the elimination of the only program in the 
Federal government focused on the development of cooperative 
enterprise, providing needed technical assistance for cooperative 
expansion and start-up. The consolidation of the RCDG program in our 
view will diminish the agency's focus and mission of supporting the 
advancement of self-help programs, and cooperatives specifically, and 
further takes away the ability of Congress to establish priorities and 
accountability for the programs that Congress has historically 
authorized and funded.
    As the only network of technical assistance providers in the United 
States, connecting over 100 professionals in rural and urban areas 
alike, covering all 50 states, CooperationWorks! expresses its strong 
support for the Rural Cooperative Development Grant (RCDG) program and 
encourages the committee to support it through funding in fiscal year 
2015 and beyond that will continue to allow cooperative development 
centers to operate and further expand its reach into more rural 
communities to provide the types of technical assistance to 
cooperatives that allow for economic growth and job creation. In 
addition, we request for initial funding of a new interagency working 
group that was created in the recent Farm Bill and which is to be 
coordinated and chaired by USDA. This funding would help to further 
efforts to foster cooperative development and ensure coordination with 
Federal agencies and national and local cooperative organizations that 
have cooperative programs and interests.
    The RCDG program is a competitive grants program, administered by 
USDA's Rural Development, Rural Business-Cooperative Services Program. 
The primary objective of the RCDG program is to improve the economic 
condition of rural areas by assisting individuals or entities in the 
startup, expansion, or operational improvement of rural cooperatives 
and other business entities. Grants are awarded competitively on an 
annual basis to nonprofits or institutions of higher education that 
operate cooperative development centers who provide technical 
assistance to those seeking to form cooperatively owned businesses in 
rural areas. The maximum grant amount that USDA provides in a fiscal 
year is $200,000. There is a 25 percent cost share requirement of the 
total project cost (5 percent cost share for 1994 Institutions). 
Cooperative development centers currently serve rural communities in 
all 50 states. They use the grants to fund critical technical 
assistance for economic development, such as legal and accounting 
assistance, feasibility studies, business planning, board education, 
and other services that help ensure the success of these businesses.
    We understand that in this current fiscal environment, Federal 
funding is limited and Congress has to make tough spending choices. We 
believe funding in the RCDG account is a sound investment toward rural 
economic development and job growth for more Americans. Through outcome 
surveys conducted among the RCDG recipients in our membership, which 
includes over half of all RCDG funded centers, we found that in 2011 
for every $1,362 in Federal dollars there was a result of one job saved 
or created. This efficient use of program funds is possible because of 
the matching funding requirement in the program, the self-help nature 
of the cooperative business model, and the efficient use of funds 
stewarded by RCDG program recipients.

    [This statement was submitted by Tom Pierson, Advocacy Chair for 
CooperationWorks!]
                                 ______
                                 
  Prepared Statement of the Society for Women's Health Research (SWHR)
    SWHR is pleased to submit written testimony to urge the Committee 
to prioritize and provide an increase to the fiscal year 2015 budget 
authority (BA) appropriations (non-user fees) for the Food and Drug 
Administration (FDA) of $2.784 billion, a $223 million increase over 
fiscal year 2014 and $200 million above the President's budget proposal 
for FDA. In addition, SWHR supports an allocation of $7 million for the 
FDA Office of Women's Health (OWH) for fiscal year 2015. These 
recommended allocations will allow the FDA to address resource 
shortages across all centers, implement critical improvements in 
infrastructure, and continue investment in OWH, the critical voice on 
women's health and women's health research within the Agency.
    The FDA, as regulator of products covering more than a quarter of 
the US economy, should receive priority funding as its responsibilities 
are critical to the health and well-being of all Americans. Each year, 
Congress adds to FDA's ever increasing responsibilities but does not 
provide appropriate funds to meet those demands reasonably, straining 
the FDA's abilities. The fiscal year 2015 appropriations must reflect 
an amount that meets the needs of the Agency demanded by Congress.
    More than 47 percent of Americans have a chronic disease and 22 
percent have multiple conditions. Eighty-two percent of Americans take 
over the counter or prescription medications and 30 percent take more 
than 5 medications. American consumers and patients expect proactive 
scientific and research leadership from the FDA while demanding 
assurance of the safety and effectiveness of their food, drugs and 
cosmetics. To meet this expectation, the FDA spends over 80 percent of 
its budget on salary costs in maintaining and recruiting talented and 
smart researchers and scientists who can keep pace with scientific 
innovation. Globalization and the complexity of our scientific research 
world have put demands on the FDA that need additional appropriated 
resources. Unfortunately, due to congressional funding levels and COLA 
requirements, FDA annually is challenged and must frequently postpone 
needed investments in infrastructure, technology, and human collateral 
due to budget constraints.
    While SWHR recognizes that Congress is focused on reducing our 
Federal deficit, appropriate budgetary allocation must be provided to 
allow FDA to react in a proactive manner for new scientific innovation 
and against emerging or known threats to food and drug security. As the 
thought leader in research on biological sex differences in disease, 
SWHR is dedicated to transforming women's health through science, 
advocacy, and education and believes that sustained funding for the FDA 
and its regulatory responsibilities is absolutely essential if the U.S. 
is to meet the needs of its citizens, especially women, and maintain 
its gold standard.
    In the past two decades, scientists have uncovered significant 
biological and physiological differences between men and women. 
Traditionally, the term women's health represented a women's 
reproductive capability because science and medicine believed that 
women and men were biologically the same. We now know this is not the 
case.
    Biological and physiological differences and hormonal fluctuations 
play a role in the rate of drug absorption, distribution, metabolism, 
elimination as well as ultimate effectiveness of response in females as 
opposed to males. Information about the ways drugs may differ in 
various populations, however, is often unexplored. As was noted by the 
FDA in a recent The 60 Minutes segment (Feb. 9, 2014), women may 
require a lower dosage of some drugs because of different rates of 
absorption or metabolism (Ambien). The 60 Minutes highlighted the 
importance of sex and gender differences research and the need to 
examine sex from the earliest phases of research, starting in basic 
science.
    The FDA has a critical role in human subject research in assuring 
female recruitment and retention is set at appropriate levels and not 
too low to provide statistically significant results in research. 
American women should have the confidence that drugs, devices and 
biologics that have been approved for use in both men and women have 
been appropriately analyzed for sex differences and the finding 
publicly reported to a meaningful way for usage by both healthcare 
providers and patients. America's biomedical development process, while 
continuing to deliver new and better targeted medications to combat 
disease, does not routinely analyze and reported sex differences. FDA's 
must enforce its own requirement that the data acquired during research 
of a new drug or device's safety and efficacy be reported and analyzed 
by sex.
    Pursuant to Section 907 of the Food and Drug Administration Safety 
and Innovation Act of 2012 (FDASIA), the FDA released a report on 
August 20, 2013 on the inclusion of demographic subgroups in clinical 
trials and data analysis in drugs, biologic and device applications 
submitted to the agency. The report, both the summary and the data, 
coordinated and written by OWH and the Office of Minority Health (OMH) 
demonstrated that while demographic data was submitted significant gaps 
still existed with respect to representation, reporting and analysis of 
the data for women, minorities and the elderly. The FDA is currently 
designing an action plan, with short and long term recommendations and 
implementation strategies to help FDA transform its approach toward 
important demographic data. SWHR believes this will result in greater 
knowledge of reactions to drugs and medical treatments by sex, age, 
race and ethnicity, and further, greater understanding of devices and 
their usage or limitations in women.
    SWHR has long advocated that sex differences data discovered from 
clinical trials be presented in a meaningful way to the medical 
community and to patients through education, drug labels and packaging 
inserts, and other forms of alerts directed to key audiences. Through 
more accurate, sex-specific drug and device information and labeling 
the FDA will better serve male and female patients, and will ensure 
that appropriate sex specific data analysis of post-market surveillance 
is placed in the hands of physicians and ultimately the patient in a 
timely manner.
    SWHR believes that Congress must commit to continued investment in 
FDA's informational technology to assure continued advancement of data 
standardization, collection and analysis. In our ever evolving digital 
world, the FDA needs to keep pace with scientific discoveries and must 
have the tools to do so. Congress must dedicate resources from 
appropriated dollars and user fees to FDA's IT systems and 
infrastructure to meet this demand.
                   fda office of women's health (owh)
    OWH must have a steady and sustained investment to remain the key 
resource in advancing regulatory science in women's health and 
reporting of sex differences. OWH's programs ensure that sex and gender 
differences in the efficacy of drugs (such as metabolism rates), 
devices (sizes and functionality) and diagnostics are taken into 
consideration in reviews and approvals. OWH seeks to correct sex and 
gender disparities and monitors women's health priorities, through 
leadership and active engagement with the FDA Centers.
    American women rely on the tools OWH provides to them to help with 
their healthcare decisions. Each year, OWH consumer pamphlets are the 
most requested of any documents at the government printing facility in 
Colorado, with more than 8 million distributed to women across America, 
including target populations such as Hispanic communities, seniors and 
low-income citizens on topics such as breast cancer screening, 
diabetes, menopause hormone therapy, and medication use during 
pregnancy.
    In partnership with the National Institutes of Health Office of 
Research on Women's Health, OWH created a website for an on-line sex 
and gender course to provide additional educational tools for medical 
practice and scientific innovation. Most recently, a third course in 
the series will be going on-line. All courses offer free continuing 
education credits for physicians, pharmacists and nurses. In addition, 
OWH developed a toolkit and curriculum in a joint effort with the 
American Association of Colleges of Pharmacy. It is a Women's Health 
curriculum elective given for credit by the schools and also contains a 
tool kit so teachers can incorporate elements into other courses. 
Further, OWH is a strategic partner in the planning of the research 
roadmap for FDA, helping to align the research and structural needs for 
the agency for the next 3 years.
    Women across our great nation rely on OWH's high quality, timely 
information to make medical decisions on behalf of themselves and their 
families. OWH's highly regarded website is a vital tool for consumers 
and physicians, providing free, downloadable fact sheets on over one 
hundred different illnesses, diseases, and health related issues for 
women. OWH has created medication charts on several chronic diseases, 
listing all the medications that are prescribed and available for each 
disease. These are vital functions that our healthcare professionals 
and the public understand and utilize daily to make healthcare decision 
and must be maintained.

    [This statement was submitted by Martha Nolan, Vice President, 
Public Policy, Society for Women's Health Research (SWHR).]
                                 ______
                                 
         Prepared Statement of the Southern Poverty Law Center
    The Southern Poverty Law Center (SPLC) submits this testimony 
regarding the dangers posed to workers and consumers by the pending 
regulation proposed by the U.S. Department of Agriculture's Food Safety 
and Inspection Service entitled ``Modernization of Poultry Slaughter 
Inspection,'' 77 Fed. Reg. 4,408--4,456 (Apr. 26, 2012). If 
implemented, this regulation threatens the health and safety of 
thousands of poultry slaughter and processing workers. The rule is part 
of the agency's overhaul of its food safety inspection program, 
proposed changes that have been harshly criticized by food safety and 
workers' rights advocates alike. The USDA's proposed budget for the 
coming fiscal year reflects cuts to food safety inspection funds that 
indicate intent to implement this ill-advised rule.
    1. the usda's proposed rule puts workers and consumers at risk.
    The FSIS's proposed rule would increase the already intolerably 
fast speeds of the poultry slaughtering and processing lines throughout 
the country, from between 70 and 140 birds per minute, depending on the 
number of food safety inspectors, to a new maximum of 175 birds per 
minute. Currently there is no state or Federal line speed standard 
designed to protect the safety of workers who produce this food. The 
USDA's regulations are the only limit on line speeds for this industry. 
The Subcommittee's intervention to halt or amend this rule, and to 
restore the funding needed to avoid its implementation, would protect 
workers as well as consumers.
    Numerous studies find strong correlations between rates of 
repetitive motions and likelihood of musculoskeletal injuries such as 
carpal tunnel syndrome, which suggests that faster speeds will increase 
the risk of worker injuries. The SPLC believes that the rule must 
therefore be withdrawn in its entirety. If the proposed rule is not 
withdrawn, the USDA should at least incorporate meaningful and 
enforceable work speed safety standards to protect plant employees from 
repetitive motion injuries and other musculoskeletal disorders. The 
rule should at a minimum be stayed until adequate measures are 
incorporated into the regulations to ensure that the health and safety 
of workers in poultry processing plants are protected.
    The Southern Poverty Law Center and Alabama Appleseed Center for 
Law and Justice recently published a report entitled Unsafe at These 
Speeds: Alabama's Poultry Industry and its Disposable Workers,\1\ 
providing a unique inside look at the operation of poultry plants and 
documenting health, safety, and other conditions affecting workers in 
all positions in the poultry industry--from chicken catchers, live 
hangers, and rehangers to deboners, skin pullers, and box stackers. The 
data and information included in this report leaves no question that 
the current line speeds are too fast and any regulation that increases 
these speeds and allows the industry to regulate itself is 
unacceptable.
---------------------------------------------------------------------------
    \1\ A copy of the report is available at: http://www.splcenter.org/
get-informed/publications/Unsafe-at-These-Speeds.
---------------------------------------------------------------------------
    Alabama alone produces more than 1 billion broilers per year--
ranking it third among states behind Georgia and Arkansas. The broiler 
chicken industry has an $8.5 billion impact on the state--generating 
about 75,000 jobs and 10 percent of Alabama's economy--and one that 
plays a vital economic role in numerous small towns. But it all comes 
at a steep price for the low-paid, hourly workers who face the 
relentless pressure of the mechanized processing line.
    Nearly three-fourths of the 302 workers whom we interviewed 
revealed that they had suffered some type of significant work-related 
injury or illness, yet 68 percent felt that they could not ask their 
supervisors to improve health or safety hazards. In spite of many 
factors that lead to undercounting of injuries in poultry plants, the 
employer-reported data collected by the U.S. Occupational Safety and 
Health Administration (OSHA) reflected an injury rate of 5.9 percent 
for poultry processing workers in 2010, a rate that is more than 50 
percent higher than the 3.8 percent injury rate for all U.S. workers.
    The realities workers discussed with us demonstrate an ongoing 
health and safety crisis in the poultry processing industry, 
principally driven by the punishingly fast speeds at which slaughtering 
and processing lines currently operate. Over three-fourths (78 percent) 
of workers said that an increase in the line speed makes them feel less 
safe, makes their work more painful, and causes more injuries. These 
speeds are a predominant factor in the most common type of injuries, 
called musculoskeletal disorders. The most common injuries suffered 
involved debilitating pain in workers' hands and upper limbs, gnarled 
fingers and other permanent changes to workers' bodies, cuts, and skin 
and respiratory problems. Workers in jobs most sharply affected by 
processing line speeds and the high rates of repetitive motions 
reported the highest rates of musculoskeletal injuries. Plant workers, 
many whom are immigrants, are often treated as disposable resources by 
their employers. Threats of deportation and firing are frequently used 
to keep them silent about injuries and abuses, even if they are United 
States citizens or have lawful immigration status.
    In light of these findings, we respectfully urge members of the 
Subcommittee to use their oversight authority and ask the Department of 
Agriculture's Food Safety and Inspection Service to withdraw its 
proposed rule entitled ``Modernization of Poultry Slaughter 
Inspection,'' especially the provisions that would increase maximum 
permitted line speeds to 175 birds per minute and replace independent 
Federal food safety inspectors with plant employees already too 
intimidated to ask for protections for their own health. If the 
proposed rule is not withdrawn altogether, the Food Safety and 
Inspection Service should, at a minimum, require plants that opt into 
the new inspection system to permit the National Institute for 
Occupational Safety and Health to conduct health hazard evaluations, as 
the FSIS previously required in its Salmonella Initiative Program rule, 
published at 76 Fed. Reg. 41,186. We further urge the Subcommittee to 
restore funding to the USDA's budget to avoid implementation of the 
proposed rule and to preserve food safety inspector capacity to 
adequately inspect every chicken slaughtered for consumption as 
required under the Poultry Products Inspection Act.
    Increases in the speeds at which slaughter and evisceration lines 
run put the safety of all categories of workers in poultry plants at 
risk. First, the workers most directly affected will be workers known 
as live hangers. These workers must pick up and hang every live chicken 
arriving at a plant at a pace fast enough to keep up with slaughter 
line speeds. A live hang worker often must hang 60 birds per minute. 
Second, the proposed rule would in essence create a new job 
classification of plant workers sorting carcasses for defects. These 
workers would have to collectively review and sort 175 birds per 
minute. USDA employees currently conducting this work already suffer 
repetitive motion injuries and file workers' compensation claims as a 
result.
    This risk would be, if anything, heightened for plant employees now 
assuming these duties. Third, rehang workers, who must hang carcasses 
on shackles or place them onto cones for other workers to cut, debone, 
or otherwise process, would face increased risks of repetitive motion 
injuries. Fourth, while it is possible for processing lines that are 
located after the area known as the ``chiller'' to operate at different 
speeds from the slaughter and evisceration lines that are most directly 
affected by the USDA's proposed rule, additional birds slaughtered at 
new, higher speeds would still need to be processed within a limited 
time of slaughter, making it unlikely that there would be no changes in 
other areas of plants. As an example, an increase in a worker's rate of 
motion by even just one bird per minute equates to approximately 480 
additional cutting, trimming, hanging, or other motions in a typical 
work shift, and to approximately 2,400 additional motions in a standard 
work week, during which each worker already performs tens of thousands 
of such strenuous motions. Even what may seem superficially like a 
small increase in the burden on each individual worker may have long-
term and permanent disabling effects on her body.
  2. niosh's recent health hazard evaluations found severe health and 
safety hazards related to fast work speeds and repetitive motions, and 
   do not support implementation of a rule permitting increased line 
                                speeds.
    The SPLC particularly wishes to clarify the import of two recent 
reports issued by the National Institute for Occupational Safety and 
Health (NIOSH). The USDA has stated to the public that NIOSH's health 
hazard evaluation from a poultry processing plant in South Carolina 
suggested that line speeds may be increased without adverse effect on 
the health and safety of plant employees. However, NIOSH evaluated 
conditions in a plant that did not increase work speeds and was not 
implementing the same changes as USDA has proposed. The USDA should not 
draw conclusions about what the results would be if the rule were 
published based on a study of a plant operating under different 
conditions.
    The NIOSH report confirmed that poultry processing workers suffer 
extraordinarily high rates of painful and often permanently crippling 
injuries on the job and validates the fact that fast work speeds pose a 
serious risk to workers' health and safety. It evaluated working 
conditions at one plant in South Carolina--a plant not operating in the 
agency's HIMP pilot program. The plant was evaluated after it requested 
a waiver from the USDA to combine two evisceration lines into one.
    USDA should not use an evaluation showing consistently dangerous 
conditions related to work speed in a plant where work speeds remained 
steady to justify letting companies increase such speeds elsewhere. Key 
differences in the operations of the plant evaluated for this report 
and plants that will implement the rule when it is finalized make 
comparisons impossible. It is inaccurate for the USDA to conclude that 
NIOSH's study shows no effect from a line speed increase. The key 
differences include:
  --NIOSH did not test the effects of an increase in work speed at the 
        South Carolina plant.
  --The number of birds processed per minute by each worker did not 
        change.
  --The South Carolina plant did not make the same types of line-
        related changes that plants will likely make under the USDA's 
        proposed rule.
  --Following the initial NIOSH evaluation, the plant reconfigured its 
        evisceration lines from two lines to one, but did not increase 
        work speeds.
    What the NIOSH poultry plant evaluation does clearly show are 
extraordinarily high levels of crippling injuries at current work 
speeds. For example:
  --42 percent of workers in the evaluation had evidence of painful and 
        often permanently disabling carpal tunnel syndrome.
  --Moderate or severe mononeuropathy, a type of nerve damage, was 
        found in 80 percent of workers with carpal tunnel syndrome.
  --Reports of hand or wrist symptoms of musculoskeletal disorders from 
        workers on the evisceration line increased from 53 percent of 
        the workers to 62 percent after the evisceration line 
        reconfiguration.
    The employer also failed to implement NIOSH's recommendations for 
better protecting worker safety and health, including reducing 
repetition and hand and wrist activity in job tasks to reduce carpal 
tunnel syndrome. In its final report, NIOSH again recommends that the 
employer design job tasks so that they are below the recommended 
threshold limits to minimize the risk for developing carpal tunnel 
syndrome. NIOSH specifically recommends ``reducing the speed of all 
cone lines to reduce repetition.''
    The findings of the recent NIOSH report do not justify the USDA 
moving forward with its proposed rule to increase evisceration line 
speeds and the removal of food safety inspectors from those lines.
                             3. conclusion
    A central aspect of any effort to ``modernize'' the poultry 
industry must be an end to the epidemic of repetitive motion injuries. 
This could be accomplished by limiting line speeds and the number of 
repetitions required of workers; by enforcing rights to bathroom and 
other rest breaks; and by requiring other ergonomically sound 
practices. These minimal worker safety protections must not be 
sacrificed. The health and safety of these workers should be of utmost 
concern to this Subcommittee and the agencies it oversees. This is why 
the SPLC, along with Nebraska Appleseed and a total of fifteen civil 
rights and workers' rights organizations, filed a formal rulemaking 
petition with OSHA and the USDA on September 3, 2013 calling for these 
agencies to promulgate a clear, enforceable, and slower work speed 
safety standard in meat and poultry processing plants.2 We have yet to 
receive a formal response from either agency.
    We thank you for this opportunity to discuss our findings, the 
problems they pose, and possible solutions.
    [This statement was submitted by Tom Fritzsche, Staff Attorney, 
Southern Poverty Law Center, Immigrant Justice Project.]
                                 ______
                                 
               Prepared Statement of the Wildlife Society
    The Wildlife Society appreciates the opportunity to submit 
testimony concerning the fiscal year 2015 budgets for the Animal and 
Plant Health Inspection Service, National Institute of Food and 
Agriculture, Natural Resources Conservation Service, and Farm Service 
Agency. The Wildlife Society was founded in 1937 and is a non-profit 
scientific and educational association representing nearly 10,000 
professional wildlife biologists and managers dedicated to excellence 
in wildlife stewardship through science and education. Our mission is 
to represent and serve the professional community of scientists, 
managers, educators, technicians, planners, and others who work 
actively to study, manage, and conserve wildlife and habitats 
worldwide. The Wildlife Society is committed to strengthening all 
Federal programs that benefit wildlife and their habitats on 
agricultural and other private land.
               animal and plant health inspection service
    Wildlife Services, a unit of APHIS, is responsible for controlling 
wildlife damage to agriculture, aquaculture, forest, range, and other 
natural resources, monitoring wildlife-borne diseases, and managing 
wildlife at airports. Its activities are based on the principles of 
wildlife management and integrated damage management, and are carried 
out cooperatively with state fish and wildlife agencies. In fiscal year 
2015, the budget proposal includes funding to continue a national feral 
swine control program, working cooperatively with the States currently 
experiencing issues with feral swine. In recognition of the important 
work that Wildlife Services performs regarding methods development and 
wildlife damage management, we request that Congress support the 
President's request of $106 million to Wildlife Services in fiscal year 
2015.
    A key budget line in Wildlife Service's operations is Methods 
Development, which funds the National Wildlife Research Center (NWRC). 
Much of the newest research critical to state wildlife agencies is 
being performed at NWRC. In order for state wildlife management 
programs to be the most up-to-date, the work of the NWRC must continue. 
We recommend funding Methods Development at $19 million in fiscal year 
2015.
               national institute of food and agriculture
    The Renewable Resources Extension Act (RREA) provides an expanded, 
comprehensive extension program for forest and rangeland renewable 
resources. RREA funds, which are apportioned to State Extension 
Services, effectively leverage cooperative partnerships at an average 
of four to one, with a focus on private landowners. The need for RREA 
educational programs is greater than ever because of continuing 
fragmentation of land ownership, urbanization, diversity of landowners 
needing assistance, and increasing societal concerns about land use and 
increasing human impacts on natural resources. The Wildlife Society 
recommends that the Renewable Resources Extension Act be funded at $10 
million.
    The McIntire-Stennis Cooperative Forestry Program is essential to 
the future of resource management on non-industrial private forestlands 
while conserving natural resources, including fish and wildlife. As the 
demand for forest products grows, privately held forests will be 
increasingly needed to supplement resources obtained from national 
forest lands. However, commercial trees take many decades to produce. 
In the absence of long-term research, such as that provided through 
McIntire-Stennis, the nation might not be able to meet future forest-
product needs as resources are harvested. We appreciate the $34 million 
in fiscal year 2014 and urge that amount to be continued in fiscal year 
2015, per the President's request.
                 natural resources conservation service
    Farm Bill conservation programs are more important than ever, given 
the huge backlog of qualified applicants, increased pressure on 
farmland from biofuels development, urban sprawl, and the concurrent 
declines in wildlife habitat and water quality. The Natural Resources 
Conservation Service (NRCS), which administers many Farm Bill 
conservation programs, is one of the primary Federal agencies ensuring 
our public and private lands are made resilient to climate change. NRCS 
does this through a variety of programs that are aimed at conserving 
land, protecting water resources, and mitigating effects of climate 
change.
    One key program within the overall NRCS discretionary budget is 
Conservation Operations. The fiscal year 2015 request for Conservation 
Operations is $815 million. We urge you to provide $843.4 million for 
Conservation Operations, which includes Conservation Technical 
Assistance (CTA). Due to the General Services Administration's recent 
decentralization of responsibility for making building rental payments, 
the Natural Resource Conservation Service (NRCS) will for the first 
time have to make rental payments out of the Conservation Operations 
budget. NRCS expects to pay $28.6 million in rent in fiscal year 2015. 
When this change is taken into account, the Administration's request of 
$814.8 million for Conservation Operations would actually reduce the 
amount of funding available for conservation operations by $26.6 
million relative to fiscal year 2014.
    Conservation Operation's Technical Assistance (TA) sub-activity 
provides funding for NRCS to support implementation of the various Farm 
Bill programs. The fiscal year 2015 budget proposal recommends $717 
million in funding for TA, a slight increase from fiscal year 2014. The 
Wildlife Society encourages you to support funding for TA at $717 
million.
    Overall, The Wildlife Society believes strong support for TA 
delivery is needed. Implementing the changes in the 2014 Farm Bill will 
require significant conservation planning and producer education 
effort. In the 2014 Farm Bill, Congress showed strong support for the 
use of mandatory funds for TA, though these funds can only be used in 
association with a specific farm bill program. Appropriated funds for 
Conservation Technical Assistance are still essential for NRCS to 
provide good customer service and strong conservation results.
    The Wildlife Society also supports the continuation of funding for 
the Conservation Effects Assessment Project. Information gathered from 
this effort will greatly assist in monitoring accomplishments and 
identifying ways to further enhance effectiveness of NRCS programs.
    After several years of negotiations, Congress recently passed the 
Agriculture Act of 2014 with broad bipartisan support. This recently 
passed Farm Bill renewed a suite of extremely popular and effective 
conservation programs, but reduced mandatory funding by $4 billion. It 
is critical that Congress ensure that all of direct spending on 
conservation programs, as provided by the authorizing committees in the 
Farm Bill, can be spent as Congress intended in fiscal year 2015. The 
Wildlife Society recommends Farm Bill conservation programs be funded 
at levels mandated in the 2014 Farm Bill. Demand for these programs 
continues to grow during this difficult economic climate at a time when 
greater assistance is needed to address natural resource challenges, 
including climate change, soil quality deficiencies, declining 
pollinator health, disease and invasive species, water quality and 
quantity issues, and degraded, fragmented and lost habitat for fish and 
wildlife.
    We do have some concerns about the absorption of the Wildlife 
Habitat Incentive Program (WHIP), a voluntary program for landowners 
who want to improve wildlife habitat on their land, into the 
Environmental Quality Habitat Incentives Program, as mandated by the 
2014 Farm Bill. EQIP was funded at $1.374 billion in fiscal year 13 and 
the President's fiscal year 2015 request is $1.35 billion. While at 
least 5 percent of EQIP funds must go towards wildlife conservation, we 
remain concerned that this $88 million decrease in overall funding 
coupled with the additional program responsibilities due to the 
absorption of WHIP could translate into lesser emphasis on critical 
wildlife conservation efforts.
                          farm service agency
    The Administration's request would slightly reduce funding for the 
Conservation Reserve Program (CRP) to $1.957 billion in fiscal year 
2015. Lands enrolled in CRP are important for the conservation of soil 
on some of the Nation`s most erodible cropland. These lands also 
contribute to water quantity and quality, provide habitat for wildlife 
that reside on agricultural landscapes, sequester carbon, and provide a 
strategic forage reserve that can be tapped as a periodic compatible 
use in times when other livestock forage is limited due to drought or 
other natural disasters. We strongly encourage Congress to fund CRP at 
a level that fully utilizes program enrollment authority through CRP 
general sign-up.
    Thank you for considering the views of wildlife professionals. We 
look forward to working with you and your staff to ensure adequate 
funding for wildlife conservation.
                                 ______
                                 
            Prepared Statement of the World Food Program USA
    The World Food Program USA, on behalf of the world's hungriest 
people, urges the subcommittee to provide the strongest possible 
funding to US international food aid programs. Specifically, we request 
the following fiscal year 15 funding levels for three programs within 
the jurisdiction of the subcommittee:
  --Title II Food for Peace--$1.84 billion
  --McGovern Dole Food for Education--$209.5 million
  --Local and Regional Food Purchase program (LRP) newly authorized in 
        the 2014 Farm Bill--$80 million (full authorized level)
    There are 842 million hungry people in the world. Global hunger 
threatens US international economic and national security interests. 
Robust funding for the three United States international food aid 
programs described in this testimony is vital to preserving US 
leadership and encouraging other countries to contribute their fair 
share in the fight against global hunger. The Senate Appropriations 
Committee has been a leader over the years in ensuring adequate funding 
for U.S. food aid programs. We encourage you to continue that proud 
tradition of leadership for fiscal year 2015.
                             food for peace
    Food for Peace provides emergency food and development assistance 
to millions suffering from hunger and malnutrition. For the past 50 
years, Food for Peace (FFP) has been the primary vehicle for providing 
food aid in response to natural disasters, crises, and conflicts around 
the world. Maintaining robust funding for Food for Peace Title II and 
finding ways to stretch that funding further is imperative.
    While the United States remains the largest donor of global food 
assistance, the reach of U.S. food assistance has dramatically declined 
due to a sharp net drop of over a half billion dollars in Food for 
Peace programs since 2009. With the ongoing Syria crisis and emergency 
food requirements in Africa and parts of Asia, global need will likely 
increase in 2014 and 2015. Supporting FFP at $1.84 billion would allow 
the U.S. to reach approximately 50 million people with lifesaving food 
aid and maintain its global leadership.
    FFP programs are the foundation of global efforts to confront 
hunger and malnutrition. FFP includes emergency programs that keep 
people alive through natural disasters, conflict, and food security 
crises and nonemergency developmental programs that address underlying 
sources of chronic hunger through multiyear investments in nutrition, 
agricultural productivity and diversification of household incomes.
    The United Nations World Food Programme (WFP) is the largest US 
food aid partner, implementing programs that account for roughly 90 
percent of Food for Peace emergency food aid funding. WFP estimates 
$6.2 billion will be required to fund its 2015 emergency food 
assistance programs. Over $ 2 billion--about 1/3 of total WFP emergency 
needs--will be required just for the humanitarian crisis in Syria and 
Syrian refugees in neighboring countries. Needs will continue to 
persist across Sub-Saharan Africa, including Ethiopia, Sudan, Niger, 
Somalia, Kenya, Zimbabwe, Democratic Republic of Congo, and Chad, as 
well as in parts of Southwest Asia of interest to the US such as Yemen, 
Pakistan and Afghanistan.
    Food for Peace provides the bulk of funding for the US to 
contribute its historical average of about 30 percent of WFP emergency, 
relief, and recovery programs. Other countries provide over 60 percent 
of the annual contributions to WFP, which means that US food aid 
channeled through WFP helps leverage significantly additional 
international assistance.
  mcgovern dole international food for education and child nutrition 
                                program
    The McGovern-Dole International Food for Education and Child 
Nutrition Program provides U.S. agricultural products and technical 
assistance for school feeding projects in low income, food-deficit 
countries that are committed to universal education. The McGovern-Dole 
program provides school-age children in poverty-stricken countries with 
what is often their only full meal of the day and protects vulnerable 
children, especially during times of natural disasters and economic 
shocks.
    Serving food at school helps solve chronic hunger and can be life-
changing for the world's poorest children. School meals also help get 
students into the classroom, giving them an important key to a better 
future: an education. In areas where enrollment rates for girls are 
low, McGovern-Dole supported programs work with families and 
communities to make it possible for more girls to attend school. This 
sometimes includes giving girls take-home rations that encourage 
families to send daughters to school and also benefit younger children 
at home.
    Girls' education has a powerful ripple effect on families and 
communities. One study has shown that the more education girls have, 
the less likely their children will be malnourished. School meals can 
help break the cycle of hunger and poverty for the world's most 
vulnerable children.
    The UN World Food Programme calculates that $3.2 billion is needed 
per year to reach all 66 million primary school-age children that go to 
school hungry every day. While an investment of $209.5 million for 
school feeding represents a small fraction of overall global investment 
in school feeding programs by donor and host country governments, U.S. 
resources remain critical for low-income countries to continue school 
feeding programs. We urge the committee to fund the McGovern-Dole 
program at a level of $209.5 million in fiscal year 15.
              local and regional food procurement program
    We recommend fully funding the Local and Regional Procurement (LRP) 
Program which was newly authorized at $80 million in the Agricultural 
Act of 2014. Senate leadership in the 2014 Farm Bill conference was 
essential to authorizing this new program. We hope Senate appropriators 
will be equally visionary in funding the LRP program implementation.
    Rigorous analysis of the USDA Local and Regional Procurement (LRP) 
Pilot Project has shown that, compared with traditional U.S. food aid 
shipments, LRP practices typically enable both emergency and non-
emergency assistance to be delivered more quickly, at considerable 
savings, with the ultimate benefit of reaching larger numbers of 
vulnerable people. LRP also generates important developmental impacts 
by spurring local economic activity and helping form and strengthen 
local markets.
    The 2014 farm bill conference report's statement of managers 
affirms that the intent of LRP programming is to complement existing 
food aid programs, especially the McGovern-Dole Food for Education 
program. Linking the new USDA LRP program to the McGovern-Dole program 
improves the chances of long-term sustainability of school-feeding 
programs supported by McGovern-Dole. A fundamental objective of U.S. 
support to international school feeding is for countries to eventually 
take over, manage, and fund their own school-feeding programs. This 
means developing locally sustainable systems for the purchase and 
management of food used in school-feeding programs to move away over 
time from reliance on U.S.-donated commodities. U.S. support for LRP 
can help countries make that transition to national ownership. Funding 
the newly authorized LRP program would provide McGovern-Dole supported 
programs with an LRP option that currently does not exist.
    In order to encourage the link between the new LRP program and 
McGovern-Dole, WFP USA recommends the committee include the following 
language in its fiscal year 15 Appropriations bill report.
                       suggested report language:
    ``Funds appropriated for Local and Regional Procurement are 
expected to be used for programs and activities that complement the 
existing McGovern-Dole Food for Education program.''

    [This statement was submitted by Richard Leach, President, World 
Food Program USA]
                                 ______
                                 
        Prepared Statement of the U.S. National Arboretum (USNA)
increased financial support is necessary at the u.s. national arboretum
    The US National Arboretum (USNA), located in northeast Washington, 
DC, is part of the Agricultural Research Service, Beltsville Unit. The 
USNA conducts wide-ranging basic and developmental research on trees, 
shrubs, turf, and floral plants. It is also engaged in the development 
of new technologies for the floral and nursery industries. The Friends 
of the National Arboretum request funding sufficient to recover support 
lost to sequestration and other reductions over the past few years.
    Gardens are a signature feature of the USNA. Single-genus groupings 
include: azalea, boxwood, daffodil, daylily, dogwood, holly, magnolia, 
and maple. Major garden features include: aquatic plants, the Asian 
Collections, the Fern Valley Native Plant Collections, the Flowering 
Tree Collection, the Flowering Tree Walk, the Friendship Garden, the 
Gotelli Dwarf and Slow-Growing Conifer Collection, the Introduction 
Garden, the National Bonsai & Penjing Museum, the National Capitol 
Columns, the National Grove of State Trees, and the National Herb 
Garden.
    The budget for the Arboretum has steadily eroded over the past 
decade. The budget for the USNA prior to sequestration was $12.1 
million, nearly a million dollars below its highest level of funding. 
As a consequence of additional reductions, the current level of funding 
is about $11.1 million, requiring the facility to be closed to visitors 
during the week and making it impossible to sustain its full research, 
education, and visitor responsibilities. The Friends of the National 
Arboretum are requesting an increase in resources for USNA to enable it 
to restore its level of research and education, and become a premier 
visitor destination in the Nation's Capital.
         the arboretum contributes to the agricultural economy
    The USNA is an important facility for the USDA's fundamental 
missions of research and education on horticultural and nursery issues, 
and serves as an important tourism and visitor destination in the 
Nation's Capital. Nurseries and horticulture are major components of 
the national agricultural economy. According to the American Nursery 
and Landscape Association, the horticulture industry's production, 
wholesale, retail, and landscape service components have annual sales 
of $163 million, and sustain over 1,150,000 full and part-time jobs.
    To serve this industry, the USNA conducts a wide-ranging program of 
basic and developmental research on trees, shrubs, turf, and floral 
plants. The Arboretum is also engaged in the development of new 
technologies for the floral and nursery industries. The staff also 
participates in the development of plants with superior characteristics 
through a program of testing and genetic improvement. They are actively 
involved in the taxonomy and nomenclature of ornamental plants and 
their wild relatives. Finally, USNA staff are leaders in the collection 
and preservation of plant germplasm with ornamental potential.
    As a consequence of their work, the USNA has contributed 678 
official plant releases, eight patents and two EPA biopesticide 
registrations. In addition, USNA staff have published over 150 
scientific articles in professional and trade journals in the last 3 
years.
    An important aspect of the Arboretum's leadership role in 
horticultural research is its cooperative research relationships with 
land grant schools and associations across the country. Cooperative 
relationships exist with Alfred State University, Auburn University, 
Brooklyn Botanic Garden, Cornell University, Danforth Plant Science 
Center, Iowa State University, Michigan State University, National 
Turfgrass Federation, North Carolina State University, Oklahoma State 
University, Oregon State University, Rutgers University, Tennessee 
State University, University of Arizona, University of California, 
University of Connecticut, University of Florida, University of 
Georgia, University of Maryland, University of Minnesota, University of 
Missouri, University of Tennessee, University of Utah, University of 
Wisconsin, USDA Forest Service, US Golf Association, and Washington 
State University.
      the national arboretum has important education and visitor 
                            responsibilities
    USNA has an important role in public education about horticulture 
through symposia, lectures, workshops, and demonstrations plus plant, 
flower, and art exhibitions; In addition, the Arboretum has been a 
pioneer in urban gardening through the Washington Youth Garden (WYG), a 
program of FONA that has, for the past 40 years has inspired children 
and families to engage in self-discovery, explore relationships with 
food and the natural world, and contribute to the health and well-being 
of their communities.
    The USNA is part of the largest contiguous parcel of greenspace in 
Washington, DC, free to all and interesting through all of the seasons 
of the year. It offers a place for quiet contemplation and to explore 
nature in the backyard of the Nation's Capital. The Arboretum is also a 
significant visitor and tourist destination in Washington, with 
visitors making special trips to enjoy the National Bonzai Museum, the 
National Herb Garden, the Capitol Columns, the azalea and boxwood 
collections, and the Asia Collections. The USDA is currently working 
with the State Department and the Peoples Republic to build a 
traditional China Garden on the grounds of the Arboretum.
     fona urges the committee to provide more resources to the usna
    Budget cuts have reduced the ability of the Arboretum staff to 
provide adequate maintenance and upkeep on the grounds, has restricted 
valuable research programs, has restricted the educational role of the 
USNA, and has limited the days that the USNA is open to tourists and 
visitors.
    The Arboretum and FONA have completed a new strategic plan for the 
USNA that lays out a roadmap for achieving significant goals for 
research, education, and visitation. Progress on moving forward on this 
plan has stalled due to the budget cuts at the USNA.
    The Friends of the National Arboretum is a 501(c)(3) organization 
dedicated to working with the USDA and the USNA to achieve the goals 
embodied in the strategic plan through programs of ``friend raising'', 
fund raising, and advocacy.
    We respectfully request that Congress provide resources sufficient 
to enable the USDA and the USNA to advance the goals of the strategic 
plan, and to open the doors of the Arboretum to visitors for additional 
days each week.
    [This statement was submitted by Ms. Barbara Shea, Chair, Friends 
of the National Arboretum.]
<DOC>
<HEAD>


 
       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                                                                   Page

Academy of Nutrition and Dietetics, Prepared Statement of the 



Agriculture and Food Research Initiative (AFRI) Coalition, 
  Prepared 
  Statement of the...............................................   120
Alliance for a Stronger FDA, Prepared Statement of the...........   120
American:
    Commodity Distribution Association, Prepared Statement of the   122
    Farm Bureau Federation, Prepared Statement of the............   124
    Honey Producers Association and American Beekeeping 
      Federation, 
      Prepared Statement of the..................................   126
    Society:
        For:
            Microbiology, Prepared Statement of the 



            Nutrition, Prepared Statement of the.................   134
        Of:
            Agronomy, Prepared Statement of the..................   128
            Plant Biologists (ASPB), Prepared Statement of the...   136
Animal Welfare Institute, Prepared Statement of the..............   138
Association of Fish and Wildlife Agencies, Prepared Statement of 
  the............................................................   153

Blunt, Senator Roy, U.S. Senator from Missouri:
    Questions Submitted by.......................................    56
    Statements of 




Campaign for Contract Agriculture Reform (CCAR), Prepared 
  Statement of the...............................................   141
Catholic Relief Services, Prepared Statement of the..............   142
Center for Science in the Public Interest, Prepared Statement of 
  the............................................................   145
Central Arizona Water Conservation District (CAWCD), Prepared 
  Statement of the...............................................   146
Choose Clean Water, Letter From the..............................   148
Cochran, Senator Thad, U.S. Senator from Mississippi, Questions 
  Submitted by...................................................    64
Colorado River Basin Salinity Control Forum, Prepared Statement 
  of the.........................................................   149
Cystic Fibrosis Foundation, Prepared Statement of the............   151

Federation of American Societies for Experimental Biology, 
  Prepared 
  Statement of the...............................................   152
Feinstein, Senator Dianne, U.S. Senator from California, 
  Questions 
  Submitted by...................................................    49
Fong, Hon. Phyllis K., Office of Inspector General, Department of 

  Agriculture....................................................    79
Friends of Agricultural Research, Prepared Statement of the......   154

Glauber, Dr. Joseph, Chief Economist.............................     1

Hamburg, Hon. Dr. Margaret, Commissioner, Food and Drug 
  Administration, Department of Health and Human Services........    85
    Prepared Statement of........................................    90
    Summary Statement of.........................................    88
Hoeven, Senator John, U.S. Senator from North Dakota, Questions 
  Submitted by...................................................    75

International Walking Horse Association (IWHA), Prepared 
  Statement of the...............................................   156

Meds & Food for Kids (MFK), Prepared Statement of the............   158
Moran, Senator Jerry, U.S. Senator from Kansas, Questions 
  Submitted 
  by.............................................................    70
Murray, Senator Patty, U.S. Senator from Washington, Questions 
  Submitted by...................................................    76

National:
    Affordable Housing Management Association (NAHMA), Prepared 
      Statement of the...........................................   159
    Animal Health Laboratory Network, Prepared Statement of the..   160
    Farmers Union, Prepared Statement of the.....................   161
    Sustainable Agriculture Coalition, Prepared Statement of the.   163
    Multiple Sclerosis Society, Prepared Statement of the........   165
    Wildlife Federation, Prepared Statement of the...............   166

Oregon Water Resources Congress (OWRC), Prepared Statement of the   167
Organic Trade Association (OTA), Prepared Statement of the.......   170
Outreach and Assistance to Socially Disadvantaged and Veteran 
  Farmers and Ranchers, Prepared Statement of the................   172

Pickle Packers International, Inc., Prepared Statement of the....   175
Pryor, Senator Mark L., U.S. Senator from Arkansas:
    Opening Statements of 



    Questions Submitted by.......................................    30

Rural Cooperative Development Grant (RCDG), Prepared Statement of 
  the............................................................   180

Society for Women's Health Research (SWHR), Prepared Statement of 
  the............................................................   181
Southern Poverty Law Center, Prepared Statement of the...........   183

U.S. National Arbboretum (USNA), Prepared Statement of the.......   189

Vilsack, Hon. Thomas J., Office of the Secretary, Department of 
  Agriculture:
    Prepared Statement of........................................     5
    Summary Statement of.........................................     3

Wildlife Society, Prepared Statement of the......................   185
World Food Program USA, Prepared Statement of the................   187

Young, Michael, Director, Office of Budget and Programs Analysis.     1
<DOC>
<HEAD>


 
                             SUBJECT INDEX

                              ----------                              

                       DEPARTMENT OF AGRICULTURE

                                                                   Page

2014 Farm Bill...................................................     9
Additional Committee Questions...................................    29
Active Personal Management.......................................    21
Animal and Plant Health Inspection Service.......................    34
Agriculture:
    Buildings and Facilities.....................................    30
    Research.....................................................    18
    Research Service.............................................    30
    Research Service Vacancies...................................    26
Antibiotic Use...................................................    52
Biotechnology....................................................    48
Biotech Regulation...............................................    58
Brazilian Beef Rule..............................................    70
Catfish..........................................................    68
Catfish Inspection...............................................    37
Citrus Greening..................................................    36
Commodities/Crop Insurance.......................................    64
Conservation.....................................................    67
Country Offices..................................................    75
Country Of Origin Labeling 



    Program 



Data:
    Security.....................................................    12
    Security in Agriculture......................................    61
Dietary Guidelines...............................................    70
Disaster Assistance Payments.....................................    12
Department Initiatives...........................................    45
Direct Single Family Housing Loan Program........................    42
Domestic Flower Growers..........................................    54
Downed Non-Ambulatory Veal Rule..................................    53
Drought..........................................................    49
Energy...........................................................    68
Farm:
    Bill Implementation..........................................    56
    Service Agency Modernization.................................    15
Farm-Vets Program................................................    33
Federal Inspector's Training.....................................    54
Food and Nutrition Service.......................................    39
Food Safety 



    And Inspection Service.......................................    37
    Inspection...................................................    62
Forest Service Issues............................................    63
Foundation for Food and Agricultural Research....................    31
FSA:
    Office Closures..............................................    10
    Office Modernization.........................................    24
GIPSA Rule.......................................................    27
Horse Welfare....................................................    55
Innovation Institutes............................................    19
Inspector Shortage...............................................    37
International Agriculture Development............................    60
Inter of Benefits--Goal 2........................................    80
IT Investments...................................................    71
Lesser Prairie Chicken...........................................    14
Limited-Irrigation Crop Insurance Product Program................    22
Livestock Disaster Programs 



Made in Rural America Initiative.................................    47
Midas............................................................    38
Management Improvement Initiatives--Goal 3.......................    82
    Implementation...............................................    57
    Program......................................................    18
Milk Income Loss Contract Program................................    11
Modernize and Innovate the Delivery of Agricultural Systems......    12
National:
    Animal Health Laboratory Network.............................    32
    Institute of Food and Agriculture............................    31
Safety and Security--Goal 1......................................    79
    Science Foundation...........................................    32
NIFA Grants......................................................    33
Office Closings and Agency Reductions............................    38
OIG Budget and Cost-Savings Initiatives..........................
PED Virus........................................................    58
Poultry Slaughter Modernization..................................    19
Program Reductions...............................................    35
Promise Zone Initiative..........................................    46
Public Cultivars.................................................    24
Public Law 480, Title II.........................................    40
Regulatory:
    Process......................................................    28
    Systems......................................................    28
Rental:
    Assistance...................................................    41
    Assistance Program...........................................    20
Rural:
    Corps........................................................    44
    Development 



    Electric User Fee............................................    63
Specialty Crop Pest Program......................................    54
Success #1: USDA Financial Management Systems....................    73
Sun Grant Initiative.............................................    22
Water and Waste Disposal Loan and Grant Program..................    43
Wetland Mitigation...............................................    76
WIC Food:
    Costs........................................................    27
    Package 




WIC Funding Increase.............................................    20
Universal Service Fund Reform....................................    23
USDA Support for Farmers.........................................    13
                               __________

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

                      Food and Drug Administration

Administrative Procedures Rule...................................    97
Animal Feed Rule.................................................    97
Artificial Pancreas..............................................   107
Budget 



Compounding Pharmacies 



Deeming Rule 



Drug:
    Approval Duchenne Muscular Dystrophy.........................   111
    Shortages....................................................   110
E-Cigarettes.....................................................    94
Electronic Drug Labeling.........................................   114
Feed Rule........................................................   109
Food Safety......................................................    93
    Modernization Act 




Menu Labeling....................................................   111
Mitochonolnal Diseases...........................................   112
Nanotechnology...................................................   114
National Center for Toxicological Research.......................    86
Office of Foods and Veterinary Medicine--Spent Grains............   106
Preventive Control Rule..........................................    96
Produce Safety...................................................   100
Tester Amendment.................................................   101
User Fees........................................................   104
Seizure Medication--Cannabidiol..................................   108
Sequestered Fees.................................................   106
White Oak........................................................   103


                                   [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
